No. 19-123

In the Supreme Court of the United States
__________

SHARONELL FULTON, ET AL., Petitioners,
v.
CITY OF PHILADELPHIA, ET AL., Respondents.
__________
ON WRIT OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT

__________
JOINT APPENDIX VOL. II

__________

NEAL KUMAR KATYAL
Counsel of Record
HOGAN LOVELLS US LLP
555 Thirteenth St., N.W.
Washington, D.C. 20036
(202) 637-5528
neal.katyal@hoganlovells.com
Counsel for Respondents
LESLIE COOPER
Counsel of Record
ACLU
125 Broad St.
New York, NY 10004
lcooper@aclu.org
Counsel for IntervenorRespondents

MARK L. RIENZI
Counsel of Record
THE BECKET FUND FOR
RELIGIOUS LIBERTY
1200 New Hampshire
Ave., N.W., Suite 700
Washington, D.C. 20036
(202) 955-0095
mrienzi@becketlaw.org
Counsel for Petitioners

May 2020

Petition for Writ of Certiorari Filed July 22, 2019
Petition for Writ of Certiorari Granted February 24, 2020

TABLE OF CONTENTS
Page
Relevant Docket Entries, Sharonell Fulton,
et al. v. City of Philadelphia, et al.,
No. 18-2574 (3d Cir.) ....................................... JA 1
Relevant Docket Entries, Sharonell Fulton,
et al. v. City of Philadelphia, et al.,
No. 2:18-cv-02075 (E.D. Pa.) .......................... JA 6
Preliminary Injunction Hearing Transcript,
Day 1, Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 18, 2018) ............................... JA 14
Preliminary Injunction Hearing Transcript,
Day 2, Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 19, 2018) ............................ JA 134
Preliminary Injunction Hearing Transcript,
Day 3, Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 21, 2018) ............................. JA 277
Declaration of Doe Foster Mother #1,
Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 6, 2018) ............................... JA 497
Excerpts from Plaintiffs’ Exhibit 15
(Foster Care Contract) (Sept. 20, 2017) ..... JA 504
Declaration of Cynthia F. Figueroa,
Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 12, 2018) ............................. JA 683

JA ii
Declaration of Kimberly Ali,
Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075
(E.D. Pa. June 12, 2018) ............................. JA 692
Defense Exhibit 2 (Email from
Janiszewski to Windham), Sharonell
Fulton, et al. v. City of Philadelphia, et
al.(June 5, 2018) .......................................... JA 704
Excerpts from Defense Exhibit 3-B
(Fiscal Year 2019 Award Letter),
Sharonell Fulton, et al. v. City of
Philadelphia, et al., (June 11, 2018)........... JA 707
Defense Letter, Sharonell Fulton, et al. v.
City of Philadelphia, et al., (June 21,
2018) ............................................................ JA 711
Plaintiffs’ Letter, Sharonell Fulton, et al. v.
City of Philadelphia, et al., (June 25,
2018) ............................................................ JA 715
The following opinions, decisions, judgments,
orders and other materials have been omitted in
printing this joint appendix because they appear on
the following pages in the appendix to the Petition for
Certiorari:
Precedential Opinion, Sharonell Fulton,
et al. v. City of Philadelphia, et al. No.
18-2574 (3d Cir. Apr. 22, 2019) ..................... 1a
Memorandum, Sharonell Fulton, et al. v.
City of Philadelphia, et al., No. 182075 (E.D. Pa. July 13, 2018) ...................... 52a

JA iii
Order, Sharonell Fulton, et al. v. City of
Philadelphia, et al., No. 18-2075 (E.D.
Pa. July 13, 2018) ...................................... 133a
U.S. Constitution Amendment I ..................... 135a
Declaration of James Amato, Sharonell
Fulton, et al. v. City of Philadelphia, et
al., No. 18-2075 (E.D. Pa. June 4,
2018) ........................................................... 136a
City of Philadelphia, Council of the City
of Philadelphia, Resolution No. 180252 .... 146a
Letter from Thomas Earle and Rue
Landau, City of Philadelphia,
Commission on Human Relations to
Reverend John J. McIntyre, Board
President of Catholic Social Services
(Mar. 16, 2018) ........................................... 149a
Letter from Mark Rienzi, President, The
Becket Fund for Religious Liberty, to
Mr. Thomas Earle and Ms. Rue
Landau, Philadelphia Commission on
Human Relations (Apr. 18, 2018).............. 153a
Letter from Valerie Robinson, Chair,
Corporate and Tax Group, Law
Department, City of Philadelphia, to
Mark Rienzi, President, The Becket
Fund for Religious Liberty (May 7,
2018) ........................................................... 165a
David O’Reilly, Chaput edict draws mixed
reviews; Kenney calls it ‘not Christian,’
Philadelphia Inquirer (July 6, 2016) ......... 173a

JA iv
Patrick Kerksta, Jim Kenney’s Long War
with the Archdiocese, Philadelphia
Magazine (July 9, 2016)............................. 177a
Pennsylvania Mentor, Mother/Baby Host
Home, (June 4, 2018) ................................. 183a
Julia Terruso, Two foster agencies in
Philly won’t place kids with LGBTQ
people, Philadelphia Inquirer (Mar. 13,
2018) ........................................................... 185a
Letter from Thomas Earle and Rue
Landau, City of Philadelphia,
Commission on Human Relations to
Mark Rienzi, President, The Becket
Fund for Religious Liberty (May 7,
2018) ........................................................... 191a
Services, Become a foster parent, City of
Philadelphia (June 14, 2018)..................... 194a

JA 277
Transcript of Hearing on
Temporary Restraining Order
[Page 1]
United States District Court
Eastern District of Pennsylvania
Sharonell Fulton, et al.
vs.
City of Philadelphia,
et al.

Civil Docket for Case
No. 18-2075

Philadelphia, PA
June 21, 2018
Before Honorable Judge Petrese B. Tucker
TEMPORARY RESTRAINING ORDER
Day 3
Appearances:
For the Plaintiff:
Becket Fund for Religious Liberty
By: Mark L. Rienzi, Esq.
1200 New Hampshire Ave, N.W.
Suite 700
Washington, DC 20036
For the Defendants:
City of Philadelphia Law Department
By: Eleanor N. Ewing, Esq.
Benjamin H. Field, Esq.
Schaundra Oliver, Esq.
Diana P. Cortes, Esq.

JA 278
1515 Arch Street, 16th Floor
Philadelphia, PA 19102
Also Present:
Leslie Cooper, Esq. - ACLU
Mary Catherine Roper - ACLU
Lynn McCloskey, RPR
Official Court Reporter
1234 US Courthouse
601 Market Street
Philadelphia, PA 19106
(856) 646-4774
[Page 2]
The Court: Good morning.
All Counsel: Good morning, Your Honor.
The Court: You may be seated. Will the witness take
the witness stand. You can state your name.
The Witness: Cynthia Figueroa.
Continued Direct Examination
By Mr. Field:
Q. Good morning, Commissioner Figueroa.
A. Good morning.
Q. Thank you for being back with us today. If you give
me a moment, I am just going to prepare my notes and
start your questioning again. So Commissioner,
starting today, I just want to return to the topic we
were talking about when we closed on Wednesday and
make sure it is clear what we are talking about as we
go forward. Towards the end of your testimony you

JA 279
talked about being contacted by a reporter. Remind us
what you learned from that reporter.
A. So the reporter asked if I was aware of any
organizations, specifically Bethany Christian Services
And Catholic Social Services, discriminating against offering support and services to same-sex couples who
were interested in becoming foster parents.
[Page 3]
Q. And what did you understand the nature of those
two agencies you referenced, Bethany and CSS’s,
objection to be?
A. I understood their objection to be to not be willing
to certify same-sex couples.
Q. What was the nature of that objection? Was it
secular, was it religious, was it something else?
A. As indicated by James Amato, it was based on
religion.
Q. And approximately when, to the best of your
recollection, was this outreach from a reporter?
A. It was on March 9th, and I subsequently spoke to
James Amato on the same day.
Q. So shortly after the call from the reporter?
A. Very shortly after the call from the reporter I called
James Amato and then we made a number of calls that
day.
Q. And is it on that call that James Amato told you
what you just related, that it was a religious objection?
A. He made it clear that based on their religious beliefs
that they would not do the certification process of the

JA 280
same-sex couple and they would not do home studies
for adoption for same-sex couples.
Q. And on Wednesday you said that after that call
[Page 4] you called other faith-based foster care
agencies?
A. Yes, that’s correct. I called a majority of our
providers.
Q. And would you have any reason at that point to
believe that a secular agency would have had an
objection to serving same-sex couples?
A. I did not, no.
Q. And so upon learning this — did you say March 9th,
March 10th?
A. It was March 9th.
Q. March 9th. What was your — what concerns did
this information raise for you as commissioner?
A. My concern is that there was a particular
community that was being excluded from allowing to
become foster parents. And I was concerned that this
was possibly in violation of their contract, and so
subsequently looked at working with our law
department to determine what challenges the position
that Catholic Social Services took in regard to their
ability to work with same-sex couples.
Q. And why is it concerning to you as commissioner if
a particular community is being excluded in some
way?
A. I think it’s significant in a number of factors. One,
as Philadelphia is responsible for serving all citizens,
it sends a signal, a very strong signal to [Page 5] that
community that their rights are not protected and we

JA 281
don’t care about them. More importantly, when you
think about youth that are being served who might
identify as LGBTQU, they will become adults at some
time. So you are sending a signal to those youth that
while we might support you now, we won’t support
your rights as an adult.
Q. And you testified on Wednesday that you could not
take what I understand to be called an intake closure?
A. That is correct.
Q. Tell us again why you did that.
A. So I closed intake and I believe I also shared this on
Wednesday is that I have closed intake in other
circumstances for other providers as an opportunity to
get a better sense of the magnitude of the issue and
also to make sure that we stop any further damage
that might occur. And for me in this instance it was
making sure that we were not providing additional
children to be sent to Catholic Social Services or
Bethany at the time.
Q. And you said — you just used the word prevent any
further damage to occur. How, in your view, could
sending additional children create the possibility of
further damage?
[Page 6]
A. At the point in which i closed intake, it wasn’t clear
to me, but it became abundantly clear thereafter, that
the ability to comply with the full entirety of their
contract was uncertain. And so if you are not able to
comply with your contract, certainly it puts — you
know, it’s a concern for the city, it was a concern for
me to not make sure that more children could have

JA 282
been disrupted if we continued to send kids to Catholic
Social Services.
Q. And just so I fully understand, how could more —
how could children be disrupted? What are you looking
at and thinking about when you say that?
A. So if we — if Catholic Social Services could not
comply and they refused to enter into a full contract,
we would have to move all of the children who are
currently served by Catholic Social Services to another
provider. And so certainly a placement disruption is
not at all what the city wants to or intends to do, and
certainly not a position that we wanted to find
ourselves in.
Q. So you closed intake to make sure fewer children —
no additional children were added to that mix?
A. That’s correct.
Q. You mentioned having closed intake in other
instances in the past.
[page 7]
A. Yes.
Q. How has that been handled administratively within
DHS? What do you do when you close intake?
A. Generally, information is brought to my attention
or I am made aware of directly. And I discuss those
matters with my executive team and make a
determination that it’s in the best interest to shut
intake. So we have done that for administrative
reasons, and we have done it for programmatic
reasons. And the duration of the intake closure is
really in place until the issue is remediated or taken
care of.

JA 283
Q. Does DHS permit exceptions when it closes intake?
A. Absolutely. In the case of Catholic Social Services
we have made a number of exceptions.
Q. In what context are exceptions considered?
A. So exceptions have been considered as it relates
To keeping siblings together, as well as in cases where
A child had recently resided with a foster parent and
could return back to a home that the child was familiar
with.
Q. And in the past instances of closing intake, have
similar exceptions been granted?
A. Absolutely. We just last week had an experience
where another organization that has their intake
[Page 8] currently closed also for administrative
reasons, the CRU made myself and Kimberly Ali
aware and asked for us to consider an exception, and
we subsequently did so.
Q. And the CRU you talked about yesterday is Central
Referral Unit?
A. That is correct.
Q. And the Central Referral Unit is responsible for
placements, is that correct?
A. They’re responsible for helping determine the level
of care and subsequently helping to identify the best
placement for the youth that is presented to the CRU.
Q. And in past intake closures, has the Central
Referral Unit been involved in making exceptions for,
I believe you said, kinship and when there was a
relationship with a prior foster parent?
A. Yes. It’s very standard practice and I would

JA 284
just highlight that we are in constant communication
with the CRU. So there is — on any given day, there
are complicated high profile cases that come to the
attention of both deputy commissioner Ali and myself.
And so it’s pretty standard practice when they are
aware that there is a closure that they would bring
something to our attention. Sometimes there is an
issue of a court order or there’s something that comes
up that [Page 9] makes them recognize that an
exception should be considered, and particularly
where that is most significant is kin, because that has
been such a cultural norm for our department.
Mr. Rienzi: Objection, move to strike. That’s not
responsive to the question.
The Court: Overruled.
By Mr. Field:
Q. With respect to CSS, the intake closure you
referenced, does that still remain in place?
A. Yes.
Q. Why does that still remain in place?
A. Because we have not resolved the issue, and CSS
has indicated that they do not want to enter into a full
contract with the City, in which case I don’t want to
send additional children whose subsequent situation
could be disrupted.
Q. As DHS Commissioner, would it – is it – would DHS
offer Catholic Social Services the same full contract it
is offering the other foster care agencies?
A. Yes.
Mr. Rienzi: Objection, speculation.

JA 285
The Court: Overruled.
The Witness: Yes, and we have.
By Mr. Field: [Page 10]
Q. And has DHS offered Catholic Social Services an
alternative?
A. Yes, we have.
Q. And what is that alternative?
A. We offered a limited contract to ensure that they
could continue to search the children who are
currently placed in foster care without sending in
additional referrals. It was good to hear Mr. Amato
state that they would consider entering into a limited
Contract.
Mr. Rienzi: Objection, move to strike the narrative.
The Court: Overruled.
By Mr. Field:
Q. Have you been in situations in the past in which
providers are closing or for some other reason unable
to continue long-term providing services?
A. Yes. Unfortunately in my tenure I have had to
experience that a few times.
Q. And in those experiences, what have you done to
work with providers to ensure the best interest of the
children?
A. So in a number of experiences we have actually
negotiated a contract in — understanding that they
were going to have to close, but understanding also
that we [Page 11] needed the staffing and we needed
the ability to assure quality services and the safety of
children. And so we negotiated the staffing levels and

JA 286
the contracted amounts. In one particular case we had
an individual, And I know this gets very much into
jargon around our contracts, but we pay a lot of the
placement services in what we call a per diem. So
that’s like a set amount of money per child per day.
And then we have the ability to do what is called a cost
reimbursement contract. In one instance when we
knew we were closing the program, we knew it was not
financially viable or in the best interest of the kids
from a programmatic standpoint, they were not going
to be able to keep staff, so we changed it from a per
diem contract to a cost reimbursement, and we
guaranteed them the ability to have a set amount of
staff. In one other instance we actually offered stay
bonuses for staff to make sure that we had the exact
staffing pattern we needed until closure.
Q. And do you have any reason to think you would not
engage in negotiations of this sort with Catholic Social
Services?
Mr. Rienzi: Objection, speculation.
The Witness: No.
By Mr. Field: [Page 12]
Q. Would you engage in negotiations of this sort with
the Catholic Social Services?
Mr. Rienzi: Objection, speculation.
The court: Overruled.
The Witness: Yes, that’s within my purview as the
commissioner, and I would negotiate those terms.
By Mr. Field:

JA 287
Q. Real briefly, you mentioned when you were first
contacted by a reporter two agencies, Catholic Social
Services and Bethany, I believe?
A. That is correct.
Q. What does Bethany do for DHS?
A. Foster care services.
Q. So it’s a similar contract?
A. Yes.
Q. And did you close intake with regard to Bethany?
A. Yes, I did.
Q. Does it remain closed?
A. As of today it remains closed, yes.
Q. And is it your expectation that Bethany will sign a
full contract for the coming year?
The witness: Yes.
Mr. Rienzi: Objection, speculation.
The Court: Overruled.
[Page 13]
The Witness: Yes. It’s my expectation. In
communication it has been indicated that we will
likely enter into a full contract with Bethany.
By Mr. Field:
Q. And is it your understanding of the coming fiscal
year contract that it includes a clause that providers
not discriminate in the recruitment and certification
of foster parents?

JA 288
Mr. Rienzi: Objection, speculation, hearsay and best
evidence rule. The document speaks for itself.
The Court: Overruled.
The Witness: Yes.
Mr. Field: May I have a moment, Your Honor?
The Court: Yes.
Mr. Field: Thank you.
(Brief pause in the proceeding.)
Mr. Field: That’s all I have at the moment, Your
Honor.
The Court: Okay. Cross-examine.
Mr. Field: Thank you.
The Witness: Thank you.
Mr. Rienzi: Your honor, can I take a very short recess
so that I can confer with my [Page 14] co-counsel and
look at my notes so I can do this as briefly as possible.
The Court: I will give you two minutes.
Mr. Rienzi: That’s all I need. Thank You, your honor.
(Brief pause in the proceeding.)
Cross-examination
By Mr. Rienzi:
Q. Good morning, Commissioner Figueroa.
A. Good morning.
Q. You have had a long career doing a variety of
different kinds of social justice work?
A. That is correct.

JA 289
Q. I believe you said yesterday you went to a Jesuit
college?
A. I did.
Q. And then you started your career in the Jesuit
Volunteer Corps?
A. Yes, that’s correct.
Q. What inspired you to do that?
A. Mostly my parents and a history – long tradition.
We have believed faith and social justice are good
tenets to ensure that those with less have the same
opportunities that we have been given.
Q. And those experiences probably gave you a good
[Page 15] understanding of what Catholic nonprofit
service groups are like?
A. Absolutely.
Q. You know that Catholic loses money doing foster
care?
A. No, I am not aware of that.
Q. Do you know that Catholic is a religious
organization?
A. I do know that.
Q. And as DHS Commissioner would you say that
Catholic has a strong commitment to service?
A. Yes.
Q. And for Catholic that commitment to service is part
of how they practice their religious beliefs?
A. I would not provide that expectation.

JA 290
Q. Do you think there’s a different reason?
A. There could be.
Q. You have no opinion either way as to whether they
do it for religious reasons?
A. I don’t know that it is for me to say.
Q. I’m asking, do you have an opinion?
A. No.
Mr. Field: Objection, calls for speculation.
The Court: Overruled.
[Page 16]
By Mr. Rienzi:
Q. You have been DHS Commissioner since when?
A. My tenure began in September of 2016.
Q. Do you have that job for a particular term of years?
A. No.
Q. You are an at-will employee?
A. I’m an exempt employee with the City of
Philadelphia.
Q. How many foster agencies are there in the City
right now?
A. There are 30 agencies in the city of Philadelphia.
Q. Does that include Catholic when you say that?
A. It does.
Q. And Bethany?
A. Yes.

JA 291
Q. So of those, how many provide home studies for
same-sex couples?
A. To my knowledge, all of them should.
Q. How many do?
A. All of them. Except for Catholic Social Services.
Q. So it is your testimony that 28 today provide home
studies for same-sex couples?
[Page 17]
A. Well, actually Bethany does because they have
certified a number of same-sex couples, so I would just
say Catholic.
Q. So today 29 agencies will do home studies for samesex couples?
A. From my knowledge.
Q. If Catholic closes their program, how many foster
agencies in the City will provide home studies to samesex couples?
A. The same —
Mr. Field: Objection, calls for speculation.
The Court: Overruled.
The Witness: The same number, I presume.
By Mr. Rienzi:
Q. And if Catholic is allowed to resume its past
practice, how many agencies in the City will provide
home studies for same-sex couples?
Mr. Field: Objection, calls for speculation.
The Court: Overruled.

JA 292
The Witness: 29.
By Mr. Rienzi:
Q. So no matter happens in this case it is your
testimony there will be 29 agencies in the City that
[Page 18] provide home studies for same-sex couples,
correct?
Mr. Field: Objection, calls for speculation.
The Court: Overruled.
The Witness: Yes.
By Mr. Rienzi:
Q. To your knowledge, DHS has received no
complaints against Catholic for operating according to
its religious beliefs, correct?
A. That is correct.
Q. To your knowledge, you have received no
complaints against Catholic for providing foster care
services according to its religious beliefs, correct?
A. None that I am — none that I can recall.
Q. To your knowledge, you have received no
complaints against Catholic for failing to perform a
home study for someone who wanted it, correct?
A. I can’t answer that unequivocally.
Q. But you are not aware of any as you sit here
today?
A. I am not aware of any, no.
Q. To your knowledge, not a single prospective LGBT
foster parent was unable to become a foster parent
because of Catholic’s religious exercise, correct?

JA 293
A. I can’t answer that.
[Page 19]
Q. You don’t know either way?
A. I can’t answer that.
Q. Are you aware of any who are unable to become a
foster parent because of Catholic?
A. I can’t answer that.
Q. You cannot answer because you are not aware of
any, correct?
A. I can’t answer that because I don’t know if anybody
was turned away.
Q. So far as DHS is aware, the number of foster
parents turned away by Catholic who wanted a home
study for an LGBT couple is zero, correct?
A. I can’t answer that.
Mr. Field: she just said she is unaware ff anybody was
turned away, Your Honor.
The Court: She answered several times.
By Mr. Rienzi:
Q. You said you are responsible for about 1500
employees?
A. That is correct.
Q. To your knowledge, not one of them has told you
about any couple rejected by Catholic because of its
religious exercise?
A. Not that I can recall.

JA 294
Q. On your foster care website you tell prospective
[Page 20] parents to look for an agency that would be
a good fit for them, correct?
A. I don’t have it in front of me, so....
Mr. Rienzi: Permission to approach, Your Honor.
The Court: Yes.
By Mr. Rienzi:
Q. I am handing you a document labeled Plaintiff’s
Exhibit 14. Do you recognize that document?
A. I do.
Q. What is that?
A. It’s the Philadelphia website. It’s the Philly.gov
website.
Q. And you are an employee of the City of
Philadelphia?
A. I am.
Q. And DHS is part of the City of Philadelphia
Government?
A. That is correct.
Q. I would like you to look at the bottom of the second
page, please.
A. Second or third?
Q. Bottom of the second says: choose a foster care
agency. Do you see that?
A. Yes.
[Page 21]

JA 295
Q. And that says: DHS works with many state licensed
agencies to provide foster care. Browse the list of foster
agencies to find the best fit for you. You want to feel
confident and comfortable with the agency you choose.
This agency will be a big support to you during your
resource parent journey. Once you have found one that
you like, call them to find out how to begin the
certification process. Did I read that correctly so far?
A. You did, yes.
Q. Is all of that true to the best of your knowledge?
A. Absolutely.
Q. Okay. Why do you want foster parents to find an
agency that they will feel confident and comfortable
with?
A. Because it’s the choice of the family to determine
who they want to be served by.
Q. And why would you like them to be confident and
comfortable?
A. Because it is their decision.
Q. I am not asking whose decision it is. I’m asking why
would you — here it says you would like them to feel
confident and comfortable. Why?
A. Because they are deciding to become a foster [Page
22] parent, so they have to feel comfortable and
confident in their decision.
Q. You would like them to have a good fit with the
agency?
A. I’d like them to be comfortable with their decision.
Q. You would like them to have a good fit with the
agency?

JA 296
A. I would like them to be comfortable with their
decision.
Q. Would you like them to have a good fit with the
agency?
Mr. Field: Asked and answered, Your Honor.
Mr. Rienzi: Your Honor, she has not answered.
The court: Overruled. She can answer.
By Mr. Rienzi:
Q. Would you like them to have a good fit with the
agency?
A. Yes.
Q. Agencies are allowed to have different
requirements for certifying families, correct?
A. No.
Q. Would you read for me the last sentence of that
[Page 23] paragraph we were just looking at, please?
A. Oh, different
training.

requirements,

specialties

and

Q. It says: each agency has slightly different
requirements, specialties and training programs,
correct?
A. Correct.
Q. Agencies are allowed
requirements, correct?

to

have

different

A. They may only have special requirements as it
relates to medical and specialized behavioral health.
Q. It doesn’t say that on your website, does it?

JA 297
A. This is meant to provide general information and
does not go into individual regs of all of the
specializations.
Q. Is there someplace else that tells agencies that
those are the only different requirements they are
allowed to have?
A. Not that I can recall right now.
Q. I believe you testified yesterday and some this
morning that you are familiar with DHS’s contracts?
A. I am.
Q. And you are familiar with the contract under which
Catholic provides foster care services?
A. I am.
[Page 24]
Q. Is it your responsibility to ensure that that contract
is enforced?
A. That is correct.
Q. And that agencies are complying with their
contractual obligations?
A. That’s correct.
Q. In fact, you signed the agreement?
A. I did sign the agreement.
Q. I believe you testified yesterday and again some
this morning about the reason you instituted a referral
freeze?
A. An intake closure.

JA 298
Q. Intake closure. Thank you. An intake closure. Did
you do that because you thought Catholic was in
violation of its contract?
A. I believe so, yes.
Q. What portion of the contract was Catholic in
violation of, in your opinion?
A. After discussing with our law department it was
clear the Fair Practices Ordinance as well as the
services provision of their contract.
Q. I have got two there. Fair Practices Ordinances?
A. Um-hum.
Q. And the other one you said was –
[Page 25]
A. Is services, the definition of services.
Q. Can you start with services and tell me how, as you
understand it, Catholic was in violation of the services
provision of the contract?
A. So the totality of the contract under services
requires that you train, recruit and certify foster care
homes. The inability to deliver a part of that service
would not allow you to do the entirety of your contract.
Q. Does the services provision say you must train,
recruit and certify all families?
Mr. Field: Objection, your honor. This Is an 80-page
contract and he is asking about a particular provision
within it.
The Court: Overruled. She can answer.
The Witness: Can you repeat your question.
By Mr. Rienzi:

JA 299
Q. Sure. Does the services part of the contract require
— strike that. Does the services part of the contract
tell agencies that they must recruit and certify all
families?
A. I don’t have it in front of me. I could not without —
Q. Sure. That’s understandable. I agree it’s [Page 26]
long. Give me a second, please.
Mr. Rienzi: Permission to approach, Your Honor.
The court: Yes.
By Mr. Rienzi:
Q. I am handing the witness what has been labeled
Plaintiff’s Exhibit 15. Can you tell me if you recognize
that, please?
A. I do recognize this.
Q. What is that document?
A. This is the conformed standard amendment
agreement for Catholic Social Services.
Q. Okay. And this is the agreement under which
Catholic provides foster care services?
A. Yes. In this particular contract there’s a number of
other placement services also in here so....
Q. And you signed this contract, correct?
A. I did. I believe my signature is on one of these pages.
Q. Can you direct —
A. Page 5.
Q. Terrific. Thank you. Can you direct me to the
services portion of the contract that you were telling
me you believe [Page 27] Catholic has violated?

JA 300
Mr. Field: Objection, calls for a legal conclusion.
The Witness: I would have to have a moment to be able
to go through this entire document to find the sections
I am referencing.
The Court: I don’t know that you can answer like that.
The Witness: Because services are referenced in
multiple parts of the contract. It’s not just in one area.
So there is the general provisions. There’s the scope of
services and there’s the definitions and terms as it
relates to services.
By Mr. Rienzi:
Q. Okay. Is it your view that that contract requires
foster agencies to recruit and certify all couples?
A. Yes.
Q. Are agencies allowed to have targeted recruiting?
A. For specialized behavioral health and as well as for
medically fragile children.
Q. Beyond those two, is it a violation of the contract
that agencies have specialized recruiting?
Mr. Field: Objection, calls for a legal [Page 28]
conclusion.
The Court: What do you mean by specialized
recruiting?
Mr. Rienzi: Targeted
communities.

recruiting

to

particular

Mr. Field: Same objection, your honor.
The Court: Overruled.
The Witness: Could you define what you mean.

JA 301
By Mr. Rienzi:
Q. Must all agencies recruit everybody all the time or
are they allowed to target particular communities to
do their recruiting?
A. So they can have a focus on a cultural or particular
community, but they require — all foster care agencies
are required to serve all members of the City of
Philadelphia who present and are interested in
becoming a foster parent.
Q. So they are allowed to recruit in a targeted way, is
that true?
A. No.
Q. So Concilio targets its recruiting to the Latino
community, correct?
A. I would not confuse serving a particular community
with only targeting.
[Page 29]
Q. You don’t think Concilio’s recruiting is targeted to
the Hispanic community?
A. I know for a fact that Concilio serves all of
Philadelphia.
Q. That was not my question. My question is their
recruiting efforts are targeted to the Hispanic
community, are they not?
Mr. Field: Objection to the term “targeted,” your
honor.
The Court: what do you mean by “targeted”?
Mr. Rienzi: I mean do they go out to recruit in
particular communities? Do they set out to recruit
foster parents in Hispanic communities?

JA 302
The Court: I believe the answer was they go out, but
they are obliged to serve the entire community.
Mr. Rienzi: I don’t think she answered the first part as
to whether they do the recruiting in a targeted way,
which is what I am trying to get at.
The Court: Well, I think you need to rephrase your
question.
By Mr. Rienzi:
Q. Concilio focuses its recruiting efforts in the
Hispanic community, doesn’t it?
[Page 30]
A. I don’t think I can answer the question.
Q. You don’t know either way?
A. I said earlier that targeted does not exclude the
entire community.
Q. You don’t know either way whether they target a
particular community, correct?
Mr. Field: Objection to the term “targeted,” your
honor.
The Court: again —
By Mr. Rienzi:
Q. Focus on a particular community.
The Court: She has answered the question as best as
she can using her terminology.
By Mr. Rienzi:
Q. You said you also think Catholic violated the Fair
Practices Ordinance portion of the contract?
A. Yes, that is correct.

JA 303
Q. Why do you think that?
A. That — actually I am not an attorney so that was a
discussion that we had with our legal counsel in terms
of their conclusions as it relates to the representation
of not serving same-sex couples.
Mr. Field: Your honor, I just want to object to any
inquiry into privileged and confidential attorney/client
information.
[Page 31]
The Court: Yes.
By Mr. Rienzi:
Q. Do you think foster care work is a public
accommodation?
Mr. Field: Objection, calls for a legal conclusion.
The Court: Yes. Sustained.
By Mr. Rienzi:
Q. Do you think the Fair Practice Ordinance applies to
the work of the Department of Human Services doing
foster care work?
Mr. Field: Objection, calls for a legal conclusion.
The Court: Ask your question again.
By Mr. Rienzi:
Q. Do you think the Fair Practices Ordinance applies
to the work of the Department of Human Services
doing foster care work.
The Court: And was there an objection?
Mr. Field: Calls for a legal conclusion, Your Honor.
The Court: Sustained.

JA 304
Mr. Rienzi: Your honor, the witness has testified that
she is in charge for the Department of ensuring that
they comply with the law.
[Page 32]
The Court: I understand that, but what she said was
she had to have a conversation with her counsel —
legal counsel in order to find out exactly what —
Mr. Rienzi: Understood.
By Mr. Rienzi:
Q. Commissioner Figueroa, your discussion with the
legal counsel, which I am not going to ask the
substance of at all, but your discussion with legal
counsel was about whether Catholic had violated the
contract and specifically the fair practices ordinance
portion of the contract, correct?
Mr. Field: Objection. She’s already testified to the fact
—
The Court: Overruled.
The Witness: I’m sorry. Can you repeat your question.
By Mr. Rienzi:
Q. All I am trying to do is just be clear about what your
discussion with counsel was and I am not asking for
the substance of it. That was about whether Catholic
had violated the Fair Practice Ordinance portion of the
contract, correct?
A. No. My discussion with my law department was,
Here are the issues, and I am concerned about their
[Page 33] ability to comply with the entirety of their
contract.

JA 305
Q. And for my next question, I want you to leave that
discussion aside because I am not asking about that
discussion. I am asking you about your job as the
person in charge of DHS, and I am asking about your
job particularly as somebody who has testified that it
is your responsibility to ensure that your agency
complies with state, federal and city law.
A. That is correct.
Q. Is it your opinion that DHS is governed by the Fair
Practices Ordinance when doing foster care work?
A. Could you restate your question.
Q. Is it your opinion that DHS, the agency you run, is
covered by the Fair Practices Ordinance when doing
foster care work?
Mr. Field: Objection to the extent it calls for a legal
conclusion or information learned from counsel.
The Court: Overruled. If you can answer.
The Witness: I don’t feel I have legal training to
answer that question.
By Mr. Rienzi:
Q. Have you ever trained your staff on compliance
with the Fair Practices Ordinance?
[Page 34]
A. As a Commissioner?
Q. Yes.
A. No, I have not.
Q. In your prior term at DHS have you ever trained
your staff on compliance with the Fair Practices
Ordinance?

JA 306
A. As a Deputy Commissioner, no.
Q. In any context at DHS have you ever trained staff
on that issue?
Mr. Field: You mean — Your Honor, can we just find
out whether he means her personally or her
department?
The Court: Her personally.
By Mr. Rienzi:
Q. I will start with you personally.
A. I’m sorry. I am confused. Can you start over again.
Q. Sure. And I will back up. I apologize. What I am
trying to get a sense of is whether while you are at
DHS you all are acting like you are covered by the Fair
Practices Ordinance. So my question is — I will start
with now as Commissioner. As Commissioner, have
you done anything to make sure that people at DHS
follow the Fair Practices Ordinance when doing foster
care work?
[Page 35]
A. Not to my recollection.
Q. And in all of your time at DHS, now over the couple
of different stints that you have had, do you recall any
discussions with anybody about whether DHS was
covered by the Fair Practices Ordinance when doing
foster care work?
A. I answered that it was with our legal counsel.
Q. Yes. I want you to leave aside that discussion. Other
than that, are you aware of any other discussion about
whether DHS is covered by the Fair Practices
Ordinance when doing foster care work?

JA 307
A. I have not had a reason to.
Q. DHS sometimes considers race when making a
foster care placement?
A. No.
Q. DHS never considers a request from a parent to
foster a child of a particular race when placing
children?
A. That would be the parent’s choice and perspective
to give that request.
Q. And when DHS is meeting that parent’s choice, it
does consider race when making foster child
placements?
A. We can’t always offer the ability to provide the
consideration that has been presented by the parent.
Q. Understood, but sometimes you do, correct?
[Page 36]
A. No, I can’t answer that.
Q. You can’t answer it or you don’t do it? I will break
it apart. Are you saying that DHS never considers the
race of a child when making a placement?
A. I am saying that we consider the request of the
resource parent and that the other factor that we have
to consider is the best interest of the child. Whether
the behavior is — coincides with the environment in
the household, whether or not there can be no other
child in the home, whether or not the child is medically
fragile. So there are a lot of considerations and they
are all driven by safety.
Q. I am trying to get you to focus on race.

JA 308
A. Right. And I am telling you the priority of the
department —
Q. I understand that. I am asking —
A. — is children’s safety.
Q. I understand that. But I am asking you a question
about whether the department ever considers race
when making a placement.
The Court: When you say “consider,” do you mean
that’s one of the factors or one of many factors?
By Mr. Rienzi:
[Page 37]
Q. Yes, just consider it as one of the factors. So you
consider race when making placements sometimes?
A. There’s no formalized way for us to do that.
Q. Do you do it?
A. I don’t know that I can answer that.
Q. You don’t know whether your department ever
considers race in making a foster child placement? Is
that your testimony?
Mr. Field: Asked and answered, Your Honor.
Mr. Rienzi: Your Honor, with all due respect, it’s not
actually been answered. I am trying to get to the
answer.
The Court: Overruled.
The Witness: Can you repeat it.
By Mr. Rienzi:

JA 309
Q. Sure. Is it your testimony that the Department of
Human Services never considers race when making a
child placement?
A. I’m sorry. It sounds like you’re using a double
negative. Can you ask it more directly.
Q. Sure. Does the Department of Human Services ever
consider race when making a foster care placement?
A. I think what I have answered before, as one of the
many factors that, yes.
[Page 38]
Q. So yes, it does, but there are other factors also
considered?
A. That’s correct.
Q. Have you ever had any discussions with anybody as
to whether you are violating Fair Practices Ordinance
to consider race in a public accommodation?
A. It has not come to my attention.
Mr. Field: Assumes facts not in the record, Your
Honor.
By Mr. Rienzi:
Q. Does DHS sometimes consider disability when
making child placements in foster care?
A. Absolutely.
Q. Have you ever considered whether you are violating
the Fair Practices Ordinance if foster care is a public
accommodation?
A. We actually have specialized providers —
Mr. Field: Objection.

JA 310
The Witness: — that only work with the population
you have addressed.
The Court: Overruled.
By Mr. Rienzi:
Q. And that would be a violation of the Fair Practices
Ordinance if foster care were a public accommodation,
wouldn’t it?
[Page 39]
Mr. Field: Objection, calls for a legal conclusion, your
honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You know that sometimes foster agencies
themselves consider race when making foster care
placements?
A. I can’t answer that. I don’t know.
Q. You don’t know whether any agencies consider race
when making placements?
A. I have never had that discussion –
Mr. Field: assumes facts not in the record regarding
placements, Your Honor.
Mr. Rienzi: It’s a question about whether it happens.
Mr. Field: The witness has not testified as to whether
foster care agencies provide placements.
The Court: She answered.
By Mr. Rienzi:
Q. Who at DHS would know that?

JA 311
The Court: Who?
By Mr. Rienzi:
Q. Who in DHS would know whether foster agencies
consider race in making placements?
The Court: What does that have to do [Page 40] with
this case?
Mr. Rienzi: Plenty, your honor. The claim is that foster
care is a public accommodation subject to the fair
practices ordinance. The Commissioner has just told
me that the department sometimes considers race
when making placements.
The Court: As one of many other factors.
Mr. Rienzi: Which would be a violation of the Fair
Practices Ordinance if they actually believed it.
The Court: That is your opinion.
Mr. Rienzi: Correct. And it’s actually also the Fair
Practices Ordinance, Your Honor. I am simply trying
to get a sense of how they run their foster care
program and whether they allow other considerations
that are not consistent with this apparently new view
that foster care is a public accommodation. So I am
trying to find out how the department handles other
things that if their story were actually correct would
be violations of the Fair Practices Ordinance.
The Court: Well, that is not — the fact that you
consider a public accommodation and what is required
by the Fair Practices Act is not what this case is based
on, the issue of race.
[Page 41]

JA 312
Mr. Rienzi: Your honor, she testified that the violation
— was violation of the Fair Practices Ordinance
because it’s their view that foster care is a public
accommodation covered by the Fair Practices
Ordinance.
The Court: She has not testified to that.
Mr. Rienzi: She has testified that that was one of the
two breaches of the Fair Practices Ordinance, is my
understanding.
Mr. Field: She testified regarding
providing by her counsel, your honor.

information

The Court: That is correct. She has not testified to
that.
By Mr. Rienzi:
Q. Ms. Figueroa, did you tell other people that Catholic
had violated the Fair Practices Ordinances part of that
contract?
Mr. Field: Your Honor, I just object to the extent that
the question requires —
The Court: Sustained. Sustained.
By Mr. Rienzi:
Q. Commissioner Figueroa, I am not asking you to tell
me anything about any conversations you had with
your lawyers.
[Page 42]
Mr. Field: Or other City employees, Your Honor.
The Court: I sustained the objection.
By Mr. Rienzi:

JA 313
Q. Did you talk to anybody who does not work for the
City and tell them that you thought Catholic had
violated the Fair Practices Ordinance?
A. No.
Q. You didn’t tell that to Catholic?
A. In our — actually it was our legal counsel that spoke
to their legal counsel in the meeting. The direct
question came from Catholic Social Services counsel
and our counsel present responded.
Q. Have you ever instructed anybody at DHS to freeze
referrals at any agency over a violation of the Fair
Practices Ordinance?
A. Catholic Social Services.
Q. Other than Catholic Social Services?
A. No.
Q. Have you ever informed the 30 foster care agencies
in the City that you believe their provision of foster
care is governed by the Fair Practices Ordinance?
A. It’s in the contract.
Q. Other than the language in the contract, have you
ever informed the agencies in the city that you [Page
43] think they have obligations under the Fair
Practices Ordinance when doing foster care work?
A. We always remind individuals to meet the
standards in their contracts.
Q. I am saying other than the contract, have you ever
told agencies to do that?
A. Based on the nature of the contract discussions,
then I would say yes because they all sign their
contracts as I did.

JA 314
Q. I am just asking you, other than the contract, do
you ever tell them they must follow the Fair Practices
Ordinance?
A. Not that I recall.
Q. You are not aware of any trainings that your agency
has done to tell people that?
A. Not that I am aware of.
Q. So in all of your time at DHS the first time you ever
heard anybody say foster care was a public
accommodation under the Fair Practices Ordinance
was in this particular dispute, correct?
A. Again, that was in conversation with my counsel.
Q. And I am asking you since I know you also observed
nonprivileged conversations between your counsel and
Catholic. So I am not asking you to tell me anything
about what your lawyer told you. Prior to [Page 44]
March of 2018, you had never taken the position that
foster care work was a public accommodation under
the Fair Practices Ordinance, correct?
Mr. Field: Objection to the characterization of taking
a position, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You are not aware of DHS ever telling anyone that
foster care was a public accommodation prior to 2018,
correct?
A. We never needed to prior.
Q. That’s not my question. My question is whether you
are aware of anyone at DHS ever taking that position
prior to 2018?

JA 315
Mr. Field: Objection to the scope of this, your honor.
She has only been the commissioner since the fall of
2016.
The Court: My understanding is it’s in the contract.
Mr. Rienzi: I understand that that is their claim, Your
Honor, and I’m simply saying if you are running a
large system, I am curious to know whether they said
it to anybody else.
The Court: When you say “said it to anybody else,” I
mean the fact that it’s laid out in the [Page 45] contract
—
Mr. Rienzi: Your Honor, the words “Fair Practices
Ordinance” appear in the contract. We have a serious
dispute with the City as to whether that makes foster
care a public accommodation.
The Court: I can appreciate that. All I am saying is,
the fact that it is in the contract, I don’t know that it’s
necessary that it has to be said any other way.
Mr. Rienzi: Your Honor, I think that’s a perfectly fair
position to take, and maybe Ms. Figueroa is going to
say that. But my question is just whether she is aware
of anyplace else that they have taken the position that
foster care is a public accommodation. She has been
there for many years. If the answer is no, then that’s
fine. I believe the answer was —
By Mr. Rienzi:
Q. Was your answer previously it has not come up
before? Was that your answer?
Mr. Field: Again, Your Honor, I just object because he
referred again to this characterization of taking the
position, which is a legal conclusion.

JA 316
By Mr. Rienzi:
Q. You have worked at DHS for a total –
[Page 46]
A. Well, in my current capacity?
Q. Total.
A. Almost four years.
Q. Prior to 2018 you had never heard anybody at DHS
say that foster care work was a public accommodation,
correct?
A. I believe I answered this.
Q. I am asking for a yes or no answer. Prior to 2018,
you had never heard anybody call foster care a public
accommodation, correct?
Mr. Field: I object to the extent it calls for a privileged
communication, Your Honor.
The Court: Overruled. You may answer.
The Witness: I believe I answered that prior to this
incident it had not arose.
By Mr. Rienzi:
Q. So no, you had never heard that?
A. No.
Q. Okay. Thank you. I believe you testified on Tuesday
that you had heard and agreed with Ms. Ali’s
testimony, is that correct?
A. That is correct.
Q. And you know that Ms. Ali stated a — what she said
was a rule that if a qualified prospective foster [Page
47] family wants a home study performed by a

JA 317
particular foster agency, that agency must provide the
home study. Do you recall that?
Mr. Field: Objection. He is mischaracterizing Ms. Ali’s
testimony.
The Court: Overruled.
By Mr. Rienzi:
Q. Do you recall Ms. Ali testifying about a rule that if
a qualified prospective foster family wants a home
study performed by a particular agency, that agency
must provide the home study?
A. I have – in terms of rules, is that the – was that the
language that Ms. Ali used?
The Court: I think she used policy.
By Mr. Rienzi:
Q. Policy. I’m not — you can call it whatever you
like. I’m looking for —
A. I think language is important.
Q. I do too. Thank you. Did you hear Ms. Ali testify
about that policy?
A. I was here, yes. I heard her testify on the policy.
Q. Do you agree with her testimony on that policy?
A. Yes, that parents choose which organization they
[Page 48] would like to work with.
Q. And that an agency must provide the home study if
a family wants the agency to provide the home study,
correct?
A. Yes.

JA 318
Q. You have never done any training for agencies
about that policy, have you?
A. In all sincerity, it is a huge department and a lot of
the child welfare operations are under Ms. Ali, So I
would not be able to answer the question.
Q. You are not aware of any training provided to the
agencies about that policy, correct?
A. I just answered that, again, I oversee a very large
department, and those duties and responsibilities, I
rely on the support of deputy commissioner Ali. So I’m
not in a position to be able to answer that.
Q. You certainly never instructed her to make sure
agencies are trained on that policy, correct?
A. What policy?
Q. The policy that foster agencies must provide home
studies to families who want them. You have not
instructed her to make sure that agencies are trained
on that policy, correct?
A. That’s correct.
Q. And you have done nothing to train your own [Page
49] staff on that policy, correct?
A. Are we referring to the policy of the home study?
Q. The policy that an agency must provide a home
study. You have never done anything to train your own
staff on that policy, correct?
A. No, because it is reflected in the contract.
Q. Other than your claim that it is in that contract,
have you ever seen this policy written down anyplace?
A. I’m sure it exists in a lot of different places. I don’t
know that I can say — you know, there’s reference to

JA 319
the website, et cetera. So I don’t know that I could
name other places in which that would appear.
Q. Okay. Do you know that it appears in other places
or are you just saying it might and you don’t know?
A. It might and I don’t know.
Mr. Rienzi: permission to approach, Your Honor.
The Court: yes.
By Mr. Rienzi:
Q. I am handing the witness a copy of a document
labeled Plaintiff’s Exhibit 16. And I ask you if you
[Page 50] have seen that document before?
A. There’s a sticker over part of it, so I am assuming
that says the Department of Human Services.
Q. I will show you a copy without the exhibit sticker,
just so you can see that. Have you seen that before?
A. Yes, this is actually very dated.
Q. It still appears on your website, correct?
A. I don’t know.
Q. Dhs.phila.gov is your website?
A. That’s correct.
Q. Do you recognize this document?
A. I am familiar with this document.
Q. What is it?
A. It’s the foster parent handbook.
Q. And what is the foster parent handbook?
A. It’s a guide for prospective parents.

JA 320
Q. I would like you to turn to the pink sticky note,
which is on page 2, the frequently asked questions
page. Do you see the section saying: how do I become
a foster parent?
A. Yes.
Q. Can you just take a moment and — well, I would
like to direct your attention to the second sentence
there. It says: there are many foster care agencies in
[Page 51]
Q. Nothing in the how I — how do I become a foster
parent section says that foster parents have a right to
receive a home study from whatever agency they pick,
does it?
A. No, but I think it’s important to know that this is a
general guide to the overall process of foster parenting.
Q. Great. And that general guide does not say you have
a right to a home study from any agency you want,
does it?
A. Because it’s a general guide, it might not include all
the detail necessary.
Q. It does not include that statement, correct?
A. What statement?
Q. The statement that you have a right to a home
study from whatever agency you pick.
Mr. Field: Your Honor, I just object. The general guide
is a —
The Court: Overruled.
Mr. Field: — many-page document and he is asking
about the entirety of it.
Mr. Rienzi: I am not.

JA 321
By Mr. Rienzi:
Q. I am asking about the “how do I become a foster
parent” section.
[Page 53]
A. I don’t know what else that — right now off the top
of my head in the 74-page document that might be
found besides page 2. Can you repeat the statement
you are asking me to confirm?
Q. The “how do I become a foster parent” section does
not say that you have a right to get a home study from
whatever agency you want, does it?
A. In this guide, it does not.
Q. Okay. It says: DHS does not license or approve
foster parents. Who does?
A. The Pennsylvania Department of Human Services.
Q. So Pennsylvania DHS is the one who licenses and
approves foster parents?
A. That’s correct.
Q. Do agencies play a role in that?
A. Based on the information that they provide is how
a parent becomes licensed and approved.
Q. Who do they provide that information to?
A. You are getting into the real technical operational
part, so I would have to rely on my Deputy
Commissioner to answer that.
Q. They don’t provide it to you, do they?
A. No. They have to go through the state process. Yep.

JA 322
Q. And you have nothing to do with that process, do
[Page 54] you?
A. No.
Q. Your office does not review home studies?
A. I can’t answer that.
Q. I’m sorry. You said you can’t answer that?
A. I don’t know.
Q. When agencies do home studies, they are not
acting on behalf of the City, are they?
Mr. Field: Objection, calls for a legal conclusion.
The Court: Overruled.
The Witness: The City pays for the contract for them
to deliver the service. The licensing component is held
by the State. They can’t do the work unless they have
a contract with the City of Philadelphia.
By Mr. Rienzi:
Q. When agencies do home studies, they are not acting
on behalf of the City, are they?
The Court: She answered that question. When you say
on behalf of, it’s necessary for them to get a license,
but they can’t —
Mr. Rienzi: I am simply trying to figure out if this is
the city’s work that the agencies are doing or if it’s
somebody else’s work.
[Page 55]
Mr. Field: I believe she just answered that question,
Your Honor.
The Court: She did answer the question.

JA 323
Mr. Rienzi: Okay.
By Mr. Rienzi:
Q. Do you still have the contract up there?
A. I do.
Q. Turn to page 86 of the contract, please.
A. I got it.
Q. Do you see section 9.1?
A. I do.
Q. Can you read the first sentence of that section to
me, please?
A. Provider is an independent contractor and shall not
in any way for any purposes be deemed or intended to
be an employee or agent of the City.
Q. And that is correct as your understanding, right?
Mr. Field: Objection to the extent it calls for a legal
conclusion, Your Honor.
The Court: Overruled.
The Witness: That’s correct under Article 9, the
independent contractor indemnification litigation
cooperation.
By Mr. Rienzi:
[Page 56]
Q. Thank you.
Mr. Rienzi: Permission to approach, Your Honor.
The Court: Yes.
By Mr. Rienzi:

JA 324
Q. Handing the witness a document labeled Plaintiff’s
Exhibit 17. Commissioner Figueroa, actually if I can
just turn you back to the foster parent handbook for
one more second. It is the previous exhibit. In the
second paragraph there you see that the City is
referring people to the Pennsylvania State Foster
Parent Association?
A. Are we back to the original tab?
Q. I’m sorry. I am back to the foster parent handbook.
A. Yes. What page?
Q. Same page. Page 2, the frequently asked questions.
Do you see that DHS is referring people to the
Pennsylvania State Foster Parent Association?
A. Here in the middle?
Q. Second paragraph?
A. Yes. Yep.
Q. And DHS says that that entity can also give you
more information and assist you as you decide which
[Page 57] agency is the best match for you to work with
for your home study and license. Do you see that?
A. I’m sorry. Where are you reading from?
Q. The second paragraph on page 2?
A. Yes.
Q. It says that the Pennsylvania State —
A. Got it. Yes.
Q. — Foster Parent Association can also give you more
information and assist you as you decide which agency
is the best match for you to work with for your home
study and license. Do you see that?

JA 325
A. Yes.
Q. Are you familiar with then the next document I
gave you, the resource parent manual?
A. I am actually not familiar with it.
Q. Okay. Are you aware that the Pennsylvania State
Foster Parent association changed its name to the
Pennsylvania State Resource Family Association?
A. No.
Q. I would like to direct your attention to page 7 of that
resource parent manual. It says: pequirements in
Pennsylvania to be a resource parent.
A. Yes.
Q. Are you familiar with the regulations that appear
on that page?
[Page 58]
A. I am familiar with them. I would not say I could cite
them.
Q. Those are the state regulations for an agency
approving a foster family, correct?
A. Yes, correct.
Q. And do you see under heading number 1 where it
says: note that these are minimum requirements and
individual agencies will vary their policies. Do you see
that?
A. I do see that.
Q. And that is correct, isn’t it?
Mr. Field: Objection to the extent it calls for a legal
conclusion, Your Honor.

JA 326
The Court: Yes, overruled.
The Witness: And clarity — could you clarify the
interpretation of “individual agency” for this line of
questioning?
By Mr. Rienzi:
Q. I understand them to be talking about foster care
agencies. And so the way I am looking at it is in
Exhibit 16 the City tells people to go to this foster care
agency.
A. I just asked that because we are also considered an
agency of the state. So it’s not clear to me that this is
talking exclusively about foster care agencies.
[Page 59]
Q. Okay. Do you see that it says these are minimum
requirements?
A. Yes, I do.
Q. What do you understand that to mean?
A. Less than what is required.
Q. Okay. And to this day, this is a document that the
Department of Human Services is sending potential
foster parents to, correct?
Mr. Field: Your Honor, this is not a Department of
Human Services document.
The Court: I believe she indicated that the resource,
the parent resource that you gave to her from the City
of Philadelphia was dated.
Mr. Rienzi: I understand that, Your Honor. It appears
on their website. And so I am asking a question about
it because they are still referring people to this agency.
So I am simply trying to find out —

JA 327
By Mr. Rienzi:
Q. Well, let me ask you. I will ask a different question.
Do you disagree with the language you see on page 7
that those requirements for resource parents are
minimums?
A. I don’t run this agency, so I can’t speak – I can’t
answer that.
[Page 60]
Q. Those are the requirements for certifying a foster
family, correct?
Mr. Field: Objection to the extent it calls for a legal
conclusion, Your Honor.
The Court: This is not her document.
Mr. Rienzi: I know it’s not her document. It’s the
document that the City sends to foster parents to look
at.
The Court: This is not her document. So she cannot tell
you whether or not these are the minimum — these
are the requirements to certify.
Mr. Rienzi: So fair enough. I am asking her if she
agrees with the document. She doesn’t have to tell me
what they meant. Does she agree?
By Mr. Rienzi:
Q. Do you agree, Commissioner Figueroa, to the
statement in the document that you are sending foster
parents to?
Mr. Field: I object to this in that the document is
printing portions of regulations and the witness has
already said she is only generally familiar with those
regulations.

JA 328
The Court: Can you state whether or not these are the
minimum requirements?
The Witness: These are not the [Page 61] regulations
in their entirety.
By Mr. Rienzi:
Q. And it’s your understanding of the way the foster
care system works that foster care agencies are
allowed to vary their policies for approval of resource
parents, isn’t it?
Mr. Field: Objection to the ambiguity in “agencies”
there, Your Honor.
The Court: Yes. Sustained.
By Mr. Rienzi:
Q. It is your understanding that foster care agencies
that work with the city of Philadelphia are permitted
by state law to vary their policies for approval of foster
families, correct?
Mr. Field: Objection to the extent it calls for a legal
conclusion.
The Court: Overruled. Can you answer that question?
The Witness: I am not sure because irregardless we
have our existing contract that identifies what they
are required to meet.
By Mr. Rienzi:
Q. So is it your position that foster care agencies that
work with the city of Philadelphia are not allowed to
vary their requirements for becoming a foster parent?
[Page 62]

JA 329
The Court: What do you mean by “vary their
requirements”?
By Mr. Rienzi:
Q. There are requirements listed in state law, correct?
A. Yes.
Q. And I apologize. You are aware that there are
requirements in state law for becoming a foster family,
correct?
A. I am aware, yes.
Q. And my question to you is, are agencies allowed to
vary and to add to those requirements?
A. I believe I have answered that. They are required
to follow the contract with the City of Philadelphia
irregardless of what this guide might stipulate.
Q. As I matter of state law, is it your understanding
that they are allowed to treat these as minimum
requirements?
Mr. Field: Objection to the legal conclusion.
The Court: Yes. Sustained. Sustained. I am not quite
sure where — what requirements we are talking
about.
By Mr. Rienzi:
[Page 63]
Q. No one from your agency has come to you to say we
are referring people to a manual that is telling them
the wrong thing, have they?
A. Not that has been brought to my level.

JA 330
Q. And no one has told that you that the City’s website
says anything wrong about being a foster parent
either, correct?
A. We have gotten feedback that the information is
dated.
Q. When?
A. We are in the process of redoing our entire website.
Q. When did you get that feedback?
A. We have gotten that from our staff and we have
gotten that from providers. And I cannot give you an
exact date, but I will tell you in the course of the two
years I have been a commissioner, that it’s regular
feedback that we get regarding our website.
Q. Is any of that feedback related to the language on
your website that says agencies can have slightly
different requirements?
A. I didn’t answer that question.
Q. You did or did not?
A. I did not.
Q. Okay. I am asking you if any of the feedback [Page
64] you have received relates to the sentence on the
city’s website that says each agency has slightly
different requirements.
A. What are you referencing now.
Q. Now I am back at the original website that we
looked at. It says: birth, marriage and life events on
the first page. And then it has this box?
A. Yes, thank you.

JA 331
Q. And you said you have received feedback that the
information on your website is dated. And I am simply
trying to find out whether any of that feedback relates
to the sentence on the web page that says each agency
has slightly different requirements, specialties, and
training programs.
A. It has been general feedback.
Q. No one has specifically told you that that
sentence on your website was wrong?
A. Not that particular sentence.
Q. And as you sit here today, you don’t have any
intention of changing that, do you?
A. I’m certainly going to —
Mr. Field: Objection, calls for speculation.
The Court: Sustained.
Mr. Rienzi: Permission to approach, your [Page 65]
honor.
The Court: Yes.
By Mr. Rienzi:
Q. Handing you a document labeled Plaintiff’s Exhibit
18. And it’s the website from an organization called the
second chance.
A. A Second Chance.
Q. A Second Chance. Are you familiar with a Second
Chance?
A. I am.
Q. What are they?

JA 332
A. They’re a foster care provider agency and they also
do family group decision-making.
Q. What is family group decision-making?
A. It’s basically a teaming process
determination of the progress on a case.

to

help

Q. I would like to direct your attention to the second
sentence in the box at the top of the page under
kinship cares. And it reads: as the only agency in the
country that exclusively delivers services to the entire
kinship triad, child, caregiver, and birth parents, its
approach is pure kinship. Do you see that?
A. I do.
Mr. Field: Your honor, I would object to [Page 66] the
question both on relevance and hearsay. This is not a
DHS document.
The Court: Well, overruled. I am not quite sure where
we are going but —
Mr. Rienzi: I will get there quickly, Your honor.
The Court: Okay.
By Mr. Rienzi:
Q. A second chance says on its website that it
exclusively does kin care, correct?
A. That’s their terminology, yes.
Q. Do you believe it would violate the public
accommodations law for second chance to exclusively
do kinship care?
Mr. Field: Objection, calls for a legal conclusion.
The Court: Sustained.
By Mr. Rienzi:

JA 333
Q. Have you ever investigated a second chance for the
fact that it says it exclusively does kin care?
Mr. Field: Objection to the extent that it assumes DHS
investigates on such subjects.
The Court: Overruled. She can answer.
The Witness: Can you repeat?
By Mr. Rienzi:
[Page 67]
Q. Have you ever investigated a second chance for the
claim on its website that it exclusively does kin care?
A. No, because they serve everybody we send to them.
Q. You didn’t cut off referrals to a Second Chance?
A. They accept everybody we send to them.
Q. You did not cut off referrals to a Second Chance?
A. No.
Q. For Second Chance you decided that what they
actually do is what matters, correct?
The Court: Sustained.
Mr. Field: Objection, Your Honor.
By Mr. Rienzi:
Q. For Second Chance you did not think that you
should cut off referrals simply based on their
statement on the website, correct?
A. Correct. As a marketing document, not a direct
response to a question asked.
Q. Is it your testimony that Second Chance currently
does nonkinship foster care?

JA 334
Mr. Field: Can you repeat the question, please,
counsel?
By Mr. Rienzi:
[Page 68]
Q. Is it your testimony that a Second Chance currently
does nonkinship foster care?
A. That’s not the words I use.
Q. Is that true?
A. Those are not the words I use.
Q. Is — does a Second Chance currently do nonkinship
foster care?
A. Yes.
Q. When did you find that out?
A. I don’t have — I don’t know that I can tell you a
date.
Q. Was it within the last month or further ago than
that?
A. Probably as long as I have known Second Chance.
Q. Which is how long?
A. In my capacity as Commissioner, two years.
Q. Was there a time when Second Chance only did
kinship care?
A. I don’t know.
Q. You never did any investigation to find that out?
The Court: Well, she never did any investigation of
kinship care.
By Mr. Rienzi:

JA 335
Q. To find out whether Second Chance only focused
[Page 69] on kinship care?
Mr. Field: It has been answered, Your Honor.
The Court: It was. Sustained.
By Mr. Rienzi:
Q. Other than your claim that it is in the contract, is
the policy that a foster care agency must provide a
home study to any couple that wants it written down
anyplace else?
Mr. Field: Objection, Your Honor. That is not the
witness’s testimony regarding the contract.
The Court: Overruled.
The Witness: The contract — by the nature of a
contract is you’re bound to the services that you have
agreed to do on behalf of the City of Philadelphia. It
clearly indicates that services include training,
recruitment and certification of foster home.
By Mr. Rienzi:
Q. And the contract does not say to do it for all
families, does it?
A. I think we have already answered that, that it’s —
in this very long document I cannot speak to that
specific.
Q. We will let the contract speak for itself on [Page 70]
that point. Other than the contract, have you ever seen
this policy written anyplace else?
A. Just clarify, what do you mean policy as a specific
policy of who?

JA 336
Q. Your claimed policy that a foster agency must
provide the home study for any prospective family that
wants it?
A. Only as it is required through the contract.
Q. So no, you have not seen it written anyplace but the
contract, correct?
A. I don’t know.
Q. There is no place that you can name for me today
that that is written other than the contract, correct?
A. I can’t answer so I would have to say I don’t know.
Q. Okay. You don’t doubt the sincerity of Catholic’s
religious beliefs, do you?
A. No, I do not.
Q. And I believe you said earlier you don’t doubt that
they are in fact religious, do you?
A. No, I don’t doubt that at all.
Q. And you understand, I believe you testified
yesterday, that Catholic’s position about home studies
Is a religious decision, correct?
[Page 71]
A. Yes, in their view, yes.
Q. And you told Catholic that you would not make an
exception to allow Catholic to choose not to do certain
home studies, correct?
A. My position was that if you remove that individual
community and inserted African American or Latino,
it would not be even a question. So to me it was clearly
discriminatory in nature.
Q. Because to you it’s akin to racism?

JA 337
A. It’s discriminating against a particular community.
Q. I believe you said before that you have no evidence
that any actual gay couple ever asked Catholic to
perform the service, is that correct?
A. Could you rephrase that.
Q. You are not aware of any actual gay couple that
ever asked Catholic to perform a home study, correct?
A. I am not aware.
Mr. Field: Your Honor, I believe that mischaracterizes
the witness’s testimony.
The Court: No, I believe she testified to that already.
By Mr. Rienzi:
Q. But you still won’t make any exception for Catholic?
[Page 72]
A. That they can discriminate against one particular
community?
Q. That they can allow the other 28 or 29 agencies in
the City to do that home study. You will not allow
them an exception, correct?
A. I believe I have answered that. I would not allow
one organization to discriminate in the way that I
would not allow the other 28 to choose then to
discriminate against other communities. It’s certainly
a very dangerous place for the City to enter into to
allow discrimination of any community.
Q. You agree that transferring foster kids from their
homes is not in their best interest, correct?
A. I do agree with that.

JA 338
Q. You agree it would be traumatic to transfer kids
from their foster homes?
Mr. Field: Objection, calls for speculation, Your Honor.
The Court: Overruled. You may answer.
The Witness: That’s not always the case. So it’s not a
yes or no answer.
By Mr. Rienzi:
Q. Your reason — strike that. You have already
testified earlier today and I believe on Tuesday that
you shut down intake at [Page 73] Catholic to protect
the best interest of children, correct?
A. That’s correct.
Q. And the reason — your reason for doing that was
that you didn’t want to place children at Catholic who
might later have to be moved, correct?
A. That is correct, or add additional children that
would have to possibly be moved.
Q. Because moving children from Catholic could be
traumatic for them, correct?
A. As I stated earlier, it’s not a yes or no answer.
Q. Well then, I don’t understand your reason. I
thought your argument was I don’t want to put more
kids there, right? You said you didn’t want to put more
kids at Catholic, correct?
A. I think what I didn’t have a chance to say is that
each case is an individual situation. In generalization,
moving kids is not something that the city wants to
have to do as it relates to a disruption for a child.
Q. And the general reason for that general view that
you don’t want to move kids is what?

JA 339
A. Is that we want to make sure that we maintain the
best interest of the child.
[Page 74]
Q. And for some children it won’t be in their best
interest to be transferred from home to home, correct?
A. Well, we hope in the best interest that we actually
don’t have to move home to home. We believe very
strongly since 50 percent of the Catholic Social
Services are with kin, that kin would want to continue
to take care of their own kin and that they would
transfer to another agency. That’s certainly the
conversation we would have with the other foster
parents who are amazing and also expressed that their
general care — and everybody knows that foster
parents do this because they love the children, and
that would be a very difficult position to have to put a
foster parent, Because ultimately it will be the foster
parents who will have to decide whether or not they
want to move to another foster agency or if they are
willing to no longer have a child in their home.
Q. You heard some of them testify on Monday that
they may not choose to transfer to another agency,
correct?
Mr. Field:
testimony.

Objection,

mischaracterizes

prior

The Court: Sustained.
By Mr. Rienzi:
Q. Were you in the room when the foster mothers
[Page 75] testified on Monday?
A. I was.
Q. You heard them say that they do not want to

JA 340
transfer away from Catholic, correct?
A. I heard they were not sure.
Q. You didn’t hear them say that they don’t want to do
it?
A. They all said that they were not sure. They could
not state at this time.
Q. They all stated that they did not want to, correct?
Mr. Field: Asked and answered, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. They said they were not sure what they would do if
Catholic was shut down, but you agree that they all
expressed a preference to remain with Catholic,
correct?
Mr. Field: Objection, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You said this morning that your reason for closing
intake was to protect the best interest of the children,
correct?
A. Yes, correct.
[Page 76]
Q. That was not your explanation for the freeze at the
time you instituted it, was it?
A. I don’t understand the question.
Q. That explanation as the reason for your freeze was
not the reason you gave at the time, was it?

JA 341
Mr. Field: Objection, gave to whom?
Mr. Rienzi: Anybody.
The Witness: I don’t know. That’s not true. I had
plenty of conversations internally regarding that
matter.
By Mr. Rienzi:
Q. Who did you tell that it was in the best interest of
the children and that’s why you were doing the freeze?
A. My executive team.
Q. And who is on that team?
A. You want me to name all of them?
Q. How big is it?
A. It’s all of the deputies as well as the operational
directors. My team is about 15 people.
Q. For both of our good, I will say no thank you.
A. Okay.
Q. You authorized Commissioner Ali to send the email to CUA leadership on March 26 telling them
about the shutdown, correct?
[Page 77]
A. I did.
Q. And that e-mail did not tell CUA leadership that
the reason for the shutdown was the best interest of
the child, correct?
A. We never provide for the purposes of the providers
the reasons why we are closing intake for any
provider. It’s not fair to that provider to put out their

JA 342
personal business in regards to what is happening to
them.
Q. You didn’t tell Catholic that the reason for the
shutdown was the best interest of the children, did
you?
A. No. We explained that we had to investigate this
further.
Q. And you told them the reason for the shutdown was
the possibility that they would not do a home study for
same-sex couples, correct?
A. Violation of the Fair Practices Ordinance, yes.
Q. Do you understand that some foster mothers and
foster children would be harmed if Catholic is formed
to close — forced to close?
The Court: What do you mean by “harmed”?
Mr. Field: Objection to speculation, Your honor.
The Court: Sustained.
By Mr. Rienzi:
[Page 78]
Q. Did you hear Ms. Simms-Busch testify about how
her children would lose the social worker they have
bonded with if catholic is forced to chose?
Mr. Field: Objection, Your Honor, mischaracterizes
the witness’s testimony. She represented she would
not — she did not know what she would do if Catholic
was forced to close.
By Mr. Rienzi:
Q. Did you hear Ms. Simms-Busch testify that her
children would lose the social worker who has a bond

JA 343
with her kids if Catholic is forced to close? Did you
hear that?
The Court: Overruled. You may answer.
The Witness: Just to clarify, you’re talking about the
social worker versus the foster parent?
By Mr. Rienzi:
Q. Yes. For that question I am talking about the social
worker who Ms. Simms-Busch testified about, the
Catholic social worker.
A. So could you repeat? I just wanted to clarify you
were talking about the social worker.
Q. Sure. You heard Ms. Simms-Busch testify that her
children would lose the Catholic social worker who has
a bond with them if Catholic is forced to close?
[Page 79]
A. I did hear that, yes.
Q. You hear Ms. Paul testify about how she would lose
the ability to rely on the social workers she has trusted
for decades, correct?
A. That is correct.
Q. You heard Ms. Paul testify about how her home is
available right now, correct?
A. I did hear that, yes.
Q. And you heard Ms. Fulton testify about her — how
her children may be transferred away from her if
Catholic closes, correct?
A. Only if she chooses to not transfer to another
agency.
Q. Which she said she might choose to do, correct?

JA 344
A. And she said she was not sure.
Q. But you heard her testify about how her children
might be transferred away from her if Catholic closes,
correct?
A. I heard that they might.
Q. And you heard how DHS in the past has been
unable to find a home for one of those children, correct?
A. No.
Q. You didn’t hear that?
A. I don’t recall that.
[Page 80]
Q. Okay.
A. I mean, if you have it and you would like me to see
the transcript.
Q. That’s fine. At a minimum, all of these foster
mothers would be forced to go to an agency that is not
their first choice if Catholic is closed, correct?
A. That is correct.
Q. Don’t these women have a right to be at the foster
agency that is their first choice?
A. They have the right to be at the foster care agency
they choose.
Q. But if the City forces Catholic to shut down, these
women will not be allowed to be at the agency that
they testified is their first choice, correct?
A. If Catholic chooses not to enter into a full contract,
then yes, they’re going to have to find new homes.

JA 345
Q. And to your knowledge, the only reason that
Catholic would refuse to do that is because the City is
insisting on its policy about doing home studies for
anyone who asks, correct?
A. The City is insisting that Catholic Social Services
comply with their contract.
Q. And the only piece of your view of the contract [Page
81] that you understand to be any problem for catholic
is your insistence that Catholic must provide a home
study for any couple who asks, correct?
A. Can you clarify my insistence?
Q. Sure. So what I am trying to get at is there is a
dispute between you and Catholic about what the
contract means, right?
A. I think there’s a dispute that is beyond just me as
an individual person.
Q. Just to be clear, between DHS and Catholic. I don’t
at all mean to personalize it and say it’s just you.
Other than the issue of doing home studies for every
single couple who asks, you are not aware of any other
reason that Catholic would not enter into a new
contract with you, are you?
Mr. Field: Objection, Your Honor. He is asking about
Catholic’s reasons for doing something, Which the
Commissioner would not know.
The Court: Sustained.
By Mr. Rienzi:
Q. Has Catholic stated any reason to you that it would
be unable to enter into a new contract other than
DHS’s insistence that it must do home studies for
everyone who asks?

JA 346
A. They have indicated they would not comply [Page
82] because they would not certify same-sex couples,
which is a portion of the service that is required to
deliver.
Q. I understand that’s your understanding of the
contract. And I am asking, has Catholic told you there
is anything else that would stop them from entering
into a new contract?
A. Other than complying? No.
Q. Other than that one issue?
A. Other than complying, no.
Q. No. I want — I don’t want the broad word “comply.”
I am asking you a specific question. Have they —
A. Well, if you can’t deliver an element of your contract
then —
Q. I understand your argument. I am asking you —
you have identified one specific problem Catholic has,
the home studies for same-sex couples?
A. It’s a pretty big problem.
Q. I am asking you to tell me if there are any other
problems that Catholic has stated that would stop
them from entering into the contract with you?
Mr. Field: Your Honor, he is asking about whether or
not things would stop Catholic from entering into a
contract.
Mr. Rienzi: Your Honor, I am asking [Page 83] about
negotiations that they have had, and I simply want to
narrow the field and be clear. I think her testimony is
that the only issue that Catholic has raised is this one
issue. And I would just like confirmation that it is not

JA 347
anything else, that — it’s a reasonable question about
discussions she has had.
The Court: Overruled.
The Witness: That was up until yesterday. There has
been testimony provided that was new information to
us that has certainly caused some concern.
By Mr. Rienzi:
Q. I am asking you about Catholic’s negotiations with
you. Has Catholic told you there is anything else that
would stop them from entering into that contract other
than —
A. And I am answering yes, because yesterday they
indicated a new requirement that they have with a
foster parent that we were completely unaware of
until it was provided in testimony by James Amato
yesterday.
Q. You were unaware that Catholic — strike that.
Mr. Rienzi: Permission to approach, Your Honor.
The Court: Yes.
By Mr. Rienzi:
[Page 84]
Q. I am going to hand you a document labeled Exhibit
2, which is — it was an attachment to a brief the city
filed, which is a copy of your declaration. I just ask you
to look at that and tell me if you have seen it before.
A. I have.
Q. And that’s your declaration?
A. It is.
Q. And you signed it?

JA 348
A. I did.
Q. Can you turn to page 6, please. In paragraph 28 you
say that you decided to suspend referrals and you say:
I did this because CSS told us it could not comply with
its contract. Do you see that?
A. I do.
Q. CSS never used the words “could not comply with
its contract,” did it?
A. This is my declaration, so my interpretation of —
Q. That’s what I wanted to be clear on. When you say
could not comply with its contract, that’s your
interpretation, correct?
A. That in consultation with our legal counsel.
Q. That’s fine. But you are not telling the Court that
CSS said it can’t comply with its contract, [Page 85]
correct?
A. Well, they said they won’t deliver a service, so if you
can’t deliver part of your contract, I don’t know how
else to define that.
Mr. Field: Your Honor, I object to this line of
questioning. This affidavit paragraph does not
contradict any of her prior testimony.
Mr. Rienzi: Your Honor, I am not asking her if it does.
I am simply trying to figure out what she meant and
get clarity that when she said CSS told us it could not
comply with its contract, that in fact that’s an
interpretation. That is not what CSS actually said.
The Court: It’s not the words that they used.
Mr. Rienzi: Yes. That’s what I am just trying to get
clarity on.

JA 349
Mr. Field: It was asked and answered, Your Honor.
The Court: I think she has answered.
Mr. Rienzi: Yes.
By Mr. Rienzi:
Q. Right now, intakes are frozen?
Mr. Field: Objection to the characterization of “frozen.”
[Page 86]
By Mr. Rienzi:
Q. I’m sorry. What is the right phrase?
A. Intake is closed.
Q. Intake is closed right now, correct?
A. That’s correct.
Q. Which is easier for the Central Referral Unit,
making a placement to one of Catholic’s homes when
intake is closed or when intake is not closed?
A. It has not had an impact.
Q. I’m sorry?
A. It has not had an impact.
Q. Are you sure of that? It has had no impact?
A. It has not impacted our congregate care or the use
of our child care room. So yes, I am sure of that.
Q. How do you know that?
A. Well, availability of — well, I know that through
data.
Q. How do you know that? What data tells you that?
A. I look at weekly data.

JA 350
Q. And that weekly data tells that you the closure of
intake has had no effect on congregate care?
A. That’s correct.
Q. What do you look at in the data to know that?
A. Look at the number of youth that are in congregate
care and where they are located.
[Page 87]
Q. How do you know that there has been no impact
from the closure of intake?
A. Because the number has remained the same or
reduced.
Q. There’s a lot of variables that go into that number,
aren’t there?
A. Yes. And I have a pretty amazing performance and
technology team that actually have really great
detailed data on this.
Q. Terrific. How many kids are in congregate care
right now?
A. I don’t want to — so we have dependent and
delinquent. And so we are talking about just
dependency. We have somewhere around 715, 17.
Q. Okay. And about how many of those in congregate
care could be living with foster families?
A. I could not say because not all children that are in
congregate care are appropriate for foster care
placement.
Q. But some of them are, correct?
A. It could be.

JA 351
Q. You’ve stated publicly that about 250 of them could
be in family homes, haven’t you?
A. I stated that we would want to work to increase the
amount.
[Page 88]
Mr. Rienzi: Permission to approach, Your Honor.
The Court: Yes.
By Mr. Rienzi:
Q. I am handing the witness a document labeled
Exhibit 19. Ms. Figueroa, I would ask you if you are
familiar with that document.
A. I am familiar with that document.
Q. You read it around the time it came out?
A. I am sure I read it closely.
Q. What is it?
A. It’s a story in regard to our foster care recruitment
effort, which I believe initiated this whole process.
Mr. Field: Your Honor, I just object to this Exhibit. It’s
a newspaper article. It’s not authored by the document
and published by — looks like Philly.com.
Mr. Rienzi: Your Honor, newspaper articles are selfauthenticating under Rule 902. And I am simply
looking to ask the witness a question about a quote
that she gave in the article.
Mr. Field: The quotes from the article would still be
hearsay, Your Honor.
[Page 89]
The Court: Overruled.

JA 352
By Mr. Rienzi:
Q. Ms. Figueroa, if you would turn to page 3 of that
printout. Do you see a box around some language in
the article?
A. Mm-hmm.
Q. Can you read that language aloud, please?
Mr. Field: Counsel, can I just ask whether the box is
in the original publication.
Mr. Rienzi: The box is something I put to indicate —
Mr. Field: Thank you. Sorry about that.
Mr. Rienzi: I put the box on it to indicate the language
I wanted to direct the witness to. The box is essentially
— consider it highlighting, please.
Mr. Field: So this is not the original article.
The Court: To the extent he placed the box around —
Mr. Rienzi: The box was placed on the original article.
The Court: — The sentence.
By Mr. Rienzi:
Q. Commissioner Figueroa, can you read the language
[Page 90] in the box.
A. In Philadelphia about 700 children are in group
home placements. Of those Figueroa said about 250
could be living with families while 450 more need to
stay in staffed facilities due to physical or emotional
needs.
Q. Do you recall talking to that reporter?
A. I do.

JA 353
Q. And you didn’t have any reason to be untruthful to
that reporter, did you?
A. No.
Q. Is that an accurate discussion — description of
what you said to the reporter?
A. Correct, yeah.
Q. So you would say that of the approximately 700
children in group homes approximately 250 could be
living with families, correct?
A. I think that the operative is “could,” as it requires a
court process.
Q. I believe you said you have done some recruiting
recently, is that right?
A. Yes, we have.
Q. And you’ve got about 75 new families sign up?
A. Actually, I just ran the data and it’s well over 200.
Q. Terrific. And are some of those families [Page 91]
already taking care of kids?
A. No.
Q. Why not?
A. Because they are new recruits, they’ve just been
newly certified.
Q. So none of those families are taking care of kids,
correct?
A. I don’t know exactly right now that number, but
those are — as of today we had well over 200 new
recruited families.

JA 354
Q. Terrific. But they are new. And so it takes a little
while before they can start taking care of kids?
A. No. Once they are certified and they’ve completed
the process and have been licensed, they are prepared
to take home.
Q. Do you know how many of them have been licensed?
A. I don’t know. I can’t answer that right now, and I
would highlight though, availability does not
necessarily mean appropriate placement.
Q. How many of those 250 kids have moved out of
congregate care?
A. I don’t understand your question.
Q. You said you told the reporter that about 250 could
be living with families, correct?
A. That is correct.
[Page 92]
Q. I am asking how many of them are still in
congregate care?
A. I also explained that it’s a court process.
Q. I heard that part. I’m asking how many are still
living in congregate care?
A. I said I don’t have the exact number off the top of
my head today.
Q. Do you have a rough number?
A. I believe I gave it to you.
Q. What is the number you gave?
A. I said somewhere around 700, 715.

JA 355
Q. That’s the same number actually that you told the
journalist in March, isn’t it?
A. That is correct.
Q. So the number has not changed?
A. The numbers have not changed.
Q. And you are aware that there are at least a couple
of dozen places available with families through
Catholic social services right now?
A. According to their testimony, yes.
Q. Do you have any reason to think that number is
wrong?
A. I mean, I have not verified the numbers, so I would
hope that what they are saying is accurate.
Q. So if intake was not closed, some of those 250 [Page
93] kids could have been placed at Catholic, correct?
Mr. Field: Objection, calls for speculation, your honor.
The Court: Sustained.
By Mr. Rienzi:
Q. The reason you recruited more foster families is
that you wanted to reduce the number of kids in
congregate care, correct?
A. I stated that to reduce the older population of —
older youth population as well as youth who identify
as LGBTQ who wanted to be in affirming homes. So
we were targeting particular areas.
Q. One of the particular areas you targeted is reducing
the number of kids in congregate homes, isn’t it?
A. That’s older youth, yes.

JA 356
Q. I just want a clear answer if I can.
The Court: She said yes.
Mr. Rienzi: Yes. Okay. Thank you.
By Mr. Rienzi:
Q. But the number of kids in congregate care actually
has not changed since March, correct?
A. I would just highlight that we run a very
complicated system, and so it’s not widgets. It’s not one
for one. Kids are abused every day. They are [Page 94]
neglected every day. They end up in our placement, in
our care, because their families can’t care for them. We
are incredibly fortunate that we have foster care
agencies, but it’s not a one to one. So to assume that
because there is availability will reduce the congregate
care is an overexaggeration of the complication of our
work.
Q. I understand that it’s complicated, and I very much
understand that those kids have been abused and been
through terrible times. I am trying to get clarity on
your previous statements that you want to reduce the
number of kids in congregate care, your previous
statement that 250 could be living with families, and
your statement that there is no impact at all from not
sending any kids to the, say, 25 or so families that are
available in Catholic Social Services. Can you explain
to me how we can connect those dots and make it make
sense?
A. The only dot I could connect is that if we come back
here in three months I’m hoping that all these certified
homes, that we will greatly reduce that number. But
the numbers that I am presenting are the numbers
that the system is dealing with today.

JA 357
Q. And those numbers again are the same as they were
in March?
[Page 95]
A. They have not increased since the closure. So our
need for Catholic Social Services availability certainly
has not impacted the congregate care number.
Q. There are real kids who could be in those homes
right now, aren’t there?
A. I can’t say that without a judicial decision.
Q. You can’t say either way whether there are real kids
who are in congregate homes who could be at Catholic
right now?
Mr. Field: Calls for speculation, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. The reason for your drive was to get families who
could take kids, some of whom are in congregate care,
correct?
Mr. Field: Asked and answered, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. You don’t know either way whether the availability
of those beds in homes with Catholic would help
children?
Mr. Field: Calls for speculation, Your Honor.
[Page 96]
The Court: Sustained.

JA 358
Mr. Rienzi: Your Honor, the entire case is about her
prediction of the best interests of children.
Mr. Field: Mischaracterizes the entire case, Your
Honor.
The Court: Sustained. Sustained.
By Mr. Rienzi:
Q. When there are not enough foster home for kids,
children suffer?
Mr. Field: Objection, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. Too few foster homes can result in children being
moved around?
Mr. Field: Can you repeat the question, counselor?
By Mr. Rienzi:
Q. Too few foster homes can result in children being
moved around?
Mr. Field: Calls for speculation, Your Honor.
The Court: Sustained.
Mr. Rienzi: Your Honor, she runs this system, and I
am trying to figure out the relationship [Page 97]
between the number of homes and the impact on
children. I am simply trying to get her to tell me what
the impact is of too few foster homes. I will try again.
By Mr. Rienzi:
Q. Do you know anything about the impact of not
having enough foster homes?
A. No. I mean, I don’t understand the question.

JA 359
Q. You don’t understand anything about the
relationship between the number of foster homes
available and the well-being of the children in your
care? You don’t know about a relationship between
those two things?
The Court: That wasn’t your question.
By Mr. Rienzi:
Q. Do you know anything about the relationship
between the number of foster homes and the wellbeing of the children in your care?
A. Yes.
Q. And what is that relationship?
A. That we would like to have homes available for
children who are in our care.
Q. More foster homes is better for the kids in your care,
correct?
A. More appropriate foster homes are available for
kids in our care that is in our best interest, yes.
[Page 98]
Q. And you don’t have any reason to think that the
homes certified through Catholic are inappropriate, do
You?
A. No.
Q. Between 2016 and 2017 the State actually put DHS
on a provisional license, didn’t it?
A. It was prior to my arrival. So we — I believe June
of 2017, I am not sure of the exact date, so it was under
a — within less than a year of my tenure that we
received a full license.

JA 360
Q. So when you came in, that was something that
needed your attention, wasn’t it?
A. Yes. I actually took the job having worked in a
nonprofit predominantly because I felt I could make a
significant difference, and the agency was going
through a difficult time.
Q. And one of the reasons it was on a provisional
license was that the state found multiple failures to
apply with applicable state regulations, correct?
Mr. Field: Objection, Your Honor. The witness said she
was not with the agency at that time.
The Court: Sustained.
By Mr. Rienzi:
Q. Part of the reason you took the job was to fix this
problem, wasn’t it, Ms. Figueroa?
[Page 99]
A. It was.
Q. So are you familiar with the scope of the problem
that led to the provisional license?
A. I am familiar with the issues that the state
presented, yes.
Q. And one of those issues was the State saying that
there were multiple failures to comply with applicable
state regulations, correct?
A. I believe that mischaracterizes the licensing
process.
Q. The State told you when it gave you a provisional
license that DHS had failed to comply with State
regulations, didn’t it?

JA 361
A. It cites specific regulations, yes.
Q. And one of the failures was allowing children to
sleep overnight too long in the DHS facility without
adequate and timely placement, correct?
A. That is correct.
Q. Having more foster homes would help you deal with
that problem, wouldn’t it?
A. We got our license back because we reduced the
utilization of the child care room.
Q. You still use it sometimes though, huh?
A. In the event of an emergency when a child arrives
at 2 o’clock in the morning.
[Page 100]
Q. You also use it sometimes when a child doesn’t
arrive in the middle of the night, don’t you?
A. We — the unfortunate times is there is a
tremendous complexity. There’s usually a lot of
intellectual disability or significant violent behaviors
where the child can’t be in a home, and most foster
parents won’t accept children at that hour who have
significant sexual acting out, fire starters, cutters or
have violent tendencies. Those are children that
generally do not end up in a foster home. So just to be
clear, the children who are generally spending
overnight are not kids who end up going into a general
foster care placement.
Q. You keep saying generally. Some of those children
do end up in foster care placement, correct?
A. Some do, yes.

JA 362
Q. And having more homes would make it less likely
that you would have to have children sleeping in the
DHS office, wouldn’t it?
Mr. Field: Objection, calls for speculation.
The Witness: Not necessarily.
By Mr. Rienzi:
Q. But it might, correct?
Mr. Field: Objection, calls for [Page 101] speculation.
The Court: Sustained.
By Mr. Rienzi:
Q. It’s priority for DHS to recruit LGBTQ foster
parents, correct?
A. Affirming homes.
Q. So one of them is to recruit LGBTQ affirming
homes, correct?
A. Correct.
Q. You also have a priority of recruiting more LGBTQ
foster parents, correct?
A. Correct.
Q. You have worked with the Mayor’s Office of LGBT
Affairs on some of that recruitment?
A. Along with other providers, yes.
Q. And so recruiting events can be aimed at particular
segments of the population?
A. At all segments, yes.
Q. They can also be aimed at particular segments,
correct?

JA 363
A. Yes.
Q. Agencies are not obligated to recruit everyone all
the time, are they?
Mr. Field: Objection, Your Honor. That testimony is
not regarding agencies at the moment.
[Page 102]
The Court: Sustained. I think we have been through
this already.
By Mr. Rienzi:
Q. Are you familiar with the Mayor’s Office of LGBT
Affairs?
A. I am.
Q. You follow that office on Twitter?
A. I do.
Q. It’s an office of the City government?
A. It is.
Q. That office exists to help people of particular sexual
orientations?
Mr. Field: Objection, Your Honor, to the extent the
witness is aware of the office’s purpose.
Mr. Rienzi: Yes. I am asking the question.
The Court: If you know.
The Witness: I don’t have the definition of their
mission statement on there, but that sounds about
right.
By Mr. Rienzi:

JA 364
Q. I believe you said when you did your investigation
— and I’m moving back up so I can situate you. This
morning you started your testimony by talking about
your investigation after hearing from the Philly [Page
103] Inquirer reporter. Do you remember that?
A. I do.
Q. When you did that investigation, you only contacted
faith-based foster care agencies, correct?
A. That’s correct.
Q. You did not contact any nonreligious foster care
agencies, correct?
A. Actually, I did speak with one other nonfaith based
foster care agency.
Q. Which one was that?
A. Northeast Treatment Center.
Q. Why did you contact Northeast Treatment Center?
A. I have a good relationship with the CEO and
wanted to ask about their practices.
Q. Did you talk about Catholic’s practices?
A. No.
Q. As to all of the other nonreligious foster care
agencies in the city, you did not call them to ask them
their policy about LGBT couple applicants, correct?
A. No.
Q. Have you ever called nonreligious agencies to ask
them whether they perform home studies for everyone
who asked them?
A. Aside from Northeast Treatment Center, no.

JA 365
Q. Have you ever called nonreligious agencies to [Page
104] tell them they must important perform home
studies for everyone who asks them?
A. No.
Q. Have you ever called nonreligious agencies to ask if
they ever refer home studies to another agency?
A. No.
Q. You had a meeting with James Amato in or around
March 15th, correct?
A. That’s correct.
Q. Where did that meeting take place?
A. In Deputy Commissioner Ali’s conference room.
Q. That’s a government office?
A. It is.
Q. And who attended for the City at that meeting?
A. It was myself, Deputy Commissioner Ali, our
attorney was present, and Jim Black, James Amato,
as well as counsel for the Archdiocese attended.
Q. Did you take notes?
A. I don’t recall.
Q. Do you recall if anyone else did?
A. I believe our legal counsel did.
Q. At that meeting you told Catholic that times have
changed, didn’t you?
A. I did.
Q. And you told them that it’s not 100 years ago [Page
105] anymore, didn’t you?

JA 366
A. Catholic Social Services indicated that they had
been doing this service for 100 years. And I explained
that women didn’t have the rights and African
Americans didn’t have the rights, and I probably
would not be sitting in the room if it was 100 years ago.
Q. You explained to them that it was not 100 years ago
anymore, correct?
Mr. Field: Asked and answered.
The Witness: I indicated, yes, things have changed
since 100 years ago.
By Mr. Rienzi:
Q. You told Catholic that they should listen to Pope
Francis, did you not?
A. I said it would be great if we followed the teachings
of Pope Francis, the voice of the Catholic Church.
Q. You told Catholic that they should not listen to
Archbishop Chaput on this issue, correct?
A. I don’t believe those were my words.
Q. So on one hand you said it would be great if we
would listen to Pope Francis, correct?
A. Um-hum.
Q. Was there anyone on the other side you were saying
they should listen to Pope Francis instead of?
[Page 106]
A. I stated the first part of that, that, you know, it
would be great if we listened to the teachings and the
words of our current Pope Francis.
Q. And you said that they should not listen to the
Archdiocese on this issue, correct?

JA 367
A. I answered this. I don’t recall what I said
specifically.
Q. Okay. So you know you said we should listen to
Pope Francis, but you don’t recall saying anything
about who would be listening to Pope Francis —
Mr. Field: Asked and answered.
The Witness: I don’t recall saying the Archbishop.
By Mr. Rienzi:
Q. Do you recall saying the Archdiocese?
The Court: Overruled.
The Witness: No.
By Mr. Rienzi:
Q. Do you recall saying anyone else in distinction with
Pope Francis?
A. No.
Q. You told them that the home study issue was
getting attention at the highest levels of City
government, didn’t you?
A. I did.
[Page 107]
Q. Okay. And you were referring in part to the Mayor
when you said that, correct?
A. And my chain of command, yes.
Q. So when you said that, you were referring to
yourself as the highest levels of City government?
A. Certainly the Managing Director’s Office. So in the
City Charter I report in to the Managing Director’s
Office and subsequently the Mayor.

JA 368
Q. You had discussed this issue with the Mayor before
your meeting with Catholic, correct?
A. Briefly.
Q. What did you say?
A. I said that I am working to address the issues.
There is a number of children, and that we will brief
him once we have made decisions about moving
forward.
Q. What did the Mayor say?
Mr. Field: Objection, assumes facts not in the record.
The Court: Sustained.
By Mr. Rienzi:
Q. Did the Mayor answer you?
Mr. Field: Objection, assumes facts not in record.
Mr. Rienzi: It’s simply a question, Your Honor. She
said what she told the Mayor. I am asking [Page 108]
what the Mayor said back.
Mr. Field: Objection, hearsay.
The Court: Sustained.
Mr. Rienzi: The City is a defendant,
Your Honor. The Mayor is the Mayor of the City. It’s
an admission, Your Honor.
The Court: Sustained.
Mr. Field: Objection as well to the extent there was
counsel present.
By Mr. Rienzi:

JA 369
Q. Did you know the Mayor’s views by the time you sat
down to meet with Catholic?
A. No.
Mr. Field: Objection, calls for speculation.
The Court: She has answered.
By Mr. Rienzi:
Q. Did you discuss cutting off intake with the Mayor’s
Office?
A. No.
Q. The Mayor is your boss?
A. He is the head of the City. My direct boss is Eva
Gladstein.
Q. Who is Eva Gladstein’s boss?
A. Mike Diberadinis.
[Page 109]
Q. Who is his boss?
A. The Mayor.
Q. Who appointed you?
A. The Mayor.
Q. Do you consider yourself part of the Mayor’s
administration?
A. I do.
Q. You know the Mayor’s views about the Archdiocese?
A. I do now.
Q. When did you learn the Mayor’s views about the
Archdiocese?

JA 370
A. Through this litigation.
Q. You know that he does not like the Archdiocese very
much, correct?
A. I understand what has been presented, yes.
Q. Do you doubt the truthfulness of what has been
presented?
The Court: In regard to —
Mr. Rienzi: The Mayor’s views on the Archdiocese.
The Witness: I’m sorry. Can you repeat what you are
asking me.
By Mr. Rienzi:
Q. When you said you know what has been presented.
[Page 110] And I guess I am asking, do you doubt the
truthfulness of what has been presented? It’s a little
difficult because you’re saying you know what’s been
presented — I will ask you this. When you say I know
what’s been presented, what are you referring to?
A. I’m referring to the exhibits that you guys provided
in this submission.
Q. Okay.
Mr. Rienzi: Permission to approach, Your Honor.
The Court: Yes.
The Witness: The date of my wedding anniversary.
Mr. Field: Multiple points, but I would like to start
with an offer of proof on this.
Mr. Rienzi: Sure. She’s appointed by the Mayor. She is
a member of the Mayor’s administration. I think her
boss’s views on the religious entity that is at issue here

JA 371
are highly relevant to the religious discrimination
claim.
Mr. Field: Your Honor —
Mr. Rienzi: I’d like to finish, please.
Mr. Field: Yes.
Mr. Rienzi: She follows Mayor Kenney on Twitter and
I am showing some of his public statements [Page 111]
on twitter about the Archdiocese and about the Pope,
who she told the Archdiocese in a government building
who they should listen to. It’s highly relevant, Your
Honor.
Mr. Field: Your Honor, this statement is from 14th of
November 2014. The witness testified she learned
about this material through plaintiff’s filing in this
litigation. I am not clear how it’s relevant to the
timeline of the questions that counsel is asking her.
The Court: I’m going to sustain the objection.
By Mr. Rienzi:
Q. Ms. Figueroa, what do you know about the Mayor’s
views about the Archdiocese, other than what you
have learned in this case?
A. None.
Q. Nothing. So until this case you had no idea of the
Mayor’s views about the Catholic Church?
A. That’s correct.
Q. You follow Mayor Kenney on Twitter?
A. I follow a lot of people on Twitter, yes.
Q. And you follow Mayor Kenney on Twitter?
A. I do.

JA 372
Q. When you see at the top of that document it says
[Page 112] Jim Kenney, at Jim S. Kenney—
Mr. Field: Your Honor, this document is not in the
record. I’ve already objected to it.
The Court: And I sustained the objection.
Mr. Rienzi: And I’m just asking her to tell me if she
recognizes the Twitter handle as one that she follows.
The Witness: I’ve followed the mayor since he became
mayor, so I would not have been privy to this one.
By Mr. Rienzi:
Q. When did you get on Twitter?
Mr. Field: Objection to the relevance of this entire line
of questioning, Your Honor.
The Court: Sustained.
Mr. Rienzi: Your Honor, I would like to make an offer
of proof about the documents from the mayor’s Twitter
account. I understand that you rejected that. I would
just like to make an offer so that it is in the record.
May I do that?
The Court: Yes.
Mr. Rienzi: My offer of proof is as follows, Your Honor.
I would like to question the witness about several
statements her boss, the mayor, [Page 113] has made
about the Archdiocese and the Catholic Church. And
there are just several tweets that I propose to ask the
witness about. The first one is from November 14th,
2014 saying: The Arch don’t care about people. It’s
about image and money. Pope Francis needs to kick
some a-s-s here.

JA 373
The second one is a tweet from the mayor from June
25th, 2012 that says: I could care less about the people
at the Archdiocese.
The next one is a tweet from July 6th, 2016 saying
that: Archbishop Chaput’s, quote, actions are not
Christian.
And our argument about the relevance of those
documents, Your Honor, is simply that this is a case
about religious discrimination. These are statements
from the witness’s boss. And several cases quite
recently, actually, including some that may get cited
by the Supreme Court this morning, have taken
judicial notice of and allowed introduction of tweets
from executives, Office of the President of the United
States. And I would just point the Court to
International Refugee Assistance Project versus
Trump, in the 4th Circuit, 883 F.3rd 233;
Commonwealth v. Bradsheer in Pennsylvania
Superior Court 2016 WL 7495120; and Hawaii v.
Trump, which for all I know has [Page 114] been
decided by the Supreme Court this morning. Our
argument is that in a religious discrimination case
about religious discrimination by the city against the
Archdiocese, that the witness’s boss’s views on the
Archdiocese are highly relevant.
Mr. Field: Your Honor, I renew my objection of these
documents that were addressed at sidebar yesterday.
I would like to try to introduce them and the
periodization of my prior objection does not change.
These all predate the decision at issue and the witness
has already testified that she was not aware of this
information at that time.
The Court: So the objection is sustained.

JA 374
By Mr. Rienzi:
Q. You testified yesterday that part of your job is
complying with state mandates, correct?
A. That is correct.
Q. And one of those state mandates is Pennsylvania’s
Religious Freedom Protection Act, correct?
A. That is correct.
Q. And you know you have obligations under that law,
correct?
A. I do.
[Page 115]
Q. What are your obligations under that law?
A. I don’t know that off the top of my head so....
Q. Okay. What does the department do to ensure that
it complies with that law?
A. I am not sure. I don’t know.
Q. Do you understand that under state law you can
only burden someone’s religious exercise if you have a
compellingly important reason?
Mr. Field: Objection, Your Honor. She already said she
was not aware of her obligations under that law.
Mr. Rienzi: I don’t believe that’s what she said.
The Court: Overruled.
Mr. Rienzi: I believe she said she is aware.
The Court: Overruled.
By Mr. Rienzi:

JA 375
Q. Are you aware that under the Religious Freedom
Protection Act DHS can only burden someone’s
religious exercise if they have a compellingly
important reason?
A. Do I understand is the question?
Q. Do you understand that that’s your obligation?
A. I understand that, yes.
Q. Have you done anything to ensure your compliance
[Page 116] with that obligation?
A. I am not sure that I understand the question.
Q. As you run your department, do you do anything to
make sure that you don’t burden people’s religious
exercise?
A. Yeah, I am not sure I know how to answer that
question.
Q. Can you name anything that your department does
to ensure that it doesn’t burden people’s religious
exercise?
A. Sure. We don’t pray before our meetings.
Q. Okay. What else?
A. We don’t have any religious artifacts in our offices.
We don’t require our staff to sign a pastoral reference
to work at the department. I think those are some
general examples of what the city would not do as a
city employee.
Q. You know that your boss, the mayor, has taken a
public position that he does not like religious freedom
laws, like the Religious Freedom Protection Act?
A. I don’t know that personally.

JA 376
Q. You don’t know anything about his views on
religious liberty laws?
A. I have answered that based on what you have
presented here, but not what you are asking.
[Page 117]
Q. The mayor never told you that enforcing the
Religious Freedom Protection Act is a priority of his
administration?
Mr. Field: Objection, Your Honor. What is the
relevance of this line of questioning?
The Court: Sustained.
Mr. Field: Move to strike.
The Court: Well, she has not answered.
By Mr. Rienzi:
Q. You have asserted that you have an interest in
complying with the city’s Fair Practices Ordinance,
correct?
A. Yes.
Q. And you testified yesterday that you are responsible
for meeting federal mandates related to child welfare
work, correct?
A. That’s correct.
Q. You received federal TANF funding—that’s
temporary aid to needy families funding—for your
foster care program, correct?
A. That is correct.
Q. DHS has to make statements to the federal
government about its compliance with TANF
regulations to receive that money, correct?

JA 377
A. That is correct.
[Page 118]
Q. When was the last one you filed?
A. I have no idea. My finance team does that.
Q. Do you know who signs that?
Mr. Field: Objection to relevance, Your Honor.
Mr. Rienzi: I will get to that in a second, Your Honor.
The Court: Overruled.
The Witness: They are prepared by the finance
department, and I sign the TANF document that gets
submitted.
By Mr. Rienzi:
Q. And you don’t know when the last one you signed
was?
A. I don’t recall the date.
Q. Do you remember roughly?
A. No.
Q. Do you remember if it was before or after closing
intake at Catholic?
A. That I definitely don’t know.
Q. Okay. Are you aware that under federal funding
requirements you have an obligation not to interfere
with a religious organization’s definition, practice or
expression of its religious beliefs?
Mr. Field: Objection to the extent it [Page 119] calls
for a legal conclusion.
The Court: Overruled. She can answer.

JA 378
The Witness: To the extent the Department of Human
Services—so we are a state licensed county
administered so the county administration can
indicate its delivered child welfare services, so while
there’s federal funding and state funding, it is a county
run system.
By Mr. Rienzi:
Q. You make certifications to the federal government
about your compliance with TANF regulations,
correct?
A. That’s correct.
Q. That includes certifying that you follow federal law
associated with those finds, correct?
A. Yes.
Q. And are you aware that one of the federal laws
associated with receiving those funds, which you
certify that you follow, requires you to allow religious
groups to retain independence in the definition,
practice and expression of their religious beliefs?
A. Yes.
Q. But you don’t know whether you have made that
certification since the intake closure at Catholic?
A. I don’t. They happen quarterly, so I don’t [Page 120]
recall when the last—and it’s not on a regular
standing schedule.
Q. When you signed the last one, did you do any
analysis of whether you had violated it by closing
intake at Catholic?
Mr. Field: Objection, assumes facts not in record.
The Court: Yes, sustained.

JA 379
By Mr. Rienzi:
Q. Have you thought about whether you violated your
TANF funding requirements to the federal
government by closing intake at Catholic?
A. Have I had a thought about it?
Q. Have you ever thought about that?
A. I can’t say that I have thought about that.
Q. Okay. And I suppose you have not figured out what
you are going to say the next time you have to make
that certification?
A. Well, certainly—
Mr. Field: Objection, calls for speculation.
The Court: Sustained.
By Mr. Rienzi:
Q. Do you know what the consequences are of making
false statements to the federal government in the
[Page 121] context of federal funding?
A. Not off the top of my head.
Q. Do you know that your agency could lose its federal
funding if it makes false statements to the federal
government about its compliance with TANF
regulations?
A. That sounds probably about right.
Q. You understand you do have an obligation to obey
federal law?
A. I do.
Q. Would you agree with me that it’s a compellingly
important interest of yours to obey federal law?

JA 380
The Court: Compelling?
Mr. Rienzi: Compelling.
By Mr. Rienzi:
Q. How about, would you agree with me you have a
really important—
Mr. Field: Objection, calls for a legal conclusion, Your
Honor.
By Mr. Rienzi:
Q. Would you agree with me that you have a really
important interest—
Mr. Field: Asking for an offer of proof of this line of
questioning, Your Honor.
The Court: She says she has an interest.
[Page 122]
Mr. Rienzi: In following federal law? Did I get that
answer? I apologize.
The Court: She did.
The Witness: I did.
Mr. Rienzi: Terrific. Thank you.
By Mr. Rienzi:
Q. Has DHS informed the federal government about
its intake freeze at Catholic?
A. No. We informed the state.
Q. But you have not informed the federal Department
of Health and Human Services who administers your
TANF funding?

JA 381
A. The state actually works with the feds in regards to
our TANF funding.
Q. Do you know if the state has informed the federal
government about—
A. I don’t.
Q.—your intake closure?
A. I don’t.
Mr. Rienzi: If I can just have a brief minute, Your
Honor.
The Court: Yes.
(Pause.)
The Court: Counsel, how long will you be? We need to
take a break.
[Page 123]
Mr. Rienzi: Your Honor, can we take a very short
break however long you want, and I will be ready by
the time you say we should go.
The Court: We will take a five minute recess.
Mr. Rienzi: Thank you, Your Honor.
The Clerk: All rise.
(Break taken.)
The Court: You may be seated. Good afternoon,
Counsel. You can continue.
Mr. Rienzi: Thank you, Your Honor.
By Mr. Rienzi:
Q. Ms. Figueroa, earlier you said that you thought
Catholic violated the contract and you referred to the

JA 382
Fair Practices Ordinance portion of the contract. Do
you recall that?
A. They didn’t comply with the contract.
Q. Yes. And you said one of the portions you believe
they did not comply with is the Fair Practices
Ordinance part of the contract, is that correct?
A. Yes, that’s right.
Q. Can I direct your attention—
Mr. Rienzi: May I approach, Your Honor?
The Court: Yes.
By Mr. Rienzi:
[Page 124]
Q. I just don’t know what exhibit number the contract
is. So page 97 of Exhibit 15, please. I would
particularly like to direct your attention to Paragraph
15.1.
A. Yes.
Q. And just ask, is that the provision you had in mind
when you testified earlier?
Mr. Field: Objection to the extent it calls for a legal
conclusion.
The Court: Overruled.
The Witness: I’m sorry.
By Mr. Rienzi:
Q. Is 15.1 the provision you had in mind earlier when
you said Catholic had violated the Fair Practices
portion of the contract?

JA 383
Mr. Field: Objection. It mischaracterizes the witness’s
testimony. I don’t believe she said she had a specific
provision in mind, Your Honor.
The Court: Well, the question is, is that the provision?
The Witness: 15.1 references the Fair Practices
ordinance.
By Mr. Rienzi:
Q. Is that the provision you had in mind when you
[Page 125] said that you thought they violated the Fair
Practices portion of the contract?
A. This is one reference to the nondiscrimination fair
practice.
Q. You don’t know either way whether this is the
provision you had in mind?
A. I think we visited the fact that this is a very long
document and so without going into every single page
where else it’s referenced I cannot cite right now.
Q. But you don’t know any other one that you were
thinking of before?
A. That’s not what I said.
Q. I’m sorry. I am just trying to get a sense of what you
were thinking of when you told me that they violated
the Fair Practices portion of the contract.
A. That’s the Fair Practice Ordinance itself, and I also
referenced to the services portion of their contract and
the definition of services.
Q. Nothing else that you can think of?
A. As it relates to what?

JA 384
Q. As it relates to your claim that Catholic violated the
contract.
A. I don’t think that’s actually what I said. I said
that—if we are talking about intake closure or in
terms of the making of this decision. Could you be
[Page 126] more clear?
Q. We are talking about your claim earlier that
Catholic violated the contract.
A. I didn’t use the term. I said that they were—
inability to comply, and I said that it was clear that
they could be violating.
Q. So you are not sure whether you think Catholic has
violated this contract yet?
A. Well, they have issued statements clearly their
position.
Q. But it’s possible they have not violated the contract
yet?
Mr. Field: Objection to the extent it calls for a legal
conclusion, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. Is your testimony that they have violated it or that
they might violate the contract?
A. Are you asking my opinion as of right now or are
you asking you me my opinion as it relates to closing
intake?
Q. As it relates to closing intake. Was your opinion
that they had violated the contract or might violate the
contract?

JA 385
A. When I closed intake it was that they may have
[Page 127] violated their contract.
Q. And have you come to the view or have you come to
a view as to whether the failure to do home studies for
same-sex couples that you cited earlier is a violation of
the contract?
Mr. Field: Objection, to the extent it calls for a legal
conclusion, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. Do you have a view today as to whether Catholic’s
position on not doing home studies for same-sex
couples is a violation—
Mr. Field: Objection, to the extent it calls for a legal
conclusion, Your Honor.
The Court: Sustained.
Mr. Rienzi: Your Honor, she signed this contract. I am
just asking her whether she thinks it has been violated
or might be violated. Those are two very different
things, and she is the signer of the contract.
Mr. Field: Your Honor, he can ask her about her view
of home studies and Catholic’s obligation, but he’s
asking for a legal determination under the contract,
which speaks for itself.
The Court: Sustained.
[Page 128]
By Mr. Rienzi:
Q. Does DHS have a position about whether Catholic
has violated this contract in regards to home studies
for same-sex parents?

JA 386
Mr. Field: Same objection, Your Honor.
The Court: Sustained.
By Mr. Rienzi:
Q. Do you understand under this contract that the
Fair Practices Ordinance only applies if foster care is
a public accommodation?
Mr. Field: Objection, to the extent it calls for a legal
conclusion, Your Honor.
The Court: Yes, sustained.
By Mr. Rienzi:
Q. Do you understand that the direct prohibition of
discrimination, 15.1, only applies to race, color,
religion and national origin?
Mr. Field: Objection, calls for a legal conclusion, Your
Honor.
The Court: Sustained.
Mr. Rienzi: Your Honor, if I may argue the point for a
moment.
The Court: No.
By Mr. Rienzi:
Q. Ms. Figueroa, you testified earlier that the CRU
[Page 129] referral process—strike that. You testified
earlier, I believe, that there has been no impact on the
CRU referral process from the closure of intake, is that
correct?
Mr. Field: Objection, mischaracterizes the witness’s
testimony.
The Court: Overruled. She can answer.

JA 387
The Witness: I don’t believe that’s what I said.
By Mr. Rienzi:
Q. Has the intake closure made it more difficult for
CRU to place children with families through Catholic?
A. No.
Q. And your reason for saying no is that you have set
up a process by which people can ask DHS to make
exceptions, is that correct?
Mr. Field: Objection, Your Honor. If I can just ask for
a clarification if counsel is talking about Catholic CUA
or Catholic Social Services.
Mr. Rienzi: Catholic Social Services.
The Court: Okay. You may answer.
The Witness: Can you repeat the question.
By Mr. Rienzi:
[Page 130]
Q. Sure. You have closed intake at Catholic Social
Services, correct?
A. Foster care.
Q. Foster care intake at Catholic Social Services,
correct?
A. That’s correct.
Q. And I believe your testimony is that there has been
no impact on the ability of the CRU to place children
in families working with Catholic, is that correct?
A. No. I don’t understand the last part of your
question.

JA 388
Q. The closure of intake makes it harder to place
children in families through Catholic, correct?
A. The closure of intake makes it harder for CRU?
Q. Yes.
A. No.
Q. Why do you say no?
A. Because we have not seen an impact in our number
of availability or the impact it’s had on congregate care
or the use of the child care room.
Q. When you’ve placed children at Catholic during the
closure of intake, that has not been through the
normal CRU referral process, has it?
Mr. Field: Objection to the [Page 131] characterization
of the normal process, Your Honor.
The Court: Overruled.
The Witness: Repeat the question.
By Mr. Rienzi:
Q. When you have placed children in families through
Catholic during the intake closure, that has not
occurred through the usual CRU referral process,
correct?
A. Do you mean in terms of having a waiver or an
exception related to special cases?
Q. I would like you to compare what it was like before
the intake closure to what it is like now.
A. I am not sure what you are asking me to compare.
Q. Before the intake closure did you or Ms. Ali need to
be consulted every time a child would be placed with
Catholic?

JA 389
A. We’re consulted every time there is a congregate
care placement, yes.
Q. Did you and Ms. Ali need to be consulted every time
there was a placement with Catholic before intake
closure?
A. Not every time.
Q. After the intake closure you or Ms. Ali must be
contacted every time there is a placement with
Catholic, correct?
[Page 132]
A. That’s correct, along with other providers that have
their intake closed.
Q. Who else has their intake closed?
A. Can we publicly say that, since there’s – I mean,
that’s not something we—I am just asking.
Q. I don’t know the answer to that. I am happy to –
Mr. Field: Your Honor, can we have a minute?
Mr. Rienzi: Let me ask a more general question to see
if I can—
By Mr. Rienzi:
Q. You have already mentioned Bethany as having an
intake closure, which I believe is a publicly known fact,
correct?
A. That’s correct, and there is, I believe, at least two to
three other organizations right now that have their
intake closed.
Q. Thank you. You spoke before about a waiver or
exceptions policy, correct?
A. Practice, yes.

JA 390
Q. Okay. Is there any written policy that governs how
that practice works?
A. No.
[Page 133]
Q. How does that process work?
A. Practice or process—practice?
Q. How does your waiver or exceptions practice work?
A. We right now are generally notified directly by
the—either the on-call director if it’s during the day. If
it’s a staff member the CRU elevates it through—to
my e-mail as well as to Commissioner Ali.
Q. But you don’t have any written policy that governs
how you decide whether to make an exception?
A. There are a number of things that we do in practice
that we don’t have a specific policy for.
Q. And this is one of them. You do not have a written
policy on this.
A. That’s correct, yes.
Q. You just make individualized assessments of what
is the right thing to do in a particular circumstance. Is
that fair?
A. It’s fair to say that we treat each child individually,
yes.
Q. And for this exceptions process you make
individualized assessments, correct?
A. That’s correct.
Q. You have never communicated your waiver policy
to—strike that.

JA 391
[Page 134]
You have never communicated your waiver policy in
writing to the various CUA’s, correct?
A. There was an e-mail sent by Ms. Ali informing them
regarding the insurance that CRU had to do all of the
placements.
Q. And—I’m sorry. Is your testimony that that e-mail
informed them—and I don’t mean to make you guess.
Would you like me to get the e-mail?
A. No. You guys entered it into evidence yesterday
with the e-mail that was sent from Stacy Boyd for the
direction of Ms. Ali to the CUA leadership.
Q. Right. We are talking about the same e-mail. At a
certain point if you need to see it, let me know. I don’t
want to—it’s not quizzing your memory.
A. Sure.
Q. That e-mail said nothing about an exceptions
policy, correct?
A. I think—actually, if we are going to talk specifically
about the e-mail, I would like a copy.
Q. Sure. This has been previously marked as an
exhibit. I don’t know the number.
Mr. Field: It’s Exhibit 3.
By Mr. Rienzi:
Q. And Ms. Figueroa, is this the e-mail that you and I
were talking about a moment ago?
[Page 135]
A. This is, yes.

JA 392
Q. This e-mail does not inform CUA leadership about
the availability of exceptions, correct?
A. It says if you have questions about a case, please
contact me by phone or e-mail.
Q. It doesn’t say any exceptions will be granted,
correct?
A. It says if you have a question—
Q. I agree.
A.—about a case.
Q. It does not say exceptions will be granted, correct?
A. No, it does not say that.
Q. It does not inform them on what basis you might
make an exception, correct?
A. No, it does not.
Q. And you have no way of knowing whether your
office is actually being notified of all the situations in
which, for example, there could be a sibling placement,
correct?
A. I am not sure if that’s accurate. There’s a lot of
communication that happens verbally with our CUA’s
through both the director and supervisory meetings.
So we talk about placement disruptions pretty
significantly with our CUA’s.
[Page 136]
Q. As you sit here under oath, you don’t know either
way whether your office gets told about all of the
possible sibling placements, correct? You just don’t
know?
A. True.

JA 393
Q. And you don’t know if you find out about all of the
situations where there is a prior foster care parent as
with Doe Child Number 1, correct?
Mr. Field: Objection, to the extent that it characterizes
Doe Child Number 1 placement.
The Court: I am going to sustain the objection.
By Mr. Rienzi:
Q. You said earlier that you had offered Catholic the
ability to enter into the same full contract. Is that
what you said?
A. I said we offer them opportunity to enter into a full
contract.
Q. It’s not the same full contract that they have
previously entered into?
A. For the same services?
Q. Yes. In other words, you would be changing—
A. It is for the same services.
Q. I am going to hand you a document which has
previously been marked as Plaintiff’s Exhibit 13. And
[Page 137] that’s a letter from the law department,
who are your lawyers in this case, correct?
A. Yes. This is the letter prior to sending the Award
letter. So this is dated in regards to the line of
questions you are asking me.
Q. I would like to turn to page 2 of that document,
please. In the third full paragraph from the top, the
last sentence of that paragraph reads: we believe our
current contract with CSS is quite clear that this is all
right.
A. Did you say second or third paragraph?

JA 394
Q. Third paragraph from the top, second page, third
paragraph from the top. The paragraph begins “please
also note.”
A. Sorry, that’s page 3.
Q. I apologize. Sorry about that.
A. Go ahead. Sorry.
Q. The last sentence of the third paragraph reads: We
believe our current contract with CSS is quite clear
that this is all right, but please be advised that any
further contracts with CSS will be explicit in this
regard. Do you see that?
A. I do.
Q. And any future contract that you enter into with
CSS you have told CSS you plan to have a more
explicit [Page 138] discrimination policy in that
contract, correct?
A. The clarity regarding the policy will be made
available to all contracted providers, not just CSS.
Q. And when you said Bethany is going to enter into a
new contract, that new contract is not the same as
their old contract, is it?
A. It is the same contract with explicit language
defining the expectations.
Q. So it’s the same, but with different language on the
key issue, correct?
Mr. Field: Objection to the reference “key issue,” Your
Honor.
The Court: Sustained.
By Mr. Rienzi:

JA 395
Q. It’s the same with different language that is being
changed in order to more directly address the question
of home studies for same-sex foster couples, correct?
A. Can you repeat that?
Q. Sure. I am trying to figure out the contract that you
were saying before that DHS would give Catholic is
the same full contract they had before or is a changed
contract on the nondiscrimination issue?
A. I don’t have the contract in front of me, but just to
repeat what was shared with Catholic Social [Page
139] Services, it would be explicit in regard, in terms
to what is required.
Q. The current contract is not explicit, correct?
A. I believe right, it means providing further clarity.
Q. In the past you have frequently let agencies
continue for months after the expiration of a contract,
is that correct?
A. When there is a renewal expected and it’s been
cleared by both the provider and the city that the
expectation is to move forward in compliance with that
contract, yes.
Q. And in those situations sometimes you operate for
months under the old contract?
A. That is correct.
Mr. Field: That calls for a legal conclusion, Your
Honor.
The Court: Overruled.
By Mr. Rienzi:

JA 396
Q. You talked earlier about possibly changing contract
terms to shift from per diem to cost reimbursement.
Do you recall that testimony?
A. That was an example what we did with a provider
that was closing, yes.
Q. In that circumstance you are not doing any new
[Page 140] referrals, is that correct?
A. That’s correct.
Mr. Rienzi: My last question and I want to make one
proffer, one last document, Your Honor.
By Mr. Rienzi:
Q. My last question, though, is, I believe we talked
before about whether you spoke with the mayor. And
I just want to be clear. Have you had any
conversations with anyone in the mayor’s office about
whether this conflict with the archdiocese is politically
useful?
Mr. Field: Objection to the scope of the question, Your
Honor.
The Court: Yes, sustained.
Mr. Rienzi: Your Honor, my one proffer. There is one
additional Mayor Kenney tweet that I just want to
make the proffer on. I understand that it will almost
certainly be covered by your prior ruling. May I just
make the offer out loud?
The Court: Yes.
Mr. Rienzi: It’s a April 9, 2015 tweet by Mayor Kenney
at Jim F. Kenney. It says: love this, hashtag
Philadelphia council, invite all affected by RFRA laws

JA 397
to city of brotherly love, ranked the number one
hashtag LGBT friendly by HRC.
[Page 141]
And my argument would simply be this, is Ms.
Figueroa’s boss demonstrating that he does not like
religious freedom laws very much.
The Court: Okay, if that’s your argument.
Mr. Rienzi: I have put it in the record, and I am done.
Thank you very much, Ms. Figueroa.
The Court: Okay. Any redirect?
Mr. Field: Just a few questions, Your Honor.
Redirect examination by Mr. Field:
Q. Commissioner Figueroa, I will try and be brief.
When you started your testimony two days ago now,
you talked about the Jesuit—you worked for the Jesuit
volunteer corps in your faith. Just to clarify for the
record, if you are comfortable, would you mind
specifying your religious faith?
A. Sure. I am Catholic. I have been born and raised
Catholic and I practice as a Catholic and Jesuits are
an order, a denomination of priesthood.
Q. Thank you.
If you could turn for a moment to the exhibit that has
been entered as P 13. Counsel was just [Page 142]
showing it to you. This is the letter –
A. This one, yes. It was not marked. I’m sorry, this
one?
Q. Yes.

JA 398
Mr. Field: And I believe, counsel, this was entered as
P 13 from yesterday?
Mr. Rienzi: I believe so.
Mr. Field: Thank you.
By Mr. Field:
Q. I will represent it is Exhibit P 13. It’s a letter dated
May 7th to Mark Rienzi, counsel here, from Valerie
Robinson, chair of corporate and tax group. Is Ms.
Robinson one of your counsel with the city?
A. Yes.
Q. And were you consulted in and involved in this
letter?
A. Yes. The law department prepared this letter.
Q. Yes. Thank you. If you can turn back to the second
page that Mr. Rienzi had you reading from.
A. The second or the third?
Q. Third page, excuse me.
A. Just making sure.
Q. There are no numbers on this one. And the
paragraph that is from the—the fourth from the
bottom that starts: family equality is both a legal
[Page 143] requirement and an important city policy
and value that must be embodied in our contractual
relationships.
A. Um-hum.
Q. Can you read me what it says, the last portion of
that paragraph that starts “on a related note.”
A. On a related note, contrary to the discussion in your
letter regarding DHS’s practices concerning siblings,

JA 399
because the best interests of the children in our care
are paramount, we did recently grant an exception to
cessation of CSS’s referrals in that instance to assure
that siblings were placed together, and we expect the
best interest of children will remain paramount
throughout any transition.
Q. As DHS Commissioner in all of the communications
you are involved in and responsible for, do you have
any reason to think there has ever been any lack of
clarity about your department’s granting exceptions in
the cases of kinship and siblings?
A. No. I think we have been pretty clear.
Q. Thank you. Just one last issue. Earlier in your
cross-exam testimony you mentioned hearing new
testimony on Tuesday for the—about an issue for the
first time that caused you some concern. What was
that testimony?
A. The testimony was by James Amato, who indicated
[Page 144] that there has to be a pastoral reference
provided in order to become a foster parent with
Catholic Social Services.
Q. And what concern did that cause you?
A. It’s a very specific church practice that has to come
from a pastor or a religious leader and clearly creates
another barrier that is not a requirement to become a
foster parent.
Q. And did you hear Mr. Amato testify that it didn’t—
it was not required to only be a Catholic church, but
could be any of a variety of forms of religious leader?
A. I did, but I also heard that what I interpreted as
easiest would probably have a significant challenge
being able to become a foster parent through CSS,

JA 400
since there would be no opportunity to gain a pastoral
reference.
Q. And did that cause you concern about the city’s
contracting with Catholic Social Services?
A. It does.
Mr. Field: Thank you. No further questions, Your
Honor.
The Court: Okay. Any other questions?
Mr. Rienzi: Very briefly.
Recross Examination
[Page 145]
By Mr. Rienzi:
Q. Ms. Figueroa, as Commissioner of DHS you are not
aware of a single actual person who has said they were
unable to be certified by Catholic because of a pastoral
letter requirement, is that correct?
A. No, I have not. I didn’t know until yesterday.
Q. Did you discuss the matter with others? Did you
discuss the matter with others at DHS?
A. No. I was not allowed to talk to them. I was under
oath.
Q. You have got good lawyers.
A. I do.
Mr. Rienzi: Nothing further, Your Honor.
The Court: Okay. Any other questions?
Mr. Field: Not for this witness, Your Honor.
The Court: Thank you.

JA 401
The Witness: Thank you, judge.
The Court: Your next witness.
Ms. Cortes: Your Honor, could we ask for lunch briefly.
The Court: You can’t eat.
Ms. Cortes: At this time, Your Honor. Also to be
perfectly honest, Your Honor, our next proposed
witness is not currently right here. I think [Page 146]
we assumed that there was going to be a lunch break
at this time. So I would just ask. I did alert Mr. Rienzi
of our next witness. I understand that he has an
objection. I don’t know if Your Honor wants to address
that now or after lunch or whatever Your Honor’s
preference is.
Mr. Rienzi: Your Honor, can I just briefly state. I think
there’s actually a good reason to have a brief
discussion now, if you are willing.
The Court: Okay.
Mr. Rienzi: My understanding from counsel is that the
next witness will be a Mr. Frank Cervone, who is not
a witness for whom they submitted a declaration in
any of their moving papers and whom I am told is
somebody that wishes to qualify as an expert,
somebody who is not disclosed to us previously, who is
supposed to be an expert who we don’t have any of the
expert materials on. I think it’s frankly improper to go
forward with the witness in that circumstance. And so
I would ask Your Honor if you are willing to rule now,
I just don’t think they should be introducing new
witnesses who have not been part of the pleadings
previously.
Ms. Cortes: Your Honor, Mr. Cervone was to be an
affiant in the proposed—in the intervenor’s [Page 147]

JA 402
papers. He is being represented by Ms. Mary
Catherine Roper for the ACLU. So he did have notice.
He is part of that—of those papers, Your Honor. I did
provide counsel with Mr. Cervone’s resume. There is
no requirement under the federal rules that require us
to provide them with such notice. We also did not have
a notice of all of their witnesses for today, Your Honor.
If counsel would like to interview Mr. Cervone ahead
of time with Ms. Roper present there is no issue for our
side or for Ms. Roper.
His proposed testimony would be very relevant to
these proceedings. He has been a child advocate in—
specifically for the city and county of Philadelphia for
the past 40 years. We have heard a lot of testimony—
or at least opposing counsel has tried to elicit a lot of
testimony that it’s only one side that is going to be
harmed by Your Honor not granting this TRO. Mr.
Cervone would provide Your Honor with the
testimony, the very relevant testimony from his
experience as a child advocate, as to what would occur
if Your Honor does grant the TRO and to the
devastating effect on the children and specifically the
LGBTQ children and also the LGBTQ same-sex
couples and his experience within the foster system as
a child advocate.
And even if Your Honor does not qualify [Page 148]
him as an expert, I would propose to Your Honor that
he would still be allowed to provide opinion testimony
on that front. And again, we would allow Mr. Rienzi
and his entire team to question him ahead of time and
even to continue the voir dire in open court before Your
Honor until Your Honor is satisfied that he is an
actual expert in this field.

JA 403
Mr. Rienzi: Your Honor, I simply say that the time for
introducing Mr. Cervone’s testimony would have been
when they presented their arguments, their legal
arguments in their briefs. And introducing the idea of
an expert testifying in the middle of the day today and
proposing that I take his deposition over lunch seems
like an unfair practice and exceedingly difficult for
anybody to do. You will have a chance to hear from Mr.
Cervone once you decide whether or not he should be
able to intervene. He is one of the council of
intervenors, apparently. So that motion is before Your
Honor. Our opposition is due next week. You have
accepted their brief—his brief and his writings as an
amicus already. I really do not think it’s fair to go
down this path.
Ms. Cortes: Your Honor, Mr. Rienzi can address that
part as to—it’s my understanding Mr. [Page 149]
Cervone can clarify for Your Honor that he will
actually withdraw as counsel, given that he would be
allowed to testify today as a witness. So he would
withdraw as counsel and Ms. Roper would continue
along with the representation. Is that correct, Ms.
Roper?
Ms. Roper: That is correct, Your Honor. And obviously
as we have been participating as intervenors, we
might well have called him or someone similar to
testify. But since we are not here to do that, I think
the city wanted to do that. Again, this is not our fight.
I just am here to clear up any questions about his
relationship with respect to the intervenors.
Ms. Cortes: And Your Honor, to Mr. Rienzi’s point as
not being able to depose him, we are on Your Honor’s
TRO schedule. They are the ones that have filed the
TRO/preliminary injunction. So we are all on an

JA 404
expedited schedule. We would have all loved to have
had the time to depose all of their witnesses, but we
are all under this schedule. So none of us were able to
do that.
The Court: Okay. I am going to permit the witness to
testify. I am going to recess until 1:30. And if you call
him and have him report back, so [Page 150] that he
could be made available to counsel so that we can
proceed at 1:30.
Ms. Cortes: Your Honor, he had a meeting with his
staff starting at 12:30. He believed it would last a half
hour. I have asked him to return to court as quickly as
he possibly can so he will be available to counsel for
the plaintiffs.
The Court: Very well. Okay. We will recess until 1:30.
All counsel: Thank you, Your Honor.
(All rise.)
(Lunch break taken.)
The Court: Good afternoon. You may be seated. Are we
ready to proceed?
Ms. Cortes: Yes, Your Honor.
Mr. Rienzi: Yes, Your Honor.
The Court: Call your witness.
Ms. Cortes: Defendants call Frank Cervone to the
stand.
The Clerk: Please remain standing and raise your
right hand.
(Witness sworn.)

JA 405
The Clerk: Can you state and spell your name for the
record, please?
The Witness: Frank Cervone, C-E-R-V as [Page 151]
in Victor, O-N-E.
The Court: Good afternoon.
The Witness: Good afternoon.
Ms. Cortes: May I proceed, Your Honor?
The Court: Yes.
Direct examination—qualifications
By Ms. Cortes:
Q. Good afternoon, Mr. Cervone. Can you please tell
her honor where you went to school?
A. College?
Q. You can start with college and you can work your
way up.
A. University of Pennsylvania for undergrad,
Villanova Law School, and LaSalle University for a
master’s degree in theology.
Q. Can you tell her honor what is it that you did
immediately after law school?
A. Career-wise?
Q. Yes.
A. So I served for a year as a staff attorney at Delaware
County Legal Assistance Association, a legal aid
program, working with law students as an adjunct
clinical professor from Villanova. I then moved on to
Saint Gabriel’s system, which is a residential – a
program for residential treatment and day treatment
[Page 152] programs for delinquent boys run by the

JA 406
Catholic Social Services, the Archdiocese of
Philadelphia, where I was a teacher and a lawyer and
a Christian brother, a member of the religious
community.
Q. And then just going back to your experience as an
adjunct professor at Villanova, can you tell her honor
exactly what it is you did as an adjunct professor
there?
A. So we ran a—the Delaware County Legal
Assistance essentially had a contract of some sort with
Villanova Law School. These are in somewhat the
early days of clinical education and so the law school
outsourced the administration of their clinical
program to this legal aid office. And so my job was to
supervise law students in domestic violence cases and
child support cases in state court in Delaware County
in media.
Q. And then you mentioned working at Saint
Gabriel’s?
A. Correct.
Q. What is it that you did after your time at Saint
Gabriel’s career-wise?
A. So I did—in 1989 I left Saint Gabe’s and went back
to Delaware County—Delaware County Legal
Assistance in essentially the same role as a clinical
[Page 153] instructor for a year. And then was hired
as general counsel of the support center for child
advocates in April of 1990.
Q. And are you still there today?
A. I am. In November of 1992 I was elected – I was
elected. I was selected by the board of directors to be
the executive director of child advocates. And I have

JA 407
continued in the role of executive director since
November of ‘92.
Q. And this might seem like an obvious question, but
can you tell her honor what it is—what does it mean
to be a child advocate?
A. So child advocate is a term of art used almost
exclusively in our work in Philadelphia County. Most
jurisdictions use the phrase guardian ad litem, and it
is essentially to serve as a lawyer for a child, courtappointed lawyer for a child in a child protection
proceeding, which in Pennsylvania is known as a
dependency court case in the juvenile courts. Our
office represents children in child welfare proceedings
and related proceedings in Philadelphia’s Court of
Common Pleas.
Q. And before we go into the specifics as to what you
would do as a child advocate, can you tell her honor
sort of who are the players in the dependency court
[Page 154] system in Philadelphia?
A. A classic, we think of a triad of child, parent and
state as the three parties to a proceeding. And so the
child or sibling group is a party of interest in that
proceeding. Those proceedings are typically initiated
by a county children and youth agency. Here in
Philadelphia it’s the Department of Human Services
and the Department of Human Services is represented
by lawyers from the city law department. And then
there are one or two parents in the proceeding. They
typically have separate counsel, and thus we have
child, parent, state as the three kind of main actors or
parties. There are a variety of provider agencies who
come before the court typically not as party, but in

JA 408
either a witness role or otherwise come to the attention
of the court.
Q. And when you mentioned parents, can you break
that down, do you mean biological parents, foster
parents, can you just please clarify for her honor what
you meant by parents?
A. So the nature of a dependency proceeding is to
intervene with regard to the parent/child relationship,
the legal relationship. So mostly we are talking about
birth parents, mothers and fathers. On occasion there
is some other adult caregiver who has a legal [Page
155] relationship with the child and thus they get
standing in that dependency proceeding, so that could
be a grandparent, it could be a stranger who has been
providing care for the child or maybe who has been
recognized by some other court as having custody.
Those are all the folks that have a legal relationship
with the child. Well, of course, we also interact with
caregivers who are interposed by some provider
agency such as we have been discussing here from a
foster care agency or the like. And those folks might be
strangers to the child before they come to know the
child or they might be a relative of the child, what we
call kinship relationship.
Q. And just for clarity, how long have you been a child
advocate?
A. One might say since I have been working at the
support center for child advocates since 1990, in this
formal sense of guardian ad litem in court cases. I feel
like my other answer to that question often is my
whole life. This is what I feel like I—I am about. It is
become my personal mission, my sense of self-identity
is to be an advocate for children.

JA 409
Q. And in your preparing to go to court and in your role
as a child advocate, can you explain to her honor what
is it that you have to do to prepare and make sure
[Page 156] that you fulfill those duties?
A. So the model that I use in my own cases is the model
of our office, what we think of as a service model. And
we think of our task as to represent the whole child. A
child is referred to me and my – I don’t have an
individual law practice outside of the office. So when I
use “we,” I’m talking about both my own practice and
that of my colleagues who are in our office. So our
practice involves responding to the presenting
problem that brought a child to the attention of our
office and to the attention of the courts. That
presenting problem might, for example, be an incident
of child sexual abuse or physical abuse or severe
neglect, which incident was then brought to the court,
for example, by the Department of Human Services in
a petition. That case is essentially petitioned to court
and we are appointed by the court to serve as counsel
and guardian ad litem for the child.
We work hard to understand the events, background
related to the presenting problem. And then as well to
understand the—all of the collateral issues that might
be involved in a child’s life. One might think, for
example, in a child sex abuse case that that child
needs therapy and needs access to therapy, needs
transportation to the therapist, needs a report [Page
157] from the therapist. We need to know whether she
is making progress. She needs to be in school. She
needs to be in the right school. And so we are going to
engage her school community, counselors mostly.
In the main we are going to interact with the case
managers on the case. Here in Philadelphia they work

JA 410
for CUA’s, Community Umbrella Agencies, we interact
with the CUA worker on the case. We might work with
some of the parts of Philadelphia DHS that we have
heard about over the past few days, like the Central
Referral
Unit,
contract
administration,
the
commissioner’s office or otherwise to deal with
problems that emerge with regard to that child.
Q. Can you tell her honor how—this might be difficult,
but can you estimate for her honor about how many
children you have served as a child advocate for in
your—as your time—during your tenure?
A. So I don’t have an individual practice—I’m sorry,
caseload these days. For many years of my service as
director I actually had a subset of kids who were
assigned to me in the main. Now I serve as one of the
rotating staff attorneys that cover cases. Any time you
are in court on behalf of a child, you are representing
that child. Our office is appointed to represent the
child, not individual attorneys. So I am [Page 158] not
personally appointed to represent very many kids. You
know, it happens, in discrete moments.
The agency represents these days about 1,100 kids a
year. So in one sense I feel responsible and as
representative I represent all 1,100 of those kids. I
certainly don’t know them all. I was in court yesterday
and had three kids who I represented, two who were
adopted and one who is in foster care. On Friday I had
seven kids who I represented in four proceedings. So I
would say that I have personally engaged probably
several thousand children, either individual
representation over my career, and certainly half of
the agency I believe our number is somewhere in the
order of 8,000 kids during my time. Very rough
estimate.

JA 411
Q. And I guess in both your personal and as
representative of your—of this support center for child
advocates, can you tell her honor about how many of
these children have self-identified as LGBTQ youth?
A. For the last about ten years we have maintained a
specialty practice in which we assign designated staff
to work with youth who have self-identified. And so
along the way we have had occasion to keep count at
least of those who have identified—self-identified. And
that number we think is somewhere between 25 and
50 children a year who have explicitly self-identified.
[Page 159] Certainly there are some number of
additional youth—pardon me—who have not yet come
out to themselves or to us or to others. And, you know,
one might imagine there may be another several dozen
children on our caseload at any one moment who are
questioning their identity.
Mr. Rienzi: Objection, move to strike as speculation.
The Court: Overruled.
By Ms. Cortes:
Q. And Mr. Cervone, you said you designate staff
specifically for these youths. Why is that?
A. Our service model includes assignment of each child
to a staff member as responsible for that case. And our
service model we have not mentioned includes
working with volunteer lawyers from the legal
community. We think of ourselves as the volunteer
legal service for abused and neglected children. So
that when a lawyer from the community wants to do
their pro bono work for abused kids, they come to us.
So in part in order to facilitate that volunteer model,
each child is assigned to a child advocate social

JA 412
worker, probably 90 percent or more of our kids are
assigned to a child advocate social worker. Eight to ten
percent are assigned to a staff attorney for primary
responsibility. And, you [Page 160] know, the purpose
of those several assignments is so that there is a
discrete case manager who knows about the case and
who has—is essentially the collector of knowledge and
documents and the protagonist for purposes of
advocacy.
Q. Now, I just want to go back to your general
experience in child advocacy. Have you written or
published any articles regarding child advocacy?
A. I’ve published probably dozen of pieces, law review
articles, op-eds, newsletter pieces, articles in
professional publications, the ABA Litigation
magazine—I’m sorry, whatever their professional
journal is, the section on litigation of the ABA. So I do
a lot of writing, probably publish three or four or five
pieces a year for, in a sense, general circulation.
Q. And besides your regular support testimony, have
you been asked to testify regarding matters of child
advocacy?
Mr. Rienzi: Objection, just get clarity if you are talking
about this case or—
Ms. Cortes: I will rephrase, Your Honor.
The Court: Yes.
By Ms. Cortes:
Q. Mr. Cervone, have you been asked to testify
regarding child advocacy besides in this particular
[Page 161] case?

JA 413
A. Yes. So Tuesday morning I testified before the
general assembly—Pennsylvania General Assembly
House, Child and Youth Committee in support of the
creation of the office of the children’s advocate,
essentially an ombudsman function. That’s the third
time I have testified on that subject in the last 15
years. In July of last year, July of ‘17, I testified before
the Interbranch Commission. I previously thought it
was the interrelations commission but it was the
Pennsylvania Interbranch Commission on Gender and
Racial Bias on the subject of the experience of LGBT
youth in the child welfare system.
Q. And let me just stop you right there. Can you tell
her honor what you testified to? Can you tell us more
about the subject of that testimony?
A. The subject of that testimony?
Q. Yes.
A. Of that event?
Q. Yes.
A. Yeah. So our office was invited to speak to the
Interbranch Commission on this question of the
experience of gay and lesbian youth in the child
welfare system and how the systems might serve those
children better, and so –
Q. I’m sorry to interrupt. When you say the systems,
can you please explain to her honor what exactly is
meant by that?
A. Yes. So the Interbranch Commission, as I
understand it, is a kind of jointly-created, essentially
research arm to make recommendations to the several
branches of state government. And so it is somehow
commissioned by both resolution of the General

JA 414
Assembly, the legislature, and appointment from the
Pennsylvania Supreme Court. To be honest, I don’t
know if the executive branch has any appointments in
the Interbranch, you know, structure.
Q. And can you tell before—I’m sorry, before I
interrupted you to explain what the systems were,
could you tell her honor what is it—more specifically
what it is you testified regarding that—
Mr. Rienzi: Objection, hearsay.
The Court: Overruled.
The Witness: The members invited us to speak about
it and what we spoke about. I went with a colleague, a
specialist, a woman who—a master social worker who
had responsibility for this particular caseload for the
last five years. And we shared – in part we shared the
stories and experience of essentially discrimination,
abuse, oppression and bullying that many [Page 163]
of our clients have experienced during their time
either in foster care or in residential programs or with
their birth families. So we talk about, in a sense, the
experience of their problems. As well we talk about in
a sense, solutions.
So we spend some time actually teaching about, in a
sense, language that might be more appropriately
used to address issues of transgender identity. You
know, the kind of respect that has come to emerge in
the public arena these days around selected or
preferred pronouns, persons of transgender or biracial identity—I’m sorry, bi-sexual identity,
occasionally have a desire to not be known in those
binary “he” “she” terms. So we explored some of that.
This is a new area for most people and it was a new
turf for this body and they invited us to share what we

JA 415
know from the experience of kids and what we have
seen there.
Q. And what were some of the examples of the
discrimination that you testified to regarding the
children?
Mr. Rienzi: Objection, hearsay.
The Court: Overruled.
The Witness: So one scenario that I recall in a way is
typical of the experience of kids is a young man, and I
think he identifies himself as male, [Page 164] who
was in care because he had been harassed by his own
birth family about his emerging sexual identity. I don’t
recall if there was physical abuse in that case. But it
would not be uncommon for gay kids to be both
physically and emotionally abused in their family of
origin. It’s one of the reasons in general that gay kids
come into child welfare for protection, because they are
not welcome at home.
Mr. Rienzi: Objection, Your Honor. Counsel has yet
proffered the witness as an expert. I don’t know if we
are there yet, but it sure seems like the witness is
venturing into generalities as opposed to any fact
testimony.
The Court: Do you have questions in regard to his
qualifications?
Mr. Rienzi: Absolutely, Your Honor.
The Court: Do you have any other questions in regard
to his qualifications?
Ms. Cortes: In regards to his qualifications, no, Your
Honor.

JA 416
Mr. Rienzi: May I ask, Your Honor, what the topic is
he is being proffered as an expert on?
Ms. Cortes: Your Honor, I think as Mr. Cervone has
testified thus far, he is being proffered as an expert
regarding child advocacy—well, more [Page 165]
specifically the problems faced by children within the
foster care system, and in particular the LGBTQ
youth, and also as to his conclusions and observations
as to the importance of a safe foster care system for
that LGBTQ youth.
The Court: Okay. You can ask questions, Counsel.
Mr. Rienzi: Thank you, Your Honor.
Cross-examination - Qualifications
By Mr. Rienzi:
Q. Mr. Cervone, you’re an attorney?
A. Yes.
Q. You’re an attorney in this case?
A. Not any longer.
Q. That’s not true, is it? You have not withdrawn from
the case, have you?
A. Well, in point of fact I have not entered my
appearance in the case in large part because I have not
figured out how to do so in the federal filing system. I
am on the papers and we anticipate my counsel
withdrawing me from those papers.
Q. But you have not withdrawn yet, correct?
A. Like I said, I have not entered myself, but we have
not effectively withdrawn.

JA 417
Q. You have participated as an advocate in these [Page
166] proceedings, have you not?
Ms. Cortes: Objection.
The Court: Overruled.
By Mr. Rienzi:
Q. You have participated as an advocate in these
proceedings, have you not?
A. I am not sure I have.
Q. Your name is on a brief, sir, is it not?
A. Yes.
Q. That’s—you are a lawyer, you understand that to
be participating as an advocate, correct?
A. In that sense, sure.
Q. And that brief has been accepted by the Court as an
amicus brief, correct?
A. Yes.
Q. And there’s a pending motion with your name on it
for participation via intervention, is that correct?
A. Yes.
Q. And the motion is on behalf of child advocates,
which is the organization you are the executive
director of, correct?
A. Correct.
Q. Have you ever participated as a testifying witness
in another case in which you have been an advocate?
[Page 167]
A. Yes, actually last month.

JA 418
Q. Where was that?
A. That was in the Court of Common Pleas in
Philadelphia County.
Q. Did you participate as an expert witness?
A. No.
Q. I heard the description from—counsel for the city is
not your lawyer, correct?
A. Correct.
Q. I heard the description from counsel for the city
about the topic on which you are an expert and I want
to make sure I understand it. So you are being
proffered as an expert on children and the impact on
LGBTQ youth in the foster care system, is that
correct?
A. Well, it’s their proffer. You know, I know what I
know. I am not sure. To be honest, I don’t think I can
comment on how they are proffering me.
Q. Your expertise is working with children, correct?
A. Representing children, working with children, yes.
Q. Your expertise is not representing and working
with parents, correct?
A. I certainly have a lot of experience in representing
parents. I have represented parents. Like [Page 168] I
said, I taught some people how to represent adults. I
have on more than a few occasions represented both
parents and adults in a variety of court proceedings in
my career, you know, mostly as comes about as – on
behalf of former clients, former client children of ours
who have grown up and they have something else in
their life.

JA 419
Q. Sure. We had a meeting in a room right outside
before this, sir?
A. Yes.
Q. And you recall in that meeting you told me that
your expertise is in dealing with the children’s side of
it, not the parent side of it. Do you recall telling me
that?
A. So I don’t think I would have put it that way.
Forgive me, I don’t again mean to avoid you. We are
children’s lawyers, I am a children’s lawyer. As an
office, we only represent kids. Because I have a law
license and because I am the boss, I get to represent
who I want. And so I try to respect the boundaries that
we have all agreed to as an office, but on occasion I
enter my appearance in some way or other on behalf
of adults.
Q. You don’t consider yourself an expert in the interest
of adults, do you?
[Page 169]
Ms. Cortes: Objection to the relevance.
The Court: Overruled.
The Witness: I do think—I think I have some
expertise. I teach people how to represent adults, sure.
By Mr. Rienzi:
Q. More than any other lawyer who represents adults?
Ms. Cortes: Objection.
The Court: Yes, sustained.
By Mr. Rienzi:

JA 420
Q. Other than sometimes representing adults, do you
have any other claim to expertise in the interest of
adults?
A. Well, so—yes.
Q. And what is that?
A. So the administrative office of Pennsylvania courts
invited me to co-lead a training series for parent and
children lawyers in Pennsylvania across the state,
along with a colleague from community legal services
in Philadelphia. We assembled a faculty of lawyers
and judges and I believe a social worker. And we
conducted essentially a road show of two full days of
CLE training in six cities over, you know, a
summertime three summers ago, I think, in which we
trained probably [Page 170] 80 percent of the lawyers
who serve parents and children in dependency
proceedings.
We regularly train—I and my colleagues regularly
train the court-appointed bar in Philadelphia County
who represent parents and children. We are the
designated CLE provider for the first judicial district
in order to qualify those lawyers to represent parents
in dependency proceedings. I have published
extensively on the—really the nature and scope and
demands of representation for children. And lastly, I
am a scrivener of the standards of practice for lawyers
who represent children and parents in dependency
proceedings which standards have been approved by
the Pennsylvania State Children Child Study Team.
Q. You have a lot of experience training lawyers to
represent both adults and children, is that fair?
A. Yeah. We really feel like it’s all of a piece.

JA 421
Q. Do you have any experience in child psychology?
Ms. Cortes: Objection, vague.
By Mr. Rienzi:
Q. Do you have any training in child psychology?
The Court: Overruled.
The Witness: So during my master’s training, I had
several courses related to family dynamics. While they
were not in the psychology program [Page 171] at
LaSalle University, there were, I believe, all of those
courses were offered in the theology program, but
there was a course in family dynamics, there was
study
of
genealogy
and—they
call
that
transgenerational influences. I would not in any way
hold myself out to be a psychologist, and my wife urges
me not to try to practice therapy.
Q. What principles and methods do you expect to be
applying in your testimony today?
Ms. Cortes: Objection, calls for a legal conclusion, Your
Honor.
Mr. Rienzi: The Daubert Standard under Rule 702
requires that he be applying reliable principles and
methods. I am simply asking what they are.
The Court: Overruled.
The Witness: So as I said, I help write the standards
and practice for the representation of children. And I
imagine I would reference what many of us consider to
be best practice standards for the care of children, the
representation of children and service to children.
Certainly as well, my general knowledge and training
as a lawyer in this field for 30 years. Yeah.

JA 422
Q. Anything else? Any other principles and methods
[Page 172] you expect to be applying today?
A. Well, I am fairly knowledgeable about the canons of
ethics, the rules of juvenile court procedure, the
juvenile act and related bodies of law that pertain to
this area of practice. Certain bodies of law that
address responsibilities related to discrimination or
nondiscrimination in practice. As well, I have been the
administrator of a program of representation of, you
know, a nonprofit agency. And so I have some
background and expertise in nonprofit management.
In, you know—yeah.
Q. You said you worked as an attorney for Saint
Gabriel’s system for five years, is that correct?
A. Correct.
Q. Saint Gabriel’s system is part of Catholic Social
Services, a party to this case, correct?
A. Correct.
Q. And in fact, Saint Gabriel’s system is on the same
contract that’s at issue about foster care, correct?
Ms. Cortes: Your Honor, I don’t see how this is
relevant to this voir dire regarding Mr. Cervone.
The Court: Overruled.
The Witness: I am not aware of the [Page 173] current
state of the contract.
By Mr. Rienzi:
Q. When you were at Saint Gabriel’s, did you
understand that there was a contract with the city
that covered both Saint Gabriel’s and foster care?

JA 423
A. Well, my recollection would have been that they
were separate contracts, but it’s been a long time.
Q. Okay.
Mr. Rienzi: Your Honor, we object to the introduction
of Mr. Cervone as an expert. His participation violates
the witness advocate rule.
Whether he’d like to or not, he is an advocate in this
case. He has signed pleadings in this case, his name
appears on briefs in this case. He submitted a
declaration that says that the organization he leads,
child advocates, has an interest in this case. He is also
a former lawyer for one of the organizations that is on
the contract. And on top of that, I did not hear any
description of reliable principles and methods. I heard
a discussion of experience that he has, but did not hear
reliable principles and methods that under rule 702
and Daubert are going to be applied, so we would
object, Your Honor.
The Court: Your objection is overruled.
Mr. Rienzi: I assume, Your Honor, I will [Page 174] get
another chance to come up and cross-examine after the
direct examination is completed.
The Court: Cross-examine as to the substance of his
testimony.
Mr. Rienzi: Yes, thank you.
Direct examination
By Ms. Cortes:
Q. I think when we last spoke, Mr. Cervone, that you
were letting her honor know the basis of your
testimony regarding discrimination on the LGBTQ
youth.

JA 424
A. Yes.
Q. I was not sure if you had concluded your testimony
on that or –
A. You mean particularly regarding the prior
testimony?
Q. Correct.
A. Well, in point of fact, one of the reasons—yeah, so I
believe, and it has been my experience, that children—
LGBT youth come into our child welfare system in part
because how they are treated in their own families.
And sometimes they continue to have those bad
experiences when they are in the care of families who
the system engages, resource parents, child care
workers, and others.
Q. So based on that—based on that observation, [Page
175] how important then is it to have a foster care
system that has affirming values for LGBT youth?
A. Well, I think it’s absolutely essential that our client
children feel welcome and supported in their person
and in their identity, that they come to a system for
refuge from what is essentially oppression, from abuse
and neglect, often, as I said, typically targeted on their
identity and it is absolutely essential that they find in
all of us, in the child welfare system and all of its
practitioners a place of justice, a place of healing and
a place of safety. And in no uncertain terms that
means that homes must be welcoming to them. They
must be affirming to them, they must be places and
people and organizations that say yes to their
exploration of their own identity. In a sense, it goes
without saying that the young person is still exploring
himself or herself in their identity. That’s what we are

JA 425
all doing as young people, and it’s essential that that
young person have a safe place in which to do that.
Q. Now, were you here yesterday—well, it’s been
multiple days. I mean nobody was here yesterday. But
were you here—
The Court: I was here.
By Ms. Cortes:
Q. Were you here, Mr. Cervone, in Courtroom 16b a
[Page 176] few days ago when Mr. Amato testified?
A. Yes.
Q. Did you hear his testimony regarding CSS’s
practices on same-sex couples?
A. Yes.
Q. Did you have any reaction to that testimony?
Mr. Rienzi: Objection, vague.
The Court: Overruled.
The Witness: Yeah, I was pretty upset by it.
By Ms. Cortes:
Q. Why were you upset by that?
A. Well, you know, I heard—I believe it was his
reference to their mission as welcoming all and
valuing all. And then he proceeded to explain how
some people are not welcome and supported. It was
news to me that there is a bit of a litmus test for
qualification as a foster parent and resource parent in
the CSS system.
And that felt to me itself contrary to the spirit of the
child welfare system as a whole. It was—I really
crystalized in sitting in this room during that

JA 426
testimony this notion that I referenced earlier that
from the perspective of the child, the system needs to
be a welcoming system. And I thought Jim—I will call
him Jim, I have known him for a really long time and
I [Page 177] like him a lot as a person. I was surprised
that the system—that their system is so explicitly
unwelcoming of certain types of people.
Q. Did you have any reaction or did you have any
concerns regarding what Mr. Amato said as to its
effect on prospective foster parents that are LGBTQ or
in a same-sex union?
A. Yes, I think he is wrong. I think he, if I am to
characterize it, I thought he stated, at least implied,
that their practice would not work to dissuade
prospective resource parents from coming forward to
serve, that they clearly—they are fairly explicit that
they would dissuade them from coming to their
agency. He also obviously was rather explicit that if
one came forward, they would send that person or
couple to some other agency, not try to talk them out
of doing business, to be—fair enough. But in point of
fact, I believe that this practice may have the effect of
dissuading prospective resource families from serving
children at all. That if people believe that this is a
system that is allowed to discriminate, they will have
a crises in confidence about working in the system.
I feel like it’s a lot like when it is revealed that the
system is not performing well. And I am somebody who
sometimes helps to make those headlines [Page 178]
by revealing or helping to reveal when the system is
not performing well. And certainly I have heard that
folks have had a crisis of confidence, should I come to
work here, should I come to be involved with this
system that seems so chaotic. I feel like we have gotten

JA 427
beyond that in the present administration of the
system for the last bunch of years. But I think that’s
the type of effect and message that it will have to
prospective foster families, same-sex families, who will
say why should I come to a system that tolerates that
form of discrimination?
Ms. Cortes: Your Honor, I’m just going to have a
moment. May I have a moment to confer with counsel?
The Court: Yes.
(Brief pause in the proceeding.)
By Ms. Cortes:
Q. Mr. Cervone, you talked about the potential impact
on the LGBTQ youth that are currently in the foster
system. Do you have an opinion or do you think this
will affect all of the children in the foster care system?
“This” meaning CSS’s practice that we heard about
today—or not today, throughout this hearing?
Mr. Rienzi: Objection.
The Court: Do you understand the [Page 179]
question?
The Witness: Well, I think there are lots of possible
effects. I’m not sure where you would go with it but I
think there are effects across the spectrum, from my
perspective. So I think I understand the question.
The Court: Okay.
Mr. Rienzi: Objection.
The Court: Overruled.
The Witness: So I think that the—let’s just start with
the loss of homes that Jim Amato referenced, and I
think it would be sad to lose those homes, but that the

JA 428
system will survive, that the number of homes that are
at issue long-term is—you know, thankfully it’s not
1,000 homes and it’s better than—or ten homes that
might be lost were CSS elected to get out of the
business, as Jim suggested. I think the system might
get many of those resource families will migrate over
to other agencies, some will not. That is what has
happened in every other, in a sense, closure of an
agency.
Agencies close for a variety of reasons. They go out of
business, they move on and the foster parents are left
to decide do they still want to foster. And we have seen
foster parents who are with Agency A [Page 180]
migrate over to Agency B. So I expect that the system
will handle that effect. I think the effect on children
presently in care is one that I am and our office is very
concerned about. We hope that these agencies and this
Court do not cause those kids to be turned out on the
street on June 30 when the current contract expires.
That would be very upsetting.
I thought Jim was pretty clear and noble in saying
that they don’t intend to turn any of those kids out. At
some point they may feel that—they may feel
differently from a business perspective, that they can
no longer run those homes or their agency. So we all
will have to work hard to mitigate those effects. You
know, the effect of the continued placement of kids in
homes in an agency that is allowed to, in a sense, put
out this message that same-sex couples are somehow
not to be valued or inappropriate, whatever word you
want to put as to the, in essence, the valuation of them.
As I referenced earlier in the qualifications section, I
think will give kids precisely the wrong message and
it would be an upsetting one. The kids who come to a

JA 429
system for justice now need a system that feels unjust.
It feels discriminatory and that will have a bad—that
will have a terrible effect on [Page 181] all the kids in
the system who come to understand it. We find kids
are pretty smart and thoughtful and they ask
questions like that and I expect that they will have
their own crisis in confidence about this system in
care.
Ms. Cortes: Thank you.
Cross-examination
By Mr. Rienzi:
Q. Mr. Cervone, you said that Catholic having to stop
foster care on June 30th would be a bad thing, is that
correct?
A. It would.
Q. And you said the number, it’s good that it’s not
1,000, but it’s not zero either, is it?
A. That’s correct.
Q. And you said some will transfer but you know that
some won’t end up transferring, correct?
A. I imagine so.
Q. And for some number of kids they will end up
having to switch homes, possibly foster parents they
are with, correct?
A. Well, yeah, I think as you heard this morning from
Ms. Figueroa, it’s a dynamic business, so kids are kind
of coming and going from these homes all the time. So,
you know, if they have 130—if they have 120 kids
[Page 182] today, a year from now just in the ordinary
course of things, easily half of those kids won’t even be

JA 430
in care, right? So some of this—it’s just the natural
attrition of kids going home. The general preference of
the system is for kids to go home. There’s a constant
pressure. It’s in federal law, it’s in state law, it’s in
everybody’s kind of awareness of it, we are trying to
get them at home.
So you said will some be turned onto the street or will
some be perhaps—listen here, will some have to go
somewhere else? I suppose so. What that number will
be, we can’t know.
Q. But to your mind, are you saying that’s not that big
a deal?
A. Big a deal for every kid every time they are
changed, except when the change is for a good reason.
You know, it’s referenced all the time in the course of
the last three days, is it bad for kids to move. Well, not
if they are in a bad home, right? We start with the
premise that kids are removed from bad homes. Was
the move from their parent, who is abusive, bad? Well,
to the kid it might be, right, because kids, they love
even their abusers, right, for all those reasons that we
know.
Q. You have no reason to think that the homes they
[Page 183] would be moved away from while they are
currently at Catholic, that those are bad homes, do
you?
A. No. As I said before, the three people that you had
up here all seem entirely noble. I can’t—I don’t think
any of us could abstractly or remotely evaluate or
value the—in a sense, the bond, the well-being, how
those kids are doing in these several 120 homes. We
have to imagine that because they are regularly
reviewed and because the courts have approved them

JA 431
they are at least decent. But I can’t tell if it would be
a major loss or a minor one for this or that kid to lose
this or that foster home.
Q. So then do you also think Commissioner Figueroa
was wrong when she closed intake over concerns about
children having to eventually transfer away from
Catholic?
A. No.
Q. Her reason was that transferring would be bad. Do
you recall that?
Ms. Cortes: Objection.
The Court: Overruled.
The Witness: You asked about closing intake, not
transfer? It’s new kids versus current kids?
By Mr. Rienzi:
[Page 184]
Q. Commissioner Figueroa’s testimony this morning,
and I believe on Tuesday, was that she closed intake
because it would not be in the best interest of the
children to be placed in homes with Catholic when
they may eventually need to be transferred out of
homes.
A. Oh, yeah, yeah. That’s right, I remember that point.
I thought it was last night that she made that point,
but whenever she made it. So what she said—what I
came away understanding of that point, if I get this
right, is until we sort out this problem, we ought not
to put, in a sense—we should not have to put more
children into the problem.

JA 432
Q. Because it is a problem if they have to transfer
away when Catholic closes, correct?
A. It certainly might be a problem. As I said, every
transfer—you know, we start from the premise in child
welfare that permanency and stability are baseline
premises, so we want a kid to remain in a good place.
You are building relationships. You want the kid to
have a sense that when he leaves in the morning to go
to school, he does not to have think about that he is
coming back here tonight. That’s what we mean by
permanency in the short order. So yeah, it’s bad. We
try to avoid transfers.
Q. Terrific, thank you.
[Page 185]
You said before that you thought Catholic’s policy may
have an effect of dissuading some LGBTQ parents
from entering the system at all. In other words, not
just with Catholic, but elsewhere?
A. Yes.
Q. Is that correct, is that what you said?
A. Yes.
Q. You said “may” because you don’t actually really
know, correct?
A. That’s correct.
Q. And you also said you think it will have a terrible
effect on kids in the system. And you don’t actually
know that either, do you?
A. Well, so I have had a bunch of conversations with
kids over the years, you know, 15, 20, maybe 30, in
which kids have talked about—I have certainly

JA 433
observed them as well, in a sense, speaking to large
groups in kind of a lecture format. We sometimes have
kids train lawyers. We think it’s—and it works, it’s
just a really neat dynamic. And they talk about the
experience of being discriminated against in the child
welfare system. And we ask them, well, what was your
experience in the child welfare system? They say, it
was bad. I was discriminated against. So they don’t
think about it just in terms of the bad actor who [Page
186] discriminated against them, they think about
their time in care and they think about the whole
system. They think of it, in a sense, all of a piece. So
that’s really what I was referencing and I think they
will see it as bad.
Q. And in those conversations, none of them
mentioned Catholic’s view that it would not do home
studies for LGBTQ couples, correct?
A. That’s correct.
Q. I heard you to be saying that your concern about the
effect on kids is that they will know that in the system
there’s an entity or an actor who is not affirming of
their sexual orientation, is that accurate? I don’t want
to put words in your mouth. I am just trying—that’s
correct?
A. Um-hum.
Q. As long as the Catholic Church maintains its
current teachings on sexuality, won’t kids know that
just by seeing the name Catholic?
A. They might.
Q. So do you think Catholic itself needs to be out of the
foster care business entirely, based on your argument?

JA 434
A. I really have no opinion on that. I would love for
them to stay in the business. I would love for them
[Page 187] to approach same-sex marriages
differently.
Q. You disagree with the Catholic Church’s religious
teachings on that?
Ms. Cortes: Objection to the relevance.
The Court: Sustained.
Mr. Rienzi: Your Honor, his views on the Catholic
Church’s teachings about same-sex marriage, when he
is saying he thinks Catholic has the wrong view to
remain in the foster system.
The Court: He didn’t say that. What he said was he
would hope that they would change their view and
they would welcome same-sex parents.
By Mr. Rienzi:
Q. If I can just pin that down. So you would hope that
the Catholics Church would change its views on samesex marriage, correct?
A. I am not one to believe that the Catholic Church is
a monolith, so I am reluctant to talk about the Catholic
Church and its teachings.
Q. How about the catechism?
Ms. Cortes: Objection.
The Court: Well, now we are really going far afield.
Mr. Rienzi: Your Honor, with all due respect –
[Page 188]
The Court: Let’s just go to Catholic Social Services.
By Mr. Rienzi:

JA 435
Q. Do you think Catholic Social Services needs to
change its beliefs on sexuality and marriage?
A. I would love for them to.
Q. And you talked about kids’ experience in homes
that you said were not LGBT affirming, is that fair?
A. Say that again.
Q. Is that part of your experience that you were telling
us about?
A. Say that again.
Q. Earlier you testified about the experience of LGBT
kids in homes that were not affirming, correct?
A. Yes.
Q. Is it your view that foster parents who subscribe to
the teachings of the Catholic Church and the
catechism are unfit to be foster parents because they
would not be LGBT affirming?
Ms. Cortes: Objection.
The Court: Sustained.
By Mr. Rienzi:
Q. Do you think there are religious views that in your
mind should disqualify people from being foster
parents?
[Page 189]
Ms. Cortes: Objection.
The Court: Sustained.
By Mr. Rienzi:
Q. You said you worried about the message it would
send to LGBT kids if Catholic Social Services were

JA 436
permitted to continue acting according to its faith.
Have you thought about the impact on Catholic foster
parents and Catholic kids of the city excluding
Catholic Social Services from foster care?
Ms. Cortes: Objection, mischaracterizes his testimony
and it’s a compound question.
The Court: Yes, break it down, please.
By Mr. Rienzi:
Q. You testified earlier about the impact that allowing
Catholic to continue would have on LGBT kids,
correct?
A. Yes.
Q. And your view is that if the city allows Catholic to
continue operating according its religious beliefs, that
would be harmful for kids, correct?
Ms. Cortes: Objection, that mischaracterizes his
testimony.
The Court: Overruled. He can explain that answer.
The Witness: Yes.
[Page 190]
By Mr. Rienzi:
Q. And you said it may—to be fair, I don’t want to put
words in your mouth. You said it may, but you didn’t
actually know, correct?
A. Right.
Q. Have you thought about the impact that it would
have on Catholic kids for the city to exclude Catholic
Social Services from foster care?
The Court: Assuming that they are not LGBTQ?

JA 437
Mr. Rienzi: Either way, actually. I don’t mean to
specify. I just mean Catholic, I don’t mean to specify.
The Witness: Well, if we are talking about Catholic
kids—I have met a lot of Catholic kids in my life, I
can’t recall one that has the problem with same-sex
marriage that the church does, so I don’t think the
effect would be negative on Catholic kids if CSS
changed its practice.
By Mr. Rienzi:
Q. How about Catholic foster parents?
A. You know, I did not hear in your witnesses and I
don’t know how other Catholic foster parents come
down on the question of same-sex marriage. They—I
was actually interested in whether your witnesses
were going [Page191] to go there, and I think I heard
them say that they believe in the teachings of the
Catholic Church. And I came away thinking that was
a fairly generic statement. And as a Catholic myself, I
believe in the teachings of the Catholic Church, too,
just not all of them, so—and that’s my experience with
Catholics in general, that we are a bit selective in our
followings of the teachings of the church. So I would
expect that foster parents would be similar.
Q. But some may not be, correct?
A. I would have to imagine, sure.
Mr. Rienzi: Your Honor, if I can just have one quick
minute, please?
The Court: Yes.
(Brief pause in the proceeding.)
By Mr. Rienzi:

JA 438
Q. Mr. Cervone, you said you have known Catholic
Social Services for a long time?
A. Yes.
Q. What is your overall opinion of Catholic Social
Services?
A. Very positive.
Ms. Cortes: Objection as to relevance.
The Court: Overruled.
By Mr. Rienzi:
[Page 192]
Q. And you said you have known Mr. Amato for a long
time?
A. Yes.
Q. And I understand you disagree with some of the—
you didn’t like some of the things he said yesterday,
correct?
A. Yes.
Q. Do you think he is an honest guy?
A. Yes.
Q. And so you don’t think he is lying when he testifies,
correct?
A. I would never call Jim Amato a liar. I have no idea
how he feels about the issues he testified to.
Mr. Rienzi: Nothing further, Your Honor.
The Court: Okay. Any other questions?
Ms. Cortes: No, Your Honor.
The Court: Thank you.

JA 439
The Witness: Thank you, judge.
Ms. Cortes: And, Your Honor, with Mr. Cervone’s
testimony, the defendants would like to mark exhibits,
all the exhibits that the defendants have marked. I
believe it’s 1 through 6, but I will defer to the court
record on that, and we would also want to make sure
that Plaintiffs’ Exhibits 13 and 15 are marked and
moved into the record along with the affidavits of Ms.
[Page 193] Kimberly Ali and Commissioner Cynthia
Figueroa.
Mr. Rienzi: Your Honor, we would object on the
declarations of their witnesses and we would simply
say—we are fine if we want to have a rule that says
both sides’ declarations of their witnesses come in.
That was what we were proposing yesterday, on
Tuesday, to get the declarations of all witnesses in, but
I don’t see how we could possibly have rule that says
the plaintiffs’ declarations get kept out, but the
defense declarations—
The Court: Well, I believe that the Court ruled that the
witness who was not here to testify, her affidavit could
be admitted. Now, if you wish to have—I don’t believe
that there was a request for the other affidavits to be
admitted of the other witnesses who testified.
Mr. Rienzi: I apologize, I may have been unclear at
some point about that, but to the extent we are doing
this now, I would certainly move that the declarations
of our other witnesses who testified can be admitted
into the record. They are properly before the Court. It’s
Rule 65, which allows declarations.
Mr. Field: Your Honor, if I might, we had understood
their requests and the Court’s ruling yesterday to be
that the affidavits of their witnesses [Page 194] who

JA 440
did testify were also admitted in addition to Doe Foster
Mother Number 1. If that was not the case, we would
not be making the motion as to the affidavits of our
witnesses who testified.
The Court: Okay. So the witnesses will be—the
affidavits will be permitted to be admitted.
Mr. Rienzi: To make sure I am clear because I—I think
we did not have –
Mr. Field: Testifying witnesses plus Doe Foster
Mother Number 1.
Mr. Rienzi: So I think I can withdraw my objection to
the Ali and Figueroa declarations, but then the Fulton,
Paul, Simms-Busch, Amato and Doe Mother 1
declarations, I think we have agreement they are all
in, along with Ali and Figueroa.
The Court: Well, not agreement as to Doe Mother 1.
Mr. Rienzi: Doe Mother 1 you permitted.
The Court: I permitted that.
Mr. Rienzi: So then yes, I withdraw my objection to
theirs, as long as we are clear on the understanding as
to all of our declarations.
The Court: Okay.
Ms. Cortes: That would be it, Your Honor. Then we
would rest.
[Page 195]
Your Honor, just to make the record clear, and I am
assuming no objection from Mr. Rienzi, we would also
move—I think I said this, but just to be abundantly
clear, I would mark and move to admit Plaintiff’s
Exhibit 13 and 15 into evidence.

JA 441
The Court: Yes, I believe that they were admitted
previously.
Mr. Rienzi: And, Your Honor, to the extent there was
any lack of clarity, I would also move to admit all of
the exhibits that we had in, obviously with the
exception of the tweets that we had the offer of proof
on earlier this morning.
The Court: Yes. The tweets—some of them were
marked, some of them were not marked, but they are
part of the record.
Mr. Rienzi: Thank you, Your Honor.
The Court: Okay. Before we proceed to closing, is there
anything further from the plaintiff?
Mr. Rienzi: Nothing on evidence, Your Honor. One
housekeeping detail I just wanted to be clear on. I
understand our deadline for responding to the motion
to intervene to be Friday, June 29th, and I am
calculating that based on when we actually receive the
brief. If you recall, there was an earlier filing that
essentially alerted everybody—and I appreciate [Page
196] it, alerted everybody that something would be
coming. And I just want to make sure the Court is not
thinking that our deadline runs from that earlier alert.
I assume we get the two weeks from when they
actually filed the moving papers.
Ms. Roper:
intervenors.

No

objection

from

the

The Court: Okay. That’s 6/29?
Mr. Rienzi: That’s what I have, Your Honor.

potential

JA 442
The Court: Before the Court hears closing arguments,
I believe that we have a request from the—at this
point the ACLU to address the court?
Ms. Roper: Yes, Your Honor, the ACLU and the parties
that represents as amici Philadelphia Family Pride.
But essentially, yes, Your Honor, an attorney from the
ACLU would argue.
The Court: The Court is inclined to permit it, but I
guess the question is at what point. I think it would be
appropriate to let the plaintiffs proceed, then hear
from the defense, the amici, and then any response
that counsel for plaintiffs wish to make.
Ms. Roper: It certainly suits us, Your Honor. We don’t
intend to repeat things the city has already said. We
will try to respect everybody’s time.
[Page 197]
The Court: Will Counsel need a few minutes before we
proceed?
Mr. Rienzi: I would love a few minutes before we start.
The Court: Okay, then we will take a few minutes.
Mr. Rienzi: Thank you very much.
Ms. Cortes: Thank you, Your Honor.
(Brief recess.)
The Court: Are we ready to proceed?
Mr. Rienzi: I am, Your Honor. Thank you, Your Honor.
As you know, we are here on Plaintiffs’ motion for a
temporary restraining order or a preliminary
injunction. As you have heard from the witnesses, the
situation is urgent. Right now there is ongoing harm.
There are beds that are empty from parents who work

JA 443
with Catholic Social Services to whom the city is
refusing to send children, not because the city thinks
those are bad homes, because the city is freezing
intake to those houses because of a separate fight.
Right now there are actually children in congregate
care and elsewhere whose lives would be improved if
they were placed in those homes, and they are not
being placed in those homes. We know about some of
them. We know some of their names. We know Doe
[Page 198] Child 1 because we found out about Doe
Child 1. There are a lot of kids whose names we don’t
know who could be in those homes. You heard Jim
Amato testify that typically they never have more
than four or five vacancies and now they are getting
up to 26. Well, I don’t know the names of those kids,
but those are real human beings, they belong in good
foster homes, there are loving homes available, and
because of the city’s violation of the law, they are not
allowed to be there.
You heard Mrs. Paul testify about the harm to her,
about the fact that this is her gift, this is what she does
for the world. She has done it for 133 children. She
wants to continue participating, the city will not send
children her way. You heard James Amato testify
about how the June 30th deadline will impact, how
layoffs will need to start soon without new referrals,
how the foster program will need to shut down within
a matter of months.
The city says it will accept a new contract, but it will
only accept a new contract that either A, involves
Catholic agreeing to violate its religious beliefs, which
it simply cannot do. Or B, requires Catholic to proceed
with no referrals, which is suicide for the foster
agency. So the situation is dire, the harm is real, there

JA 444
are actual human beings [Page 199] who are and will
continue to suffer without relief.
Fortunately, state and federal law make the city’s
actions illegal and provide a firm basis for a temporary
restraining order or a preliminary injunction. Simply
put, the government is only allowed to force somebody
to violate their religious beliefs, which is precisely
what the city is trying to do. Governments are only
allowed to put somebody in that position if they have
a compelling government interest and they are using
the least restrictive means to pursue that interest.
And what the testimony made clear over and over
again is that the Government’s case is nowhere close
to those standards.
Let me start with the Religious Freedom Protection
Act. This is the Pennsylvania statute. It is parallel to
the federal RFRA statute that the Supreme Court has
recently interpreted in several cases. What the
Pennsylvania RFRA says is that the government
cannot impose a substantial burden on someone’s
sincere religious exercise unless it has a compelling
government interest, and the government has to
demonstrate that. The government must demonstrate
a compelling government interest and that it is using
the least restrictive means.
First, sincere religious exercise. I [Page 200] think
that might be the only thing or one of the few things
that there is no dispute in the courtroom in front of
Your Honor over the last three days. I don’t there is
any doubt that Catholic is engaged in a sincere
religious exercise. There are folks who disagree with
that exercise. There are folks who think they should
have a different view of their religious principles, but
I did not hear anyone to suggest that Catholic was

JA 445
acting on anything other than its sincere religious
beliefs.
Pennsylvania law gives four ways in which a
government action can impose a substantial burden,
and here every one of them is met. One alone would
do, but all four are met. The government’s action
constrains or inhibits conduct or its expression
mandated by a person’s sincerely-held religious
beliefs. That’s the case here. Catholic takes care of
children because of Jesus’ injunction to take care of
children and to take care of widows and orphans, in
the Bible. It’s obviously sincere religious belief.
Their beliefs about sex and marriage are also sincere
religious beliefs. There has been no claim that it is
anything other than a sincere belief that they are
acting on. Significantly curtails a person’s ability to
express adherence to the person’s religious [Page 201]
faith. Well, by forcing Catholic to certify the
relationships of same-sex couples, the government
would be curtailing Catholic’s ability to express
adherence to their religious faith. They would be
forcing them as a requirement to help kids to publicly
violate their religious beliefs.
And to be clear, Catholic is not saying, I need to go in
and tell everybody Couple A or Couple B is a bad
couple. Catholic is not rushing to say, let me go pass
judgment. Catholic is saying, please let me stand
aside. Please let me stand aside. I don’t want to have
to sit down and write evaluations of some couple’s life
that my church disagrees with. I don’t want to write
that. And so Catholic for years has just had the
position that if somebody comes and asks me, I am just
going to step aside, right.

JA 446
They are not going to say, no, you can’t be a foster
parent. They just want to say I have got religious
beliefs that don’t match with what you want to do, and
so I am not really the right person to write this up for
you. But guess what, there are 28 others in the city
who are happy to do it. Now, that’s utterly
hypothetical, Your Honor. It’s utterly hypothetical. We
talked about speculation a lot when people were
objecting to each other’s questions. The whole [Page
202] controversy is speculative because there is no
evidence of a single actual applicant ever. No evidence
of a single actual applicant ever who has asked
Catholic to do a home study for foster care and who
Catholic has referred away. There’s not one, because
it’s a hypothetical dispute. In that hypothetical
dispute, Catholic’s religious beliefs are clear and their
religious exercise would be clear. They would say, I
can’t do it. But it’s never happened.
It’s also a substantial burden if the government denies
a person the reasonable opportunity to engage in
activities which are fundamental to the person’s
religion. Well, taking care of orphans, fundamental,
fundamental to the Catholic Church’s religion. And it’s
work they were doing in the city long before the city
was doing the work in the city. The city has imposed a
regime that says, well, now you can only do it under
contract with me, and most of the time Catholic is
totally fine to do it through contract with the city. But
ultimately this was church work long before it was city
work. And what the city is saying now is well, you got
to violate a couple of your religious beliefs if you want
to still take care of the kids. That’s what they are
saying, and on Pennsylvania law, that’s a substantial
burden on religion. [Page 203]

JA 447
The fourth way you get a substantial burden compels
conduct or expression which violates a specific tenet of
a person’s faith. Again, the same thing, right. The
government is trying to force Catholic to certify things
that it just can’t certify to. And again, Catholic is not
rushing to say, I want to go condemn, they are saying
I want to stand aside. And if you let me stand aside, I
want to go take care of those kids which I have been
doing since long before the city did.
Under Pennsylvania law, the only way the city can get
away with imposing those burdens is if it has a
compelling government interest. Here you saw the
evidence, they can’t come close to meeting that burden.
They can’t come close to meeting it. Why not? A couple
of reasons. One, there is no proof that anyone has ever
been harmed. There’s no proof a single soul has ever
asked for the service. Absent proof of at least
somebody being harmed, right. Even the expert at the
end, Mr. Cervone. To his credit, very honest man, said
at the end, I am just—I am paraphrasing, but he said
I said may, I don’t really know. He said may. He does
not really know. The city does not really know.
When Ms. Ali was on the stand and it was asked, is
that a really important interest—or I think [Page 204]
first the word was compelling and then there may have
been an objection to it. But she was asked about the
strength of that interest, what’s the strength of your
interest in making sure every agency does the home
studies? Her answer was not, it’s supremely
important. Her answer was, it’s an interest like any
other interest that we have. That was her answer, it’s
in the transcript from Monday afternoon or Tuesday.
It was not, this is a supremely important interest.

JA 448
And here is how you also know that it’s not a
supremely important interest, no witness could name
any place where it was ever written down before, right.
And this is a theme that runs throughout the
government’s case. Their whole contract argument
depends on foster care being a public accommodation.
Being a public accommodation, therefore the Fair
Practice Ordinance covers it. Well, they have been
running a foster care system for years. But there is no
indication anyplace that they have ever taken the
position that what they were running is a public
accommodation, no indication that they ever told the
agencies it was a public accommodation. There’s just
nothing.
If it were a public accommodation, you could not do all
the things that the state law requires [Page 205] you
to do, like look into somebody’s mental stability, look
into somebody’s existing family relationships, right.
Imagine a world where you could do those things—
well, here is how you know it’s not a public
accommodation. You can’t do those things before
selling somebody a cup of coffee or a ticket on the train,
right. You can’t say, well, you are not coming in here
because I think you have a mental disability. You can’t
say, you can’t come in here because I have evaluated
your existing family relationships and I don’t think
they are that great, right. You can’t do that in a real
public accommodation.
Foster care is not a public accommodation, never has
been. It’s a made-up theory for this case that no one
can point to any document anyplace referencing before
this case. It’s a newly minted theory for this case, but
it does not work. Because by definition foster care is
not about everybody who lines up and wants it gets it.

JA 449
It’s about looking after the interest of children. And
the law has allowed for years, for many years, different
agencies with different specialties and different
requirements. State law does not say, these are the
only requirements and you may do no more. That is
not what it says. State law says that you get to
consider these things. It says [Page 206] you also can
consider an applicant’s ability to work with the
agency. And it certainly does not say you may add no
more, right.
And the city’s own webpage, which maybe they want
to change now because they realize that it’s
inconsistent with their theory here. The city’s own
webpage says that different agencies can have
different requirements. The city’s webpage refers
foster—the city’s foster parent handbook refers them
to that state association. That state association says
these are minimum requirements. Everything that
predates this controversy says that agencies are
allowed to have their own requirements and that’s
fine. It’s a judgment-call type of situation, not a public
accommodation. Not everybody gets one. In real public
accommodations, you can’t consider the race of the
child or the racial wishes of a foster parent before
placing them, but they do. You can’t consider the
disability of somebody before letting them do
something, but they do. They have not done to shut
anybody down, they have not turned off intake to those
people because it’s not a public accommodation. It’s a
newly minted argument. It has no basis in the way
they have done anything.
If that were real, if it were actually a compelling
interest to enforce that, they would enforce [Page 207]
it on race and on disability, and they would have

JA 450
talked about it and applied it to themselves sometime
in the preceding years. They made it up for this case,
Your Honor, it’s not real.
The city also lacks a compelling interest because they
have no evidence that anybody has actually been
harmed. Again, they are claiming to rectify a harm.
There is no indication anybody has been harmed.
There is no indication that same-sex couples are
knocking on the door of the Catholic Church and
saying, hey, Catholic Church, I would like you to be
the one who comes in and evaluates my family
relationships, right. The city tells people, go look for
somebody who is a good fit, right, they say look for
somebody who is a good fit.
So far as we know, there have been not same-sex
couples who go to the Catholic Church and say, come
on into my house and tell me what you think of my
family relationships. That actually is not terribly
surprising, right. The Catholic Church has wellknown teachings on sexuality and marriage, and it’s
entirely likely that gay families do not look at the
Catholic Church and say, I would like you to come in
and evaluate my family life. And so people go to
agencies that are good fits for them. Religious
Catholics go to Catholic. [Page 208] there are—as
Commissioner Figueroa said, there are 28 agencies in
the city that provide home studies for LGBT couples.
Although she thinks that’s true, they actually never
checked with most of the secular agencies, but she
thinks that’s true.
There is no indication that there is a problem. There
is no indication that a single soul has ever been denied
the ability to be a foster parent by Catholic’s religious
beliefs. And so in light of all of that, they simply don’t

JA 451
have a compelling government interest under state
law.
They certainly have not used the least restrictive
means available to pursue that interest. There are
other ways to let people become foster parents. There
are lots of agencies, right. I think it’s very telling the
testimony you heard over the LGBTQ foster parent
recruiting event in the mayor’s office of LGBT affairs.
The office of LGBT affairs is a part of city government
and it exists—it exists to serve LGBT people. And
there’s not a problem with that, there is nothing wrong
with that. Why? Because it’s not like people who are
not LGBT can’t go get government services. They can’t
get service from that office, but they can get service
from any other office and it’s fine. So the city does that
directly as the city, but [Page 209] the city is saying
that a network of contractors who are private entities,
who are not the city, some of whom are religious, they
have to serve everybody all the time, right, that’s the
claim. Catholic can only do this if it serves everybody
all the time.
And I don’t think it’s just that the city wants them to
do the home study, I assume the city wants them to do
the home study and insists—and insists that they say
that these couples relationships are good and this
would be a good place to raise children.
The Court: Now that’s speculative.
Mr. Rienzi: It is speculative, Your Honor. But I don’t
think it would do much good if what they were saying
was you have got to do the home study, but you are
free to say no. Maybe that’s their idea, but they sure
don’t have a compelling interest in that, right. If what
they are saying is you got to do the home study, but we

JA 452
don’t care what you say in the outcome and you are
allowed to say that I don’t think this is a good
relationship. They really could not possibly have a
compelling interest in that because that helps nobody.
That would really just be trying to force a religious
group to violate its beliefs with no benefit to anybody.
So I don’t think that’s what they mean, but I agree
with you, and to be clear, I don’t mean to [Page 210]
suggest there was evidence on that point.
The government has also violated the free exercise
clause. Under the free exercise clause, the government
can’t—well, the government faces strict scrutiny in
several different ways under the free exercise clause.
First, it’s rule that you must do every home study that
somebody asks you for is not a neutral and generally
applicable rule. Nobody can find any example of when
they have ever said it before this controversy. You
heard testimony from Jim Amato and from Toni
Simms-Busch about the many circumstances in which
foster agencies do send people to other agencies that
they think are better fits for them.
The claimed policy that you must do every home study
is not neutral and it’s not generally applicable. In fact,
it has not been applied and it’s not religiously neutral
because it was invented—it was invented to deal with
the situation of two religious entities. That’s why it
was invented, that’s why no one can talk about any
reference to it any time other than 2018, because it did
not exist.
The city when it set out to examine the problem with
one exception there was added today after the fact, but
with one exception only inquired of religious groups.
They did not ask whether any of the [Page 211]
nonreligious agencies certified same-sex couples at all.

JA 453
And so there is one addition at the end of one group
called NET who happens to be friends with the
commissioner. The rest of the nonreligious groups
have never even been asked, right. So the government
only set out to ask the religious groups. And the
government has never told the nonreligious groups,
either tell me your policy on same-sex couples, right.
It would be interesting to know that. The city actually
does not even know it even today, can’t be that
compelling, right. But also, they have not asked them,
tell me whether you do a home study for everybody
who knocks on the door. They have not told them that
they must do that home study and they have not
inquired as to whether they are actually doing that
home study. This is not a neutral and generally
applicable law, this is a targeted—a targeted
investigation only asking about religious groups, not
applied to any of the nonreligious groups.
You heard also from both Jim Amato and from
Commissioner Figueroa about the direct religious
discussions that the government engaged in with
Catholic. Again, the government has no doubt that
Catholic is a religious enterprise. I don’t think they
have any real—their lawyer at one point said foster
care was a business. I don’t think from what you heard
[Page 212] from any of the witnesses, including the
city’s witnesses, that it’s plausible to say this is a
business. Catholic does it at a loss of about $3.8 million
a year.
But when talking about what Catholic should do,
Commissioner Figueroa said times have changed, it’s
not 100 years ago. You ought to listen to Pope Francis.
And there was a little bit of a tension between
Commissioner Figueroa’s testimony and Jim Amato’s.

JA 454
Mr. Amato testified that she also said you ought to
listen to Pope Francis instead of the archdiocese or
instead of the archbishop.
It’s a government official in a government building
telling a religious organization which religious leader
to listen to. That’s outrageous. That’s fairly
unprecedented. The government does not get to go to
the religious group and say, I am going to tell you
which religious leader you are going to listen to. And
if you don’t do it my way, we are going to take you out
of the foster care business. But that’s essentially what
the city is doing. They told us what set of religious
beliefs we ought to follow. The archdiocese just can’t
follow those, they disagree. They have a disagreement
about a lot of things, but the government should not
be telling people which religious [Page 213] beliefs to
follow, which religious leader to follow.
The government certainly should not have the opinion
that there are certain religious beliefs that you really
ought to let go of by now, you really ought to let go of
that one. The government has no business having an
opinion on that, and they certainly have no business
directly telling religious groups what religious beliefs
are okay and what are not okay. That is outright and
open religious discrimination from a government
official in a government office. They are not allowed to
do it.
So you have the investigation that starts with only
calling the religious, the investigation that continues,
with one exception, not checking with any of the
nonreligious either about this or any other referral
situation, and then you have the government telling
them they ought to get over their religious beliefs, they
ought to listen to a certain religious leader.

JA 455
The Court: Well, it’s not just a certain religious leader,
it’s the head of the Catholic Church.
Mr. Rienzi: Oh, it sure is, Your Honor. But the
government does not get to be the one who figures out
what Pope Francis means. But Archbishop Chaput has
a different view of what Pope Francis meant than the
Philly Inquirer does. I am not competent to [Page 214]
tell the answer to that either, but the government sure
is not competent to tell that, right, so “you ought to
listen to the pope” is not a neutral statement, right. I
think they have a pretty clear view of what they think
the pope means. And I don’t think the government has
got any business having a view on the subject. The
government has no competence and no authority to
have a view on that subject, certainly not to threaten
religious groups with it.
Compelled speech, Your Honor. Under—and just to
finish up on free exercise. Under any of these theories,
under the religious discrimination theory, under the
not-neutral and generally-applicable theory and under
the theory that there are individualized government
exemptions
and
individualized
government
assessments. You get to strict scrutiny under the free
exercise clause. Any one of them will do, we have got
all of them. And under strict scrutiny again, the
government can only win if it could prove a compelling
government interest and least-restrictive means. It
can’t, it has not—from their own mouths they actually
said it is not that compelling, they have to lose.
There’s also a compelled speech claim. The
government wants to force Catholic to provide these
[Page 215] certifications. Catholic does not want to do
it. That is a clear case of compelled speech. The
government is not allowed to say to Catholic, you have

JA 456
to say the things I want you to say. But that’s what
they are trying to do. They are saying, if you want to
do foster care for these other families, you are going to
have to make these certifications and you are going to
have to express your opinions about these families and
their relationships. Catholic does not want to. Under
the First Amendment, they can’t be required to.
You heard a little bit of testimony from the city
claiming that recruitments and signing up of
families—I guess they said a couple of different things.
At times they said recruitment and signing up of
families is part of the contract. There is no indication
that they pay anything for that. There is no indication
that they check anything on that. Elsewhere they
seem to say it’s not DHS’s job, it’s somebody else’s job.
Certainly Catholic is not acting as the city and
certainly it is not spending money under the contract
when it just steps aside. So you might have an
argument about maybe there is overhead and
something else, but when Catholic just says, you know
what, I can’t do that, they are not spending the city’s
money, [Page 216] they are not operating as the city,
they are operating as themselves and they are
stepping aside. They are not taking actions under that
contract. They are choosing not to and they are
exercising a statutory and constitutional right to
choose not to do that.
The city does not deny and, in fact, has been crystal
clear that it is attempting to force Catholic to make
written certifications endorsing the relationships of
couples in same-sex marriage who apply for home
studies. That’s the only thing Catholic could do to
satisfy them here. They have to fill out those state

JA 457
criteria, and if they don’t, the city says you are out of
luck and you are out of foster care.
The city is right that when the city is contracting the
city gets a measure of discretion. But the city does not
get the discretion to force people to engage in
compelled speech and it does not get the discretion to
force people to violate their religious beliefs. Here,
they are doing both of them and they must lose.
The city acts like it will be big deal, and Mr. Cervone
at times acted like it would be a big deal if you
maintain the status quo. And by status quo, I mean
the status quo ante. So the status quo I am referring
to is the status quo before they cut off [Page 217]
referrals. So until early March is what I mean by the
status quo, because that’s what we are asking Your
Honor to put back in place, at least for a period of time
while we litigate the rest of the case.
The city acts like it would be a big deal to resume that
status quo. The reality is they operated under that
status quo for a long time and nobody had a problem.
There was no problem. There is not a single same-sex
foster parent applicant who has not been able to
become a foster parent, zero. And you heard Mr.
Amato’s testimony that actually single same-sex
people who apply to them get certified, right. It’s really
this narrow issue. As a religious matter, the church
can’t do the certification about the relationships.
That’s it. And the city’s solution is you are gone, you
are out of this work, and sure it’s bad if some kids get
transferred, sure it’s bad if some homes say empty,
sure it’s bad if some kids stay at places they shouldn’t
be, but we will eventually catch up and sort it out.

JA 458
But that’s not the law. The law in this country allows
for diversity. It allows for diversity. And so it allows a
world in which you have both gay foster parents and a
Catholic agency that has different beliefs about
religion and sex. And they don’t all have to agree on
everything all the time. I think one of the [Page 218]
teachings of the Masterpiece case, which just came out
a couple of weeks ago, was precisely that we have to
find ways to actually live together in this society of
people who don’t all share the same beliefs. It’s a free
people. So in a free place we are not always going to
share the same beliefs. It can’t be the case that we get
to a point where there is one acceptable view on
marriage and then you can’t do any social work in the
city or you can’t do this social work unless you share
it.
In Masterpiece, the majority actually talked about the
situation of a church refusing to do a same-sex
wedding and they said that was the easy case, right.
They said the harder case, sellers of commercial
services, the business guy selling the cakes, even that
that guy won, but the easy case to them in their
opinion was the clergy who says, I can’t do the
wedding. Well, Catholic is precisely in that situation,
right. Catholic is like the clergy. They are part of the
Catholic Church and they are simply saying, look, I
can’t do things that openly and directly violate my
religious beliefs. I want to go take care of the kids in
the city as I have for decades, I can’t do this thing that
violates my religious belief. What Masterpiece said
about that is that that’s okay because people can [Page
219] accept that that is a religious exercise and
because it’s not standing in the way of people getting—
it’s not harming dignity or standing in the way of

JA 459
people getting services, because they can get services
elsewhere.
The same is try here. Marriages, like foster care, have
some relationship to the government, right. You need
a license from the government to get married. So it’s
not that it’s utterly unconnected to the government.
But what it is is that people can understand not every
church has to have the same views about sex and
morality. It’s kind of ridiculous to think that every
church is going to have identical views on those things,
and the government should not be in the position of
trying to crush one, trying to kick it out of the public
sphere because it has the wrong views. Teachings of
Obergefell and Masterpiece actually both point in the
direction of saying, we are allowed to have
disagreement and we have got to find ways to work
together. And here the logical way to work together is
to let Catholic keep taking care of kids, but not kick
them out of the sphere just because they have a
different set of religious beliefs. The city may wish that
they would move on from those beliefs. Mr. Cervone
may wish that they would move on from those beliefs,
but [Page 220] they are entitled to have them. State
and federal law let them have them.
With that, Your Honor, we suggest that—we very
much ask this Court to provide a temporary
restraining order or preliminary injunction and do to
so as quickly as possible. And if I could then reserve
the rest of my arguments for rebuttal afterward.
Thank you.
The Court: Okay. I will hear from the city.
Ms. Ewing: May it please the court, Catholic Social
Services asked for this hearing for the extraordinary

JA 460
relief of a temporary restraining order on the basis
that it would suffer immediate and irreparable harm
unless the city will be ordered to operate under an
expired contract or soon-expired contract or to enter
into a new full contract with CSS immediately. There
have been multiple days of testimony which have
demonstrated that there is no need for such
extraordinary relief in this case. None of the harms
that Catholic Social Services focused on, whether its
own loss of business, or its foster parents’ interest, or
its failed attempt to suggest that the city is not acting
in the best interest of children, satisfies the injunction
standard. Nor is CSS likely to succeed on the merits,
and both the city and the public interest [Page 221]
will suffer if this Court were to issue an injunction.
I am going to focus on the key evidence from this
week’s hearing and a few issues which were directly
raised by Catholic. Since this was an evidentiary
hearing and in the interest of brevity, the city relies on
our briefing for any merits arguments that I do not
discuss again today.
First, I want to talk about harm a little bit. Catholic
has presented no evidence of urgent or actual
irreparable harm that would merit an injunction. All
of their attempts to show harm have either failed or
they are irrelevant to a TRO, preliminary injunction
analysis. First, Catholic Social Services argued that
they won’t be able to provide foster care as part of its
religious mission without a contract which allows new
placements. But their own testimony about their other
foster care activities, such as congregate care, their
contracts with other counties to provide foster care,
and indeed their other contracts with the city all show
that Catholic Social Services will be able to exercise its

JA 461
charitable missions to be taking care of children, and
rebut their claim. And their harms to—that are in the
nature of business losses, such as whether they will
lose contracts so that they may have to downsize, these
types of harms are not considered irreparable in [Page
222] this circuit. And it is not critical. One of the sort
of things that we have—there has been a lot of
discussion whether they are a business, whether they
are not a business. They are a nonprofit cooperation
with employees and they engage in—and they enter
into contracts to perform services and are claiming
business harms.
Second, they tried to portray a foster care crisis,
although it is unclear how Catholic itself is harmed by
that allegation in a way that would warrant a TRO.
But even their claim there that this is some kind of
overall urgent foster care crisis was belied by the
testimony of—certainly by the DHS witnesses.
Similarly, there is no evidence of any crisis that has
resulted from DHS halting the intake to Catholic
Social Services. Their evidence is that there are some
open Catholic foster homes.
They have also tried to argue that the way that the
Department of Human Services has handled
exceptions to intake following the intake closure has
somehow harmed or threatened to harm children.
Again, the evidence that has been presented is that
DHS is looking at this issue from the prism of the best
interest of the children, that they have determined
that all current kids can remain with their families
until [Page 223] they leave the system, that if
necessary that foster families will be able to work with
other agencies as has been done in the past with many
other closures or losses of contracts for foster care. And

JA 462
the testimony from the three foster parents did not
rule this out. Not surprisingly, because you would
expect that they would want to stay if they have a bond
with the child, that that would be the determinative
factor. But the evidence is also that DH leadership has
and will allow intake exceptions for best interest
reasons. And these are reasons such as siblings
coming into care and going to the foster family that is
looking after other siblings in the family. Or if there is
a former foster parent involved where that would be a
good fit to go back. But there has been no evidence that
where—in any instance in which DHS leadership has
been asked for an exemption or it has been brought to
their attention that there is one of these cases that any
permission has been denied. It has always been
granted.
So finally, we have the testimony of Mr. Amato who
appeared to testify that DHS, you know, would
negotiate an interim transitional contact with the city
to—rather than walk away from—on June 30th with
no contract and close its foster homes. The city has
offered an interim agreement to CSS which will even
keep [Page 224] compensation rates the same as in the
current contract and will last—we have offered them
a one-year contract in order to allow the relationship
to wind down with—you know, in an orderly fashion.
That in itself removes any urgency which could
warrant any extraordinary relief from this Court.
Now, I would like to talk a little bit about the merits,
another prong of the TRO, preliminary injunction
analysis. There have been many arguments made in
this case which the city regards as either dwelling on
irrelevant points or to the extent they are irrelevant,
offering inadequate evidence to sustain them. I want

JA 463
to go through a few of those. For example, whether or
not Catholic Social Services is performing its foster
care work as a religious mission is not the point. This
is not a case in which the city is coming in to interfere
with private charitable work. The fact that—it’s the
opposite, it’s—Catholic Social Services has accepted a
contract from the City of Philadelphia to perform work
which the City of Philadelphia is charged with by the
commonwealth to take care of abused and neglected
children by providing them with foster care. And we
have delegated through contracts part of that
obligation, part of the providing of foster care to the 28
or 29 or 30 foster care [Page 225] agencies which have
entered into contracts with the city. You don’t have to
sign a contract. You can negotiate the contract, you
can walk away. If a provision is a deal breaker for one
side or the other, you have to walk away, one side or
the other.
So the first point is that you are not substantially
burdened if you agree to a provision in a contract. You
can’t then unilaterally change that obligation after the
contract has been in effect and say it does not apply to
me because I have this exception or for religious
reasons. That’s something that needs to be worked out
up front. These contracts are to provide public social
services. They are paid for with taxpayer dollars and
obviously you have seen, it’s an exhibit, it has many
terms. But one of the—certainly the city disagrees
with Catholic Social Services as to whether the
contract requires them to recruit and certify foster
parents. I think if you read the contract and as we
have explained in our briefs, it is part of their scope of
services. And we believe it is part of their scope of
services and part of the overall compensation
structure. The Commonwealth of Pennsylvania sets

JA 464
the criteria for evaluating prospective foster families,
and none of these criteria are religious in nature.
Another provision of our contract is that [Page 226]—
and it’s clearly set forth in the contract, is that all
families must be treated equally under the—and with
no discrimination. I have heard all kinds of efforts to
minimize the references to the Fair Practices
Ordinance in the contract and I will get to that in a
second, but the nondiscrimination provisions in the
contract are put there for a reason. It is not something
that—you know, I have heard a lot of argument of well,
no one has ever tried to apply this, here is—we have
not called every one of our contractors to ask whether
they are complying with it. It’s a provision of the
contract. We have a right to expect that when our
contractor sign a contract that they are doing what
they say they are going to do and have obliged
themselves to do unless we find out to the contrary.
And in this case, it was only when the Inquirer article
came out and in the aftermath of the Inquirer article
through inquiries, Catholic Social Services clearly
stated that it would not be able to comply with that
provision that was in the contract.
And so at that point, you know, we reached the
decision that the contract is coming to an end, and it
looks as if they are not going to be able to enter into a
new one and make the decision to sign when we both
know that this is very important and a deal [Page 227]
breaker to the city.
I want to go to the public accommodation argument
which I’ve heard a lot about, and I think this is mostly
another red herring and I will explain why. We don’t
have to parse the Fair Practices Ordinance and all of
its applications. Although we do take the position that

JA 465
recruiting and selecting and supporting foster parents
is a service, and a service is included in the Fair
Practices Ordinance. And there is no exception in the
Fair Practices Ordinance for private businesses, so we
think that it does apply. But the new contracts that
will be—that have been extended to—the full
contracts to the agencies with which we are working
on full renewals, and the full contract consistently that
we would be offering to Catholic Social Services, as
there was testimony, clarify that the contract
obligation is not to discriminate against any of the
protected categories under the fair practices ordinance
for the length of the new contract. And so whether or
not, you know, just standing alone every definition of
the Fair Practices Ordinance is met, which we think it
is, but we have made it clear that in the upcoming
contract and in the contract going forward that there
can be no discrimination on the basis of sexual
orientation. [Page 228]
And I have also heard a lot about, you know, foster
care being—you know, whether foster care is a service
or not, I guess. The parts that are of concern to us are
refusals to deal and refusals to certify in a
nondiscriminatory way. These are the classic pieces of
an antidiscrimination law. And so the DHS witnesses
testified very clearly and extensively that it is the
choice of the foster parent to be—to choose the foster
service provider. They can receive information, but it
is their ultimate choice. And the discrimination
problem comes into play when the foster care agency
refuses to deal with them. That is the same type—in
concept, the same type of discrimination of refusing to
sell somebody something, refusing to provide a service
for them, another kind of service. You are saying, you
needn’t apply here, we are not here for you. We think

JA 466
that is clearly covered by our antidiscrimination law
and policy. Again, to certify is to follow the state
certification requirements and to—which are directed
at whether or not a family is going to be able to be a
nurturing caretaker and to render a decision on that
basis.
I also heard a lot of cross examination that seem to be
attempting to establish secular exemptions. I would
just like to say that the only [Page 229] relevant
question under the exemption cases is whether DHS
recognized secular exemptions that undermine the
same purposes to the same degree as the religious
exemption that Catholic seeks. And the answer is that
the ones that Catholic tried to establish on cross dealt
with things like proximity or language or special
medical needs. Actually, as I said, Deputy
Commissioner Ali rejected all of these as being even
exemptions at all because she said it has to be the
applicants who choose. But all of those relate to
looking out for the best interest of children. None of
those reasons undermine our antidiscrimination laws
or policies. And thus cases such as Blackhawk and
Lighthouse, which we are assuming they are trying to
make an exemption argument under, don’t apply.
But the biggest failure on the merits that really needs
to be discussed is we maintain that the city—that CSS
was unable to demonstrate the substantial burden on
religious practice which they claim our contract
imposes. Jim Amato did testify that same-sex
marriage is against Catholic doctrine. But that
testimony does not in itself articulate a conflict
between that religious belief and the contract
obligation that we believed that Catholic was
performing not to discriminate and to evaluate all

JA 467
applicants [Page 230] equally. Because the contract
does not require Catholic or the Catholic Church to
recognize any marriage in order to certify foster
parents. So the mere fact of—that same-sex marriage
is against Catholic doctrine does not mean that CSS
can’t do its job of evaluating applicants fairly under
the state criteria. The Court does not have to blindly
accept that there is a conflict. It is entitled to examine
the contract and to see if there actually is a conflict
that would require CSS to require—to recognize samesex marriages. We submit you won’t find that.
Mr. Amato also testified that certifying a same-sex
couple’s home would somehow be what he called I
believe a validation of the couple’s relationship. Again,
we maintain that the contract and the state
requirements don’t require CSS to validate or affirm
any relationship. The criteria are directed toward
assessing the applicant’s ability to nurture a child. So,
for example, if you have a couple and the relationship
is that they are at each other’s throats constantly
during the home study, you might say this is not a
relationship that bodes well for them being a caretaker
of a child. But whether they are married or in a single
sex relationship does not have to be validated or
affirmed.
[Page 231]
And as a matter of law, I direct the Court to cases such
as the Harris Funeral Home case in the 6th Circuit
which expressly held that simply complying with an
antidiscrimination statute does not as a matter of law
require—is not the same thing as a validation or
endorsement. That case, by the way, also speaks to
another of Mr. Rienzi’s points which is whether or not
we are dealing with a compelling state interest and a

JA 468
narrowly-tailored means of addressing it. Our position
is that we never get to that because the substantial
burden is not established. But if for any reason we ever
get to the strict scrutiny analysis, there are many
cases. The Harris Funeral Home is one. In another
context we have the Supreme Court’s decision in the
Roberts versus the Jaycees. They all recognize that
antidiscrimination statutes do further a compelling
governmental interest, an extremely important
compelling governmental interest. And I am not sure
which one of those cases uses this language. They both
agree that enforcement of an antidiscrimination
statute is the least restrictive means of furthering the
interest. One of the cases says that it’s the precise way
to further the governmental interest.
Going back to the substantial burden for a second, Mr.
Amato also stated that Catholic teaching [Page 232]
was—that what he called the lifestyle represented by
a same-sex couple was unacceptable in parenting,
presumably meaning Catholic would consider all
same-sex couples to be unfit to foster parent. But they
offered no evidence that a gay married couple could not
be excellent nurturing caretaker. That’s why nothing
like that is in the state criteria and that is what
empirical research shows is the case. The Department
of Human Services is entitled to rely upon such
research when it sets its contractual requirements for
how it wants this part of the job done, and the city is
entitled to outlaw discriminatory conduct which is
rooted in disapproval of the lifestyle of a protected
group.
So while CSS did not establish a substantial burden,
Mr. Amato’s testimony did clearly show that Catholic
was inserting purely religious criteria into the secular

JA 469
criteria established by the state. He testified that
Catholic would certify neither same-sex couples nor
unmarried heterosexual couples on religious grounds.
But then, which was—and I think you heard
testimony from the commissioner today, new to DHS
and the city on Tuesday afternoon he described yet
another religious requirement that CSS had
interposed into the certification process, that Catholic
would not certify a foster family unless the applicants
could [Page 233] produce a, quote, pastoral letter,
unquote, from a clergy member that attested that the
applicants actively participated in religious services.
This further complicates Catholic’s ability to comply
with the city’s contract in that, I think Article 15, that
same section that deals with the Fair Practices
Ordinance, there is actually an earlier sentence that
completely makes it clear that there can be no
discrimination on the basis of religion. But we now
have a new problem in addition to the problem which
brought us here which complicates the ability of
Catholic Social Services to comply with the city’s
contract. Neither the city nor its contractors can
impose a religious test or discriminate on the basis of
religion and deny certification solely because an
applicant can’t produce a letter attesting that he or she
is a believer versus a nonbeliever, or it seemed from
the testimony they could be a believer but not an
active church-goer and would be unable to get that
letter. This raises new constitutional problems for the
city and for—potentially for CSS.
And lastly I heard Mr. Rienzi—he made an argument
that by—that we were compelling speech and thereby
violating first amendment speech rights of Catholic
Social Services in addition to the religious free exercise
and RFRA claims. But the key point with [Page 234]

JA 470
regard to compelled speech cases is that the
government can’t restrict speech that is outside of the
program that has been entered into. When the
restriction applies to the program activities
themselves, which the party has entered into
voluntarily, like a contract, that speech can be
regulated. We think it is clear here that the
certification process, the recruitment process is
squarely within the contract between the city and
Catholic, and that therefore the compelled speech line
of cases has no applicability.
Finally, I want to talk about the remaining issues with
respect to the issuance of an injunction, and all of
those militate against its issuance with regard to
public factors and the—what the effect of an injunction
would be. DHS is obligated to act in the best interest
of 6,000 or more children, 6,000 in foster care and
10,000 total for whom it has custodial responsibility.
And as the commissioner and Deputy Commissioner
Ali testified, that requires them—they have made the
decision that they need to keep intake closed unless or
until Catholic Social Services can sign a full contract,
that it cannot permit foster care agency contractors to
discriminate in ways that will depress badly-needed
diversity of foster care families and DHS’s resulting
ability to determine the [Page 235] best fit for each
child who comes into placement. As the testimony—as
I heard the testimony, I think the commissioner
testified children are not widgets. You don’t just one
comes in and you say, oh, there’s an open home, they
go in. They have particular needs and there is a
particular need within the city and in DHS to have as
many different kinds of foster care families and to
make them feel welcome so that the best fit for the
children can be made.

JA 471
DHS cannot permit its contractor agencies to send
messages that would harm potential applicants who
fear being stigmatized and humiliated, and these are
people who have been subject often to some
stigmatization and humiliation. They may well be
deterred and not want to go through that again.
Also there is a potential that it could harm—the
message would be that, you know, some applicants
need not apply. And the city should be able to enforce
its well-established antidiscrimination laws and
policies. The City of Philadelphia and the Fair
Practices Ordinance and associated policies have been
in effect for decades. This is not something new.
So for this Court to order anything beyond what DHS
is already doing, which is making placements with
Catholic when case-specific factors such [Page 236] as
sibling placements are in the best interest of those
children,
would
act
to
undermine
DHS’s
determinations and to harm the city’s decades-long
efforts to battle discrimination. This would
irreparably harm the city and is not in the public
interest. In addition, an injunction here would not
restore the status quo. The current contract, which
apparently Catholic Social Services wants to extend
over the expiration date, does actually not require us
to provide any intake or specific numbers of children
to any agency, to CSS. CSS is actually asking or
seeking to force the city to enter into—to either extend
a contract with terms that are not in there or to enter
into a new contract on terms which the city has
rejected as to any other contractor agency.
And finally, an injunction would put the city in the
position of knowingly providing foster care services
with religious criteria, including Catholic Social

JA 472
Services’ admitted now use of pastoral letters which
raise additional constitutional issues, so that even if
the claims which underlie their motion for preliminary
injunction and TRO would be ruled upon by this Court,
there are new issues which would cause us to be
unable to contract with them.
Give me a second, Your Honor. [Page 237]
Just one more—I noted during Mr. Rienzi’s argument
that he seemed to be arguing that there was no
problem if there were no complaints. The contract
obligation not to discriminate, Catholic Social Services
has told us it cannot comply with that. Discrimination
is not okay based on the number or lack of number of
complaints.
But for all these reasons, because Catholic Social
Services has not been able to meet any of the prongs of
the injunction standard, the city respectfully requests
that its motion be denied. But I have one last request,
which is that because the city just became aware of
that pastoral letter requirement on Tuesday, it had
not been part of our prior briefing. If the Court feels it
would be helpful as to the additional problems which
we believe this requirement raises, we have prepared
a very short letter brief which we would be happy to
hand to the Court, if the Court desires.
The Court: Okay. You can hand it up.
Ms. Ewing: Thank you. Thank you, Your Honor.
The Court: Thank you.
Mr. Rienzi: Your Honor, is it me or is it the ACLU
next?
The Court: The ACLU is next.

JA 473
[Page 238]
Mr. Rienzi: That’s what I thought.
Ms. Cooper: Good afternoon, Your Honor.
The Court: Good afternoon.
Ms. Cooper: And thank you for the opportunity to be
heard.
Plaintiffs are asking the Court to issue an
extraordinary ruling of law. They are asking the Court
to hold that an organization that enters into a contract
with the government to provide a government service
has a right to then alter that provision of—the
provision of that public service to conform to its
religious beliefs. Like many public child welfare
systems around the country, the city has chosen to
maximize children’s family placement options by
barring discrimination based on race, religion, sexual
orientation and other characteristics that have no
bearing on one’s ability to care for a child.
CSS’ religious beliefs do not entitle it to accept the city
contracts and taxpayer dollars to perform some child
welfare services on behalf of the city and then
commandeer the system to impose its own standards.
The potential consequences of such a ruling are pretty
staggering. Just think, what if there were an agency
that held a religious belief that children must be
subjected to corporal punishment that violates [Page
239] state child abuse laws. There are plenty of
religious faiths with beliefs about that. What if there
were a religious agency that had a religious objection
to providing medical treatment to children who are
injured or sick. The implications of the legal ruling
that Plaintiffs are asking for cannot be confined to

JA 474
religious-based objections to same-sex couples,
because under the Establishment Clause, the
government and the courts cannot give preference to
some religious beliefs other others. You can’t say, this
religious belief we will defer to and approve, this
religious belief we are not going to give you the same
treatment.
The fact that Plaintiffs are asking the Court to order
the city to allow this kind of free rein by religiouslyaffiliated contract agencies demonstrates a profound
misunderstanding of the right to free exercise of
religion. The right to free exercise protects against
government interference with religious institutions;
pursuit of their own interests. The Supreme Court
said that very clearly in the Kiryas Joel case. The right
to free exercise does not establish a right to have the
government create opportunities for you to exercise
your religion and then fund those opportunities.
Indeed, funding religious activities directly violates
the Establishment Clause, as I will [Page 240] discuss
in a few moments.
In the briefing, the plaintiffs rely on, I believe, Trinity
Lutheran, and that’s a case that is often
mischaracterized in this kind of discourse around
these issues. This case does not support the
extraordinary claim Plaintiffs make here. It
establishes for sure that the government could not
disqualify religious organizations from a public benefit
because of their religious identity. But even if a
government contract to perform a government service
could be considered a public benefit, which of course it
is not, as some cases in our brief make clear, but even
assuming it were, the city has not denied CSS a
contract or referrals of children because it is Catholic

JA 475
or even because it holds religious beliefs. The city
suspended referrals because of CSS’ refusal to comply
with its nondiscrimination requirement. Trinity
Lutheran in no way suggests that a contract agency’s
religious beliefs give it the right to dictate how it
provides government-contracted services.
But also I want to address very briefly the speech
claim, and I just have a very small amount to add to
what the city had to say about that. But the Agency for
International Development case is very clear in
distinguishing between speech that is part of the [Page
241] scope of the contract, and when the government
leverages a contract to try to prohibit speech that an
entity engages in outside the scope of the contract.
Just because—I think if Philadelphia were to tell
Catholic Social Services that it could not engage in
speech in other domains, that would be a
constitutional problem and we would be standing with
them on that for sure. But the speech they are talking
about, providing home studies and certifications of
foster parents, that is precisely what the contract is
about.
Now, I don’t think we heard from the plaintiffs about
really the other major problem with their theory,
which is the Establishment Clause. The First
Amendment does have two parts, and the other—or at
least about religion, and the other part is the
establishment clause. And so not only does the city
have no legal obligation to permit its contract agencies
to impose religious eligibility criteria on prospective
foster parents, if it did so, the city itself would be
violating
the
Establishment
Clause.
The
Establishment Clause prohibits the use of religious
eligibility criteria in the provision of government

JA 476
services, whether that service is provided by
government employees themselves, DHS employees,
or organizations contracted by the government to
perform that government function. [Page 242] The
Philadelphia Department of Human Services could
certainly not screen out prospective foster families
based on failure to meet a religious test. It could not
say only Christians or only Jews, cannot say no samesex couples because of our religious objection.
Therefore, the agency that hires and pays with
taxpayer dollars to perform this very service that is a
government function cannot do so either.
And the Supreme Court made crystal clear in the
Larkin case and the Kiryas Joel that the
Establishment Clause prohibits the government from
delegating a government function to a private entity
and then allowing that government function to be
performed using religious criteria.
In addition, there is the funding issue I touched on
earlier. The Supreme Court has made absolutely clear
in case after case that the Establishment Clause bars
the government funding of religious activity. Here,
allowing the use of religious criteria in the screening
of prospective foster parents, which is a government
function, again under contract with the state to
perform this government function, that is religious
activity. And I would just point to the Bowen v.
Kendrick case where the Supreme Court recognized
that allowing religious-based discrimination [Page
243] by a government-funded service provider would
be one form of impermissibly advancing religion.
There is a third reason why allowing contract agencies
to use religious criteria in the foster licensing process
would violate the Establishment Clause, and that

JA 477
there is a line of Supreme Court cases that says that
when the government preferences religion to the
detriment of others, to the detriment of third parties,
that’s a violation of the Establishment Clause, and I
would point the Court to the Estate of Thornton as a
seminal case on that point. Here, accepting Plaintiff’s
position would cause significant harm to the children
in the child welfare system by depriving them of good
families and cause harm to the would-be families who
seek to care for them.
Plaintiffs will likely say this is a question of religious
accommodation, if they come back up again. And, you
know, there are lots of accommodation cases in the
Supreme Court and other courts. But this is not
religious accommodation. The cases like Amis and
Hosanna Tabor, those cases involve accommodating
religious organizations to get exemptions from
generally-applicable laws that apply to everybody in
their own private activities.
This is not about accommodation. This is [Page 244]
about a case—this is a case in which they are asking
for the government to delegate this government
function to this organization, and for the government
to then allow them to provide those government
services using religious criteria, and that is absolutely
what the Establishment Clause prohibits.
Turning back to the harms that would result, those
also go to the balance of equities, of course, and a
further reason why the requested TRO and PI should
be denied. And in fact, it is these very harms that
caused proposed intervenors of making to—to seek to
participate in this case. Allowing discrimination by
agencies that have religious objections to same-sex
couples would harm the at-risk children that the foster

JA 478
care system is meant to protect as well as the families
who would care for them, and these harms are very
much intertwined. Starting with the families, just to
sort of unpack it a little bit.
The families can be harmed in a variety of ways.
Starting with those who maybe go to—would go to
Catholic Social Services or any like-minded agencies if
the court were to rule in their favor. Those people
could be subject to discrimination, and the Supreme
Court in Heart of Atlanta and other cases has
recognized the degradation and the humiliation and
[Page 245] embarrassment that can come with
discrimination. This is a serious harm that the
Supreme Court has recognized. And that degradation,
the degradation of that kind of experience is not
lessened by the fact that the discrimination is done
politely or that it is called a, quote, referral. “We will
not serve your kind” is a degrading humiliating
experience that the city clearly has a compelling
interest in wanting to prevent.
In addition, all prospective foster parents headed by a
same-sex couple would face the uncertainty about
whether they would face discrimination in the process,
making it more difficult, stressful. If the Court were to
accept Plaintiffs’ position and the LGBT community
were to learn that in Philadelphia, pursuing foster
parenting comes with the risk of exposure to lawful
discrimination against them. And a rule of law would
say, agencies are lawfully entitled to discriminate
against LGBT or people of same-sex couples, it is hard
to fathom how many people could be deterred from
subjecting themselves to that process, knowing that it
is perfectly legal to discriminate against them in the
process.

JA 479
Finally on this topic, even if there were clarity about
which agencies discriminate and some couples were
well-enough informed to avoid the agencies [Page 246]
that would not accept them, that means that same-sex
couple families or prospective families headed by
same-sex couples get a reduced choice of agency
options. The plaintiffs talk a lot about 28 agencies
available, what is the big deal. There are 28 other
agencies available. Imagine a scheme in which you
had a system where say Christians get the choice of 30
agencies and everybody else gets 28, or white people
get 30 agencies, African Americans have to settle for
fewer options. That is a stigmatizing system for the
city to impose on its population.
Also, put aside the stigma, the reduced options would
mean that some families would not be able to work
with the agency among the existing agencies that
might be most appropriate for them. The plaintiffs
emphasized
that—particularly
the
individual
plaintiffs, that the services of CSS are so outstanding
that they are not sure that they would continue
fostering if they could not work with CSS, even if that
meant ceasing to care for the children they obviously
love. Yet Plaintiffs’ position is that same-sex couples
should not be able to benefit from those services and
instead should have to accept agencies that are
completely unacceptable to individual Plaintiffs.
In addition, we heard testimony about how [Page 247]
different agencies have different expertise in terms of
the children that they care for. So if it happened to be
a faith-based agency objecting to same-sex couples
or—let’s put in any other substitute group, because of
course a ruling here would reply to any religious-based
objection to any group, so an agency that had a

JA 480
religious-based objection to interracial couples or to X,
Y, Z groups, same-sex couples. If that agency
happened to be one of the agencies that specializes in
medically needy children, I forget the particular
terminology, that would mean that a family in that
group, the interracial couple or the same-sex couple
who wanted to care for a medically needy child,
perhaps they are doctors or nurses, would not have the
option of working with that agency. So there was a lot
of talk of the children not being widgets and fungible,
which is absolutely—I agree with that. Also the
agencies are not necessarily fungible. So giving a
menu of options for heterosexual couples and a
reduced set of options for same-sex couples is harmful,
again for the stigma reason and for the practical
reason.
Turning to the interest of the children, turning away
qualified foster parents based on religious criteria
conflicts with the professional and accepted child
welfare practice standards that exist to protect [Page
248] children. And I would refer the Court to the Child
Welfare League of America standards of excellence
and adoption, I believe foster care practice as well.
Because each child’s needs are unique, meeting the
best interest of a particular child means having as
large and as diverse a pool of qualified licensed
families as possible to optimize that fit that we have
heard some discussion about between child and
family. Especially given the current need for more
qualified families for older youth and LGBT youth and
perhaps other groups, it is contrary to the interest of
Philadelphia foster children for the city’s contracting
agencies to refuse to accept qualified parents for
reasons that are unrelated on the best interest of the
children. And to refuse to place children with a class

JA 481
of families that may just include that family that is
best situated or perhaps the only family that is
available, ready, willing and able to meet the needs of
a particular child. If same-sex couples are turned away
by CSS and any other like-minded agencies, or
deterred from pursuing fostering altogether because
they know that agencies are permitted to discriminate
against them and they perhaps don’t want to take that
risk, children lose out on good families.
It is also important to recognize that – [Page 249] and
I touched on this earlier, that if CSS is entitled to
refuse to accept same-sex couples because of its
religious beliefs about marriage, then all faith-based
agencies will be able to turn away prospective families
who fail to conform to any of their religious beliefs.
Again,
the
Establishment
Clause
prohibits
preferencing some religious beliefs over others. So
some denominations don’t view marriages between
people of different faiths as a valid union. Some don’t
recognize second marriages after divorce. A religiousaffiliated agency might object to foster parents who
work on the Sabbath as defined by the agency, or who
eat pork or who allow their children to attend public
schools. And again, as we learned in the hearings this
week, that CSS itself has other religious-based
objections. No unmarried couples of any sexual
orientation and no one who is not a church-goer able
to secure a clergy letter. Requiring the city to allow
each foster care agency to implement its own religious
criteria for foster families could result in a patchwork
of such exclusions, creating even more barriers to
finding families for children who need them. So the
children’s interest in getting more families weighs
decidedly against granting the requested relief.

JA 482
But in addition, again as I touched on [Page 250]
earlier, it’s not agency certified. The risk of a ruling for
the plaintiffs not only compromises the city’s ability to
maximize family options for children, it also opens the
door to giving agencies carte blanche to impose on
children who are wards of the government a denial of
services, medical services, no school. Whatever their
religious belief might mean. Again corporal
punishment that—based on a biblical view that may
violate state child abuse laws, it would open up the
door to allowing an unlimited number of potential
harms to children.
I want to touch very briefly on what is felt to be
perhaps a suggestion by Plaintiffs’ counsel that the
city’s knowledge that CSS has religious beliefs about
marriage means that—or this is how I understood it,
anyway—means that the city was aware all along that
CSS put those religious beliefs above the professional
established child welfare standards of accepting all
qualified families to give children the best array of
placement options. There is no basis for this
assumption. There are numerous faith-based agencies
that hold religious beliefs about marriage and hold lots
of religious beliefs that may be relevant. But they
know that they put the child welfare professional
standards and the interest of children [Page 251] first.
Indeed, as we heard in this case, Bethany Christian
Services, which apparently has similar religious
beliefs about marriage as CSS, apparently is willing to
comply with the terms of the nondiscrimination
requirement.
I do want to say just a few words about Plaintiffs’
reliance on the Masterpiece Cakeshop case. To support
it, they argue that that supports its contention that

JA 483
the city’s enforcement of its nondiscrimination
requirement was based on hostility towards CSS’
religious beliefs. None of the evidence the plaintiffs
claim support this accusation creates any inference
that the city’s enforcement was based on antireligious
animus as opposed to a desire to ensure that all
prospective families are welcomed. They distort the
Masterpiece ruling beyond recognition. Just to give
some examples, there is simply nothing hostile to
religion about the statement that quote, we cannot use
taxpayer dollars to fund organizations that
discriminate against people because of their sexual
orientation or same-sex marriage status, it’s not right.
That was an example of a statement that they deemed
hostile to religion. If mere disagreement with
permitting government funding of discrimination
constitutes impermissible hostility towards religion,
[Page 252] that would preclude any enforcement of
nondiscrimination requirements against government
contractors who refuse to comply based on religious
objections. Masterpiece did not say this.
Nor does the city’s statement that quote, we would not
allow such discrimination against, for example,
Catholic couples or mixed race couples and we cannot
allow it with respect to same-sex couples either
constitute hostility towards religion. Masterpiece does
not mean that referencing other forms of
discrimination in the context of a discussion about
religiously-motivated
sexual
orientation
discrimination impermissibly shows hostility towards
religion. Indeed, the Masterpiece case itself, in that
case itself the Court cited Piggie Park, one of the most
famous race discrimination cases in the country, for
the proposition that religious objections generally,
quote, do not allow business owners and other actors

JA 484
in the economy and in society to deny protected
persons equal access to goods and services under a
neutral
and
generally-applicable
public
accommodation
clause.
So
uttering
race
discrimination in the same breath as sexual
orientation discrimination or other forms of
discrimination does not amount to hostility towards
religion.
Interestingly, though, Plaintiffs’ [Page 253] protest of
this statement from the city as, quote, comparing CSS
religious beliefs to racist discrimination, close quote,
seems to be an acknowledgment, as I read it, that it
would be improper to allow religiously-affiliated
agencies to exclude prospective families based on a
religious objection to say interracial couples. Yet they
seem to be suggesting that their religious beliefs about
who should be foster parents deserves the city’s
approval and deference. But, of course, again, the
Establishment Clause does not allow that picking and
choosing.
And the comments from the mayor from several years
ago, you know, that that somehow you can dot that—
connect the dots to say that that demonstrates the
city’s decision in 2018 to enforce this contract
demonstrates hostility towards CSS’s faith.
Masterpiece does not support that giant leap. In that
case they were talking about the adjudicative
statement from a member of the adjudicative body
that was charged with hearing a discrimination
complaint. The Court in no way suggested that had
Colorado officials ever expressed disagreement with
the leadership of the business owner’s faith
community that enforcement of state laws against the
business owner or any organizations affiliated with his

JA 485
faith would be forever [Page 254] assumed to be based
on hostility toward faith.
I just have a bit more, if the Court will indulge. I feel
compelled to discuss the plaintiffs’ use of the
“referrals” terminology. They seem to be attempting to
shoehorn this case into Lukumi to claim selective
enforcement by citing the fact that agencies may refer
families to other agencies that have special expertise.
These are not exemptions from the city’s
nondiscrimination requirement. They are comparing
apples to oranges. Using the nomenclature “referral”
does not make the refusal to accept same-sex couples
any less discriminatory. They are using smoke and
mirrors with this referral language to make
discrimination appear benevolent towards the families
discriminated against under their policy.
CSS is not simply advising prospective parents that
other agencies may be a better fit for them or may, you
know, give them a choice of other agencies. They are
refusing service to same-sex couples, period. I think if
an agency had a policy of refusing to accept interracial
couples or non-Christians, I think even Plaintiffs
would agree that this is discrimination even if the
agency referred those families to other agencies
politely and refused to serve them.
One last thing that was just mentioned in [Page 255]
the cross examination. Plaintiffs seem to be implying
that the city’s refusal to allow the use of the religious
eligibility criteria in its public child welfare system to
exclude same-sex couples violates federal law. That
was sort of how I was interpreting the line of cross.
And I just want to make clear that there is no federal
law or regulation that requires states to permit faithbased agencies to dictate the terms of government

JA 486
services provided. Indeed, the federal statute that
requires equal treatment of faith-based service
providers that participate in providing services and
government programs. Specifically, I am going to read
the language from that because it makes quite clear
that it does not allow this or require it. It says here—
and this is 42 USC 290kk-1. Religious organizations
are eligible to be program participants on the same
basis as any other nonprofit private organization as
long as the programs are implemented consistent with
the Establishment Clause and the Free Exercise
Clause of the First Amendment to the United States
Constitution.
And this is—I want to call the Court’s attention to the
next line. Nothing in this chapter shall be construed to
restrict the ability of the federal government or a state
or local government in [Page 256] receiving funds
under such programs to apply to religious
organizations. The same eligibility conditions in
designated programs that are applied to any other
nonprofit private organization. In other words, when
religious organizations enter into government
contracts, the government is not required to tailor
their contract or their services to meet the religious
needs of the agency.
Again, I just want to—actually, you know what, I am
going to stop there because I have been speaking long
enough and just see if the court has any questions for
me.
The Court: I have no questions.
Ms. Cooper: Thank you.
The Court: Thank you.

JA 487
Mr. Rienzi: Let me start where the parties and the
amicus agree, kids are not widgets. That’s great, we
agree. Kids should be placed in homes that serve their
best interest. Everybody agrees. I think everybody
actually said a version of this one, as many different
kinds of foster families as possible is good for kids. We
agree. The question is, are you going to get there if you
have a government-imposed litmus test that says
people—organizations with certain religious beliefs
can’t participate in the [Page 257] system, right. So the
alternative—I thought it was fascinating, the ACLU is
talking about well, Catholic seems like a good agency.
We ought to make that available for everybody.
That’s not something that is on the table in the case.
What is on the table in the case is, are they going to
get shut down or not, right? So the ACLU’s requested
relief is not expand Catholic, that’s not something the
government can do. It is shut down Catholic because
Catholic should not be available to anybody, right. So
I thought Commissioner Figueroa actually said it best,
whether Catholic wins the case or doesn’t win the case,
there’s 28 agencies available in this city who will
certify same-sex families.
Counsel for the ACLU talked a lot about
establishment clause concerns, about what happens
when the government delegates its functions to a
religious entity. Here is why that argument misses the
mark in this case. Certifications of families for foster
care are not the city’s function to delegate. It’s just not
the city’s function. Commissioner Figueroa said that,
their documents say that. Their documents also make
clear that in no way is Catholic the agent of the city.
Those are the terms of the contract. So it’s not the
city’s function to delegate. [Page 258]

JA 488
And they can’t be violating the Establishment Clause
simply by allowing Catholic to do what Catholic has
done long before the city was involved in this line of
work, which is Catholic brings in families that
Catholic brings to the table and thinks are good to
bring to the table. If we want a world where we have
as many foster families as possible, another thing I
think everybody has said today, want as many foster
families as possible, well, different groups can reach
different communities better. And saying that we are
going to shut the door and we are going to say Catholic
can’t do it because Catholic doesn’t say they are in
favor of each and every family makes no sense. It’s
contrary to the interest that city says it is pursuing.
There was a reference to the Alliance for an Open
Society case, AOC v. Aid, which talked about how the
government is not permitted to require speech outside
of what it’s contracting for. When it’s paying for
something, the government is allowed to say, hey, I
paid you for that, say it my way. When it’s not paying
for something, they don’t get to use the fact that they
are paying you over here to make you engage in speech
over there.
That’s precisely what is going on here. [Page 259] they
don’t pay anybody a penny for home studies. And they
certainly don’t pay anybody a penny who steps aside
from home studies. You don’t draw a check from the
government when you say, actually I can’t do that one.
So they don’t pay a penny, it’s outside of what they are
paying for. AOC actually quite clearly dictates that the
plaintiffs have a valid compelled speech claim.
There were arguments about third party harms and
how the claim based on the Thornton case that where
there are third party harms the religious party has to

JA 489
lose because the Establishment Clause says so. Here
is the easy way to know that that’s not right. Hosanna
Tabor v. EEOC, a nine-nothing decision from the
Supreme Court on both free exercise and
establishment clause grounds saying that the
government could not apply an otherwise valid
nondiscrimination law, discrimination against the
disabled. The government could not apply that
otherwise valid nondiscrimination law against a
church, a church school. Hobby Lobby also rejects the
argument that any burden on third parties creates an
establishment clause problem.
And if we needed anything fresher, we could just go
back to Masterpiece from five minutes ago, right, or
two weeks ago. Here is the Supreme Court, the seven
justices in the majority, and this is not when [Page
260] they are talking about—not when they are
talking about the commission, they are just talking
generally. When it comes to weddings, it can be
assumed that a member of the clergy who objects to
gay marriage on moral and religious grounds could not
be compelled to perform the ceremony without denial
of his or her right to the free exercise of religion. That
was the easy case according to seven justices earlier
this month. It’s just like this case. Marriage is both a
religious event and also a civil contract. You have to
get a government license to get married. The
government regulates marriage. In some ways it’s a
government function.
If the arguments from the ACLU and the city were
correct, then the Supreme Court has to be wrong,
because then you can’t have the government allowing
religious groups to have their different religious
beliefs on something like sex and marriage while still

JA 490
doing stuff that somehow involves the government.
Yet the Court said it was easy because it is easy.
Because our laws do not give the government the
ability to dictate the one and only correct answer to
complicated questions like sex and marriage. It’s a free
country, people have lots of different beliefs. The
Supreme Court repeatedly—they said it in [Page 261]
Obergefell, they said it again in Masterpiece, has made
clear that we need to be able to live together with a
diversity of different beliefs and that the government
can’t be in the position of punishing the quote unquote
wrong set of beliefs.
There was a lot of talk about the harm that would
occur, the stigma, I think was mentioned a few times,
the harm and the stigma that would occur if the
government were to allow Catholic to continue
operating according to its religious beliefs. First,
again, that’s not a winning constitutional argument,
says Masterpiece, right. If that were a winning
constitutional argument, seven justices could not say
that the church can say they won’t do gay weddings,
because then the government would be allowing a
stigma in a government function. That’s not what the
law is. It’s not what the law is.
But we heard a lot from the city over the past few days
about all of the exceptions they have granted, all the
kids who they have gone ahead and placed in families
through Catholic. And I would ask, if they have such a
compelling interest, if it’s such a compelling important
interest to not work with Catholic, well then, why are
they making all of these exceptions? And if the
exceptions are so harmful, if it’s so [Page 262] terrible
for people to live in a world where we don’t all agree

JA 491
about religion and sex and marriage, then how come
people have not suffered from those exceptions?
Answer, they have not suffered. They are actually not
harmful. People disagree. I strongly suspect that a lot
of these couples have deep disagreements with the
Catholic Church. And in America, that’s okay. It’s
okay for the Catholics to say I disagree with the samesex couple over there and I think—you know, my
religion says you should do it differently. It’s okay for
a lot of other people, including Commissioner
Figueroa, to have deeply-held beliefs that the Catholic
Church is dead wrong. In a free country that’s fine.
And in a free country that should not be disqualifying
for either group and for either side to participate in the
public spirit, particularly to do something that
Catholic is proven to do very well, which is help kids.
You heard argument again about the harms that
would occur, and I would just remind the Court again,
there is no evidence that anyone has even asked for
the service. There is no evidence that anybody has—
under the Supreme Court’s case Brown v.
Entertainment
Merchants
Association,
the
government is not allowed to rely on ambiguous proof
to carry its compelling interest [Page 263] burden. It
actually needs to have real proof of actual harm.
And I was disappointed before when we suddenly had
a surprise expert witness, but the surprise expert
witness ended up, to his credit, quite truthfully saying,
I don’t know, it might be harmful. I think it’s harmful,
but I don’t really know. And under the law, the
government loses at that point. Under the law, they
have not carried their burden when the answer is, I
don’t know, I think so but I can’t prove it. That means
government loses.

JA 492
There was some discussion about the contract and the
public accommodations language in the contract. I
would point out again, the government simply
declined to brief the question of whether this is a
public accommodation. They seem to keep assuming it
is a public accommodation in part because the words
“public accommodation” appear in the contract. I
would simply point out that that paragraph makes
clear that it’s about a lot of different things. It talks
about residential and real property. There’s another
paragraph later in section 15 that talks about not
giving the government goods that come from Northern
Ireland. That’s not because there is goods going on in
this contract. There is no goods going on in this [Page
264] contract. That’s because this boilerplate that
appears in a million city contracts, that’s why it’s this
thick, it does not prove that it’s a public
accommodation. And again, I would just say the city’s
own actions and the way foster care is done prove
conclusively that is not a public accommodation, it was
never intended to be one. They just needed to come up
with an argument.
The city spoke about contract renewal and said, well,
this is just a matter of not renewing a contract. I would
simply point out the government does not get to stop
being the government because there is a contract
involved. The law is actually quite clear that people
contracting with the government still have their first
amendment rights. They have the same first
amendment rights that at-will employees of the
government have. That’s clear 3rd Circuit law. So the
government does not just get to say, well, it’s a
contract, I don’t have to worry about respecting your
religion or I don’t have to worry about not forcing you

JA 493
to speak because it’s a contract. Because it’s a contract
is not a first amendment defense.
The city, actually, as I understood it, was also arguing
that maybe Catholic is wrong about its religious
requirements. Maybe they are wrong when they think
that God does not want them to fill out the [Page 265]
paperwork and certify these couples. And I would
simply say it is not for the government, nor
respectfully for the Court, to decide what Catholic’s
religious exercise is. That is their sincere religious
exercise. There is no serious challenge to it in the
evidence. That’s their religious exercise. Maybe the
city thinks they are wrong, but the bottom line is their
sincere religious exercise is, I can’t sign the form, I
can’t do that thing. It is not for the city to come back
and try to redefine it and say, we think you are wrong.
That is just as inappropriate as the Pope Francis
discussion at DHS. That’s for the religious people to
decide, it’s not for the government to decide.
Let me end on the balance of harms issue that has
been discussed. It’s now really clear because now
when—I mean we have actually heard from the
intervenor on the witness stand, we have heard from
intervenor’s counsel, we’ve heard from the city, they
can’t find anybody who was harmed by the old system,
zero, they can’t find a soul. That old system so far as
we are aware and so far as the evidence shows, hurt
no one, not a single gay couple that couldn’t go be a
foster parent if they wanted to. Not a single gay couple
actually turned away by Catholic. There is just no
evidence of a soul who was harmed. And so as [Page
266] Commissioner Figueroa said, you have got the
same number of agencies available either way.

JA 494
So you have got this hypothetical claim that somebody
might be injured, although we don’t know who and we
have got no proof of it. But that’s the government’s
argument against the status quo. But in order to
vindicate that alleged interest, they are willing to do
real harm to real actual people, both the agency and
the parents and the kids. They acknowledge we have
some open Catholic homes. Well, that’s not just words,
right. Some open Catholic homes is beds and families
where foster kids should be sleeping right now. And
the government is not letting them sleep there.
You heard from Commissioner Figueroa that just like
they did in March, they have still have got 700 plus
kids in congregate care, and as she told that reporter,
about 250 of them could be living in families. That
number has not moved an inch in the past three
months. Do you think there is any serious world in
which the opening up of those 26 beds at Catholic
homes doesn’t move some real live kids to get into
foster homes? Of course it does.
The government talked about their exceptions policy.
And we heard some testimony. No one has closed on it
and I will not either, other than to [Page 267] make
this observation. We heard some testimony about Doe
Child Number 1, and if one thing is clear, I am sure,
Your Honor, is that it was a complicated mess. There’s
a complicated mess over that child. But that’s
instructive, because that shows that when you are in
a world where you can’t just proceed normally and you
have to go get special exceptions from the top of the
top, right, from the top levels of city government, I
believe was the phrase. You have to go get exceptions
at the top. And when you don’t have a written policy
and you have not told everybody at the bottom, it’s

JA 495
ridiculous to assume that you are finding out about all
the kids who need to be placed in all the right places.
There is just no reason to assume that.
So the current situation that is going on right now
with the illegal freeze of intakes hurts real people, real
kids, real foster parents, real agencies. And that’s
harm that should be stopped. And the idea that out of
our desire to make sure that everyone gets to use the
agency they want, we are going to go to people who
have deliberately chosen Catholic, who love Catholic,
who have been with Catholic decades, and we are
going to say, sorry, you can’t have Catholic any more.
And we are going to take that away from real actual
people in order to vindicate the hypothetical [Page
268] situation that has not actually arisen yet that
somebody might show up to Catholic and ask for the
Catholic Church to come in and evaluate their family
life in this circumstance simply does not make any
sense. And I would end by pointing the Court to two
cases in our brief, Marks v. Jackson and Reilly v. City
of Harrisburg. What they both say is that the
irreparable harm and balance of harm showings,
that’s a sliding scales, I am sure Your Honor is aware
from the preliminary injunction factor analysis, but
that a strong showing on irreparable harm and
balance of harms can even lessen what a party needs
to do on success on the merits. For the reasons we have
said, we think actually success on the merits is quite
clear. We think what the government is doing violates
state and federal law, federal law, both first
amendment and related to their funding. So we think
the merits are actually quite straightforward, but if
you have any doubt, the harm alone should be able to
carry the day for the injunction. So with that, we

JA 496
would ask Your Honor to enter the injunction. Thank
you.
The Court: Okay, thank you. The Court holds the
matter under advisement. However, I would request
of the parties that they file findings of facts and
conclusions of law by the 28th of June. And the [Page
269] Court will issue its ruling shortly thereafter. Is
there anything further?
Mr. Rienzi: No, Your Honor.
Ms. Cortes: No, Your Honor.
The Court: Okay. Have a good evening.
(All rise.)
*

*

*

JA 497
[Appx. 1002]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
SHARONELL FULTON,
CECELIA PAUL, TONI
LYNN SIMMS-BUSCH,
and CATHOLIC SOCIAL SERVICES,
Plaintiffs,
v.
CITY OF PHILADELPHIA, DEPARTMENT
OF HUMAN SERVICES
FOR THE CITY OF
PHILADELPHIA, and
PHILADELPHIA COMMISSION ON HUMAN
RELATIONS,

Civil Action
No. 18-2075
Assigned to the
Honorable Judge Tucker

Defendants.
DECLARATION OF DOE FOSTER MOTHER #1
1. I am over the age of 21 years old and capable of making this declaration pursuant to 28 U.S.C. § 1746. I
have not been convicted of a felony or been convicted
of a crime of dishonesty. I have personal knowledge of
all of the contents of this declaration.
2. I am a foster parent who works with Catholic Social
Services. I have fostered fourteen children over eighteen years as a foster parent, and I have adopted two of
them. Some of the children I have cared for have had
significant special needs and learning disabilities. For

JA 498
example, more than one of the children I have cared
for was diagnosed with autism.
[Appx. 1003]
3. Catholic Social Services has provided me with significant support and resources to help me care for the
needs of my foster children, and they also provided me
with additional help as I worked to meet the needs of
my autistic foster children. I have been able to call social workers at any hour and receive an answer from
someone I knew and trusted, and I have always relied
heavily on the social workers I interact with. These social workers have always demonstrated the highest
level of care and have shown great love and attention
to my children. Although I am not Catholic, I am a religious person and I appreciate the spiritual environment at Catholic Social Services and the way that
seems to motivate a dedication to children. My own religious beliefs inspire me to want to care for children
in need.
4. I have never worked with another foster agency and
I am not certified to receive foster placements through
any other agency. I want to continue working with the
agency and social workers whom I trust.
5. I received a new foster son, Doe Foster Child #1, in
October of 2016. Doe Foster Child #1 is a young child,
but he is the age that other children have normally already started speaking in full sentences. However,
when Doe Foster Child #1 came to my home he never
spoke at all in the beginning. He also had great difficulty eating, and he was very fearful of other normal
activities like taking a bath. Because he did not speak,
it was also difficult to understand in the beginning
what Doe Foster Child #1 needed. After consultation

JA 499
with my Catholic Social Service social workers, and
with medical attention, Doe Foster Child #1 was diagnosed with autism. Because of Doe Foster Child #1’s
age, we do not know yet Doe Foster Child #1’s level on
the [Appx. 1004] autism spectrum. We began to take
Doe Foster Child #1 to receive therapy for autism, and
we also had more information about how to meet Doe
Foster Child #1’s needs.
6. In the months after coming to our family, Doe Foster
Child #1 began to show remarkable progress. He began to say some words, like “hi” and “bye,” he would
play happily in the bath, and he showed great affection
and attachment to our family members. Doe Foster
Child #1 is also the same age as my grandson who lives
with me. The two boys shared a room and developed a
deep bond. I would often find them playing together in
the backyard.
7. On one occasion, one of my adult children took Doe
Foster Child #1 to the dentist for an appointment. Doe
Foster Child #1 was so fearful and upset when he
thought he would be taken from our family. But when
he came back after the appointment he bolted out of
the car and into the house and held me tight as he happily and repeatedly said, “hi, hi.” I assured him that
this was his home, that he did not need to worry, that
I loved him, and everything was ok.
8. When I have adopted foster children in the past, one
of my adult children co-signed on the adoption. That
way if anything ever happened to me, I had peace of
mind knowing that my adopted child would still be
taken care of.
9. Within the last few months, Doe Foster Child #1’s
social worker asked if I wanted to adopt Doe Foster

JA 500
Child #1. He said that no other families were interested in adopting. I expressed interest in adopting, but
I explained that I needed to consult with my adult children and figure out who would co-sign on Doe Foster
[Appx. 1005] Child #1’s adoption. Because of different
events going on in the lives of my adult children, I
knew that this would take some time.
10. Just a few weeks ago, Doe Foster Child #1 was removed from my home to be placed with another foster
family who was immediately ready to adopt Doe Foster Child #1. I was heartbroken when this happened. I
thought that I would have more time and be able to
adopt Doe Foster Child #1 myself. When the social
worker with the CUA in charge of Doe Foster Child #1
came to pick him up to take him away, I kissed him
goodbye and told him how much I loved him. But every
time the social worker tried to lead Doe Foster Child
#1 out of our home, he would wriggle free and come
running back to hold me. Doe Foster Child #1 finally
had to be carried crying from our home. I watched from
the window in my house as my adult son helped carry
Doe Foster Child #1 out. While doing so, my son kept
assuring Doe Foster Child #1 that it would be ok, that
he would like his new family, and that we would always love him.
11. Very recently, the social worker with the CUA in
charge of Doe Foster Child #1 contacted me and let me
know that an emergency situation had arisen with the
foster family Doe Foster Child #1 was placed with, and
all the children in that home were being immediately
removed. He did not give me details, but he asked if I
would be willing to take Doe Foster Child #1 back. My

JA 501
immediate response was, “bring my son home.” The social worker said he needed to check with DHS and
would get back to me.
[Appx. 1006]
12. The social worker then followed up the same day
and informed me that DHS denied the request to place
Doe Foster Child #1 with me because I work with
Catholic Social Services. DHS apparently told the social worker that “Catholic Social Services is going
through a case right now and DHS is not approving
him to come back here.” I was devastated when I heard
this news. The social worker seemed upset as well. The
social worker said that the only option they had for
Doe Foster Child #1 was a temporary respite home,
but he would be moved from that home after a few
days while they searched for another home.
13. I repeatedly expressed my desire to Doe Foster
Child #1’s social worker that he bring Doe Foster Child
#1 back to my home. I also communicated this to my
social workers at Catholic Social Services. I also spoke
with my adult son, who told me he was prepared to cosign on Doe Foster Child #1’s adoption if we could get
him back. I communicated the fact that I was immediately prepared to adopt Doe Foster Child #1 to my social workers and Doe Foster Child #1’s social worker,
but the social workers still did not bring Doe Foster
Child #1 back home. My grandson frequently asks
when Doe Foster Child #1 will come back home.
14. Recently, the social worker informed me that Doe
Foster Child #1 was having difficulty associated with
normal bodily functions. The social worker asked if I
had any advice to help Doe Foster Child #1. It sounded
to me as though Doe Foster Child #1 was regressing,

JA 502
and that some of these problems were related to Doe
Foster Child #1’s earlier issues with eating properly. I
gave the social worker detailed instructions about how
to prepare Doe Foster Child #1’s food, what he liked to
eat, [Appx. 1007] and how to help him with other bodily functions. But I also expressed again that the best
thing for Doe Foster Child #1 would be to come back to
our family. When Doe Foster Child #1 lived in our
home, he was thriving and he felt safe and loved.
15. I have learned that Doe Foster Child #1 has not
been receiving his regular and needed therapy for his
autism, because Doe Foster Child #1’s school called me
to ask why Doe Foster Child #1 had not been attending
his special classes and receiving therapy. The school
wondered if Doe Foster Child #1 was sick since he had
not been attending. I am worried about his physical
and emotional wellbeing right now. I also understand
that Doe Foster Child #1 has since been moved to another temporary respite home, and that there is no
other permanent home available for Doe Foster Child
#1 right now. My understanding is that under normal
circumstances, Doe Foster Child #1 would have been
placed with me so that I could give him the love and
care he needs, and we could proceed with the adoption
process. DHS has not provided me with any reason—
other than its dispute with Catholic Social Services—
for refusing to let me care for Doe Foster Child #1, I
say prayers for his return throughout the day and look
at Doe Foster Child #1’s pictures every night. I frequently call his social worker to see if I can do anything to get Doe Foster Child #1 back. I cannot understand why Doe Foster Child #1 is being kept from me.
[Appx. 1008]

JA 503
I declare under penalty of perjury that the foregoing is
true and correct. Executed on June 6, 2018.
/s/Doe Foster Mother #1
Doe Foster Mother #1

JA 504

[Appx. 1018]

City of Philadelphia
Department of Human Services
Contract Number 16-20030-04
Original Contract Number 16-20030
290 - Placement Services
[PSC (SAA) 290 rev]
[Rev. Date: June2017]
CONFORMED
STANDARD AMENDMENT AGREEMENT
This STANDARD AMENDMENT AGREEMENT
(“Amendment Agreement”) is made as of September
20, 2017 and effective July 1, 2017 (the “Effective
Date”) by and between the City of Philadelphia (“the
City”), by and through its DEPARTMENT OF HUMAN SERVICES (“Department”), and CATHOLIC
SOCIAL SERVICES (“Provider”), a nonprofit corporation, with its principal place of business at 222
NORTH 17th STREET, PHILADELPHIA, PENNSYLVANIA 19103.
BACKGROUND
The City and Provider entered into a certain Contract,
Contract Number 16-200301 dated November 30,
2015, which includes the City of Philadelphia Professional Services Contract General Provisions for the
Department of Human Services (the “General Provisions”), the Provider Agreement, Cross Agency Response for Effective Services (“CARES”) Limited License Agreement (when applicable), and any and all
attachments, exhibits and documents thereto (collectively, the “Base Contract”), wherein Provider agreed

JA 505
to render various Services to the City in accordance
therewith; and
The City and Provider entered into an amendment to
the Base Contract, Contract Number 16·20030-01, for
the period July 1, 2015 to June 30, 2016; and
The City and Provider entered into an amendment to
the Base Contract, Contract Number 16-20030-02, for
the period July 1, 2015 to June 30, 2016; and
The City and Provider entered into an amendment to
the Base Contract, Contract Number 16-20030-03, for
the period July l, 2016 to June 30, 2017; and
[Appx. 1019]
Hereinafter, the Base Contract and all prior amendments, if any, shall be referred to as the “Base Contract as Amended;” and
It is necessary to INCREASE the amount of compensation payable under the Base Contract as Amended
by Nineteen Million, Four Hundred Thirty Thousand,
Nine Hundred Ninety-One Dollars and Twenty-Three
Cents ($19,430,991.23), in order for Provider to continue to render the Services and provide the Materials
specified in the Base Contract as Amended and this
Amendment Agreement; and
The City and Provider have agreed to amend certain
terms and conditions of the Base Contract as
Amended, as set forth herein; and
In consideration of the mutual obligations set forth
herein, and each intending to be legally bound, the
City and Provider covenant and agree as of the Effective Date as follows:

JA 506
ARTICLE I: AMENDMENTS TO THE CONTRACT
With the exception of the following amendments set
forth in this Amendment Agreement, and subject to
councilmanic appropriation of funds, the terms and
conditions of the Provider Agreement “as amended”
shall be and remain in full force and effect:
1.1 Incorporation of Background. The Background is
incorporated by reference herein.
1.2 Definitions. Capitalized terms not otherwise defined herein shall have the meanings set forth in the
Base Contract as Amended.
1.3 Term. The term of the Base Contract as Amended
is extended for an Additional Term commencing JULY
1, 2017 and expiring JUNE 30, 2018.
1.4 Compensation. As compensation for the Services
and Materials being provided under this Contract, the
City covenants and agrees to set the amount of compensation payable to Provider for the current contract
term at Nineteen Million, Four Hundred Thirty Thousand, Nine [Appx. 1020] Hundred Ninety-One Dollars
and Twenty-Three Cents ($19,430,991.23). Notwithstanding anything in the Contract to the contrary, in
no event shall the amount certified by the Finance Department for Services and Materials under the Contract, including this Amendment Agreement, exceed
Forty-Three Million, One Hundred Seventy-Eight
Thousand, Seven Dollars and Twenty-Three Cents
($43,178,007.23).
1.5 Services and Materials. Section 2.1 of the Provider
Agreement, is amended in accordance with the attach-

JA 507
ments listed below, which are attached to this Amendment Agreement and incorporated herein by reference.
(a) S.A.A.-1: Service, Rate, Maximum Days/Units
(b) S.A.A.-2: Scope of Services
Section 2.1 of the Provider Agreement, is amended in
accordance with the Exhibits listed below, which are
available on the Provider Extranet and incorporated
herein by reference.
(c) S.A.A.-3: Community Umbrella Agency Practice
Guidelines
(d) S.A.A.-4: Day Treatment Standards
(e) S.A.A.-5: Foster Family Care Standards
(f) S.A.A.-6: Group Home Standards
(g) S.A.A.-7: Institutional Care Standards
(h) S.A.A.-8: Re-Integration Standards
(i) S.A.A.-9: Specialized Behavioral Health Standards
(j) S.A.A.-10: Maternity Mother/Baby Standards
(k) S.A.A.-11: Medical Standards
(l) S.A.A.-12: Supervised Independent Living Standards
(m) S.A.A.-13: Streamlined Standards
(n) S.A.A.-14: CARES Limited License Agreement
(o) S.A.A.-15: Balanced and Restorative Justice Standards
[Appx. 1021]

JA 508
1.6 Additional Provisions. Other provisions, including,
without limitation, OEO participation commitments
and any exceptions or modifications to the General
Provisions of the Contract, are set forth in the following clause(s) and incorporated herein by reference:
(a) DHS is increasing its administrative efficiency
through the use of electronic record keeping and data
sharing technology. As these updates occur, the Department will continue to notify providers of these
technology requirement changes through written notices. Failure to comply with any DHS technology requirements (including, but not limited to the use of PWeb and P-DRIVE) may result in a financial penalty
and/or a finding that an Event of Default has occurred.
1.7 Acknowledgment of General Provisions. Provider
specifically acknowledges that Provider has read and
understands the terms and conditions contained in the
General Provisions and acknowledges that by executing this Amendment Agreement, Provider shall be legally bound by all of the terms of this Contract, including, but not limited to, those set forth in the General
Provisions. The revised General Provisions are attached to this document and are explicitly accepted by
the Provider.
1.8 Acknowledgment of Standards. Provider specifically acknowledges that Provider has read and understands the terms and conditions contained in the applicable above referenced Performance and Service
Standards (“Standards”) formerly known as Service
Description and Contract Requirements, Service Description, Performance Standards, Service Standards;
Procedural Manuals and/or Guides which are available
on
the
Provider
Extranet
at
(http://dhs.phila.gov/extranet/extrahome_pub.nsf/

JA 509
Content/ServiceStandards) which are incorporated to
this Amendment Agreement by reference. Provider
acknowledges that by executing this Amendment
Agreement, Provider shall be legally bound by all of
the terms of this Contract, including, but not limited
to, those set forth in the Standards currently published on the Provider Extranet and any and all subsequent amendments.
(SIGNATURE PAGE TO FOLLOW)
[Appx. 1022]
IN WITNESS WHEREOF, the Parties hereto, intending to be legally bound by all of the Contract Documents, have caused the Contract to be executed by
their respective duly authorized officers as of the date
in the heading of this Standard Amendment Agreement.
APPROVED AS TO
FORM
SOZI PEDRO
TULANTE,
CITY SOLICITOR
Per: /s/ Crystal T.
Espanol
7777BBC1F E44C9
Name: Crystal T.
Espanol
Title: Assistant City
Solicitor

THE CITY OF PHILADELPHIA
Through: The Department of Human Services
By: /s/ Cynthia Figueroa
A9C82E46A1939B
Name: Cynthia Figueroa
Title: Commissioner
CATHOLIC SOCIAL
SERVICES
By: /s/ James Amato
6C6D46268B844FD
Name: James Amato
Title: Vice President

JA 510
By: /s/ Franz Fruehwald
D426312A44334D4
Name: Franz Fruehwald
Title: Chief Financial
Officer Assistant
Treasurer
[Appx. 1023]
City of Philadelphia Contract Routing Slip
External Negotiation/Encumbrance & Budget Verification (Conformance Manager)
1. Review contract as signed by vendor and consult
with supervisor.
x Click the check box to attach additional documentation, if required.
2. Confirm Encumbrance; supervisor routes in ACIS to
Budget Verification.
3. Confirm Budget Verification completed in ACIS.
x Send to Law.
Approve as to Form (Attorney)
Click the check box to attach additional documentation, if required.
x Route in ACIS to Finance
Finance Certification
x Attach the Endorsement Sheet then route in ACIS
to Finance Review.
Finance Review
x Review then route in ACIS to Department Signs
Contract.

JA 511
Departmental Review (Conformance Manager)
x Route in ACIS to Conformance.
Conformance Review (Conformance Clerk)
x Conform Contract.
*

*

*

[Appx. 1031]
CITY OF PHILADELPHIA
DEPARTMENT OF HUMAN SERVICES
“We believe that a community-neighborhood approach
with clearly defined roles between county and provider
staff will positively impact safety, permanency, and
well-being.”
What are we working together to achieve?
o More children and youth maintained safely in their
own homes and communities.
o More children and youth achieving timely reunification or other permanence.
o A reduction in the use of congregate care.
o Improved child, youth, and family functioning.
S.A.A.-2

Scope of Service:
For General, Kinship, and Teen Parent/Baby
Resource Home Care Providers
July 2017
[Appx. 1032]
Statement of Purpose:
This Scope of Service is made and entered into between Catholic Social Services (the Provider) and the

JA 512
Philadelphia Department of Human Services (DHS),
and sets forth the services for general, kinship, and
teen parent/baby resource home care.
Throughout this document, the term “Resource Parent” refers to both kinship parents and non-relative
foster parents.
When a child or youth is placed through a Community
Umbrella Agency, CUA, the Provider offers ongoing
support and coaching to Resource Parents through
Provider Staff. 1 The Provider is required to work collaboratively with the CUA. Contracts between DHS
and all CUAs set forth services for resource home care
with case management responsibilities remaining
with the CUA. When the child or youth is receiving
case management services directly from DHS, the Provider must also deliver case management services to
the Resource Parent, parent or other reunification resource, and the child or youth and collaborate with the
assigned DHS Social Worker (DHS cases).
Department Overview:
The mission of the Department of Human Services
(DHS) is to provide and promote safety, permanency,
and well-being for children and youth at risk of abuse,
neglect and delinquency. DHS is organized in the following Divisions: Administration and Management,
Child Welfare Operations Division, Community Based
Prevention Services, Finance, Juvenile Justice Services, and Performance Management and Technology.
DHS continues to implement the Improving Outcomes
for Children (IOC) model. The vision for IOC is to:
Provider Staff is responsible for recruiting and certifying foster
and kinship homes.
1

o
o
o
o

JA 513
Maintain children and youth safely in their own
homes and community.
Timely reunification or other permanency.
Reduce use of congregate care.
Improve children, youth, and family functioning.

As it relates to Resource Home care, the IOC framework provides a single Case Manager to work with assigned families. The case management service is provided by Community Umbrella Agencies who are embedded in the communities they serve.
For children and youth for whom the Provider continues to provide case management services, the case
management staff interact on a regular basis with
schools, medical, dental, and behavioral health providers; various community resources; and all service providers indicated on an Individual Service Plan (ISP) or
Family Service Plan (FSP). For youth funded and
placed by a CUA, the Provider interacts with external
resources as needed, collaborates and communicates
with the CUA, and continues to support the resource
caregivers.
Provider Organizational Overview:
Mission Statement: Catholic Social Services of the
Archdiocese of Philadelphia continues the work of Jesus by affirming, assisting and advocating for individuals, families, and communities.
Vision and Values Statement: Catholic Social Services
Vision:
[Appx. 1033]
Catholic Social Services exists to transform lives and
bring about a just and compassionate society where
every individual is valued, families are healthy and

JA 514
strong, and communities are united in their commitment to the good of all. We envision a world touched
by God’s mercy; where poverty and need are alleviated, and all people share justly in the blessings of creation.
Catholic Social Services Values:
Compassion: genuine care and heartfelt concern for
those we serve
Dignity: respect for each person created in God’s image, regardless of color, capacity, or age
Charity: generosity toward all people in response to
God’s goodness to us
Justice: defense of and advocacy for the rights of the
poor, vulnerable, and disadvantaged
Excellence: professional competence and responsible
stewardship of time and resources
Problems and Issues to be Addressed:
Ideally, children and youth should be with their own
families. When this is not possible, resource homes ensure that children and youth can be maintained safely
in their own community. All resource home procedures
and resources must be directed to supporting reunification or other permanency options, and the overall
positive functioning of children, youth, and their families. Resource Parents must function as mentors to legal families to support these goals. An increased focus
on recruiting resource caregivers who can manage adolescents is required in order to reduce the use of congregate care. There must also be a continued focus on
the need for resource homes for children who are 0-6
years of age. The specific Issue to be addressed by the

JA 515
Provider is to recruit, screen, train, and provide certified resource care homes for dependent children or
youth, some of whom will need support to address behavioral health, medical, and educational needs.
Homes for teens including pregnant teens and teen
parents (teen parent/baby placements) are a priority
in order to reduce the use of congregate care.
Program Objectives:
The program objectives are to provide trauma informed and culturally competent placement resources
via trained resource caregivers. Resource caregivers
also serve as a mentor and support to the legal family.
Anticipated outcomes for resource home care services
are:
o To provide children with protection, care, and a
nurturing environment with certified Resource
Parents which can include extended family members while a permanent plan can be established
within a set time frame.
o To focus on identifying strengths, developing protective capacities and building resiliency and adoptive coping skills.
o To facilitate participation in service delivery and/or
treatment provided by external resources so that
healthy partnerships can be created and goals on
the service plans can be archived.
o To provide opportunities to strengthen and develop
youth assets.
o To promote social competency skills.
o To ensure that youth is available for assigned court
related appearances.

JA 516
o To collaborate with the CUA case manager, DHS
and/or other team members in planning the transition into the next level of care which will ideally be
family reunification.
o To access medical, dental and behavioral health
services as needed.
o To provide support, including access to resources,
to achieve academic and vocational goals.
Program Overview:
Resource Home (Foster Care and Kinship Care): The
primary goal of Resource Home Care is to support the
safety, stability, permanency, and well-being needs of
the child or youth and legal family. Resource [Appx.
1034] Parents provide general care and supervision for
children and youth placed in their home. For CUA
cases, the Provider focus is on supporting the Resource
Parent while case management is provided by the
CUA. For cases in which DHS also provides case management, the Provider delivers case management services and ongoing support to the parents and reunification resource. Whether providing services for a DHS
case or a CUA case, the safety, stability, permanency,
and well-being needs of the child or youth and legal
family support includes developing a mentoring relationship with the legal family specifically in ways that
foster positive family relationships and reunification.
Resource caregivers are screened, trained, and certified by the Provider. In kinship care, the caregiver
may also be an extended family member, friend, previous Resource Parent, or other professional who in
the past has established a relationship with the child.
General level resource care, including kinship: Children and youth identified for this service category
mostly demonstrate a moderate degree of behavioral,

JA 517
social, emotional, intellectual, and educational needs
or issues. Service needs are compounded by normal
placement adjustment issues. Routine care and supervision of the children and youth is manageable with
some ongoing training and support from the Provider.
Siblings are placed together whenever possible.
In addition:
o Youth may require access to special education, or
developmental or vocational services. This will be
specified in either the FSP or the SCP depending
on who is primarily responsible for case management functions (DHS or CUA).
o The child’s or youth’s biological family requires
support and to maintain their emotional bond with
their children and to address identified safety Issues and permanency goals.
o Children and youth may require therapy or other
therapeutic services provided by external resources
as specified in either the FSP or the SCP, depending on who is primarily responsible for case management functions (either DHS or CUA).
o Children and youth require routine health care or
may have minor health or medical needs for which
follow up care is to be provided.
o The Provider agency staff or Resource Parents, or
both participate in teaming meetings and development of SCP (CUA cases).
Teen Parent/Baby Foster or Kinship Placement Services: Teenage parents and their child who are identified for this service category demonstrate difficulty in
behavioral, social, emotional, or intellectual development. The adolescent is not prepared to assume their

JA 518
current parental role. The child’s legal family is typically not equipped to adequately address the adolescent needs.
This service includes:
o General care of healthy infants or toddlers requiring routine care. The adolescent is physically
healthy and requires routine care.
o Neither the teen nor the child requires specially
trained Resource Parents.
o Parents or reunification resource, if different, requires support and to maintain their emotional
bond with the teen and the teen’s child and to address identified safety issues and permanency
goals.
Services:
Referrals:
The DHS Central Referral Unit and the DHS On-going
Worker, the DHS Investigating Worker (if a newly accepted case), or CUA Case Manager (CUA CM) must
share with the Provider pertinent information as required by the five county standards which include:
medical consent form, Medical and Immunization Records, Universal referral, service plan, placement history, court disposition, Court Orders, educational records, birth certificate, and the name of the child’s or
youth’s attorney.
[Appx. 1035]
Case Management:
Case management will be provided either by the Provider (for DHS placements) or one of the CUA’s (for
CUA placements). The CUA Case Manager will visit
the resource home at least once per month. For DHS

JA 519
placements, the Provider Case Manager will visit the
home as required pursuant to DHS performance
standards.
For CUA placements, the Provider offers support to
the resource caregivers via a Provider Staff as defined
earlier in this document. They may visit the resource
caregiver as often as needed but at a minimum, once
per quarter. They provide other supportive services to
resource caregivers and act as a possible liaison to
CUAs as needed.
For DHS placements, there is a Provider Case Manager assigned to the case.
Examples of relevant topics to be discussed with the
DHS Worker or CUA Case Manager include:
o Child’s or youth’s adjustment to the home.
o Behavior management strategies.
o Child’s or youth’s educational, medical, and behavioral health progress.
o Resource Parent’s ability to meet needs and assistance needed.
o Relationship with parents and reunification resource, and quality of visits (if applicable).
Examples of relevant topics to be discussed with Case
Manager (CUA or DHS) include:
o Placement stability.
o Relationship issues with the other children in the
resource home.
o Child’s educational, medical, and behavioral health
needs and proposed interventions.
o Behavior management strategies utilized by the
Resource Parents.

o
o
o
o
o
o
o
o

JA 520
Relationship between Resource Parent and parents
and reunification resource, if different and issues
related to the resource caregiver as a mentor.
Clarification of the role of the CUA Case Manager.
Youth’s interaction in the community and use of
community resources.
Progress or lack of progression toward attainment
of service plan goals.
Permanency planning.
Results of Like Skills Assessment and related planning to help youth develop life skills.
Provision of routine medical and dental care.
Supplemental services or needs.

All resource caregivers and the Provider must ensure
that:
o Three nourishing meals and additional snacks
daily are provided and any special dietary needs or
religious food restrictions are accommodated. Food
is never to be withheld as a means of discipline.
o Provide children and youth with new, age appropriate, and seasonal clothing. All clothing should
be purchased new with the child or youth, when appropriate, having choice in the selection. Consignment shops may be used as long as all household
members utilize this option. Foster children and
youth are to be treated no differently. All clothing
purchased is the property of the child or youth.
Purchase of necessary clothing is never to be withheld as a means of discipline by Resource Parents.
All resource homes must and the Provider must ensure that:

JA 521
o The home is free of infestation, structural damage
that poses an immediate threat to safety, lead (unless being treated), non-functioning utilities, fire or
other health or safety hazards.
o There must be a working land line phone within
the residence.
o The home meets all of the requirements of an approved adoptive placement. At the same time, Resource Parents must be willing to work with and
mentor the reunification resource to ensure [Appx.
1036] that children and youth can reunify in a
timely way. If reunification is not feasible, Resource Parents must be willing to consider being a
permanency resource for children and youth placed
in their care.
More specifically resource homes must meet the following criteria:
o All doors leading outside of the house are able to be
locked or otherwise secured.
o There are cribs for infants and beds for each child
and youth.
o There are working smoke detectors, fire extinguishers, and carbon monoxide detectors. Chemicals and drugs are stored properly away from children and youth.
o Firearms are locked and ammunition is stored separately in a locked container.
o Safe infant and toddler care, as applicable to the
age of the children placed in the home including:
•
•

Safe bathing and the use of bath water thermometers.
Safe sleeping.

•
•

JA 522
Car seats appropriate to the age and weight of
the children if the resource family owns or will
transport children in a vehicle.
Child proofing of the home and environment including stair gates, radiator covers, fireplace
guards and other necessary safety devices including outlet covers.

The home must have and the Provider must ensure
that there are the following resources:
Mobile Crisis number and contacting procedures.
Suicide Prevention Hotline number.
Poison Control number.
Smoke detectors and fire extinguishers.
Police Department number and contacting procedures.
o Drug and Alcohol Intervention numbers and contacting procedures.
o No smoking signs.
o
o
o
o
o

The Provider must complete an inspection of the above
for all Resource Parents on a quarterly basis. The Provider is responsible for offering training and related
support to Resource Parents that includes the impact
that trauma has on youth behaviors and functioning,
ways to motivate positive behaviors of children and
youth, and strategies on ways to manage child and
youth behaviors and encourage positive behaviors in a
manner that is not vindictive, abusive, or degrading
for children and youth placed by CUA’s, this support
is provided to resource caregivers by Provider Staff.
The Provider recognizes that the interaction between
a caring Resource Parent and the child or youth is an
opportunity to help them recognize their inherent assets and strengths, and develop acceptable behaviors.
Such support assists children and youth in developing

JA 523
skills that promote their successful integration into
the community.
Provider and Resource Parents are prohibited by both
PA Regulation and DHS policy from using corporal
punishment, threats or derogatory remarks, the depriving of meals, and the depriving of visits with parents or others, verbal abuse or any punitive, unusual,
or unnecessary consequences for behaviors.
In deciding on an effective means of intervening during conflict, Resource Parents assess and ensure the
following:
o The child’s or youth’s ability to problem solve and
social or emotional maturity.
o There is open communication with the child or
youth to understand reactions and feelings.
o Set clear limits and guidelines for positive behavior
and ensure they have been communicated effectively.
o That expectations for improved behaviors are defined or explained so that youth can develop new
skills and receive Incentives for pro social or positive behaviors.
[Appx. 1037]
If the Provider Staff (CUA cases) or Provider Case
Manager (DHS cases) suspect that the disciplinary actions occurring in the foster home violate the Pennsylvania Child Protective Services Law, it is the mandated obligation of the Provider Staff to immediately
report this incident to the Pennsylvania Child Abuse
Hotline and to DHS. In some cases, the police and the
District Attorney’s Office may also be involved in investigating any alleged criminal actions. The State investigates these reports and determines if the incident

JA 524
is indicated or unfounded. State Foster Family Care
Regulations mandate that the agency remove children
and youth in situations where their safety is in question. Children and youth may require removal from
the resource home while an investigation is taking
place unless an acceptable plan of supervision can be
put in place to ensure safety. This decision is made in
conjunction with the Southeast Regional Office investigating the report, the CUA CM, if a CUA case and
either the DHS Worker or the DHS Investigator assigned.
If the decision is made to allow the child or youth to
remain in the home during or following an investigation, a written plan of supervision must be developed
by the appropriate case management team. If the Resource Parent is placed on probation for this or any
other reasons, no additional placements will be made
in the Resource Parent’s home during a probationary
period or whenever the investigation is complete.
All placement moves must be legally approved by the
Court or by agreement of all parties except in the case
of emergencies. It is the case management’s team responsibility to obtain Court authorization to move
children or youth through the City of Philadelphia
Law Department.
Visitation:
The frequency and duration of visits both with reunification resources, concurrent plan resources, and siblings must be as liberal as possible from the time of
placement. Whenever possible, visitation should be
weekly but parental and sibling visitation cannot be
less than twice monthly unless otherwise prohibited or

JA 525
specified by Court. The visitation plan must be discussed and agreed upon. It must be accommodating to
the schedules of the reunification resource, children,
and youth and include weekends or evenings or both
where needed.
For DHS placements, Provider Case Managers are responsible for visitation. For CUA placements, CUA’s
are responsible for visitation based on the SCP. Either
Provider or CUA must ensure that children and youth
have adequate resources and Items provided by the
Resource Parent to have successful visits. This may include a provision of transportation for the visitation,
food, diapers, etc. to meet the child’s needs.
Whenever children or youth are placed or re-placed, a
visit must occur between the child or youth and the
parent from whom they are removed as soon as possible and no later than two business days.
An introductory meeting between the Resource Parent
or the Provider Staff and the parents must also occur
within five business days of the placement or replacement. Resource Parents should communicate with the
parents or other reunification resources regularly and
at least monthly about the children or youth outside of
regularly scheduled visits. Siblings are to be placed together whenever possible. When siblings are not able
to be placed together, visits are to occur between the
siblings bi-weekly, at a minimum, unless otherwise directed by Court Order.
Whenever possible visits must be:
o In the home of the reunification resource unless
there is a Court Order, clear documentation in the
visitation plan, service plan or in a Structured Progress Note as to why this cannot occur. If other

JA 526
than the home of the reunification resource, visits
must be in a family-like and family friendly visitation space that allows for normal parent-child interaction, ideally in the home of a relative or Resource Parent. If such home is not available, visits
should occur at a community [Appx. 1038] location
familiar to the child, youth, or parent (such as a
recreation center, playground, or church). The option of last resort is a family-friendly area of the
Provider’s as the case manager or subcontractor for
a CUA. In order to move from the best option in the
hierarchy to a lower option, the higher option must
be ruled out and the reasons for ruling it out must
be clearly documented. When visits are not in the
home, a progression plan for visits in the home
must be considered at the service plan meetings
and court hearings.
o Supervised only if necessary, based on clear threats
to the safety of children and youth or Court Order.
Persons supervising visits must ensure safety, remain in line of sight and earshot, and provide unobtrusive constructive feedback and coaching on
parenting.
o Accommodating to the schedules of the reunification resource, children, and youth.
Transportation: Will be coordinated between all parties. Visits between parents and children and youth
are critical to support and enhance the process of
reaching the goals of reunification.
Teaming: For DHS cases, the Provider’s Case Manager participates in DHS Family Service Plan (FSP)
meetings and develops the Individual Service Plan
(ISP). For CUA cases, Resource Parents or an agency

JA 527
representative, such as Provider Staff as defined earlier, or both will participate in teaming as needed. Information critical for decision making and planning
will be shared with the CUA Case Manager prior to all
teaming meetings.
Court:
For CUA, Provider Staff may be called upon to testify
to safety or any other matters as providers currently
are called upon. The Law Department will notify the
CUA CM, and, if necessary, subpoena the provider.
For DHS cases, the Provider Case Manager appears in
court and provides safety testimony as well as family
progress Information to the Court.
Placement Disruption:
Providers and Resource Parents must give 30 days notice to DHS CRU regarding the need to remove a child
or youth.
Whenever there appears or it is reported by either the
child or youth or the Resource Parent that the placement is in danger of disruption or the Resource Parent
gives 30 days notice, the Provider must notify CRU immediately.
An
email
must
be
sent
to
DHS_CRU@phila.gov with the subject line to read: “30
Day Notice.”
If a CUA case, the CUA CM is to be notified and a
Placement Stability Conference must be requested.
The Provider and Resource Parent must be invited
and must participate in this conference. The focus of
the conference is to determine whether there are additional supports that could be put into place to avoid
the disruption.

JA 528
If it is a DHS case, the Provider and DHS Worker and
Supervisors must conference the case together to determine whether there are additional supports that
could be put into place to avoid the disruption.
Reporting:
High Profile Cases:
In an effort to keep abreast of high profile cases, Child
Welfare Operations Leadership is requiring that all
Directors of all agencies report to the appropriate Operations Director (DHS Front End, DHS Permanency
and Well-being Services, or DHS CUA) via telephone
and email any high profile case that come to their attention. These high profile cases must be conferenced
with the assigned chain of command, including the
CUA Director, and then the Director determines if a
CWO Management team meeting is needed. This is a
collaborative effort between CWO Management and
Support Centers to extend support and guidance to
DHS Social Work Services and CUA staff in their decision-making.
[Appx. 1039]
Criteria:
o Death of a child or youth involved with DHS or In
a DHS Involved household.
o Any missing child 12 years of age or under and active with DHS (committed to DHS or receiving inhome services).
o Any child or youth sexually abused while in care.
o Media report Involving DHS cases or families.
o Any child or youth committed to DHS and hospitalized subsequent to injury (whether accidentally or
intentionally injured).

JA 529
o The arrest of a kin, Resource Parent, or any household member of a resource home, including any
child or youth committed to the Department.
o Notification from any placement agency that a
child or youth has been moved due to a report of
abuse or neglect and the kin, Resource Parent, or
household member is the alleged perpetrator.
o Any other type of incident as may be subsequently
designated by the Department as High Profile.
Notification Procedure:
o The Provider must immediately notify the CUA
Chain of Command until an in-person contact is
made or through the CUA after hours mechanism.
o The CUA staff who is informed must notify the
chain of command {up to Director level).
o Directors must immediately notify via telephone
the Operations Director who has responsibility for
their service and subsequently send an email notification within 24 hours to
• Operations Director for Front End Services;
• Operations Director for Permanency and Wellbeing Services;
• Operations Director for Improving Outcomes
for Children; and
• Chief of Staff for the Deputy Commissioner.
o The CWO Deputy Commissioner will be contacted
as needed. The CWO Deputy Commissioner notifies the Commissioner and other Executive Staff
members as appropriate and always if the media is
involved.
• After hours notifications must be given to the
Hotline Staff and Hotline Staff must immediately alert the Operations Director.

JA 530
The above does not relieve any agency required to report incidents through HCSIS.
Information Sharing:
Routine information that emerges during or between
visits such as a change in school functioning, relevant
communication with a family member, emerging wellness concerns, or new legal family information that potentially changes goals or objectives identified In the
FSP or SCP, whichever is applicable, must be reported
to the DHS Worker or Supervisor (DHS case), or the
CUA Case Manager or Supervisor (CUA case), during
the same business week that the information becomes
known.
Media Inquiries:
In the event that the Provider receives a media inquiry, the Provider must notify the CUA Director and
DHS Communications Director. Staff are not permitted to comment or even acknowledge a case, but should
direct such inquiries to the Department’s Communications Director.
Megan’s Law Requirements:
When a sexually violent predator from the National
Megan’s Law database lives or moves within 1000 feet
of any of a Provider’s resource home, the Provider receives an electronic notification from the Department.
Upon receipt of this notification, the Provider must do
the following:
[Appx. 1040]
o Make a telephone call (within 24 hours of the electronic notification) to the resource home notifying
the Resource Parent that a sexually violent predator lives within 1000 feet of the home.

JA 531
o Visit the resource home within 48 hours and:
• Review the Megan’s Law Safety Plan with the
Resource Parent and any youth 14 and older.
• Have all parties sign the Megan’s Law Notification and Safety Plan.
• Provide a picture of the predator.
o Mail a copy of the signed Megan’s Law Notification/Safety Plan or Receipt of Megan’s Law Notification and Safety Plan to the DHS Ombudsman in
care of the DHS Commissioner’s Office: 1515 Arch
Street, 8th Floor, Philadelphia, PA 19102
o Email the signed Megan’s Law Notification and
Safety Plan to the CUA Director of Quality Assurance for any child or youth residing in the facility.
Foster Parent Registry
Providers promptly provide information to the PA Foster Parent Registry regarding Resource Parent Caregiver status and changes in status between annual
certification and re-certification time frames.
Providers must ensure current and updated copies of
each Resource Caregiver’s Certificate of Compliance
are provided to the Department and the CUA. Providers must upload Resource Home certification information and documentation to the Provider Licensure
module of DHSConnect whenever Resource Caregivers are certified and whenever their certification status changes.
Mentoring:
The Resource Parent must play a role in facilitating
reunification as described in the service plans. Primarily this will be based on the Resource Parents’ capabilities to serve as a mentor to the legal family and assist

JA 532
legal family in strengthening parental capabilities, assisting with planned activities, modeling and fostering
positive parent-child interaction.
See also, the DHS Performance Standards, DHS policy, and as appropriate, the IOC Practice and Fiscal
Guidelines for relevant policy.
Hours and location of work:
The Provider must have 24 hours a day, 7 days a week
accessibility. For CUA cases, resource homes are located ideally in the CUA region.
Emergency contact procedures are as follows:
Departmental supervisory staff will provide emergency coverage on a rotational basis to ensure access
to agency assistance and services outside of regular
business hours for referrals from the Philadelphia Department of Human Services and Community Umbrella Agencies for the placement of children in appropriate foster homes and to respond to emergencies involving the children and families served by the program. The on call supervisor can be reached at 215808-8656.
The administrative office for the Provider is located at:
Catholic Human Services
222 N. 17th Street
3rd floor
Philadelphia, PA 19103
[Appx. 1041]
Referrals are typically accepted during normal work
hours although emergency placements are considered
on a case by case basis.

JA 533

Staffing Structure:

Attach Agency Organizational Chart and Program Organizational Chart.
Technology requirements:
Internet access to utilize DHSConnect.
Funding restrictions:
(Insert N/A or describe restrictions)
The program is overseen by:
Robert Montoro, MSW, Administrator
[Appx. 1042]
Cover Page
User:
Document:
Server:
Time:
Pages requested:
Sheet Size:
Selected Page Range:
Number of Copies:
Number of Printed Sheets:
Status:
Notes 1:
Notes 2:
Instructions:

Unknown
Unknown
C60-C70-7B51
08/03/2017 07:58:16
11
8.5x11 LEF
All
1
11
OK

[Appx. 1043]
*

*

*

[Appx. 1044]
THE CITY OF PHILADELPHIA
PROFESSIONAL SERVICES CONTRACT

JA 534
GENERAL PROVISIONS
FOR
DEPARTMENT OF HUMAN SERVICES
CONTRACTS
Revision Date; June 2017
[Appx. 1045]
The City of Philadelphia
Professional Services Contract
Department of Human Services
General Provisions
TABLE OF CONTENTS
TABLE OF CONTENTS ............................................ ii
ARTICLE I: DEFINITIONS ....................................... 9
1.1

ADA ................................................................... 9

1.2

Additional Services and Materials ................... 9

1.3

Additional Term, Additional Terms ................. 9

1.4

Agency ............................................................... 9

1.5

Aggregate Actual Cost ...................................... 9

1.6

Appropriated Fiscal Year ................................. 9

1.7

Amendment ....................................................... 9

1.8

Applicable Law.................................................. 9

1.9

Applicant ........................................................... 9

1.10

CBES ................................................................. 9

1.11

Certification of Restrictions on Lobbying ...... 10

1.12

City .................................................................. 10

1.13

City Agency ..................................................... 10

1.14

JA 535
City Council..................................................... 10

1.15

City-Related Agency ....................................... 10

1.16

Code ................................................................. 10

1.17

Commissioner ................................................. 10

1.18

Commonwealth ............................................... 10

1.19

Community Behavioral Health ...................... 10

1.20

Consultant ....................................................... 10

1.21

Contract........................................................... 11

1.22

Contract Cost Principles................................. 11

1.23

Contract Documents ....................................... 11

1.24

Contributions .................................................. 11

1.25

Community Umbrella Agency ........................ 11

1.26

CRU ................................................................. 11

1.27

CWO ................................................................ 11

1.28

CYD Policy Manual ........................................ 11

1.29

Department ..................................................... 11

1.30

Departmental and Administrative Policy
Directives ........................................................ 11

1.31

Discharge Plan ................................................ 11

1.32

Discharge Summary ....................................... 12

1.33

EPSDT ............................................................. 12

1.34

Event of Default .............................................. 12

1.35

Event of Insolvency ......................................... 12

1.36

Exhaustion of Capacity................................... 12

1.37

Family Court ................................................... 12

[Appx. 1046]

JA 536

1.38

Financial Assistance ....................................... 12

1.39

Fiscal Year ...................................................... 12

1.40

Form Authorizations ...................................... 13

1.41

FSP .................................................................. 13

1.42

Functional Expenditure Report ..................... 13

1.43

General Provisions .......................................... 13

1.44

Health Choices ................................................ 13

1.45

Improving Outcomes for Children ................. 13

1.46

Independent Audit Report .............................. 13

1.47

Initial Term ..................................................... 13

1.48

Intent to Adopt ................................................ 13

1.49

Interpretation; Number, Gender .................... 13

1.50

ISP ................................................................... 14

1.51

JPO .................................................................. 14

1.52

Materials ......................................................... 14

1.53

Medical Assistance ......................................... 14

1.54

Mental Health Procedures Act ....................... 14

1.55

Modification Notice ......................................... 14

1.56

Non-Competitively Bid Contract .................... 14

1.57

Out-of-Home Placement ................................. 14

1.58

PA DHS ........................................................... 14

1.59

Party; Parties .................................................. 15

1.60

PBC.................................................................. 15

1.61

Person .............................................................. 15

1.62

JA 537
Placement Amendment .................................. 15

1.63

Policy Transmittals and Guides ..................... 15

1.64

Professional Services Contract ....................... 15

1.65

Provider ........................................................... 15

1.66

Provider Agreement ........................................ 15

1.67

Provisional ...................................................... 15

1.68

Referring Agency ............................................ 15

1.69

Responsible Official ........................................ 15

1. 70 Santiago Consent Decree ............................... 15
1.71

Scope of Services ............................................. 15

1.72

Services ........................................................... 16

1.73

Single Case Plan ............................................. 16

1.74

Subcontract ..................................................... 16

1.75

Subcontractor .................................................. 16

1.76

Subrecipient Audit Guide ............................... 16

1.77

Suspension Notice ........................................... 16

1.78

Suspension Period........................................... 16

1.79

SWAN .............................................................. 16

1.80

Term ................................................................ 16

1.81

Termination Notice ......................................... 16

1.82

Transition ........................................................ 16

1.83

Transition Notice ............................................ 16

1.84

Total Actual Cost ............................................ 17

[Appx. 1047]
1.85

Vacancy ........................................................... 17

JA 538
ARTICLE II: TERM .................................................. 17
2.1

Initial Term ..................................................... 17

2.2

Additional Terms ............................................ 17

ARTICLE III: PROVIDER’S DUTIES AND
COVENANTS ............................................................ 17
3.1

Performance Requirements ............................ 17

3.2

Compliance with Applicable Law ................... 17
(a) Title IV(e) of the Social Security Act (“Title IV(e)”) and Adoption and Safe Families Act (“ASFA”) Compliance......................... 18
(b) Compliance with Title VI of the Civil
Rights Act of 1964 ........................................... 18
(c) Compliance with the Prison Rape Elimination Act of 2003 ........................................... 19
(d) Fostering Connections To Success and
Increasing Adoption Act of 2008 .................... 19
(e) Activities and Experiences for Children
in Out-of-Home Placements Act of 2015 ........ 19

3.3

Additional Services and Materials;
Change in Scope of Services ........................... 20

3.4

Responsibility.................................................. 20

3.5

Subcontracts.................................................... 22

3.6

Conflict of Interest; Related Party Transactions ............................................................. 25

3.7

Relationship with the City or Family
Court................................................................ 25

3.8

Time Frame for Submissions ......................... 25

3. 9

Prompt Payment by Provider ......................... 26

3.10

JA 539
Sales and Use Tax ......................................... 26

3.11

Adherence to Departmental Policy ................ 26

3.12

Adoption License ............................................. 26

3.13

Routine Transportation Costs ........................ 27

3.14

Family Visit Food Costs ................................. 27

3.15

Payments for Placement Services .................. 27

3.16

EPSDT; Managed Care................................... 27

3.17

Service Requirements ..................................... 28

3.18

Web-Based Central Referral Unit (CRU)
System Participation ...................................... 28

3.19

Dependent Placement Referrals .................... 28

3.20

Referral Disputes ............................................ 28

3.21

Rejection of Referral ....................................... 28

3.22

Notice of Referral Acceptance or Rejection................................................................... 29

3.24

Vacation, Holiday Placement ......................... 29

3.25

Adequate Clothing .......................................... 29

3.26

Return of Medical Assistance Card ................ 29

3.27

Service Reports ............................................... 29

(a) Progress Reports ............................................. 29
(b) Placement Objectives; Adjustment Reports ...................................................................... 30
(c) Notice of Child’s Location ............................... 30
(d) Copies of ISPs, Other Reports ........................ 31
(e) In Home Services and Foster Care Outcomes Requirements ....................................... 31

JA 540
(f) Compliance with Temporary Assistance
for Needy Families (“TANF”) Reporting
Requirements .................................................. 31
(g) Unusual Incident, Safety Alert and
HCSIS Reports ................................................ 32
(h) Documentation of arrests of children/youth ....................................................... 32
(i) Documentation of restraints of children/youth ....................................................... 32
[Appx. 1048]
3.28

Transitional and Discharge Planning ............ 32

(a) Upon Agreement of the Parties ...................... 33
(b) Upon Request of Provider ............................... 33
(c) Delinquent Children ....................................... 33
(d) Documentation of discharges of children/youth ....................................................... 34
3.29

Absence of Child.............................................. 34

3.30

Provider’s Publications ................................... 35

3.31

Certifications................................................... 35

3.32

Child Death Review ........................................ 39

3.33

Foster Parent Agreements ............................. 39

3.34

Group Home Provision ................................... 40

3.35

Adoption and Permanent Legal Custodianship .............................................................. 40

ARTICLE IV: PROVIDER’S REPRESENTATIONS AND COVENANTS ...................................... 40

4.1

JA 541
Provider’s Representations and Covenants ................................................................ 40
(a) Good Standing................................................. 40
(b) Authority to Act .............................................. 40
(c) Legal Obligation ............................................. 41
(d) No Litigation Preventing Performance .......... 41
(e) Requisite Li censure and Qualifications ........ 41
(f) No Adverse Interests ...................................... 42
(g) No Indebtedness to the City ........................... 42
(h) Commercial Activity License .......................... 43
(i) Subcontractor Licensure; No Indebtedness to the City ............................................... 43
(j) Non-Suspension; Debarment.......................... 43
(k) Prohibiting Religious Activities ..................... 43
(l) Non-Lobbying Certification ............................ 44

4.2

Notice of Change ............................................. 44

ARTICLE V: SERVICE REQUIREMENTS ............. 45
5.1

Scope of Services ............................................. 45

5.2

Placement and Referral Process .................... 45
(a) Eligibility for Services .................................... 45
(b) Referral Process .............................................. 45
(c) Residential Treatment Facility Placement................................................................. 46
(d) Emergency Shelter Placement ....................... 46
(e) Availability of Placement Providers .............. 46

JA 542
(f) Information Sharing Following Acceptance for Placement ................................... 46
(g) Information Sharing in Emergency Outof-Home Placement Cases .............................. 46
(h) Collaborative Planning ................................... 47
(i) Clothing ........................................................... 47
(j) Life skills training for children in placement................................................................. 47
5.3

Medical and Dental Costs............................... 48
(a) Responsibility for Payment ............................ 48
(b) Medical Assistance ......................................... 48
(c) Limits of the City’s Responsibility ................. 48
(d) Elective Services ............................................. 49

5.4

Change in Laws .............................................. 49

5.5

Right of Review and Rejection ....................... 49

[Appx. 1049]
ARTICLE VI: COMPENSATION ............................. 49
6.1

Requisite Documents ...................................... 49

6.2

Certification of Available Funds .................... 49

6.3

Unavailability of Funds .................................. 49

6.4

Crossing Fiscal Years ..................................... 50

6.5

Allowability of Cost Items .............................. 50

6.6

Advances ......................................................... 50

6.7

Income From Contract Funds ........................ 51

6.8

Monitoring of Fund Utilization ...................... 51

6.9

JA 543
Maximum Daily Rate, Days of Care or
Units of Service (or combination thereof) ...... 51

6.10

Total Actual Cost ............................................ 51

6.11

Excess Compensation ..................................... 52

6.12

Unpaid Amounts ............................................. 52

6.13

Invoices............................................................ 52

6.14

Golden Parachute Agreements ...................... 53

6.15

Indirect Rate Requests ................................... 53

6.16

Timely Payment From Pennsylvania
State Funds ..................................................... 53

ARTICLE
VII:
AUDITS;
INSPECTION
RIGHTS; RECORDS ................................................. 53
7.1

City Audit ........................................................ 53

7.2

Inspection ........................................................ 54

7.3

Availability of Records .................................... 54

7.4

Retention of Records ....................................... 54

7.5

Independent Audit .......................................... 54

7.6

Compliance Audit Reports.............................. 57

7.7

Program Records; Reporting Costs ................ 57
(a) Reports Concerning Provider’s Costs ............. 57
(b) Purchase Category .......................................... 58
(c) Unallowable Costs; Third Party Funds ......... 58

7.8

Audits Pursuant to Section 6-400 of the
Home Rule Charter......................................... 59

ARTICLE VIII: ASSIGNMENT ................................ 59
8.1

Assignment By Provider ................................. 59

8.2

JA 544
Applicability in Case of Bankruptcy or
Insolvency ....................................................... 59

8.3

Personal Services ............................................ 60

ARTICLE IX: INDEPENDENT CONTRACTOR; INDEMNIFICATION; LITIGATION COOPERATION ............................................................. 60
9 .1

Independent Contractor ................................. 60

9.2

Indemnification ............................................... 60

9 .3

Litigation Cooperation .................................... 60

9.4

Notice of Claims .............................................. 60

ARTICLE X: INSURANCE ....................................... 61
10.1

Insurance ........................................................ 61

(a) Workers’ Compensation and Employers’
Liability ........................................................... 61
(b) General Liability Insurance ........................... 61
(c) Automobile Liability Insurance ..................... 62
(d) Professional Liability Insurance .................... 62
10.2

Self-Insurance ................................................. 62

10.3

Evidence of Insurance Coverage .................... 63

[Appx. 1050]
10.4

Fidelity Bond................................................... 64

ARTICLE XI: OWNERSHIP OF MATERIALS;
PROPRIETARY INFORMATION; CONFIDENTIALITY ............................................................ 64
11.1

City Data ......................................................... 64

11.2

Ownership of Materials .................................. 64

11.3

Non-Disclosure and Destruction of Data ....... 66

JA 545
ARTICLE XII: EVENTS OF DEFAULT .................. 66
12.1

Events of Default ............................................ 66

12.2

Notice and Cure .............................................. 67

ARTICLE XIII: REMEDIES ..................................... 67
13.1

The City’s Remedies ....................................... 67

13.2

Concurrent Pursuit of Remedies; No
Waiver ............................................................. 69

ARTICLE XIV: TRANSITION, TERMINATION AND SUSPENSION ....................................... 69
14.1

Transition ........................................................ 69

14.2

Termination or Suspension ............................ 69

14.3

Provider Responsibilities Upon Transition, Termination or Suspension .................... 69

14.4

Payment of Provider upon Transition,
Termination or Suspension ............................ 70

14.5

Special Suspension Rules ............................... 71

ARTICLE XV: ADDITONAL REPRESENTATIONS AND COVENANTS OF PROVIDER
RELATING TO CERTAIN APPLICABLE
LAWS ......................................................................... 71
15.1

Non-Discrimination; Fair Practices ............... 71

15.2

Chapter 17-400 of the Philadelphia Code:
Exclusionary Private Organizations .............. 72

15.3

Executive Order 03-12: Minority, Woman
and Disabled Business Enterprise Participation ............................................................. 72

15.4

Federal Laws................................................... 75

15.5

Americans With Disabilities Act .................... 75

15.6

JA 546
Northern Ireland............................................. 76

15.7

Limited English Proficiency ........................... 76

15.8

Business, Corporate and Slavery Era Insurance Disclosure .......................................... 77

15.9

Protected Health Information ........................ 77

15.10 Chapter 17-1300 of The Philadelphia
Code: Philadelphia 21st Century Minimum Wage and Benefits Standard ................ 78
15.11 Chapter 17-1400 of the Philadelphia
Code: Contributions and Other Mandatory Disclosures............................................... 81
15.12 Executive Order 10-16: Gifts .......................... 84
15.13 Chapter 17-1900 of the Philadelphia
Code: Equal Benefits Ordinance .................... 85
ARTICLE XVI: MISCELLANEOUS ......................... 86
16.1

Governing Law ................................................ 86

16.2

Amendments; Waiver ..................................... 86

16.3

Integration ...................................................... 86

16.4

No Joint Venture ............................................ 86

16.5

No Third Party Beneficiaries ......................... 86

16.6

Counterparts ................................................... 87

16.7

Severability and Partial Invalidity ................ 87

16.8

Survival .......................................................... .87

16.9

Determination of Disputes ............................. 87

16.10 Interpretation; Order of Precedence .............. 87
[Appx. 1051]
16.11 Headings ......................................................... 87

JA 547
16.12 Statutory and other Citations ........................ 88
16.13 Days ................................................................. 88
16.14 Forum Selection Clause; Consent to Jurisdiction ......................................................... 88
16.15 Waiver of Jury Trial ....................................... 88
16.16 Notices ............................................................. 88
16.17 E-signatures .................................................... 89
(a) Technology Changes ....................................... 89
(b) Electronic Submissions................................... 89
(c) Breach ............................................................. 89
[Appx. 1052]
GENERAL PROVISIONS
ARTICLE I: DEFINITIONS
1.1 ADA. “ADA” shall have the meaning set forth in
Section 15.5 (Americans with Disabilities Act) below.
1.2 Additional Services and Materials. “Additional
Services and Materials” shall have the meaning set
forth in Section 3.3 (Additional Services and Materials; Change in Scope of Services) below.
1.3 Additional Term, Additional Terms. “Additional
Term” and “Additional Terms” shall have the meanings set forth in Section 2.2 (Additional Terms) below.
1.4 Agency. “Agency” shall have the meaning set forth
in Section 7 .8 (Audits Pursuant to Section 6-400 of the
Home Rule Charter) below.
1.5 Aggregate Actual Cost. “Aggregate Actual Cost”
means the sum of all Total Actual Costs incurred by
Provider in provision of the Services.

JA 548
1.6 Appropriated Fiscal Year. “Appropriated Fiscal
Year” shall have the meaning set forth in Section 6.4
(Crossing Fiscal Years) below.
1.7 Amendment. “Amendment” means (a) a written
modification or change to any Contract Document
signed by both Parties, and (b) a Modification Notice
(see Section 6.9 Maximum Daily Rate, Days of Care or
Units of Service (or combination thereof) below).
1.8 Applicable Law. “Applicable Law” means all applicable present and future federal, state or local laws,
ordinances, executive orders, rules, regulations and all
court orders, injunctions, decrees and other official interpretations thereof of any federal, state or local
court, administrative agency or governmental body,
including the City, the Commonwealth and the United
States of America. Applicable Law includes, without
limitation, the Philadelphia Home Rule Charter, the
Philadelphia Code, the Pennsylvania Code, and the
specific laws set forth in Article XV (Additional Covenants of Provider Relating to Certain Applicable
Laws) below, each as amended from time to time.
1.9 Applicant. “Applicant” has the meaning as set
forth in Subsection 17-1401(1) of The Philadelphia
Code, as it may be amended from time to time. As of
June 2012, that definition was “[a] Person who has
filed an application to be awarded a Non-Competitively Bid Contract.”
1.10 CBES. “CBES” means Community Based Emergency Shelter, an emergency placement facility for delinquent or alleged delinquent youth.
[Appx. 1053]

JA 549
1.11 Certification of Restrictions on Lobbying. “Certification of Restrictions on Lobbying,” if required in the
Provider Agreement, means a certificate in the form
attached to the Provider Agreement.
1.12 City. The “City” means The City of Philadelphia,
a corporation and body politic existing under the laws
of the Commonwealth of Pennsylvania, and includes
its various executive and administrative departments,
agencies, boards and commissions, including the Department, and its legislature, City Council (defined below). The City is a City of the First Class under the
laws of the Commonwealth of Pennsylvania.
1.13 City Agency. “City Agency” has the meaning as
set forth in Subsection 17-1401(5) of The Philadelphia
Code, as it may be amended from time to time. As of
June 2012, that definition was “[a]ny office, department, board, commission or other agency of the City of
Philadelphia.”
1.14 City Council. “City Council” means the Council of
The City of Philadelphia, as described in Article II of
the Philadelphia Home Rule Charter, as it may be
amended from time to time. City Council is the legislature of the City.
1.15 City-Related Agency. “City-Related Agency” has
the meaning set forth in Subsection 17-1401 (9) of The
Philadelphia Code, as it may be amended from time to
time. As of June 2012, that definition was “[a]ll authorities and quasi-public corporations which either:
receive appropriations from the City, have entered
into continuing contractual or cooperative relationships with the City, or operate under legal authority
granted to them by City ordinance.”

JA 550
1.16 Code. The “Code” unless otherwise specified shall
mean the Philadelphia Code, as it may be amended
from time to time.
1.17 Commissioner. “Commissioner” means the Commissioner of the Department of Human Services of the
City.
1.18 Commonwealth. “Commonwealth” means the
Commonwealth of Pennsylvania.
1.19 Community Behavioral Health. “Community Behavioral Health” or “CBH” means Community Behavioral Health, a Pennsylvania nonprofit corporation incorporated for the purpose of helping to ensure that
Philadelphians with mental health and substance
abuse needs receive the most appropriate and effective
treatment in the least restrictive and most cost effective setting.
1.20 Consultant. “Consultant” has the meaning as set
forth in Subsection 17-1401 (6) of The Philadelphia
Code, as it may be amended from time to time. As of
June 2012, that definition was “[a]ny Person used by
Provider to assist in obtaining a Non-Competitively
Bid Contract through direct or indirect communication
by such Person with any City Agency or any City officer or employee, if the communication is undertaken
by such Person in exchange for, or with the understanding of receiving, payment from Provider or any
other Person; provided, however, that “Consultant”
shall not include a full-time employee of Provider.”
[Appx. 1054]
1.21 Contract. The “Contract” means the agreement of
the Parties evidenced by the Contract Documents. References to this “Contract” shall mean this Contract as

JA 551
the same may be in effect at the time such reference
becomes operative.
1.22 Contract Cost Principles. The “Contract Cost
Principles” means the “City of Philadelphia Contract
Cost Principles and Guidelines,” as it may be amended
from time to time, which specifies the Department’s
guidelines for the qualitative and quantitative evaluation of contract services and materials, the determination of allowable costs, and the standards to determine the allowability of individual cost items. (Copies
are available from the Department upon request.)
1.23 Contract Documents. The “Contract Documents”
means these General Provisions, the Provider Agreement, the Limited License Agreement for the Cross
Agency Response for Effective Services (CARES)
(where applicable) and any and all other documents or
exhibits incorporated by reference in either the General Provisions or the Provider Agreement, and any
and all Amendments to any of these documents.
1.24 Contributions. “Contributions” shall have the
meaning set forth in the Pennsylvania Election Code,
25 P.S. Section 3241.
1.25 Community Umbrella Agency. “Community Umbrella Agency” or “CUA” means an agency located in a
defined geographic area that provides a continuum of
services to children and youth at risk of abuse, neglect,
or delinquency, as further described in the Scope of
Services.
1.26 CRU. “CRU” means Central Referral Unit.
1.27 CWO. “CWO” means Child Welfare Operations of
the Department. CWO was formerly known as the
Children and Youth Division (“CYD”).

JA 552
1.28 CYD Policy Manual. “CYD Policy Manual” (formerly the Operations Manual) means the document
and its revisions which contains all the policies of the
Department’s Child Welfare Operations.
129 Department. The “Department” or “DHS” means
the Department of Human Services of the City.
1.30 Departmental and Administrative Policy Directives. “Departmental and Administrative Policy Directives” means those policy or procedural directives regarding programs and operations of the various divisions of the Department that are issued to Providers
by the Commissioner or the Commissioner’s designee
which may include, but is not limited to, Deputy Commissioners, Policy and Planning, and Provider Relations and Evaluations of Programs (PREP).
1.31 Discharge Plan. “Discharge Plan” means the document submitted by Provider to the Department upon
discharge of a child from Provider’s agency. The Discharge Plan outlines the Services Provider has provided to the child and the child’s family, the effectiveness of those Services, and any additional services recommended by Provider.
[Appx. 1055]
1.32 Discharge Summary. “Discharge Summary”
means a description of the Services provided to a child
and the child’s family by Provider, and a statement of
the reasons for the child’s discharge.
1.33 EPSDT. “EPSDT” means Early and Periodic
Screening, Diagnosis and Treatment, a Pennsylvania
Medical Assistance program initiative providing medical services to children aged 0-21 years.

JA 553
1.34 Event of Default. “Event of Default” means those
events defined and identified in Section 12.l (Events of
Default) of these General Provisions.
1.35 Event of Insolvency. “Event of Insolvency” means
(a) the filing of a voluntary petition by Provider under
the Federal Bankruptcy Code or any similar state or
federal law; or (b) the filing of on involuntary petition
against Provider under the Federal Bankruptcy Code
or any similar state or federal law which remains undismissed for a period of forty-five (45) days; or (c) Provider’s making of an assignment for the benefit of creditors; or (d) the appointment of a receiver for Provider
or for the property or assets of Provider, if such appointment is not vacated within forty-five (45) days
thereafter; or (e) any other proceeding under any
bankruptcy or insolvency law or liquidation law, voluntary or otherwise; or (f) Provider’s inability to pay
its obligations as they mature; or (g) Provider’s insolvency as otherwise defined under any Applicable Law.
1.36 Exhaustion of Capacity. “Exhaustion of capacity”
means the utilization of all of the Service capacity
(whether beds in the case of out-of-home placement, or
units or slots of Service in the case of non-placement),
of Provider.
1.37 Family Court. “Family Court” means that judicial
division of the Court of Common Pleas for Philadelphia County with original jurisdiction over all matters
pe1taining to dependent and delinquent children.
1.38 Financial Assistance. “Financial Assistance” has
the meaning set forth in Section 17-1401(16) of The
Philadelphia Code, as it may be amended from time to
time. As of June 2012, that definition was “[a]ny grant,
loan, tax incentive, bond financing subsidy for land

JA 554
purchase or otherwise, or other form of assistance that
is realized by or provided to a Person in the amount of
fifty thousand dollars ($50,000) or more through the
authority or approval of the City, including, but not
limited to, Tax Increment Financing (TIF) aid, industrial development bonds, use of the power of eminent
domain, Community Development Block Grant
(CDBG) aid or loans, airport revenue bonds, and Enterprise Zone or similar economic development zone
designations (such as Keystone Opportunity Zones,
Keystone Opportunity Expansion Zones, Keystone Opportunity Improvement Zones, and Economic Development District Zones), but not including any assistance
to which a Person is entitled under a law enacted before the Person applied for or requested such assistance.”
1.39 Fiscal Year. “Fiscal Year” means the fiscal year of
the City, which commences on July l of each calendar
year and expires on June 30 of the next succeeding calendar year.
[Appx. 1056]
1.40 Form Authorizations. “Form Authorizations”
means the “CRU Fax Cover Transmittal Sheet for Referral and Service Authorization” and “DHS AfterHours Fax Cover Transmittal Sheet for Referral and
Service Authorization.” The authorization forms will
provide the Provider with the required documentation
of proof or authorization to provide services to a child
prior to accepting the child for service. Once the Fax
Sheet has been received, Provider cannot make further requests for this form or for a Form 85-29
printout.

JA 555
1.41 FSP. “FSP” means Family Service Plan, the document prepared by the Department which outlines
those Services required for the family of the child or
children committed to, or under the supervision of, the
Department.
1.42 Functional Expenditure Report. “Functional Expenditure Report” means a report required by Subrecipient Audit Guide.
1.43 General Provisions. “General Provisions” means
these “The City of Philadelphia Professional Services
Contract General Provisions for Department of Human Service Contracts,” which contains the standard
provisions required by the City in its professional services contracts for the Department of Human Services,
and any exhibits identified in these General Provisions.
1.44 HealthChoices. “HealthChoices” means the program operating under a waiver from the Centers for
Medicare and Medicaid Services (formerly Health
Care Financing Administration) pursuant to Section
1915(b) of the Social Security Act, 42 U.S.C. 1396(n),
to provide mandatory managed health care to Medical
Assistance recipients in Bucks, Chester, Delaware,
Montgomery and Philadelphia Counties.
1.45 Improving Outcomes for Children. “Improving
Outcomes for Children” or “IOC” means the City’s
multi-year reform plan to create a single case management system with distinct and well-defined roles for
both DHS and Provider agencies.
1.46 Independent Audit Report. “Independent Audit
Report” means a report prepared by a Certified Public
Accountant who, pursuant to AICPA Professional

JA 556
Standards, is not (a) a member of the board of Provider, (b) an officer or employee of Provider, or (c) a
partner, director, officer or employee of a partnership,
corporation or association who is a member of the
board of Provider, or a director, officer or employee of
Provider.
1.47 Initial Term. “Initial Term” shall have the meaning set forth in Section 2.1 (Initial Term) below.
1.48 Intent to Adopt. “Intent to Adopt” means that report which is required by the Adoption Act (23 Pa. C.S.
§ 2531), to be filed with the Court of Common Pleas by
the person or persons intending to adopt a child, confirming said person or persons intent to adopt.
1.49 Interpretation; Number, Gender. The words
“herein” “hereof’ and “hereunder” and other words of
similar import refer to this Contract as a whole, including the all of the Contract Documents, and not to
any particular article, section, subsection or clause
contained in the Contract Documents. Whenever the
[Appx. 1057] context requires, words used in the singular shall be construed to include the plural and vice
versa, and pronouns of any gender shall be deemed to
include the masculine, feminine and neutral genders.
1.50 ISP. “ISP” means the Individual Service Plan,
that document prepared by Provider in accordance
with the FSP, which identifies the specific Services
Provider will render to the child and the child’s family.
1.51 JPO. “JPO” means the Juvenile Probation Officer.
1.52 Materials. “Materials” means any and all reports,
records, documents, documentation, information, supplies, plans, original drawings, specifications, computations, sketches, renderings, arrangements, videos,

JA 557
pamphlets, advertisements, statistics, and other data,
computer tapes, computer software, and other tangible work product or materials prepared or developed
by Provider in connection with the Services, or for Provider by a Subcontractor in connection with the Services, and supplied to the City by Provider or its Subcontractor pursuant to this Contract.
1.53 Medical Assistance. “Medical Assistance” or “MA”
means that program authorized under Article IV(f) of
the Public Welfare Code, which is administered in accordance with Title XIX of the Social Security Act (42
U.S.C. §1396), and the regulations from time to time
promulgated thereunder, to provide for specific medically necessary medical services and items furnished
to eligible recipients by approved providers enrolled in
the program.
1.54 Mental Health Procedures Act. “Mental Health
Procedures Act” means the law, codified at 50 P.S.
§§7101-7503, as it may be amended from time to time,
which governs the procedures for voluntary and involuntary mental health treatment in the Commonwealth of Pennsylvania.
1.55 Modification Notice. “Modification Notice” means
written notice from the City to Provider that informs
Provider of the City’s intent to modify the maximum
daily rate, number of days of care or units of Services
under this Contract. The Modification Notice operates
as an amendment to this Contract.
1.56 Non-Competitively Bid Contract. “Non-Competitively Bid Contract” has the meaning set forth in Section 17-1401 (12) of The Philadelphia Code, as it may
be amended from time to time. As of June 2012, that
definition was “[a] contract for the purchase of goods

JA 558
or services to which the City or a City Agency is a party
that is not subject to the lowest responsible bidder requirements of Section 8-200 of the Charter, including,
but not limited to, a Professional Services Contract,
and any renewal of such a contract (other than a renewal term pursuant to an option to renew contained
in an executed contract).”
1.57 Out-of-Home Placement. “Out-of-Home Placement” means those Services that involve placement of
a child outside of the child’s home, including, without
limitation, placement in a foster care home, a group
home, a residential treatment facility, or any similar
placement setting.
1.58 PA DHS. “PA DHS” means the Commonwealth
Department of Human Services.
[Appx. 1058]
1.59 Party; Parties. A “Party” means either the City or
Provider; the “Parties” means the City and Provider.
1.60 PBC. “PBC” or “Performance Based Contract”
means a contract model that incentivizes performance
and ties Provider’s payment and contract renewal to
perfo1mance outcomes.
1.61 Person. “Person” means any individual, sole proprietorship, association, company, firm, partnership,
limited partnership, joint venture, corporation, limited liability company or other form of entity or association recognized by law.
1.62 Placement Amendment. “Placement Amendment” means that document which is a part of the
FSP, and which identifies those Services that are required for a child who is placed outside of his or her
home.

JA 559
1.63 Policy Transmittals and Guides. “Policy Transmittals and Guides” means those notifications to Providers of changes in Departmental policies or procedures in the of the Department that are issued on an
interim or emergency basis.
1.64 Professional Services Contract. “Professional Services Contract” has the meaning set forth in Section
17-1401(15) of The Philadelphia Code, as it may be
amended from time to time. As of June 2012, that definition was “[a] contract to which the City or a City
Agency is a party that is not subject to the lowest competitive bidding requirements of Section 8-200 of the
Charter because it involves the rendition of professional services, including any renewal of such a contract (other than a renewal term pursuant to an option
to renew contained in an executed contract).”
1.65 Provider. “Provider” means the Person providing
Services and Materials to the City as defined in the
heading of the Provider Agreement.
1.66 Provider Agreement. The “Provider Agreement”
means the instrument, part of the Contract Documents, which sets forth the terms, covenants and conditions specific to Provider’s engagement by the City
to provide the Services and Materials under this Contract.
1.67 Provisional. “Provisional” means conditional,
pending confirmation or validation.
1.68 Referring Agency. “Referring Agency” means the
Department.
1.69 Responsible Official. The “Responsible Official”
means the director, commissioner or other head of the
Department.

JA 560
1.70 Santiago Consent Decree. “Santiago Consent Decree” means the Third Amended Stipulation and Order, dated January 21, 1988, amending Santiago, et al.
v. City of Philadelphia et al. (C.A. No. 74-2589, E.D.
Pa.), a consent decree, and requiring the Department
to maintain the population at the Philadelphia Juvenile Justice Services Center at a maximum of one hundred five (105) youth.
1.71 Scope of Services. “Scope of Services” means the
document(s) incorporated by reference and/or the document(s) attached as an exhibit (or as exhibits) to the
[Appx. 1059] Provider Agreement, which set(s) forth
the Services to be rendered and Materials to be provided under this Contract, the time frames within
which the Services are to be rendered and the Materials are to be provided, and other certain requirements
Provider must satisfy in rendering the Services and
providing the Materials.
1.72 Services. “Services” means the work to be performed under this Contract as specified in the Provider Agreement.
1.73 Single Case Plan. “Single Case Plan” means a coordinated plan developed as set forth in the Scope of
Services, as it may be modified and revised from time
to time.
1.74 Subcontract. “Subcontract” means a contract
made between Provider and a Subcontractor providing
for the completion of some part or parts of the Services
or Materials by a Subcontractor.
1.75 Subcontractor. “Subcontractor” means a Person
performing under a contract with Provider some part

JA 561
of the Services or Materials. It includes a Person performing some part of the Services or Materials under
contract with another Subcontractor at any tier.
1.76 Subrecipient Audit Guide. “Subrecipient Audit
Guide” means the document entitled City of Philadelphia Subrecipient Audit Guide, which specifies the
City’s audit requirements, as amended from time to
time. (Copies are available in the Office of the Director
of Finance of the City.)
1.77 Suspension Notice. “Suspension Notice” means a
written notice from the City to Provider pursuant to
Section 14.2 (Termination or Suspension) below suspending Provider’s performance under this Contract.
1.78 Suspension Period. “Suspension Period” means
the period designated by the City in a Suspension Notice during which the City has suspended Provider’s
performance under this Contract.
1.79 SWAN. “SWAN” means the State Wide Adoption
Network, a state wide adoption system which is administered by the Pennsylvania Council of Childrens’
Services under contract with PA DHS.
1.80 Term. “Term” has the meaning set forth in Section 2.1 (Initial Term) of the Provider Agreement.
1.81 Termination Notice. “Termination Notice” means
a written notice from the City to Provider terminating
this Contract.
1.82 Transition. “Transition” means the planned progression and transfer of Services and Materials from
Provider’s Contract to either another provider or another contract with the same Provider.
1.83 Transition Notice. “Transition Notice” means a
written notice from the City to Provider evidencing the

JA 562
City’s intent to transition the Services and Materials
to be provided under this Contract to another.
[Appx. 1060]
1.84 Total Actual Cost. “Total Actual Cost” means the
sum of all allowable expenses incurred by Provider in
the provision of a particular Service under the Contract.
1.85 Vacancy. “Vacancy” means the existence of an
available bed in a placement program, or an available
service unit or slot in a non-placement program.
ARTICLE II: TERM
2.1 Initial Term. The initial term (“Initial Term”) of
this Contract is set forth in the Provider Agreement.
In no event shall the Initial Term exceed one (1) year.
2.2 Additional Terms. The City may, at its sole option,
amend this Contract to add on an annual basis up to
three (3) successive one (1) year terms (“Additional
Terms”), unless any shorter term (or terms) is specified in the Provider Agreement. Unless otherwise
stated in the Provider Agreement, the same terms and
conditions applicable in the Initial Term shall be applicable in the Additional Term(s). The City shall give
Provider thirty (30) days written notice of its intent to
amend this Contract to add an Additional Term prior
to each annual Additional Term. Each Additional
Term shall be subject to appropriation of funds by City
Council for such Additional Term. There shall be no
liability or penalty to the City for electing not to amend
the term of this Contract to add Additional Terms.
Each Additional Term of this Contract shall be deemed
to constitute a separate contract, whose term shall not
exceed one (1) year.

JA 563
ARTICLE III: PROVIDER’S DUTIES AND
COVENANTS
3.1 Performance Requirements. Provider shall provide
all Services and Materials in accordance with this
Contract and applicable professional standards. All
payments to Provider are contingent upon satisfactory
performance of the terms and conditions set forth in
this Contract, as determined by the Commissioner in
his or her sole discretion.
3.2 Compliance with Applicable Law. Provider shall
comply with the requirements of all Applicable Law
with respect to Provider’s activities, Services, Materials and facilities used in connection with any aspect of
this Contract, whether or not such Applicable Law is
specifically identified by name in this Contract. Provider shall inform the Commissioner, in writing, of
any notices of violations of any Applicable Law within
forty-eight (48) hours of Provider’s receipt thereof, and
shall correct any violations within the time prescribed
by law, or immediately in the case of any emergency.
In the case of out-of-state placements, the regulations
of the licensing state and municipality, if any, shall
apply except when such regulations are in conflict
with PA DHS or City policies governing the [Appx.
1061] maintenance and care of children in its custody,
in which case the more stringent standard shall apply.
(a) Title IV(e) of the Social Security Act (“Title IV(e)”)
and Adoption and Safe Families Act (“ASFA”) Compliance. In compliance with the requirements of Title
IV(e), ASFA, and corresponding Commonwealth of
Pennsylvania law, Provider agrees to do the following:
(1) Assure and document the safety of each child for
every face to face contact.

JA 564
(2) If unsafe conditions exist, notify the Department of Human Services, immediately, and document the steps taken to remedy the unsafe conditions.
(3) Provide timely outreach and services to families
in accordance with the Family Service Plan.
(4) Utilize a concurrent planning process while
other possible permanent alternatives, including a
primary goal of reunification, are being explored.
(5) Document reasonable efforts exercised by Provider to accomplish the Family Service Plan goals
and objectives.
(6) Document and notify the Department when the
parent(s) fail(s) to maintain substantial and continuing contact with their children.
(7) Document and notify the Department, when
there exists, or Provider believes there exists, compelling reasons not to file a petition to terminate
parental rights of a child who has been in placement fifteen (15) of the previous twenty-two (22)
months.
(8) Document and notify the Department, when
there exists, or Provider believes there exists, aggravated circumstances (as defined by the Juvenile
Act, 42 Pa. C.S.A. 6301 et seq.).
(b) Compliance with Title VI of the Civil Rights Act of
1964. The Department, as a recipient of federal funding from the federal Department of Health and Human Services, is bound by Title VI of the 1964 Civil
Rights Act and its implementing regulations to take
reasonable steps to provide meaningful access to its

JA 565
programs and activities by its language minority populations. In keeping with this mandate, the Mayor of
Philadelphia has issued Executive Order “Access to
Federally Funded City Programs and Activities for Individuals with Limited English Proficiency” dated
September 29, 2001 requiring that reasonable steps be
taken to ensure that all citizens of the City of Philadelphia have access to programs and activities without
regard to English proficiency.
[Appx. 1062]
Provider agrees to cooperate fully with the Department in its efforts to achieve full compliance with this
mandate. Provider will assess the level of services provided to clients with limited English proficiency, report those findings to the Department within the
timeframe and in the format requested; and, to take
any additional actions that may be requested by the
Department from time to time to ensure compliance
with Title VI.
(c) Compliance with the Prison Rape Elimination Act
of 2003 (PREA) PL 108-79, 42 U.S.C. Chapter 147
§§15601-15609. Provider agrees that if it is providing
services to delinquent children, children held pursuant to a delinquent petition, or services relating to the
confinement of children in any way then the Provider
shall be obligated to comply with the Prison Rape
Elimination Act of 2003 and all related standards as
they may be amended from time to time.
(d) Fostering Connections To Success and Increasing
Adoption Act of 2008. Provider shall collect and provide appropriate documentation at a minimum of
every six (6) months that all youth turning eighteen
(18) years old are notified of the right to remain in care

JA 566
or re-enter care until twenty-one (21) years old if they
continue to meet the definition of “child” under the Juvenile Act and the court grants their request.
(e) Activities and Experiences for Children in Out-ofHome Placements Act of 2015. Provider shall comply
will all requirements of the Activities and Experiences
for Children in Out-of-Home Placements Act, including, without limitation, the reasonable and prudent
parent standard established by the Act and all policies
and regulations established by PA-DHS related to the
Act.
(1) If Provider operates an Out-of-Home placement
setting other than a resource family home, such as:
a group home, shelter, RTF, institutional care facility, or other similar placement setting, then Provider shall designate an individual to provide decision-making authority under the reasonable and
prudent parent standard for children residing in
Provider’s care in accordance with staffing and supervision requirements applicable to the placement
setting. The individual designated shall consult
with all appropriate DHS, CUA, and Provider caseworkers or staff members who are most familiar
with the child in applying and using the standard.
(2) If Provider operates resource family homes,
such as: foster homes, kinship homes, or other similar placement settings, then Provider shall provide
training and monitoring of the resource families
[Appx. 1063] regarding the application and use of
the reasonable and prudent parent standard.
(3) Consistent with Section 3.5 of this contract below, Provider shall require these same provisions

JA 567
in each of its Subcontracts for Out-of-Home placement services, with appropriate substitution of
party identities.
3.3 Additional Services and Materials; Change in
Scope of Services. Except as set forth in Section 6.8
(Monitoring of Fund Utilization) below, at any time
during the Term of this Contract, the City may, by
written change order or request delivered by notice to
Provider, make changes to the Scope of Services under
this Contract, and the Parties will, if appropriate, negotiate an adjustment in compensation if necessary,
subject to appropriation of funds by City Council. Provider shall not commence to perform or provide, and
the City shall not pay for, any services or materials not
included in this Contract (the “Additional Services and
Materials”) unless and until Provider receives written
pre-authorization (by change order or other request)
from the Commissioner that specifies the Additional
Services and Materials to be provided. In no event
shall the rates charged by Provider for said Additional
Services and Materials exceed the lowest of (a) Provider’s then current standard rates for such Services
or Materials, (b) such rates as the City and Provider
may have negotiated for this Contract, as set forth in
the Provider Agreement, or (c) the lowest rate or rates
that Provider may then be charging to other purchasers of like Services and Materials. If Provider requests
changes to the Scope of Services, Provider must
demonstrate to the satisfaction of the City, in its sole
discretion, that the changes are necessary and not due
to the acts or omissions of Provider. The City shall pay
Provider additional compensation above the limit set
forth in the Provider Agreement only if and when an
Amendment to this Contract is duly executed by the

JA 568
Parties. The City shall have no responsibility or liability whatsoever for any fee, or for costs incurred by Provider for any services, materials or other costs or expenses, other than the Services and Materials and any
duly approved Additional Services and Materials.
3.4 Responsibility.
(a) Notwithstanding the acceptance and approval by
the City of any Services performed or Materials provided, Provider shall continue to be responsible for the
professional quality, technical accuracy and the coordination of all Materials and Services provided by Provider under this Contract. Provider shall, without additional compensation, promptly and diligently correct
any errors, defects, deficiencies or omissions in Provider’s Materials and Services.
[Appx. 1064]
(1) Plan of Correction. This section applies to Providers who have been or who may be requested to
submit a Plan of Correction (POC) to DHS regarding performance concerns. Provider acknowledges
that DHS, by requesting a POC, does not resolve or
waive the issues raised by DHS under any other
notices and other communications and that under
the Contract (and as it may be amended from time
to time) Provider remains under the duty to explain
and rectify any matters that have been or may be
raised by DHS or its designee.
Provider agrees that the final accepted POC (and if
applicable, any DHS addendum to POC) is incorporated by reference to the contract. By signing contract, Provider agrees to be bound by the additional
terms and conditions of the POC submitted by Pro-

JA 569
vider and any addendum submitted by DHS. Failure to submit or comply with the terms of the POC
shall constitute an Event of Default as prescribed
in Section 12.l(a) and (c), permitting DHS to exercise the remedies available in Section 13.1, including but not limited to, termination of the Contract.
By entering into a contract with Provider while requesting a POC, DHS reserves and does not waive
its rights to enact Section 3.1 Performance Requirements, to rely on Section 3.4(b) Responsibility
and/or or to invoke Article XIV: Transition, Termination and Suspension of the General Provisions
for any of the reasons provided nor does it waive
any remedies available under Article XIII: Remedies.
(b) Furthermore, by entering into a contract with DRS
and/or continued performance under this contract
while submitting a POC, Provider maintains its obligation to comply with all of the provisions of Article
III: Provider’s Duties and Covenants of the General
Provisions. The City’s review, approval or acceptance
of, or payment for, any of the Materials and Services
required under this Contract shall not constitute any
representation, warranty or guaranty by the City as to
the substance or quality of the matter reviewed, approved or accepted and shall not be construed to operate as a waiver or estoppel of any of the City’s rights
or privileges under this Contract or of any cause of action arising out of the performance of this Contract. No
Person shall have any right to rely in any way on the
City’s review, approval or acceptance of Provider’s Services or Materials. Provider shall be and remain liable
in accordance with this Contract and Applicable Law
for all damages to the City caused by Provider or the

JA 570
Services or Materials provided by Provider. Review,
approval or acceptance by the City or the Commissioner under this Contract shall not constitute or be
construed to constitute approval otherwise required by
any City department, board, commission, or other regulatory agency in the exercise of such department’s,
board’s, commission’s or agency’s independent regulatory authority or police powers under Applicable Law.
[Appx. 1065]
(c) Without limiting Provider’s responsibility as set
forth above, if any act or omission of Provider or error
or deficiency or omission in the Services or Materials
provided by Provider requires any change in the Scope
of Services or any portion thereof, Provider shall
promptly complete such change at no additional cost
to the City.
(d) CUA Case Management. For a Provider whose Services include Out-of-Home Placement of any child, insomuch as case management services are provided by
a CUA under contract with DHS or according to Applicable Law, the Provider must abide by the respective
CUA’s policies and procedures, and cooperate with, assist, and take direction from the respective CUA in the
performance of Provider’s Services under this Contract.
3.5 Subcontracts.
(a) Provider shall not delegate or enter into any Subcontract for the performance of any of its obligations
under this Contract, in whole or in part, without on
each occasion first obtaining the written consent of the
Commissioner or a designee.

JA 571
(b) Provider shall submit to the Commissioner or her
designee copies of all proposed Subcontract(s) to be entered into by Provider, along with Provider’s written
request for the City’s consent. All such Subcontracts
must specify that:
(1) work performed by Subcontractor shall be in
conformity with the terms of this Contract;
(2) nothing contained in such Subcontract shall be
construed to impair the rights of the City under
this Contract;
(3) the City’s consent to or approval of any Subcontract shall not create any obligation of the City to
any Subcontractor;
(4) nothing contained in such Subcontract, or under
this Contract, shall create any obligation of the
City to any Subcontractor;
(5) the City shall be expressly designated a third
party beneficiary of the Subcontract;
(6) upon request by the City (at the City’s sole option) and upon receipt of written notice from the
City stating that this Contract between the City
and Provider has been terminated, Subcontractor
agrees that it will continue to perform its obligations under the Subcontract for the benefit of the
City in conformity with the terms and conditions of
this Contract, provided the City pays Subcontractor for the Services rendered and Materials provided by Subcontractor from and after the date of
the termination of this Contract between the City
and Provider at the same rate or in the same
amount as set forth in the Subcontract for those

JA 572
Services and Materials provided by Subcontractor
after such date of termination;
[Appx. 1066]
(7) Under .each Subcontract, the Subcontractor, at
any tier, shall be bound by the same terms, covenants and conditions as Provider under this Contract, including without limitation: Confidentiality,
Availability and Retention of Records, Inspection,
all audit requirements, Independent Audits, Compliance Audit Reports, audits and inspection by
government representatives, Placement and Referral Process requirements, Insurance, Indemnification, and Litigation Cooperation requirements.
Any item required to be submitted to the City under this section shall be submitted to the City directly, with a copy to the Provider, unless otherwise
directed by the Commissioner or their designee in
writing;
(8) Under each Subcontract, the Subcontractor
shall be subject to quality assurance, fiscal and performance reviews which include site evaluations
and inspection of records, that will be directed at
compliance of state and federal law and regulations, including but not limited to Title IV-E of the
Social Security Act, Temporary Assistance for
Needy Families (TANF), the Public Welfare Code
(including Act 148), the Child Protective Services
Law, and compliance of the requirements under
this Contract;
(9) Subcontractor shall, effective on the date of the
Subcontract, presently, fully and unconditionally
assign, transfer and set over to the City all of Subcontractor’s right, title and interest in and to any

JA 573
sales and/or use tax which may be refunded as a
result of a claim for refund for any materials purchased in connection with the Subcontract or this
Contract, and Subcontractor shall covenant and
agree that, (i) other than as directed by the City, it
will not file a claim for refund for any sales or use
t.ax which is the subject of this assignment; and (ii)
the City, in its own name or in the name of Subcontractor, may file a claim for a refund of any sales or
use tax covered by this assignment;
(10) Subcontractor shall not be indebted to the
City. To satisfy this requirement, Provider shall include the requirement of subsection 4.1(f) (No Indebtedness to the City) below, with appropriate adjustments for the identity of the parties, in all Subcontracts that are entered into for work to be performed pursuant to this Contract;
(11) Subcontractor shall comply with Chapter 17400 of The Philadelphia Code. To satisfy this requirement, Provider shall include the requirements of Subsection 15.2(a) (The Philadelphia
Code, Chapter 17-400) below, with appropriate adjustments for the identity of the parties, in all Subcontracts that are entered into for work to be performed pursuant to this Contract);
(12) Subcontractor shall comply with Section 17104 of The Philadelphia Code. To satisfy this requirement, Provider shall include the requirements of Subsection 15.2(b) (The Philadelphia
[Appx. 1067] Code, Section 17-104) below, with appropriate adjustments for the identity of the parties, in all Subcontracts that are entered into for
work to be performed pursuant to this Contract;
and

JA 574
(13) Subcontractor is not and shall not become suspended or debarred by the Commonwealth, any
other state or the federal government throughout
the term of the Subcontract.
(14) Subcontractor shall comply with Chapter 171300 of the Code to the extent it is applicable to a
Subcontractor that is also a Service Contractor (as
defined in Chapter 17-1300) providing Services under the Subcontract, and to Subcontractors at any
tier that are also Service Contractors providing
Services under this Contract. To satisfy these requirements, Provider shall notify its Subcontractors of these provisions; shall incorporate this paragraph and Section 15.10 below, with appropriate
adjustments for the identity of the parties, in each
Subcontract; and shall require its Subcontractors
to include such terms in any lower-tier Subcontract
that is, or may become, covered by Chapter 171300.
(c) No permitted Subcontract shall relieve Provider of
any obligation under this Contract. Provider shall be
as fully responsible for the acts and omissions of its
Subcontractors and Persons either directly or indirectly employed or retained by them as it is for the acts
and omissions of Provider and Persons directly or indirectly employed or retained by Provider.
(d) Any purported Subcontract made in violation of
this Section or of any other Section in this Contract
shall be null and voidable.
(e) City-Related Agencies.
(1) If Provider is a City-Related Agency. Provider
shall abide by the provisions of Chapter 17-1400 of
The Philadelphia Code in awarding any contract(s)

JA 575
pursuant to this Contract as though such contracts
were directly subject to the provisions of Chapter
17- 1400, except that the exception set forth at Section 17-1406(8) of The Philadelphia Code shall apply to Provider as if Provider were listed in that
subsection.
(2) Unless approved by the City to the contrary, any
approvals required by Philadelphia Code Chapter
17-1400 to be performed by the City Solicitor shall
be performed on behalf of a City-Related Agency by
its General Counsel; any approvals required to be
performed by the Director of Finance shall be performed on behalf of a City-Related Agency by its
Chief Financial Officer; and any approvals required to be performed by the Mayor shall be performed on behalf of a City-Related Agency by its
Executive Director. Any notices required to be sent
under Chapter 17-1400 to designated City officials,
shall be sent in electronic form to [Appx. 1068]
those designated City officials.
(f) Provider shall submit to the Commissioner or her
designee final copies of all executed Subcontracts entered into by Provider.
3.6 Conflict of Interest; Related Party Transactions.
(a) Provider shall adhere to Department policy and to
55 Pa. Code §3680.63, as it may be amended from time
to time, regarding conflicts of interest and related
party transactions. Without limitation of the foregoing, related party transactions shall also include any
transactions involving any direct or indirect financial
interest of Provider’s board members, executive personnel, or their immediate families.

JA 576
(b) Provider shall furnish the Department with copies
of all documents submitted to PA DHS for the purpose
of securing a prior written determination pursuant to
§3680.63, including a copy of the written determination.
(c) Provider shall disclose all related party transactions in its annual fiscal report to the City.
3.7 Relationship with the City or Family Court.
(a) Neither Provider’s personnel nor any Subcontractor personnel shall be employees of the City, employees of the Family Court, or any other governmental officer or employee whose salary is paid out of the City
Treasury. Provider shall notify the City of any Provider personnel or any Subcontractor personnel who
have any employment or other contractual relationship or agency relationship with the City or with the
Family Court.
(b) Pursuant to Section 20-607(c) of The Philadelphia
Code, as it may be amended from time to time, neither
Provider’s personnel nor any Subcontractor personnel,
nor any parent, spouse, child, brother, sister or like
relative-in-law, nor any person, firm, partnership, corporation, business association, trustee or straw party
owned or operated by any of them, shall be financially
interested in any award, contract, lease, case, claim,
decision, decree or judgment made by any such personnel while in the service of the City until at least two
(2) years after the expiration of such person’s service
or employment with the City.
(c) Provider must maintain documentation in its personnel files that provides verification that it has informed all of its personnel and Subcontractors of their

JA 577
obligation to report to Provider whether they are currently or subsequently become employed by DHS.
3.8 Time Frame for Submissions. Provider shall perform any and all Services and shall submit any and all
Materials required by this Contract within the time
frames set forth in the Scope of Services attached as
an exhibit to the Provider Agreement or as mutually
agreed upon in writing by the City and Provider. Absent any such written time frames, Provider shall perform its obligations under [Appx. 1069] this Contract
diligently and promptly and in any and all events before the scheduled expiration of the Term.
3.9 Prompt Payment by Provider. Provider agrees to
promptly pay all Persons which have furnished labor
or supplies in connection with the Services, the Materials or this Contract, including, without limitation,
Subcontractors and suppliers. Provider shall provide,
upon request of the City, reasonable evidence that
these Persons have been fully and timely paid.
3.10 Sales and Use Tax. The City is not subject to federal, state or local sales or use taxes or federal excise
tax. Provider hereby assigns to the City all of its right,
title and interest in any sales or use tax which may be
refunded as a result of any materials, including any
Materials, purchased or any services, including any
Services, rendered in connection with this Contract
and unless directed otherwise by the City, Provider
shall not file a claim for any sales or use tax refund
subject to this assignment. Provider authorizes the
City, in its own name or the name of Provider, to file a
claim for a refund of any sales or use tax subject to this
assignment.

JA 578
3.11 Adherence to Departmental Policy. Provider shall
be bound by all current Departmental and Administrative Policy Directives, Policy Transmittals and
Guides, the CYD Policy Manual, applicable Performance and Service Standards, applicable Practice
Guidelines, and any applicable PA DHS and/or Office
of Children, Youth, and Families transmittals and bulletins as these documents may be amended from time
to time. The Department may provide access to these
documents on the Provider Extranet website or by
making copies of these documents available to the Provider upon request. 3.12 Adoption License.
(a) If Provider’s Services include foster family care,
Provider agrees as follows:
(1) Provider shall, at Provider’s option, (a) apply for
and obtain, within sixty (60) days from the effective
date of this Contract, a valid, current adoption license from the PA DHS; or, (b) immediately upon
the effective date of this Contract, become affiliated
with a child welfare agency that possesses a valid,
current adoption license.
(2) Provider shall become affiliated with SWAN immediately upon the effective date of the Contract.
(b) Provider shal1 cooperate with the City in the City’s
efforts to facilitate the adoption of children in foster
care, and Provider shall refer all children in its custody to SWAN when the child bas a court sanctioned
goal of adoption. If there is no known adoption resource, SWAN shall register such children with the
appropriate adoption exchanges.
[Appx. 1070]

JA 579
3.13 Routine Transportation Costs. With the exception
of those costs associated with a runaway, the specific
provisions for which are set forth at Section 3.29 (Absence of a Child), Provider shall be responsible for all
routine transportation costs incurred by Provider in
fulfilling the terms· of this Contract.
3.14 Family Visit Food Costs. Provider shall be responsible for the costs of food for the child while the child
is visiting his or her family.
3.15 Payment for Placement Services. Provider shall
use payments under this Contract to purchase only
those Services that are reimbursable under Applicable
Law and the Contract Cost Principles, unless Provider
has received prior written approval from the· Commissioner or the Commissioner’s designee to purchase
non-reimbursable Services. This requirement applies
equally whether the Services are purchased directly
by Provider or indirectly through Provider’s Subcontractor, or Provider’s referral to another agency.
3.16 EPSDT; Managed Care. Provider shall comply
with the City’s EPSDT initiative. Compliance shall include, without limitation, Provider’s securing of all licenses and permits necessary for Provider to participate
in
the
Medical
Assistance
program,
HealthChoices or managed care organizations (where
appropriate); Provider’s timely submission of all forms
and reports required by the Commonwealth Office of
Medical Assistance, HealthChoices or managed care
organizations; and Provider’s timely pursuit of any
and all appeals of the Commonwealth’s denial or discontinuance of EPSDT funding to Provider, or denial,
discontinuance or reduction of medical services by
HealthChoices or managed care organizations.

JA 580
Provider shall comply with the City’s initiative to integrate behavioral health services with other health
and social services provided to children and families.
Compliance shall include) without limitation, the following:
(a) Provider shall use 1-888-545-2600, the central contact number of Community Behavioral Health (CBH),
for the purpose of securing mental health and substance abuse services for children and their caregivers;
(b) Provider shall document folly in the case file the
results of each referral to CBH; and
(c) Upon request by DHS and/or CBH and with proper
authorization, Provider shall release to CBH any documents and/or reports regarding behavioral health
services provided to children and families. Provider
must maintain centrally located documentation regarding whether a child/youth has received a full
[EPSDT] screening within sixty (60) days of entering
placement, unless the child has had a screening and
the results are available, and whether the subsequent
treatment indicated has been initiated/scheduled
within ninety (90) days upon entering placement.
Youth transferring from one foster care agency to another and youth transferring from a facility licensed
under Chapter 3800 regulations to a foster care agency
may be exceptions.
[Appx. 1071]
3.17 Service Requirements.
(a) Provider shall provide Services to the children and
youth and their families in accordance with the FSP,
any Placement Amendments, and Form Authorizations.

JA 581
(b) Provider shall submit a Scope of Services which
shall be consistent with Department’s Program Standards and Applicable Law.
(c) Provider’s Scope of Services shall be current, shall
satisfy the City’s requirements as to form and content,
and shall be attached as an exhibit to the Provider
Agreement.
3.18 Web-Based Central Referral Unit (CRU) System
Participation.
(a) The Department utilizes a Web-Based CRU System
for all its non-PBC providers. Upon its implementation, Provider shall report all its vacancies, by age and
gender, by participating in the Department’s WebBased CRU System, and in any additional tracking
system the Department may identify, and Provider
shall update the system on a weekly basis, and/or more
frequently for emergency shelter programs. Failure to
comply with this provision may result in the Provider
not receiving referrals from the Department’s CRU.
Provider has twenty-four (24) hours to accept or reject
a referral.
(b) The Department shall monitor Provider’s compliance with this provision and shall only make referrals
based upon vacancies reported through this system.
The Department, in its sole discretion, may periodically utilize additional resource tracking systems.
3.19 Dependent Placement Referrals. Provider shall
accept youth with deferred or dual adjudications in its
dependent facility. To the extent permitted by law, including applicable state regulations, Provider shall accept dependent youth in its delinquent facilities if such
youth are otherwise eligible for admission into Provider’s facility. Delinquent Providers agree that their

JA 582
Scope of Services shall not exclude dependent children
from their program unless they are required by law to
do so.
3.20 Referral Disputes. Provider shall submit a written quarterly report to the Commissioner’s designee
detailing the number and circumstances of each referral dispute registered in accordance with Section
5.2(b)(3) of these General Provisions. Excessive referral disputes, as determined by the Commissioner in
his/her sole discretion, may cause the City to terminate this Contract.
3.21 Rejection of Referral. Provider shall not reject a
child or family for Services based upon the location or
condition of the family’s residence, their environmental or social condition, or for any other reason if the
profiles of such child or family are consistent with Provider’s Scope of Services or DHS’s applicable standards as listed in the Provider Agreement, unless an exception is [Appx. 1072] granted by the Commissioner
or the Commissioner’s designee, in his/her sole discretion.
3.22 Notice of Referral Acceptance or Rejection
(a) Except for Performance Based Contract Providers,
Provider shall notify the Commissioner within twentyfour (24) hours of its decision to accept or reject placement referrals; provided, however, Provider’s rejection
of a placement referral must be in accordance with the
process set forth in Section 5.2(b)(3) of the General
Provisions. Provider shall provide the Commissioner
with a written statement of the basis for each rejected
referral within twenty-four (24) hours of the rejection
unless an exception is granted by Commissioner or
Commissioner’s designee.

JA 583
(b) Within seventy-two (72) hours of accepting a case
that has been designated as a Kinship Care placement, Provider must visit the placement and complete
an assessment of the kinship caregiver’s home to ensure that it is in compliance with State regulations regarding foster homes
3.23 Documentation of Referrals. Providers must
maintain centrally located documentation regarding
each referral that the Provider receives from DHS.
Provider must maintain the following information: the
date of receipt of referral; the requesting DHS division
(CWO or JJS); the name, age and race of the child; presenting primary problem; and whether the child was
accepted or rejected for admission to the program and
if applicable, the reason for rejection.
3.24 Vacation, Holiday Placement. Provider shall ensure that each child in an Out-of-Home Placement has
uninterrupted Services and placement in the event
Provider’s office closes for vacation or holidays.
3.25 Adequate Clothing. It shall be Provider’s responsibility to purchase a seasonally adequate and complete wardrobe for each child in placement in its program and for any child who is being discharged from
its program.
3.26 Return of Medical Assistance Card. At the time of
discharge or within seventy-two (72) hours of an unplanned discharge, Provider shall return the Medical
Assistance card of any child who has been removed or
discharged from Provider’s placement to the City; otherwise, Provider shall be liable for any charges incurred after discharge. Provider agrees that, upon its
return of the child’s Medical Assistance card to the

JA 584
City, Provider will cooperate fully with the Department for the purpose of re-enrolling the child with a
primary care physician.
3.27 Service Reports.
(a) Progress Reports. Provider shall submit to the City,
on a quarterly basis, a written progress report for each
child for whom Services are provided. The report shall
be consistent with the ISP, shalt present an evaluation
of [Appx. 1073] the child’s current status, and shall include a statement of Provider’s treatment goals. If the
City purchases residential treatment Services under
the Contract, Provider shall submit a diagnostic study
and treatment plan to the City within thirty (30) days
after the child’s initial placement.
(b) Placement Objectives; Adjustment Reports. When
the Services purchased under the Contract include
residential Services, Provider shall, within ninety (90)
days after the child’s initial placement, submit a report to the City which evaluates the child’s adjustment
to placement and the child’s prognosis. Within one
hundred eighty (180) days after the initial placement,
Provider shall submit a report to the City which examines whether a less restrictive placement is appropriate for the child. The City generally expects that Provider will move children to a less restrictive placement, and that children have the capacity to make use
of a less intensive Service within one hundred eighty
(180) days after their initial placement in a residential
facility. With the exception of those children committed to the Juvenile Justice System as the result of the
commission of delinquent acts, when Provider recommends that a child receive more than one hundred
eighty (180) days of residential services, Provider shall
present written justification for the recommendation

JA 585
to the, Department, and shall participate in a case review within one hundred eighty (180) days after the
child’s placement. Provider shall allow visits by authorized City employees, upon oral or written request,
for discussion or review of information pertinent to the
child, or for interviews with the child and the child’s
natural family. If the child is placed in foster family
residential treatment, and is supervised by Provider,
Provider shall arrange for all contacts by the City with
the child and foster family through the staff of Provider. The use of conference calls between the City, the
natural family, and the residential treatment facility
or the foster family will be regularly scheduled by Provider when distance prevents regular contact.
With regard to children with special medical needs,
Provider shall provide all training necessary to the individual(s) with whom the child will reside in order to
accommodate those needs. Individuals to be trained
may include, without limitation, the child’s legal
guardian(s) or the child’s biological, kinship, foster or
adoptive parent(s).
(c) Notice of Child’s Location. Providers shall promptly
notify the City of the exact placement location and address of each child placed in accordance with the terms
of the Contract. A child shall not be moved from one
location to another even within a Provider’s own system without PRJOR written notice to the Department
and applicable approval of court, except in emergency
situations that place the child in imminent risk of
harm. In non-emergency situations, Provider must
furnish the City, in writing, with information regarding any proposed move of a child including, but not
limited to, the exact new address of the child as soon
as that address is known, plans for education, and

JA 586
plans for transfer of [Appx. 1074] applicable medical
and therapeutic services but in no event less than seventy-two (72) hours prior to the move. In emergency
situations, Provider shall notify the City of the new
address orally and in writing with information regarding any proposed move of a child including, but not
limited to, the exact new address of the child as soon
as that address is known, plans for education, and
plans for transfer of applicable medical and therapeutic services immediately after ensuring the safety of
the child or children involved.
A failure to comply with this provision constitutes an
Event of Default pursuant to Section 12.1(a). If Provider fails to comply with this provision, the City may
exercise any of the Remedies available to it pursuant
to Section 13.1.
(d) Copies of ISPs, Other Reports. Provider shall
promptly provide the City with copies of each ISP, periodic reviews of ISPs, and in-home and day care services reports. Provider’s ISP form for children and
youth, as well as quarterly reports on each child and
family shall be consistent with the FSP and Applicable
Law. In addition, Provider shall promptly submit all
requisite reports to Family Court and to Community
Behavioral Health or its successor or assigns.
(e) In Home Services and Foster Care Outcomes Requirements. All providers are required to implement
and utilize all forms and procedures in home services
and Foster Care Services. Provider shall comply with
all current, newly enacted and subsequent outcome requirements enacted during the term of the Contract,
including any and all amendments thereto.

JA 587
(f) Compliance with Temporary Assistance for Needy
Families (“TANF”) Reporting Requirements. Provider
shall comply with all requirements needed to document and claim under TANF the eligible services delivered by the Provider. Compliance shall include,
without limitation, submitting the following:
(1) Once a month, the list of clients receiving services that month on the form prescribed by the
City;
(2) Once a month, the standard summary invoice
on the form prescribed by the City;
(3) Once a year, a properly completed Means Test
Worksheet (MTW) for each child receiving services.
A MTW must be completed when a child first comes
into service, so each month the Provider must provide a properly completed MTW for every child who
came into care that month. That MTW is valid for
twelve (12) months from the date the MTW was
completed. If the client continues to receive services beyond twelve (12) months, a new MTW must
be completed.
[Appx. 1075]
(g) Unusual Incident, Safety Alert and HCSIS Reports. Provider shall notify DHS, orally and in writing
of any fatality or incident, as required by state regulations, including by not limited to 55 Pa. Code 3680.21,
and state and DHS directives, including but not limited to, the Policy and Procedure Guide dated February 23, 2010, “Using and Responding to the Safety
Alert Tool for Families Receiving In Home Services
and the Home and Community Services Information
System (HCSJS) Reports for Children in PA Placements.”

JA 588
(h) Documentation of arrests of children/youth. Providers must maintain centrally located documentation
regarding all arrests by law enforcement of children
and youth being served by the Provider. The Provider
must maintain the following information: the date of
the report, the DHS division (CWO or JJS) that placed
the child with the Provider agency or program; the
name, age and race of the child; the date and time the
arrest occurred; and reason for the arrest by the law
enforcement agency.
(i) Documentation of restraints of children/youth. Providers must maintain centrally located documentation
regarding all restraints of children/youth served. Provider must maintain the following information: the
date of the report; the DHS division (CWO or JJS) that
placed the child with the Provider agency or program;
the name, age and race of the child; reason for restraint; date and time the restraint occurred; type of
restraint used; name of employee(s) who performed
the restraint; duration of the restraint; name of employee(s) who observed the child; and the result of restraint (i.e., injuries incurred, hospitalization, etc.).
Provider shall abide by all applicable law and directives in regards to restraints of pregnant females.
(j) Documentation of Truancy. Provider must maintain
centrally located documentation regarding whether a
child/youth has been truant (three (3) unexcused absences within the school year) during the time the
child/youth was placed with Provider. If the Provider
fails to comply with these requirements, the City may
withhold payments to the Provider until such time
that the Provider complies with these requirements.

JA 589
3.28 Transitional and Discharge Planning. Provider
shall comply with any Departmental and Administrative Policy Directives, and all applicable laws, regulations, and directives regarding transition and discharge planning and development.
[Appx. 1076]
(a) Upon Agreement of the Parties.
(1) Provider shall submit to the City a Case Closing
Summary and close the case pursuant to Departmental Policy following child’s discharge from Provider’s care, along with important documents including, without limitation, birth certificate, Social
Security card, court order, and copies of any other
documents requested by the City that relate to the
child.
(2) Provider shall administer and distribute money
acquired or received by the child in accordance with
Applicable Law and any applicable Discharge Plan.
Provider acknowledges that such funds are the
property of the child.
(b) Upon Request of Provider. In cases where the
child’s discharge from Provider’s care is requested by
Provider, and is not made pursuant to a mutually
agreed upon service plan or court-ordered removal,
Provider shall submit to Commissioner a written explanation detailing the basis for the requested discharge. If the request is approved by the Commissioner or Commissioner’s designee, Provider shall give
the City thirty (30) days formal written notice of its
intent to discharge; if the child is a special needs child
(as that term is defined by the Department and Applicable Law), Provider shall give the City ninety (90)

JA 590
days formal written notice. If a discharge on an emergency basis proves necessary, the City may, in its sole
discretion, permit a shorter notice period. Provider
may not unilaterally discharge a child or case.
(1) Unplanned discharges. In accordance with the
requirements of Section 3.28(b) and subject to Provider’s full compliance therewith, Provider is authorized to discharge a child from its care and custody only after Provider has confirmed with the Department’s Central Referral Unit that an alternative placement has been identified and Provider
has contacted the Department’s Social Worker regarding the date, time and place of discharge. The
discharge documents must include a statement of
the reason for the discharge. Provided further, that
in compliance with the thirty (30) or ninety (90) day
notice requirement set forth in Section 3.28(b), Provider will forward such notice both to the Department Social Worker and to the Central Referral
Unit. Provider further agrees to include with the
notice a current evaluation addressing the child’s
treatment needs.
(c) Delinquent Children.
(1) When a delinquent child is recommended for
discharge, Provider shall submit to the Probation
Department of the Court of Common Pleas, the Juvenile Justice Services Administrator of the [Appx.
1077] Department, and the District Attorney, a
complete summary of all information pertaining to
the child’s adjustment and progress, and any recommendations of Provider, one (1) month prior to
the anticipated discharge date.

JA 591
(2) If a delinquent youth or an alleged delinquent
youth is placed in a CBES or, in the case of a delinquent youth, in a delinquent facility, and while residing at such facility is arrested on new charges;
and if at the time of the arrest the youth was not a
runaway youth; then Provider shall accept and
transport the youth back to the facility pending
court disposition of the new charges. Provider may
obtain an exception to this provision if Provider’s
facility has exhausted its capacity, or if the youth
is committable pursuant to the Mental Health Procedures Act, is eligible for detention at the Philadelphia Juvenile Justice Services Center pursuant
to the Santiago Consent Decree, or is eligible for
admission to an acute care facility for medical purposes. If Provider determines that the youth, because of the new charges, is not suitable for its program, Provider may, after accepting the youth back
to its facility, request that the referring agency of
the City grant an exception to this provision by following the procedures outlined in Section 5.2(b)(3).
(d) Documentation of discharges of children/youth.
Providers must maintain centrally located documentation regarding each child that is discharged from
Provider’s agency. Provider must maintain the following information: the date of the discharge from the
Provider’s agency or program; the DHS division (CWO
or JJS) that placed the child; the name, age and race
of the child; and the reason that the child was discharged (including successful progress of original presenting problem; AWOL; negative discharge; etc.).
3.29 Absence of Child.
(a) When a child voluntarily absents himself or herself
from the supervision of Provider or Provider’s designee

JA 592
for a period of twenty-four (24) hours, the child is to be
considered a runaway and Provider shall:
(1) Notify all appropriate parties, including the Department, police, the National Center for Missing
and Exploited Children, and, if appropriate, the
Philadelphia Juvenile Probation Department of the
Court of Common Pleas. Immediate oral notice
shall be given to the Department and the Philadelphia Juvenile Probation Department (if appropriate), as soon as Provider determines that the
child.is determined to be a runaway but in no event
later than [Appx. 1078] twenty-four (24) hours after departure. Provider shall give written notice
not later than the next working day. Provider shall
also give oral and written notice, in the manner set
forth above, as soon as the child is found or returned to Provider’s physical custody. Provider
shall notify the Philadelphia Juvenile Probation
Department of any runaway at the following numbers:
Weekends. Evenings and Holidays 686-4818 or
4999 Intake Unit
When the child is alleged or adjudicated delinquent, Provider shall notify the District Attorney
at 686-4000.
(2) Reserve the child’s placement for seven (7) days
from the time of knowledge of the child’s departure,
unless the City notifies Provider to the contrary.
Upon such notice, the City or CUA shall be obligated to compensate Provider for maintaining
availability of the placement. If the child is located
within the seven (7) day period, Provider shall accept the child back into placement in accordance

JA 593
with the exception and appeal procedure described
at Section 5.2(b)(3)
(b) Upon mutual agreement of Provider and the. Commissioner’s designee, the seven (7) day period may be
extended.
(c) When a child who is still in the care of Provider is
found within the county of placement or a contiguous
county, Provider shall be responsible for transportation costs for returning the child. In all other situations, the City shall be responsible for the cost of transportation. If Provider makes arrangements for the use
of public transportation in returning a child who has
run away, the City shall be responsible for transportation costs only when it has given prior approval. With
the exception of delinquent children, this subsection
(c) shall apply only to children placed in the legal custody of the Department.
3.30 Provider’s Publications. Provider shall identify
the Department as a funding source in all literature,
documents reports or pamphlets which Provider publishes, develops or produces in connection with this
Contract.
3.31 Certifications. Provider shall obtain Certifications as required by law and by DHS policy. Herein,
“Certifications”‘ shall be understood to mean: (i.) a report of Federal criminal history record information
dated no more than one (1) year-to-the-day prior to the
individual’s start date and obtained by submitting a
full set of fingerprints in a manner described by PA
DHS to the Federal Bureau of Investigation (FBI), (ii.)
a Pennsylvania Criminal History Record Report dated
no more than one (1) year-to-the-day prior to the individual’s start date, (iii.) a certification from PA DHS

JA 594
dated no more than one (1) year-to-the-day prior to the
[Appx. 1079] individual’s start date certifying whether
the applicant is named in the PA DHS maintained central register as an alleged perpetrator in a pending
child abuse investigation, the perpetrator in a founded
report of child abuse, the perpetrator in an indicated
report of child abuse, the perpetrator in a founded report for a school employee or the perpetrator in an indicated report for a school employee, (iv.) criminal history and child abuse record certifications from any
other current or previous state of residence within the
past five (5) year period and dated no more than one
(1) year-to-the-day prior to the individual’s strut date,
and (v.) any other record or certification requested by
the Department.
(a) Prior to commencing employment or service with
the Provider or Subcontractor, any individual for
whom Certifications are required must swear or affirm
in writing that the individual has not been disqualified
from employment or service under the Child Protective Services Law, 23 Pa. C.S. § 6344(c), and has not
been convicted of an offense similar in nature to a
crime listed in 23 Pa. C.S. § 6344(c) under the laws or
former laws of the United States or one of its territories or possessions, another state, the District of Columbia, the Commonwealth of Pue1to Rico or a foreign
nation, or under a former law of the Commonwealth of
Pennsylvania.
(b) Certifications shall be obtained prior to the approval and/or hiring of any applicant. Provider shall
obtain Certifications for all applicants for employment
including without limitation: employees, agents, independent contractors, volunteers having contact with
children, all prospective foster parent applicants, all

JA 595
prospective adoptive parent applicants, all prospective
PLC custodians, all prospective foster home Household Members, all prospective adoptive parent Household Members, and all prospective PLC custodian
Household Members. A “Household Member” shall
herein be defined as: any individual 18 years of age or
older spending thirty (30) days or more in a home during a calendar year.
(c) This section shall be applicable to all staff including
without limitation executive, administrative, and operational staff.
(d) Provider shall obtain the required Certifications for
all current employees, agents, independent contractors, volunteers having contact with children, foster
parents, adoptive and prospective adoptive parents,
PLC custodians and prospective PLC custodians, and
all of their respective Household members for whom
this information has not already been obtained.
(e) Providers have a continuing obligation to obtain
updated Certifications every sixty (60) months.
[Appx. 1080]
(f) The PA DHS is utilizing Cogent Systems to process
FBI record checks. Provider shall be responsible for
entering into an agency agreement with Cogent Systems so that Provider may pay for the fees for all prospective foster and adoptive parent applicants and
their respective Household Members applying through
the Provider or establish an agency policy to require
that applicants pay the fees themselves. These records
must be included, when applicable, in the documentation forwarded to the DHS Licensure Unit when foster
homes are certified or recertified.

JA 596
(g) According to the Child Protective Services Law
(“CPSL”), 23 Pa. C.S. § 6301 et seq.), an individual
may not be hired or approved for employment or participation in a program, activity, or service, including
but not limited to employment as either a foster parent
or an adoptive parent, if that individual has been convicted of any of the following offenses or if the individual has been convicted of the attempt, solicitation, or
conspiracy to commit any of the following offenses:
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•
•

Criminal Homicide
Aggravated Assault
Stalking
Kidnapping
Unlawful Restraint
Rape
Statutory Sexual Assault
Involuntary Deviate Sexual Intercourse
Sexual Assault
Aggravated Indecent Assault
Indecent Assault
Indecent Exposure
Incest
Concealing Death of a Child
Endangering the Welfare of Children
Dealing in Infant Children
Felony Prostitution and Related Offenses
Obscene and Other Sexual Materials and Performances
Corruption of Minors
Sexual Abuse of Children
Felony Offense Under the Controlled Drug, Device
and Cosmetic Act, committed within the five (5)
year period immediately preceding individual’s application

JA 597
(h) Other than the last criminal offense listed- Felony
Drug Offense – there is no time limitation on the enumerated criminal convictions. For example, an aggravated assault from thirty-five (35) years ago shall have
the same effect as an aggravated assault conviction
this year: namely, [Appx. 1081] the individual shall be
precluded from employment or participation in a program, activity, or service.
(i) Provider shall not approve an applicant as a foster
parent, prospective adoptive parent, or PLC custodian
if they or any Household Member are named as the
perpetrator in a founded report of Child Abuse or a report equivalent to a founded report of Child Abuse in
another state.
(j) Provider shall not approve an applicant as a foster
parent, prospective adoptive parent, or PLC custodian
if they or any Household Member are named as the
perpetrator in an indicated report, or a report equivalent to an indicated report in another state, within the
previous 5 years. A perpetrator and those with a
Household Member named as a perpetrator in an indicated report or the equivalent of an indicated report
from another state more than five years ago may be
approved as a foster parent, prospective adoptive parent, or PLC custodian, but only with the written approval of the Commissioner or his/her designee at the
director level or higher.
(k) Provider shall not approve an employee, agent, independent contractor, or volunteer having contact
with children for service if they are named as the perpetrator in a founded report of Child Abuse or a report
equivalent to a founded report of Child Abuse in another state, within the previous 5 years. A perpetrator
named in a founded report, or the equivalent of a

JA 598
founded report from another stale, more than 5 years
ago may only be approved as an employee, agent, independent contractor, or volunteer having contact
with children for service upon the written approval of
the Provider’s Executive Director, President, or similar Chief Executive Officer. Such written approval
shall be determined on a case by case basis and record
of such written approval shall be maintained in accordance with section 7.4 of these General Provisions.
(l) Provider shall not approve an employee, agent, independent contractor, or volunteer having contact
with children for service if they are named as the perpetrator in an indicated report, or a report equivalent
to an indicated report in another state, within the previous 5 years. A perpetrator named in an indicated report, or the equivalent of an indicated report from another state, more than 5 years ago may only be approved as an employee, agent, independent contractor,
or volunteer having contact with children for service
upon the written approval of the Provider’s Executive
Director, President, or similar Chief Executive Officer.
Such written approval shall be determined on a case
by case basis and record of such written approval shall
be maintained in accordance with section 7.4 of these
General Provisions.
[Appx. 1082]
(m) Provider shall immediately require any of its employees, agents, independent contractors, volunteers
having contact with children, foster parents, prospective adoptive parents, or Household members of either
a foster home or prospective adoptive home to submit
new Certifications to Provider in the manner required
in this section for a new applicant should Provider

JA 599
have or ever develop a reasonable belief that such Certifications would disqualify the individual or home
they reside in from approval under this section or Applicable Law. Costs for these certifications shall be
borne by the Provider.
(n) Provider shall require all employees, agents, independent contractors, all adoptive, foster and kinship
parents, and all of Provider’s volunteers having contact with children to notify Provider in writing if they
are arrested for or convicted of an offense that would
constitute grounds for denying employment or participation in a program, activity or service, or if they are
named as a perpetrator in a founded or indicated report. Such written notice shall be provided not later
than 72 hours after the arrest, conviction or notification that the person has been listed as a perpetrator.
(o) Provider shall immediately notify the Department
of any disqualifying Certification.
(p) Waiver: Waiver of any of the provisions of this section may be requested only for those provisions not required by Applicable Law. Such waivers shall only be
valid with the express written approval of the Commissioner or his/her designee at the director level or
higher and only to the extent permitted by Applicable
Law.
3.32 Child Death Review. Provider shall conduct an
internal review when a child placed with Provider,
whether or not placed by the City, dies as the result of
suspected child abuse or neglect. The review shall include cases that are currently active and also those
that were known to Provider within the past sixteen
(16) months. Provider shall conduct said review simul-

JA 600
taneously with the Child Protective Service (CPS) investigation. Provider’s review shall assess compliance
with statutory, regulatory, and county requirements;
and compliance with Provider’s policies and procedures, including examination of supervisory and training requirements, for the purpose of determining
whether the appropriate level of service was provided
to the child, the child’s family and/or foster family. A
written report detailing the findings and conclusions
of the death review shall be submitted to DHS within
thirty (30) days following receipt of the report of suspected abuse if applicable. In addition, Provider shall
participate in Act 33 meetings.
3.33 Foster Parent Agreements. Provider shall include
in its agreements with foster parents the requirement
that foster parents shall not maintain in their households, [Appx. 1083] at the same time, other children
committed to the Department of Human Services who
are placed with other Philadelphia County foster family care agencies.
3.34 Group Home Provision. Provider must obtain the
prior written approval of the City of Philadelphia,
through the Commissioner or the Commissioner’s designee, prior to acquiring, whether through purchase
or lease, a group home or institution situated in the
City of Philadelphia for the purpose of providing services to Philadelphia County dependent or delinquent
youth. Provider further agrees that it must obtain
written approval of the Commissioner or the Commissioner’s designee before making any change in the type
of dependent or delinquent youth for whom services
will be provided on these properties.
3.35 Adoption and Permanent Legal Custodianship.
Provider shall complete and/or ensure the completion

JA 601
of a family profile according to the Department, City
and State specifications for caretakers the City identifies as appropriate for adoption and permanent legal
custodianship. The fee payable for the work to complete the family profile will be determined by the revised Statewide Adoption Network (“SWAN”) state
bulletin by reference.
ARTICLE IV: PROVIDER’S REPRESENTATIOINS
AND COVENANTS
4.1 Provider’s Representations and Covenants. Provider makes the following representations, warranties
and covenants upon which the City has relied as a material consideration for the execution and delivery by
the City of this Contract. The representations, warranties, and covenants stated below shall continue
throughout the Term of this Contract. In the event
said representations, warranties, and covenants are or
become untrue or inaccurate, Provider shall promptly
give notice thereof to the City, specifying the manner
in which said representation, warranty, or covenant is
untrue or inaccurate.
(a) Good Standing. If Provider is not an individual,
Provider is a business corporation, limited liability
company, partnership, limited partnership or other
business entity duly organized, validly existing and in
good standing under the laws of the state of its incorporation or organization. Provider is duly licensed,
qualified and in good standing in the Commonwealth
of Pennsylvania and in all jurisdictions in which it conducts business activities relating in any way to the
performance of the Services and delivery of the Materials under this Contract, including, but not limited to,
the jurisdiction in which Provider is organized. If Pro-

JA 602
vider is a not-for-profit corporation or otherwise an entity determined to be tax exempt pursuant to Section
50l(c) of the Internal Revenue Code by the Internal
Revenue Service, then Provider has procured, and
shall maintain in full force and effect, all consents and
approvals necessary in connection with such tax-exempt and non-profit status.
(b) Authority to Act. Provider has full legal power and
authority to execute and deliver this Contract, and
provide the Services and Materials as set [Appx. 1084]
forth herein. Provider has duly authorized by all necessary actions the execution and delivery of this Contract on behalf of Provider by the individual or individuals signing the Provider Agreement. This Contract is
the legal, valid and binding obligation of Provider, enforceable against Provider in accordance with the
terms set forth herein. The execution and delivery of
this Contract by Provider will not result in a default
under or a breach or violation of (1) Provider’s certificate or articles of incorporation or bylaws, partnership
agreement, limited liability company operating agreement or other pertinent organization documents, as
applicable; (2) any Applicable Law or any judgment,
decree order, license1 permit or other instrument or
obligation to which Provider is now a party or by which
Provider may be bound or affected; and (3) Provider’s
tax exempt status, if applicable. No consent, approval
or authorization is required of any regulatory authority or governmental agency, or of any shareholder,
partner, member, manager or other party related to
Provider.
(c) Legal Obligation. This Contract has been duly authorized, executed and delivered by Provider, by and
through individuals duly authorized to execute this

JA 603
Contract on behalf of Provider, and constitutes the legal, valid and binding obligation of Provider, enforceable against Provider in accordance with its terms.
(d) No Litigation Preventing Performance. There is no
litigation, claim, consent order, settlement agreement,
arbitration, agency proceeding, investigation, challenge or other proceeding pending or threatened
against Provider, its properties or business or any individuals acting on Provider’s behalf, including, without limitation, Subcontractors, in which any Person
seeks to enjoin or prohibit Provider from entering into
or performing its obligations under this Contract.
(e) Requisite Licensure and Qualifications. Provider
and all of the Persons acting on Provider’s behalf, including, without limitation, Subcontractors and their
Subcontractors at any tier, in connection with the Services and Materials provided under this Contract, possess and, at all times during the Term of this Contract,
shall possess all approvals, licenses, board certifications or eligibilities, training, certifications, qualifications and other credentials, including, without limitation, all licenses required for eligibility to receive Medical Assistance or other third party reimbursements,
required in accordance with Applicable Law and the
terms of this Contract, to perform the Services and
provide the Materials. Provider shall provide the City
with copies of all approvals, licenses, credentials and
certifications required under this Section upon request
by the City.
Provider and all foster family homes, whether relative
or nonrelative, shall have current, full Certificates of
Approval and/or licensure [Appx. 1085] throughout
the Term of this Contract. Temporary or provisional

JA 604
approval and/or licenses do not satisfy this requirement.
Provider shall notify the Commissioner or Commissioner’s designee, orally, electronically, and in writing,
of any violations of the requirements of this section
within twenty-four (24) hours of Provider’s receipt of
notice or other knowledge thereof, including changes
which place Provider, Subcontractors, or a foster home
in a provisional license status, or any other approval
and/or license violation. Electronic notices of violation
of this section shall be sent via email to DHSLicensure@phila.gov. DHS will not reimburse foster
care agencies for services provided to homes
without documentation of full licenses.
(f) No Adverse Interests. Except as disclosed in writing
and approved in advance by the Responsible Official,
neither Provider nor any of its directors, officers, members, partners or employees, has any interest, or will
acquire any interest, directly or indirectly, that would
or may conflict in any manner or degree with the performance or rendering of the Services and Materials.
(g) No Indebtedness to the City. Provider and any and
all entities controlling Provider, under common control with Provider or controlled by Provider are not
currently indebted to the City, and will not at any time
during the Term of this Contract (including any Additional Term(s)) be indebted to the City, for or on account of any delinquent taxes (including, but not limited to, taxes collected by the City on behalf of the
School District of Philadelphia), water bills, sewer
bills, liens, judgments, fees or other debts for which no
written agreement or payment plan satisfactory to the
City has been established. Provider shall remain current during the Term of this Contract under all such

JA 605
agreements and payment plans, and shall inform the
Responsible Official in writing of Provider’s receipt of
any notices of delinquent payments under any such
agreement or payment plan within five (5) days after
receipt. In addition to any other rights or remedies
available to the City at law or in equity, Provider
acknowledges that any breach or failure to conform to
this representation, warranty and covenant may, at
the option of the City, result in the withholding of payments otherwise due to Provider under this Contract
or any other agreement with the City under which the
City may then owe payment of any kind, and, if such
breach or failure is not resolved to the City’s satisfaction within a reasonable time frame specified by the
City in writing, may result in the offset of any such
indebtedness against said payments or the termination of this Contract for default (in which case Provider
shall be liable for all excess costs and other damages
resulting from the termination), or both. In addition,
Provider understands that false certification, representation or warranty by it is subject to prosecution
under Title 18 Pa. C.S.A. § 4904.
[Appx. 1086]
(h) Commercial Activity License. If Provider is a “business” as defined in Section 19-2601 of the Code, Provider has and shall maintain during the Term of this
Contract, a valid, current Commercial Activity License, issued by the City’s Department of Licenses and
Inspections, to do business in the City.
(i) Subcontractor Licensure; No Indebtedness to the
City. Each Subcontractor, if any, holds and shall maintain during the term of the Subcontract, a valid, current Commercial Activity License to do business in the

JA 606
City, if required by Applicable Law. To the best of Provider’s knowledge, information and belief, the representations made in any Subcontract that Subcontractor is not indebted to the City are true and correct.
(j) Non-Suspension; Debarment. Provider and all of
the individuals acting on Provider’s behalf including,
without limitation, Subcontractors, are not under suspension or debarment from doing business with the
Commonwealth of Pennsylvania, any other state, or
the federal government, or any department, agency or
political subdivision of any of the foregoing. If Provider
cannot so warrant, then Provider shall submit to the
Responsible Official a full, complete written explanation as to why Provider cannot so warrant. Provider
shall reimburse the City for the reasonable cost of investigation incurred by the City or the Commonwealth
of Pennsylvania Office of Inspector General for investigation of Provider’s compliance with the terms of this
or any other contract between Provider and the City
which results in the suspension or debarment of Provider. Such costs shall include, but are not limited to,
salaries of investigators; including overtime, travel
and lodging expenses, expert witness and documentary fees and attorney fees and expenses. Provider
shall not be responsible for costs of investigations
which do not result in Provider’s suspension or debarment
(k) Prohibiting Religious Activities. Provider shall not
provide religious instruction, conduct religious worship or services, or in any way proselytize any individual in connection with the Services provided, either directly or indirectly, under this Contract.

JA 607
Provider shall inform all individuals to whom Services
are provided, whether directly or indirectly, of the following: “The Philadelphia Department of Human Services’ selection of a faith-based provider of social services is not an endorsement of the Provider’s religious
character, practices or beliefs. No Provider of social
services may discriminate against you on the basis of
religion, a religious belief or your refusal to actively
participate in a religious practice.”
The above representations, warranties and covenants
shall continue throughout the Term of this Contract.
In the event said [Appx. 1087] representations, warranties and covenants are or become untrue or inaccurate, Provider shall promptly give notice thereof to the
City, specifying the manner in which said representation, warranty or covenant is untrue or inaccurate.
(l) Non-Lobbying Certification. No federally appropriated funds have been paid, by or on behalf of Provider,
to any person for influencing or attempting to influence an officer or employee of any agency, a member of
Congress, an officer or employee of Congress, or an employee of a member of Congress in connection with the
awarding of any federal contract, the making of any
federal grant, the making of any federal loan, the entering into of any cooperative agreement, and the extension, continuation, renewal, amendment, or modification of any federal contract, grant, loan or cooperative agreement.
If any funds other than federally appropriated funds
have been paid or will be paid to any person for influencing or attempting to influence an officer or employee of any agency, a member of Congress, an officer
or employee of Congress, or an employee of a member
of Congress in connection with this Contract, Provider

JA 608
shall complete and submit Standard Form LLL, “Disclosure of Lobbying Activities,” in accordance with its
instructions.
If this Contract or any Subcontract is funded with federal funds, Provider shall require that this language
be included in the award documents for all subawards
at all tiers (including Subcontracts, subgrants, and
contracts under grants, loans, and cooperative agreements) and that all subrecipients and Subcontractors
shall certify and disclose accordingly.
Provider understands that this is a material representation of fact upon which reliance was placed when
this Contract was entered into. Submission of this certification is a prerequisite for making or entering into
this Contract imposed under Section 1352, Title 31,
U.S. Code, and Provider agrees that the execution of
this Contract shall constitute the requisite submission.
The above representations, warranties and covenants
shall continue throughout the Term of this Contract.
In the event said representations, warranties and covenants are or become untrue or, inaccurate, Provider
shall promptly give notice thereof to the City, specifying the manner in which said representation, warranty or covenant is untrue or inaccurate.
4.2 Notice of Change. If there is a material change in
the foregoing representations made by Provider for itself or on behalf of any of its Subcontractors, or a
[Appx. 1088] circumstance occurs adversely affecting
Provider’s business integrity, Provider shall promptly
notify Responsible Official of such changed circumstances.

JA 609
ARTICLE V: SERVICE REQUIREMENTS
5.1 Scope of Services. Services provided include the
Services described in the Provider Agreement and all
the obligations under this Contract. The Services encompass the following general categories:
(a) Services to dependent, delinquent, and non-adjudicated children and their families; and
(b) Other professional services, including consulting
and training services.
5.2 Placement and Referral Process.
(a) Eligibility for Services. With the exception of children adjudicated delinquent, the City will be responsible for the determination of eligibility for public care
and Services, and for the assumption of legal custody,
if required, for all children provided Services under
the Contract.
(b) Referral Process.
(1) With the exception of children adjudicated delinquent, the City shall, prior to Provider’s acceptance of a child, furnish Provider with a social
summary, including a family summary and a medical history. To the extent such information is
available to the City, the City shall also provide related school information, a signed psychological
evaluation, and a signed psychiatric evaluation.
(2) When Provider receives a referral from the City
for placement, with the exception of state approved
residential treatment facility placements, the City
will cooperate with Provider in arranging a preplacement visit or conference. The participants
may include, but are not limited to, the child, par-

JA 610
ent or guardian, and County caseworker or probation officer. Provider will not be obligated to pay
transportation costs for participants who attend
the visit or conference.
(3) Provider may reject a child and family only if it
has exhausted its capacity under this Contract. If
Provider determines that a child or family is not
acceptable for reasons other than exhaustion of capacity, it must notify the Commissioner in writing
within twenty-four (24) hours of the rejection detailing the basis of the intended rejection and request an exception to this provision. The Commissioner or Commissioner’s designee’s decision to
grant or reject the request shall be final.
[Appx. 1089]
(c) Residential Treatment Facility Placement. In the
event that a child requires services that can only be
provided in a residential treatment facility (RTF), Providers are to obtain approval from Community Behavioral Health (CBH) PRIOR to the RTF placement.
(d) Emergency Shelter Placement. In the case of Outof-Home Placement in an emergency shelter, Provider
will accept all referrals as stated in the Performance
Standards. Provider may only reject a referral if:
•
•
•
•

Provider has exhausted its capacity under the Contract;
the youth is committable pursuant to the Mental
Health Procedures Act 50 P.S. § 7101 et seq.;
the youth is eligible for detention at the Philadelphia Juvenile Justice Services Center pursuant to
the Santiago Consent Decree; or
the youth is eligible for admission to an acute care
facility for medical purposes.

JA 611
If Provider determines that a child placed in an emergency shelter is not suitab1e for its program for reasons other than those identified in this Section 5.2,
Provider may, after accepting the child into emergency
shelter, request an exception to this provision by following the procedures outlined in Section 5.2(b)(3).
Emergency shelter services must be accessible to the
City for the placement of children twenty-four (24)
hours per day, seven (7) days per week.
(e) Availability of Placement Providers. All Providers
of Out-of-Home Placement services to children shall be
prepared to receive referrals and to accept children
into placement at all times, twenty-four (24) hours per
day, seven (7) days per week. Out-of-Home Placement
Providers shall respond to placement referrals within
one hour of their being contacted and will work immediately to secure placement for each child referred.
(f) Information Sharing Following Acceptance for
Placement. Except in emergency situations, when the
City receives official notice of acceptance by Provider
for Out-of-Home Placement of a referred child, the
City shall send to Provider available and pertinent information and documentation within five (5) business
days after receipt of notice, or as soon as possible
thereafter.
(g) Information Sharing in Emergency Out-of-Home
Placement Cases. In the event of an emergency Outof-Home Placement, the City shall make every effort
to supply Provider with all available records, reports,
[Appx. 1090] summaries, and any other pertinent information as soon as possible after the date of acceptance.

JA 612
(h) Collaborative Planning. Provider, with the participation of all other necessary participants, shall develop an ISP, which shall be consistent with the FSP
and Applicable Law. If DHS is responsible for case
management, then DHS, with the participation of the
Provider and all other necessary participants, shall
develop an FSP, including a Placement Amendment.
If a CUA is responsible for case management, then
CUA, with the participation of the Provider and all
other necessary participants, shall develop a Single
Case Plan, which incorporates the ISP and shall be
consistent with Applicable Law.
(i) Clothing. The City shall ensure that each child entering Out-of-Home Placement with Provider shall
have at least minimally adequate clothing. If the City
determines that the child’s clothing is inadequate, it
may authorize Provider to purchase the necessary
clothing as outlined in the Departmental and Administrative Policy Directives.
(j) Life skills training for children in placement. Provider shall comply with Departmental and Administrative Policy Directives regarding the provision of life
skill services for all youth in placement who have attained the age of twelve (12) years or above, regardless
of their permanency goals. Concurrent with the ongoing reasonable efforts toward permanency, Provider
will address the child’s need to acquire the life skills
needed for adult self-sufficiency. The Individual Service Plan will identify self-sufficiency goals and specific courses of action that the child will take to prepare for the pursuit of these goals. Provider’s agency
case worker will provide direct social work and other
services to help the child prepare for self-sufficiency as
an adult, including:

•
•
•
•
•
•

JA 613
Provision of life skills training
High school retention and support
Career clarification and decision-making
Preparation for post-secondary education or vocational training
Planning for acquisition of permanent housing
upon discharge
Support in identifying and coping with feelings of
separation and loss that will be encountered upon
emancipation

Provider shall identify and facilitate access to the resources needed for youth to acquire the skills necessary for self-sufficiency, including resources to support
educational and employment goals and the acquisition
of housing upon discharge.
[Appx. 1091]
Failure to comply with these requirements constitutes
an Event of Default pursuant to Section 12.1(a). If Provider fails to comply with the requirements under Section 5.2, the City may exercise any of the remedies
available pursuant to Section 13.1 including withholding of payment
5.3 Medical and Dental Costs.
(a) Responsibility for Payment. The maximum fee(s)
set forth in the Provider Agreement and Article VI of
these General Provisions do not include payment of
medical expenses. The City shall provide the necessary means of payment for medical expenses for the
child only in the absence of a third party payor. The
City shall apply for public benefits on behalf of the
children and youth, including Public Assistance, Medical Assistance, Social Security or SSI, and the City
shall furnish Provider with Medical Assistance card(s)

JA 614
or such information as is necessary to secure third
party payments.
(b) Medical Assistance. For delinquent children and
children placed in the legal custody of the City, the
City shall provide financial coverage for medical expenses through the MA program. The City shall not
provide financial reimbursement for medical expenses
which are not covered by the MA eligibility guidelines,
or for services provided by vendors who are not MAapproved. Reimbursement shall be paid directly to the
MA-approved vendor, not to Provider.
(c) Limits of the City’s Responsibility.
The City shall not be responsible for the following
medical expenses:
(1) those expenses incurred prior to the effective
date of this Contract;
(2) those expenses that are in excess of the applicable MA rate, unless Provider obtained prior written
approval from the City;
(3) those expenses for services not covered by the
applicable MA category for which the child or youth
is eligible, unless Provider has obtained prior written approval from the City;
(4) those expenses for which the vendor refuses to
bill MA; and
(5) those expenses for services for which prior authorization from a managed care organization, including CBH, is required and has not been obtained, and for which Provider is seeking payment
from the City. Provider shall be responsible for obtaining treatment authorization prior to securing

JA 615
the services; failure to do so shall result in Provider
bearing sole liability for payment for such services.
[Appx. 1092]
(d) Elective Services. The City shall not assume responsibility for elective services (including medical or
dental) unless Provider obtains prior written approval
from the City.
5.4 Change in Laws. If, during the Contract Term,
there are changes in PA DHS regulations regarding
MA reimbursement, the City and Provider agree to negotiate an Amendment, to set forth revisions to Section 0 (Medical and Dental Costs) hereof, to conform to
such changes. The City and Provider further agree
that the remaining provisions of this Contract shall remain in full force and effect and binding on the Parties.
5.5 Right of Review and Rejection. The City reserves
the right to inquire into the background and qualifications of Persons retained by Provider to provide Services, and to reject the use of any persons, families, or
households which, in the City’s sole judgment, are determined not to be in the best interests of the child or
families for whom the Services are required.
ARTICLE VI: COMPENSATION
6.1 Requisite Documents. Prior to the City’s payment
for placement Services furnished by Provider to delinquent or alleged delinquent youth, Provider must possess the following completed and current documents:
(1) Form Authorizations;
(2) FSP;
(3) Placement Amendment, if any;

JA 616
(4) CY-61 (Application for Initial Determination for
Title IV-E Placement Maintenance and Medicaid); and
(5) Court Order
6.2 Certification of Available Funds. Provider
acknowledges that payments under this Contract
shall not exceed the amount certified by or ·on behalf
of the City’s Director of Finance as available for this
Contract. A copy of the form signed by the Office of the
Director of Finance showing the amount of currently
available funds will be attached to the fully executed
Contract returned to Provider. During the Initial
Term and any Additional Term(s) of this Contract, the
City reserves the right to fund any remaining balance
of this Contract amount in varying amounts from time
to time as funds become available, not to exceed in total the maximum amount stated in this Contract. Provider agrees that the City shall not be obligated to
fund this Contract except out of funds certified by or
on behalf of the City’s Director of Finance as currently
available, even if those funds are less than the maximum amount stated in this Contract. If sufficient
funds are not certified as available at any time, the
City may exercise its options described in Section 6.3
(Unavailability of Funds) below.
6.3 Unavailability of Funds. If funding for this Contract from any source is not obtained and continued at
an aggregate level sufficient to allow for payment for
[Appx. 1093] the Services performed and Materials delivered under this Contract, the City may exercise one
of the following options without liability or penalty to
the City:

JA 617
(a) Terminate this Contract effective upon a date specified in a Termination Notice; or
(b) Continue this Contract by reducing, through written notice to Provider, the amount of this Contract and
Services and Materials, consistent with the nature,
amount and circumstances of available funding.
The City’s exercise of either option under this Section
shall not affect any obligations or liabilities of either
Party accruing prior to such termination or reduction
of Services or Materials. Provider shall be compensated in accordance with the terms of this Contract for
Services and Materials satisfactorily performed and
delivered prior to such termination or modification of
this Contract under this Section.
6.4 Crossing Fiscal Years. If any portion of the compensation set forth in this Contract is to be paid in any
City fiscal year following the fiscal year in which the
Initial Term or any Additional Term of this Contract
commences (in either case, “Appropriated Fiscal
Year”), Provider understands and agrees that the portion of the compensation under this Contract payable
with City funds for any period following the Appropriated Fiscal Year is subject to the discretion of City
Council as to future appropriations. If, for any reason,
funds for any such portion of the compensation are not
appropriated by City Council in any Fiscal Year following the Appropriated Fiscal Year, this Contract
and the City’s liability under this Contract shall automatically terminate at the end of the then current Appropriated Fiscal Year; provided, however, that Provider shall be compensated in accordance with the
terms of this Contract for Services and Materials satisfactorily performed and delivered prior to the end of
the then current Appropriated Fiscal Year.

JA 618
6.5 Allowability of Cost Items. All payments by the
City to Provider under this Contract shall be subject
to the limitations on the allowability of cost items imposed by the City of Philadelphia Contract Cost Principles and Guidelines.
6.6 Advances. The City may, in the City’s sole discretion, offer providers of per diem placement services (including Provider, if applicable) a one twelfth (1/12) advance payment, based on the maximum amount of this
Contract, if Provider meets the following criteria:
(l) Contract and/or encumbrance is $50,000.00 or
over;
(2) Agency is not-for-profit;
(3) Service is to be provided for at least 5 DHS
placement clients;
(4) Agency has submitted audited financial statements by required date;
(5) Audit review does not indicate possible financial difficulties;
(6) Provider performance reviews have been satisfactory;
(7) Provider has been contracting with DHS for at
least 3 years; and
[Appx. 1094]
(8) A decrease in payments and/or placements, as
determined by DHS, is not expected.
The advance to Provider shall be repaid by Provider to
the City by reducing a proportionate amount of the advance from subsequent monthly payments by the City

JA 619
to Provider. The entire advance amount must be repaid no later than the April 30th invoice unless otherwise approved by the DHS Commissioner; not to exceed the end of the fiscal year for which the advance is
provided. The City, in its sole discretion, may waive
any or all of the criteria enumerated in (1)-(8) above.
6.7 Income From Contract Funds. Provider shall provide a written report to the City accounting for all income derived either directly or indirectly by Provider
from the use of funds paid to Provider under this Contract or with respect to any activities of Provider in
connection with this Contract, including, but not limited to, sale, publication, registration fees, interest,
program service fees, and service charges on fees. If
required by the City, at the City’s sole discretion, Provider shall use all such income to set off against and
reduce payments to Provider otherwise due under this
Contract.
6.8 Monitoring of Fund Utilization. Provider and the
City shall monitor utilization of funds encumbered under this Contract. Provider shall furnish the City with
current utilization reports on a monthly basis. In the
event of mutually agreed upon overutilization, the
City will, proceeding under Section 3.3 (Additional
Services and Materials; Change in Scope of Services)
above, authorize an Amendment to this Contract to
compensate Provider for such overutilization.
6.9 Maximum Daily Rate. Days of Care or Units of Service (or combination thereof). The City shall not compensate Provider for any increases in the maximum
daily rate, number of days of care or units of service
set forth in the Provider Agreement without the prior
written approval of the Commissioner. By execution of

JA 620
this Contract, Provider agrees that the City may modify, upon issuance of a Modification Notice to Provider,
the maximum daily rate, number of days of care or
units of service that the City agrees to purchase under
this Contract. In the event the maximum daily rate,
number of days of care or units of service are increased, the date of such increase shall be the date
stated in the Modification Notice. Any decrease in the
maximum daily rate, number of days of care or units
of services shall be made upon issuance of a Modification Notice not less than thirty (30) days prior to the
effective date of such decrease.
6.10 Total Actual Cost. The maximum fee(s) set forth
Section 4.1 in the Provider Agreement represents the
maximum daily rate multiplied by the anticipated
units of Services. The City shall pay Provider only for
Provider’s Total Actual Cost for Services set forth in
the Provider Agreement, not to exceed the maximum
amount set forth in Section 4.1 of the Provider Agreement. Total Actual Cost shall be limited to those expenditures permitted by Applicable Law, the City’s
Functional Expenditure Report, and the City of Philadelphia Contract Cost Principles and [Appx. 1095]
Guidelines, as each may be amended from time to
time. Actual cost shall be measured as of the end of the
current fiscal year (unless a different date is approved
in writing by the Commissioner or Commissioner’s designee), and shall be documented on the Independent
Functional Expenditure Report prepared and certified
by a Certified Public Accountant. The Functional Expenditure Report shall be submitted to the City not
more than one hundred twenty (120) days after the expiration or earlier termination date of this Contract.

JA 621
6.11 Excess Compensation. If, as documented on the
Independent Functional Expenditure Report prepared
and certified by a Certified Public Accountant, compensation exceeds Provider’s Total Actual Cost for Services, the City shall recover such excess compensation
over Total Actual Cost by deduction from subsequent
Provider billings to the Department or by accepting a
refund from the Provider. The City may recover excess
compensation at any time after it is documented. Total
recovery of excess compensation by deductions from
subsequent Provider billings shall be accomplished
over a nine (9) month maximum duration, unless a
longer period is authorized in writing by the Commissioner or Commissioner’s designee. Any extension of
the recovery period, requested by the Provider or otherwise, beyond nine (9) months shall not create a bar
to recovery by the City. If Provider ceases to contract
with the City before the City has recovered all or any
portion of the excess compensation, Provider shall
promptly pay such excess amount to the City. The
amounts of any deductions from Provider billings to
the City in recovery of prior excess compensation over
Total Actual Cost shall not be a part of actual costs for
Department funded programs for the fiscal period during which it was deducted.
6.12 Unpaid Amounts. Provider must notify Department in writing at the address set forth in the Provider
Agreement of any payments it claims are due to it under this Contract and which remain unpaid by the
City, not more than sixty (60) days after the expiration
of the then current Term of this Contract. Failure to
adhere to the time limitation set forth in this Section
may result in Provider’s forfeiture of any unpaid balances or, in the sole discretion of the City, the require-

JA 622
ment that Provider pay any and all additional administrative costs incurred by the City to process the invoices.
6.13 Invoices. To meet the City’s requirements of a
complete and accurate invoice a Provider must have a
validly conformed contract with the City for the time
period in which the Provider’s duties were performed
and a Provider must be in compliance with all of the
terms of that contract, including, but not limited to,
the Scope of Services, DHS Provider Standards, and
all applicable Article VII audit requirements. A Provider shall submit their invoices to the City on a
monthly basis. The City must receive invoices not
more than ten (10) business days following expiration
of the month for which the invoice is submitted.
[Appx. 1096]
6.14 Golden Parachute Agreements. Provider shall not
utilize funds under this Contract to fund in whole or
in part the payment of Golden Parachute agreements
or any similar agreements negotiated with its employees or agents.
6.15 Indirect Rate Requests. The budget-based, cost
reimbursement contract Provider may request an indirect rate for indirect expenses. In order to be eligible
for indirect rate approval, Provider must ensure that
the request conforms to the requirements outlined in
the Contract Cost Principles.
(a) For cost reimbursement contracts over
$500,000.00, Provider must submit a detailed justification including line item indirect expense cost calculations, regardless of the percentage of the indirect
rate that is being requested.

JA 623
(b) For cost reimbursement contracts under
$500,000.00 with a request of an indirect rate of
greater than 10% of the total budget, Provider must
submit a detailed justification including line item indirect expense cost calculations.
(c) For cost reimbursement contracts under
$500,000.00 with a request of an indirect rate of equal
to or less than 10% of the total budget, Provider is not
required to submit a detailed justification including
line item indirect expense cost calculations, unless
specifically requested by DHS.
(d) The value of any applicable Subcontracts shall not
be part of Provider’s indirect percentage calculations.
(e) All indirect rate approvals are at the sole discretion
of DHS.
(f) DHS may require a detailed justification including
line item indirect expense cost calculations for all indirect rate requests at any time; all provisions to the
contrary notwithstanding.
6.16 Timely Payment From Pennsylvania State
Funds. Complete and accurate invoices submitted to
the City, for which the City receives State reimbursement and for which the State funds have already been
appropriated by the State for reimbursement to the
City, shall be paid within thirty (30) days of receipt of
the invoice.
ARTICLE VII: AUDITS; INSPECTION RIGHTS;
RECORDS
7.1 City Audit. From time to time during the Initial
Term and any Additional Term(s) of this Contract, and
for a period of five (5) years after the expiration or termination of this Contract, the City may audit any and

JA 624
all aspects of Provider’s performance under this Contract, including but not limited to its billings and invoices. Audits may be conducted by representatives,
agents or contractors of the City, including the Department, or other authorized City representatives including, without limitation, the City Controller. If requested by the City, Provider shall submit to the City
all vouchers or invoices presented for payment [Appx.
1097] pursuant to this Contract, all cancelled checks,
work papers, books, records and accounts upon which
the vouchers or invoices are based, and any and all
documentation and justification in support of expenditures or fees incurred pursuant to this Contract. All
books, invoices, vouchers, records, reports, cancelled
checks and other materials shall be subject to periodic
review or audit by the City.
7.2 Inspection. All Services and Materials shall be subject to inspection and review by City, federal and state
representatives, as may be applicable, or their designees, at the offices of Provider in the City, or in another
location with the City’s consent. Provider shall cooperate with all City, state and federal inspections and reviews conducted in accordance with the provisions of
this Contract. Such inspection and review of Provider’s
Services and Materials, including, without limitation,
programs and facilities, shall be in the sole discretion
of the inspecting or reviewing entity. Such inspection
or review may include, without limitation, meetings
with consumers, review of staffing ratios and job descriptions, and meetings with any of Provider’s staff
members who are either directly or indirectly involved
in providing Services or Materials.
7.3 Availability of Records. Provider shall make available to the City at reasonable times during the Term

JA 625
of this Contract and for the period set forth in Section
7.4 (Retention of Records) below, all records pertaining
to this Contract for the purpose of inspection, audit or
reproduction by any authorized representative (including any agent or contractor and the City Controller) of the City, the Commonwealth Secretary of PA
DHS or Auditor General, and any other federal and/or
state auditors, as may be applicable.
7.4 Retention of Records. Provider shall retain all records, books of account and documentation pertaining
to this Contract for a period of five (5) years following
expiration or termination of this Contract; if, however,
any litigation, claim or audit is commenced prior to expiration of said five (5) year period, then the records
shall be retained until all litigation, claims or audit
findings have been completely terminated or resolved,
without right of further appeal, or if Applicable Law
requires a longer period, then the records shall be retained for such longer period.
7.5 Independent Audit.
(a) Combined City contracts that total less than
$300,000 in a fiscal year. If requested by the City, Provider shall submit to the City an Independent Audit
Report that is acceptable to the City and prepared and
certified by a Certified Public Accountant (CPA) acceptable to the City. The Independent Audit Report
shall be prepared in accordance with the following audit requirements:
(1) Provider shall submit a separate audit for each
individual entity that contracts with the City. An
individual entity includes each [Appx. 1098] entity
with a distinct taxpayer identification number or
social security member, or employer identification

JA 626
number. It is intended that this requirement be followed in addition to any other requirements of: the
law, other regulatory bodies, or other financial
statement presentations.
(2) The basic financial statements to be filed will
include: the Statement of Financial Position, the
Statement of Activities, the Statement of Cash
Flows and the Statement of Functional Revenue
and Expenses by Contract number and Program
name.
(3) Provider shall ensure that a final audit of the
financial transactions relating to each City contract shall be performed in compliance with all requirements of the Subrecipient Audit Guide, which
is incorporated in this Contract by reference. This
audit shall verify that all invoiced costs are actual,
authorized and eligible for reimbursement in accordance with each City contract’s requirements.
(4) Provider agrees to make full and prompt refund
to the City of amounts of money which result from
audit exceptions due to Provider’s performance
hereunder, or result from non-compliance with Applicable Law and this contract, including, without
limitation, the Contract Cost Principles.
(5) The City reserves the right to disallow fees paid
by Provider for audit services under this contract if
the final audit report is not submitted in the manner and within the time frame prescribed in this
Section or if subsequent review of audit work papers discloses deficiencies in required performance.
(6) Provider shall submit all audit documentation,
as described above, pertaining to this Contract no
later than one hundred twenty (120) days after the

JA 627
end of the Term of this Contract, unless a different
time is approved, in writing, in accordance with
City’s audit policies, which are incorporated in this
contract by reference. Provider’s failure to submit
the audit documentation in the time required shall
be a basis for withholding processing of invoices for
payment, and other remedies the City has at its
discretion in accordance with this contract and the
City’s audit policies.
(b) Combined City contracts that total $300,000 or
more in a fiscal year. Provider shall submit to the City
an Independent Audit Report that is acceptable to the
City and prepared and certified by a Certified Public
Accountant (CPA) acceptable to the City. The Independent Audit Report shall be prepared in accordance
with the following audit requirements:
[Appx. 1099]
(1) Provider shall submit a separate audit for each
individual entity that contracts with the City. An
individual entity includes each entity with a distinct taxpayer identification number or social security number, or employer identification number. It
is intended that this requirement be followed in addition to any other requirements of: the law, other
regulatory bodies, or other financial statement
presentations.
(2) The basic financial statements to be filed will
include: the Statement of Financial Position, the
Statement of Activities, the Statement of Cash
Flows and the Statement of Functional Revenue
and Expenses by Contract number and Program
name.

JA 628
(3) Provider shall ensure that an audit of the financial transactions relating to each City contract
shall be performed.
a) As applicable, the audit shall be in compliance with all requirements of the Subrecipient
Audit Guide, which is incorporated in this contract by reference. This includes Department
specific required disclosures and schedules.
This audit shall verify that all invoiced costs are
actual, authorized and eligible for reimbursement in accordance with this contract’s requirements.
1) When the combined total of all City contracts with the Provider is greater than
$300,000 but the combination of all federal
and state funds received by the Provider,
from all sources, is less than $500,000, the
Provider must provide a financial audit in
accordance with generally accepted auditing
standards. Specifically, the report shall contain a Balance Sheet, Statement Of Activities And Changes In Net Assets, and A
Statement Of Cash Flows.
2) When the combined total of all funds received by the Provider from the federal and
state governments, from all sources, are
equal to or greater than $500,000, the Provider must provide a financial audit in accordance with generally accepted government auditing standards (Yellow Book Audit), regardless of the combined total of all
City contracts. Specifically, the report shall
contain a Balance Sheet, Statement Of Activities And Changes In Net Assets, and A

JA 629
Statement Of Cash Flows. In addition, there
must be an opinion given on Internal Control
Over Financial Reporting.
[Appx. 1100]
3) When the combined total of all funds received by the Provider from the federal government, from all sources, is equal to or
greater than $750,000, the Provider must
provide a Single Audit in accordance with
the United States Code of Federal Regulations Title 2 (2 CFR).
b) Providers shall adhere to all other auditing
requirements imposed by state and/or federal
legislation and regulation, including but not
limited to audit submission timelines, on funding source(s) that provider receives through this
contract, if the funding source(s) ate comprised
of state and/or federal funds.
(4) Provider agrees to make full and prompt refund
to the City of amounts of money which result from
audit exceptions due to Provider’s performance
hereunder, or result from non-compliance with Applicab1e Law and this contract, including, without
limitation, the Contract Cost Principles.
(5) The City reserves the right to disallow fees paid
by Provider for audit services under this contract if
the final audit report is not submitted in the manner and time frame prescribed in this Section or if
subsequent review of audit work papers discloses
deficiencies in required performance.
(6) Provider shall submit all audit documentation,
as described above, pertaining to this Contract no

JA 630
later than one hundred twenty (120) days after the
end of the Term of this Contract, unless a different
time is approved, in writing, in accordance with
City audit policies, which are incorporated in this
contract by reference. Provider’s failure to submit
the audit documentation in the time requited shall
be a basis for withholding processing of invoices for
payment, and other remedies the City has at its
discretion in accordance with this contract and the
City’s audit policies.
7.6 Compliance Audit Reports. If this Contract is
funded in whole or in part with Commonwealth or federal funds, Provider must prepare and submit compliance audit reports to the Department as required under Applicable Law and any contracts pertinent to the
Department’s receipt of such funds.
7.7 Program Records; Reporting Costs.
(a) Reports Concerning Provider’s Costs. In addition to
the financial and compliance audits, Provider shall (1)
identify that part of its per diem rate or unit cost that
is attributable to Services rendered; and (2) identify
any [Appx. 1101] unallowable costs, as defined by Applicable Law, this Contract, and the Contract Cost
Principles.
(1) Providers of Title IV-E eligible services, regardless of their physical location, are required to provide complete, timely and accurate Title IV-E submissions.
a) Providers must secure approved Title IV-E
rates for all eligible services as a condition of receiving full funding for Title IV-E services from
DHS. If, after a reasonable timeframe (as determined by DHS), Provider has failed to secure

JA 631
approved Title IV-E rates, DHS may retroactively decrease payable per diems to the prior
year’s city portion of such per diems. If no prior
year Title IV-E per diem rate was established,
DHS reserves the right to establish a temporary
city share rate until the Provider’s Title IV-E
package has been approved.
b) Title IV-E rate packages must include rates
for all Out-of-Home Placement services provided to DHS. If DHS’s contracted rates are
greater than the projected per diem included in
the Title IV-E rate packages, DHS’s contracted
rates shall be reduced to the Title IV-E rates.
(b) Purchase Category. In reporting financial, program
or Service information, Provider shall reflect costs by
purchase category for each Service rendered under
this Contract.
(c) Unallowable Costs; Third Party funds.
(1) In the calculation of unallowable costs under Title IV-E, this Contract, or the City of Philadelphia
Contract Cost Principles and Guidelines, contributed Services are to be used to offset unallowable
costs before computing the unreimbursed amount
which Provider will report to the City.
(2) Unless otherwise required by the Department
to obtain maximum reimbursement from any third
party source, Provider agrees that third party
funds received from a government funding source
(which may be used to pay for costs incurred in
providing a child welfare Service provided under
this Contract) or third party donor restricted funds

JA 632
(which may be held for a specific child welfare Service provided under this Contract), shall be credited in the following manner:
a) first against unallowable costs; then,
[Appx. 1102]
b) against the difference between the Actual Allowable Costs incurred by Provider and the per
diem cost paid by the City for the Service; then,
c) to reduce the payments otherwise required to
be made by the City under this Contract, by applying the remaining funds to such costs on a
percentage basis, calculated by dividing the cost
for each Service under this Contract by the total
cost of all Services provided under this Contract.
7.8 Audits Pursuant to Section 6-400 of the Home Rule
Charter. Any Provider that is an Agency, as defined in
Section 6-400 of the Philadelphia Home Rule Charter
shall permit the City Controller to audit its affairs as
authorized in Section 6-400 during the Initial Term or
any Additional Term. Under Section 6-400, an Agency
is any entity that receives funds from the City, and either a) is created by, or whose board of directors is in
whole or part appointed by, one or more City officials
or bodies; or b) is organized pursuant to legal authority
granted to it by City ordinance.
ARTICLE VIII: ASSIGNMENT
8.1 Assignment By Provider. Provider shall not assign
this Contract, or any part of this Contract, or delegate
performance of this Contract (other than to its own
work forces), without obtaining the prior written consent of the Commissioner or designee. The decision

JA 633
whether to consent to an assignment, the timing of
consent (if any), and conditions to such consent, if any,
shall each be at the City’s sole discretion. Any consent
to the assignment of any monies to be paid under this
Contract shall not relieve Provider from the faithful
performance of any of its obligations under this Contract or change any of the Terms and Conditions of this
Contract. Any purported assignment in violation of
this provision shall be void and of no effect. The City’s
consent to an assignment shall not release the assignor from any liability accrued or thereafter accruing under this Contract. Any assignment or purported
assignment shall be in writing and shall contain an
express assumption by the assignee of all liability accrued or thereafter accruing under this Contract. Consent by the City to any assignment shall not be deemed
a course of conduct, dealing or performance with respect to any other assignment or proposed assignment.
For purposes of this Section 8.l (Assignment by Provider), an assignment includes the acquisition of the
Provider, or a controlling interest therein, through a
sale of stock, assets, or otherwise; a corporate or other
merger; and the appointment of a receiver or bankruptcy trustee; and the transfer of this Contract or of
control of Provider in any bankruptcy or other insolvency proceeding.
8.2 Applicability in Case of Bankruptcy or Insolvency.
A receiver or trustee of or for Provider in any federal
or state bankruptcy, insolvency or other proceeding
concerning Provider shall comply with the requirements set forth in Section 8.1 (Assignment by Provider) above.
[Appx. 1103]

JA 634
8.3 Personal Services. Provider acknowledges that the
Services and Materials are the personal services of
Provider and the City shall have no obligation to accept performance by a third party without the Commissioner’s or designee’s prior and express written
consent.
ARTICLE IX: INDEPENDENT CONTRACTOR; INDEMNIFICATION; LITIGATION COOPERATION
9.1 Independent Contractor. Provider is an independent contractor and shall not in any way or for any purpose be deemed or intended to be an employee or agent
of the City. Neither Provider nor its agents, employees
or Subcontractors shall in any way represent that they
are acting as employees, officials or agents of the City.
9.2 Indemnification. Provider shall indemnify, defend
and hold harmless the City, its officers, employees and
agents, from and against any and all losses, costs (including, but not limited to, litigation and settlement
costs and counsel fees and expenses), claims, suits, actions, damages, liability and expenses, occasioned
wholly or in part by Provider’s act or omission or negligence or fault or the act or omission or negligence or
fault of Provider’s agents, Subcontractors, independent contractors, suppliers, employees or servants in
connection with this Contract, including, but not limited to, those in connection with loss of life, bodily injury, personal injury, damage to property, contamination or adverse effects on the environment, intentional
acts, failure to pay any Subcontractors and suppliers,
any breach of this Contract, loss of data, data security
breach, and any infringement or violation of any proprietary right (including, but not limited to, patent,
copyright, trademark, service mark and trade secret).

JA 635
9.3 Litigation Cooperation. If, at any time, the City becomes involved in a dispute or receives notice of a
claim or is involved in litigation concerning the Services and Materials provided under this Contract, the
resolution of which requires the Services or cooperation of Provider, and Provider is not otherwise obligated to indemnify and defend the City pursuant to
the provisions of Section 9.2 (Indemnification) above,
Provider agrees to provide such Services and to cooperate with the City in resolving such claim or litigation
as Additional Services and Materials under Section
3.3 (Additional Services and Materials; Change in
Scope of Services) above and require any Subcontractors to abide to this Section 9.3.
9.4 Notice of Claims. If Provider receives notice of a
legal claim against it in connection with this Contract,
Provider shall submit appropriate written notice of
such claim to its insurance carrier within the time
frame required for submission of claims by the applicable insurance policy and, within ten (10) business
days of receipt of notice of the claim, to the Commissioner.
[Appx. 1104]
ARTICLE X: INSURANCE
10.1 Insurance. Unless otherwise approved by the
City’s Risk Manager in writing, Provider shall, at its
sole cost and expense, procure and maintain, or cause
to be procured and maintained, in full force and effect,
the types and minimum limits of insurance specified
below, covering Provider’s performance of the Services
and the delivery of the Materials. Provider shall procure, or cause to be procured, all insurance from reputable insurers admitted to do business on a direct basis

JA 636
in the Commonwealth of Pennsylvania or otherwise
acceptable to the City. All insurance herein, except
Professional Liability insurance, shall be written on
an “occurrence” basis and not a “claims-made” basis.
In no event shall Provider perform any Services or
other work until Provider has delivered or caused to
be delivered to the Responsible Official and the City’s
Risk Management Division the required evidence of
insurance coverages. All insurance coverages shall
provide for at least thirty (30) days prior written notice
to be given to the City in the event coverage is materially changed, cancelled, or non-renewed. The City, its
officers, employees, and agents, shall be named as additional insureds on the General Liability Insurance
policy. Coverage shall also include sexual abuse/molestation coverage. As outlined in Section 10.3, Provider shall also deliver or cause to be delivered to the
City an endorsement stating that the coverage afforded the City and its officers, employees and agents,
as additional insureds, will be primary to any other
coverage available to them and that no act or omission
of the City, its officers, employees or agents shall invalidate the coverage.
(a) Workers’ Compensation and Employers’ Liability.
(1) Workers’ Compensation: Statutory Limits
(2) Employers’ Liability: $100,000 Each Accident Bodily Injury by Accident; $100,000 Each Employee - Bodily Injury by Disease; and $500,000
Policy Limit - Bodily Injury by Disease.
(3) Other states insurance including Pennsylvania.
(b) General Liability Insurance.
Limits of Liability:

JA 637
(1) For all Out-of-Home service categories, including, but not limited to, day treatment and day care
centers: Two million dollars ($2,000,000.00) per occurrence;
(2) For all in-home service categories: One million
dollars ($1,000,000.00) per occurrence;
[Appx. 1105]
Coverage:
(1) Premises operations;
(2) Blanket contractual liability;
(3) Personal injury liability;
(4) Products and completed operations;
(5) Independent contractors;
(6) Employees and volunteers as additional insureds;
(7) Cross liability;
(8) Broad form property damage (including completed operations); and
(9) Sexual abuse/molestation.
(c) Automobile Liability Insurance.
(1) Limit of Liability: $1,000,000 per occurrence
combined single limit for bodily injury (including
death) and property damage liability.
(2) Coverage: Owned, non-owned, and hired vehicles.
(d) Professional Liability Insurance.

JA 638
(1) Health Care Providers subject to the Medical
Care Availability and Reduction of Error (MCARE)
Act, as amended:
a) Hospital and Nursing Homes including officers and employees: $1,000,000 each occurrence,
$4,000,000 annual aggregate.
b) Individuals and Professional Corporations:
$1,000,000 each occurrence; $3,000,00O annual
aggregate.
(2) All Health Care and Human Services Providers
not subject to the MCARE Act, as amended:
$1,000,000 each occurrence; $3,000,000 annual aggregate.
(3) Professional Liability Insurance may be written
on a claims-made basis provided that coverage for
occurrences happening during the performance of
the Services required under this Agreement shall
be maintained in full force and effect under the policy or “tail” coverage for a period of at least two (2)
years after completion of the Services.
10.2 Self-Insurance. Provider may not self-insure any
of the coverages required under this Contract without
the prior written approval of the Commissioner and
the City’s Risk Manager. In the event that Provider
wants to self-insure any of the coverages listed above,
it shall submit to the Commissioner and the City’s
Risk [Appx. 1106] Manager, prior to Provider’s commencement of Services or delivery of any Materials
hereunder1 a certified copy of Provider’s most recent
audited financial statement, and such other evidence
of its qualifications to act as self-insurer (e.g. state approval) as may be requested by the Commissioner or
the City’s Risk Manager. In the event the City grants

JA 639
such approval, Provider understands and agrees that
the City, its officers, employees and agents shall be entitled to receive the same coverages and benefits under
Provider’s self-insurance program that they would
have received had the insurance requirements set
forth above been satisfied by a reputable insurer admitted and duly authorized to do business in the Commonwealth of Pennsylvania or otherwise acceptable to
the City. If at the time of commencement of the Term
of this Contract, Provider self-insures its professional
liability or workers’ compensation and employers’ liability coverage, Provider may, in lieu of the foregoing,
furnish to the City a current copy of the state certification form for self-insurance or a current copy of the
State Insurance Commissioner’s letter of approval,
whichever is appropriate. The insurance (including
self-insurance) requirements set forth herein are not
intended and shall not be construed to modify, limit or
reduce the indemnifications made in this Contract by
Provider to the City, or to limit Provider’s liability under this Contract to the limits of the policies of insurance (or self-insurance) required to be maintained by
Provider hereunder.
10.3 Evidence of Insurance Coverage. Certificates of
insurance evidencing the required coverages must specifically reference the City contract number for which
they are being submitted, indicate that the City of
Philadelphia, its officers, employees and agents are
named as additional insureds and that coverage is included for sexual abuse/molestation. The original certificates of insurance and a copy of Provider’s current
sexual abuse/molestation endorsement must be submitted to the City’s Risk Manager at the following address:

JA 640
The City of Philadelphia
Office of the Director of Finance
Division of Risk Management
1515 Arch Street, 14th Floor
Philadelphia, PA 19102-1579
(Fax. No.: 215-683-1705).
A copy of the certificates of insurance shall be submitted to the Commissioner at the address of the Department set forth in the Notice Section of the Provider
Agreement. Both submissions must be made at least
ten (10) days before work is begun and at least ten (10)
days before each Additional Term. The City, in its sole
discretion, may waive the ten (10) day requirement for
advance documentation of coverage in situations
where such waiver will benefit the City, but under no
circumstances shall Provider actually begin work (or
continue work, in the case of an Additional Term)
without providing the required evidence of insurance.
The actual endorsement adding the City as an additional insured must specifically reference the City contract number and be submitted to the City’s [Appx.
1107] Risk Manager at the above address. The City reserves the right to require Provider to furnish certified
copies of the original policies of all insurance required
under this Contract at any time upon ten (10) days
written notice to Provider.
10.4 Fidelity Bond. When required by the City, Provider shall, at its sole cost and expense, obtain and
maintain during the Initial Te1m and any Additional
Term(s) of this Contract, a fidelity bond in an amount
equal to the greater of (a) Ten Thousand Dollars
($10,000) or (b) the amount specified in the Provider
Agreement, covering Provider’s employees who have

JA 641
financial responsibilities related to the receipt and disbursement of funds under this Contract. In lieu of a
fidelity bond, Provider may obtain coverage for crime
insurance with limits that are the greater of (a) ten
thousand dollars ($10,000) or (b) the amount specified
in the Provider Agreement. The fidelity bond or crime
insurance, whichever is obtained by Provider, shall
name the City as a beneficiary. Evidence of the existence of the fidelity bond or crime insurance shall be
submitted to the City prior to the commencement of
Services in conformity with the requirements of Section 10.3 (Evidence of Insurance Coverage) above.
ARTICLE XI: OWNERSHIP OF MATERIALS; PROPRIETARY INFORMATION; CONFIDENTIALITY
11.1 City Data. Except as may be provided otherwise
in the section of the Provider Agreement dealing with
exceptions to these General Provisions, “City Data”
shall include: any and all records, documents, and
data furnished by the City to Provider in relation to
the work required under the Contract; and all Deliverables, Materials, other work product(s), and items of
work created by Provider as part of, or to perform work
required under, the Contract. “City Data” shall not,
however, include any information which: was known
to Provider, prior to the commencement of its performance of the Contract, free of any obligation to keep it
confidential; is proprietary to Provider; was generally
known to the public at the time of receipt by Provider,
or becomes generally known to the public through no
act or omission of Provider; or was’ independently developed by Provider, unrelated to work performed for
the City, and without knowledge or use of any information obtained from the City.

JA 642
11.2 Ownership of Materials.
(a) Subject to Applicable Law, all Materials shall be
the sole and absolute property of the City and the City
shall have title thereto and unrestricted use thereof.
To the extent that any Materials relating to this Contract developed by or for Provider embody a copyrightable work, including, but not limited to, a “compilation” as that term is used in 17 U.S.C. § 101, as
amended from time to time, the City and Provider
agree that such copyrightable work(s) shall be considered as one or more “works made for hire” by Provider
for the City, as that term is used in 17 U.S.C. §§ 101
and 201 (b ), as amended from time to time. To the extent that any Materials [Appx. 1108] relating to this
Contract developed by or for Provider embody one or
more copyrightable works but are neither a “compilation” nor any other form of “work made for hire,” Provider hereby assigns, and agrees to execute instruments evidencing such assignment, all copyrights in
all of such works to the City. Provider shall cause all
Materials developed or produced by Provider and any
Subcontractor in connection with this Contract which
embody a copyrightable work to bear the following designation: “© __ The City of Philadelphia” [complete
then current year in blank line].
(b) Without limitation of the foregoing, and in order to
ensure continuity of care, medical records may be retained in the custody and control of Provider. The City
shall be allowed unlimited access to all medical records, and if copies are required they shall be made at
Provider’s expense.
(c) Provider shall make available to the City, upon the
City’s request, a copy of any Materials prepared by or

JA 643
for Provider in performance of this Contract, at no cost
to the City.
(d) All computer programs, tapes and software developed under this Contract shall be compatible with
specifications set by the Department.
(e) Provider hereby grants, and shall require its Subcontractors to grant, to the City a royalty-free, nonexclusive and irrevocable right to publish, translate, reproduce, deliver, perform and authorize others to do
so, all studies, media, curricula, reports and other Materials not owned by the City under this Contract but
which relate to the performance of the Services, Materials or this Contract; provided, however, that Provider shall not be required to grant such right to the
City with respect to any Materials for which Provider
would be liable to pay compensation to third parties
because of such grant.
(f) If federal or Commonwealth funds are used for the
development of new software or for modifications of
software, the Provider hereby grants to the Commonwealth of Pennsylvania and the federal government a
royalty-free, nonexclusive and irrevocable license.
Said license shall include the rights to reproduce, publish, or otherwise use, and to authorize others to use
for State and Federal Government purposes, including
software or modifications thereof and associated documentation designed, developed or installed with federal financial participation. Said license shall apply
except when in the case that the software purchase is
of proprietary operating/vendor software packages
(e.g., ADABAS or TOTAL) which are provided at established catalog or market prices and sold or leased
to the general public.

[Appx. 1109]

JA 644

11.3 Non-Disclosure and Destruction of Data. Provider
and its employees, agents, Subcontractors, suppliers,
and any person or entity acting on its behalf (i) will
maintain in strict confidence all City Data; (ii) will not,
without the City’s written permission, issue, divulge,
disclose, publish, communicate, or distribute any City
Data to any person or entity except as may be strictly
necessary to perform under the Contract; (iii) will not,
without the City’s written permission, in any way use
any City Data for their businesses, research, or other
advantage or gain (except as may be strictly necessary
to perform under the Contract), including, without
limitation, any use of City Data in any presentation,
demonstration, or proposal to perform work, to the
City or to others, that may be conducted or created as
part of their business activities or otherwise; and (iv)
except as required by Applicable Law, will immediately upon termination of the Contract return all City
Data to the City, destroy any and all copies of any City
Data that are in their possession, whether on paper or
in electronic or other form and, if requested by the City
in writing, will certify in writing that there has been
full compliance with this section.
ARTICLE XII: EVENTS OF DEFAULT
12.1 Events of Default. Each of the following shall be
an Event of Default by Provider under this Contract:
(a) Failure by Provider to comply with any provision of
this Contract;
(b) Occurrence of an Event of Insolvency with respect
to Provider;

JA 645
(c) Falseness or inaccuracy of any warranty or representation of Provider contained in this Contract or in
any other document submitted to the City by Provider;
(d) Misappropriation by Provider of any funds provided under this Contract or failure by Provider to notify the City upon discovery of any misappropriation;
(e) A violation of law which results in a guilty plea, a
plea of nolo contendere, or conviction of a criminal offense by Provider, or any of its directors, employees, or
agents (1) directly or indirectly relating to this Contract or the Services or Materials provided under this
Contract, whether or not such offense is ultimately adjudged to have occurred; or (2) which adversely affects
the performance of this Contract; or (3) in any factual
circumstances bearing any substantial similarity to
any of the Services under this Contract;
(f) Indictment or other issuance of formal criminal
charges against Provider, its directors, employees or
agents for any criminal offense or any other violation
of Applicable Law directly relating to this Contract or
Services or Materials, in any factual circumstances
bearing any substantial [Appx. 1110] similarity to any
of the Services under this Contract or which otherwise
adversely affects Provider’s performance of this Contract in accordance with its terms, whether or not such
offense or violation is ultimately adjudged to have occurred;
(g) Debarment or suspension of Provider or any agent,
employee or Subcontractor of Provider under federal,
state or local law, rule or regulation; and/or
(h) Any act, omission, or misrepresentation which renders Provider ineligible for a City contract or renders

JA 646
the contract voidable under Philadelphia Code Chapter § 17-1400.
12.2 Notice and Cure. The City agrees that the City
will not exercise any right or remedy provided for in
Section 13.l (The City’s Remedies) below because of
any Event of Default unless the City has first given
written notice of the Event of Default to Provider, and
Provider, within a period of ten (l0) days thereafter, or
such additional cure period as the City may authorize,
shall have failed to correct the Event of Default; provided, however, that no such notice from the City shall
be required nor shall the City permit any period for
cure if:
(a) Provider has temporarily or permanently ceased
providing Services and/or Materials;
(b) The Event of Default creates an emergency which
requires, as determined by the City in the City’s sole
discretion, immediate exercise of the City’s rights or
remedies;
(c) The City has previously notified Provider in the
preceding twelve (12) month period of any Event of Default under this Contract;
(d) An Event of Default occurs as described in 12.1(b),
(c), (d), or (f) above; or
(e) Provider has failed to obtain or maintain the insurance or any bond required under this Contract.
Nothing contained in this Section shall limit the City’s
rights under Article XIII (Remedies) below.
ARTICLE XIII: REMEDIES
13.1 The City’s Remedies.

JA 647
(a) In the event Provider has committed or permitted
an Event of Default and has been notified thereof in
accordance with Section 12.2 (Notice and Cure) above,
then the City may, but shall not be obligated to, without [Appx. 1111] further notice to or demand on Provider and without waiving or releasing Provider from
any of its obligations under this Contract:
(1) perform (or cause a third party to perform) this
Contract, in whole or in part, including, without
limitation, obtaining or paying for any required insurance or performing other acts capable of performance by the City. Provider shall be liable to the
City for all sums paid by the City and all expenses
incurred by the City (or a third party) pursuant to
this Section 13.1, together· with interest at a rate
equal to the Prime Rate as set by First Union National Bank or its successors, plus five (5) percent,
provided, however, such interest rate and expense
shall not exceed the highest legal rate permitted in
the Commonwealth of Pennsylvania thereon from
the date the City or its agent incurs such costs. The
City shall not in any event be liable for inconvenience, expense or any other damage (including, but
not limited to, consequential damages or lost profits) incurred by Provider by reason of the City’s performance or paying such costs or expenses, and the
obligations of Provider under this Contract shall
not be altered or affected in any manner by the
City’s exercise of its rights under this Section 13.1
(The City’s Remedies);
(2) withhold payment of, or offset against, any
funds payable to or for the benefit of Provider;

JA 648
(3) collect, foreclose or realize upon any bond, collateral, security or insurance provided by or on behalf of Provider;
(4) exercise any other right the City has or may
have at law, in equity, or under this Contract.
(b) In the event Provider has committed or permitted
an Event of Default and has been notified thereof in
accordance with Section 12.2 (Notice and Cure) above,
then the City may, but shall not be obligated to, without waiving or releasing Provider from any of its obligations under this Contract, terminate or suspend this
Contract in whole or in part, as set forth more fully in
Article XIV (Transition, Termination, and Suspension) below. In the event of partial termination or suspension, Provider shall continue the performance of
this Contract to the extent not terminated or suspended.
(c) The Services and Materials purchased from Provider are unique, personal in nature and not otherwise
readily available. Accordingly, Provider acknowledges
that, in addition to all other remedies to which the City
is entitled, the City shall have the right, to the fullest
extent permitted under Applicable Law, to enforce the
terms of this Contract without limitation, by a decree
of specific performance or by injunction restraining a
[Appx. 1112] violation, or attempted or threatened violation, of any provision of this Contract.
13.2 Concurrent Pursuit of Remedies; No Waiver. The
City may exercise any or all of the remedies set forth
in this Article XIII (Remedies), each of which may be
pursued separately or in conjunction with such other
remedies as the City in its sole discretion shall determine. No extension or indulgence granted by the City

JA 649
to Provider shall operate as a waiver of any of the
City’s rights in connection with this Contract. The
rights and remedies of the City as described in this Article XIII (Remedies) and as described elsewhere in
this Contract shall not be exclusive and are in addition
to any other rights or remedies available to the City
under this Contract at law or in equity.
ARTICLE XIV: TRANSITION, TERMINATION AND
SUSPENSION
14.1 Transition. As provided for in Section 2.1, this
Contract shall not exceed the term period of one (1)
year. However, the City shall have the right at any
point, in either whole or in part, to transition the Services and Materials covered under this Contract to another contract. At least sixty (60) days notice of the
need to transition the Services and Materials covered
under this Contract will be provided with a transition
start date and transition end date.
14.2 Termination or Suspension. In addition to its
rights under Articles VI (Compensation) and XIII
(Remedies) above, the City shall have the right, in either whole or in part, to terminate this Contract or
suspend Provider’s performance under this Contract
at any time during the Initial Term or any Additional
Term(s) of this Contract, for any reason, including,
without limitation, the convenience of the City. If this
Contract is terminated, the City shall issue a written
Termination Notice, which shall set forth the effective
date of the te1mination. If this Contract is suspended,
the City shall issue a written Suspension Notice,
which shall set forth the effective date of the suspension.

JA 650
14.3 Provider Responsibilities Upon Transition, Termination or Suspension.
(a) Upon the City’s transmission of a Transition Notice, Termination Notice or a Suspension Notice under
any provision of this Contract, Provider and its agents,
employees and Subcontractors, shall
(1) take immediate action in an orderly manner to
discontinue Services and Materials, and demobilize
work forces to minimize the incurrence of costs;
and
(2) upon request by the City by notice to Provider,
collect, assemble and transmit to the City all Materials in-such state of completion as may exist as
of the effective date of the transition, termination
or suspension. All such Materials shall be clearly
labeled and indexed to the satisfaction of the Commissioner and delivered to [Appx. 1113] the Commissioner by Provider on or before the date for delivery of the Materials set forth in the Transition
Notice, Termination Notice or Suspension Notice
or, if no such date is set forth in the Termination
Notice or Suspension Notice, then before the effective date of termination set forth in the Transition
Notice, Termination Notice or Suspension Notice.
Provider waives and releases any and all right to
any retaining or charging liens or similar right or
remedy in favor of Provider.
(b) The City’s transition, termination or suspension of
this Contract shall not affect any obligations or liabilities of either Party accruing prior to the effective date
of such termination or suspension.

JA 651
(c) There shall be no liability, cost or penalty to the
City (including, but not limited to, consequential damages or lost profits) for transition, termination or suspension of this Contract.
14.4 Payment of Provider upon Transition, Termination or Suspension.
(a) Upon termination or suspension of this Contract by
the City for an Event of Default, Provider shall be entitled to payment of such an amount, to be determined
by the City and subject to audit, as shall compensate
it for the work satisfactorily performed prior to the termination date; provided, however, that:
(1) no allowance shall be included for termination
expenses or for anticipated profits, unabsorbed or
under absorbed overhead, or unperformed Services
and Materials not satisfactorily delivered; and
(2) the City shall deduct from any amount due and
payable to Provider prior to the termination date,
but withheld or not paid, the total amount of fees,
costs or additional expenses incurred by the City in
order to satisfactorily complete the Services and
Materials required to be performed by Provider under this Contract, including the expense of engaging another provider for this purpose, and such
other damages, costs, losses and expenses of the
City as may be incurred or result from such termination for an Event of Default.
(b) In the event of transition, termination or suspension of this Contract by the City for the City’s convenience, Provider shall be paid such an amount as shall
compensate Provider for the portion of the Services
satisfactorily performed and Materials satisfactorily
delivered prior to the date of transition, termination or

JA 652
suspension. The City shall not pay Provider any
amount for Provider’s transition, termination or suspension expenses or anticipated profits, unabsorbed or
underabsorbed overhead, or unperformed Services
and Materials not satisfactorily delivered.
[Appx. 1114]
14.5 Special Suspension Rules. Suspension of Provider’s performance under this Contract after an
Event of Default shall not constitute a waiver or release of any liability of Provider for such Event of Default or any of the City’s damages or other remedies
arising out of such Event of Default; nor shall such
suspension be deemed an election of remedies in derogation of any other remedy. Provider acknowledges
that the City shall have the right, at its sole discretion,
to suspend Provider’s performance in the event City
Council or the Commonwealth of Pennsylvania does
not appropriate funds for the performance of this Contract. In the event that the City-issues a Suspension
Notice to Provider, such suspension shall continue
from the effective date specified in the Suspension Notice until a date specified in the Suspension Notice
which shall be not more than one hundred eighty (180)
days after the effective date or the date of judgment in
any pending trial, whichever is later (such period, the
“Suspension Period”). On or prior to the expiration of
the Suspension Period, the City shall either terminate
this Contract by giving a Termination Notice pursuant
to Section 14.2 (Termination or Suspension) above, or
by notice to Provider, instruct Provider to resume the
delivery of Services and Materials pursuant to this
Contract upon the expiration of the Suspension Period, After issuing a Suspension Notice, the City shall
pay any invoices submitted by Provider for Services

JA 653
rendered prior to the commencement of the Suspension Period or otherwise payable by the City to Provider under this Contract, subject to all of the City’s
rights and remedies against Provider, including but
not limited to, its rights of set off and its right to review and accept Services and Materials prior to payment therefor.
ARTICLE XV: ADDITONAL REPRESENTATIONS
AND COVENANTS OF PROVIDER RELATING TO
CERTAIN APPLICABLE LAWS
In addition to the representations, warranties and covenants made by Provider in Article IV, Provider further represents, warrants and covenants that, to the
extent of their applicability to Provider, Provider is in
compliance with the laws, ordinances, regulations and
executive orders described below. By executing this
Contract, Provider thereby certifies to such compliance. Provider further certifies that the representations, warranties, and covenants provided pursuant to
this Article shall continue to remain true throughout
the Term of this Contract or any other period of time
required by such laws. In the event said representations, warranties, and covenants are or become untrue
or inaccurate, Provider shall promptly give notice
thereof to the City, specifying the manner in which
said representation, warranty, or covenant is untrue
or inaccurate. The provisions of this Article are not intended to limit the applicability of the other provisions
of this Contract, including, without limitation, Provider’s agreement to comply with all Applicable Law.
15.1 Non-Discrimination; Fair Practices. This Contract is entered into under the terms of the Charter,
the Fair Practices Ordinance (Chapter 9-1100 of the
Code) and the Mayor’s Executive Order No. 04-86 (the

JA 654
“Executive Order”), as they may be amended from
time to time, and in performing this Contract, Provider shall not discriminate or permit discrimination
against any individual because of race, color, religion
or national origin. Nor shall Provider discriminate or
permit [Appx. 1115] discrimination against individuals in employment, housing and real property practices, and/or public accommodation practices whether
by direct or indirect practice of exclusion, distinction,
restriction, segregation, limitation, refusal, denial, differentiation or preference in the treatment of a person
on the basis of actual or perceived race, ethnicity,
color, sex, sexual orientation, gender identity, religion,
national origin, ancestry, age, disability, marital status, source of income, familiar status, genetic information or domestic or sexual violence victim status,
Human Immunodeficiency Virus (HIV) infection, or
engage in any other act or practice made unlawful under the Charter, Chapter 9-1100, the Executive Order,
or under the nondiscrimination laws of the United
States or the Commonwealth of Pennsylvania. In the
event of any breach of this Section 15.1 (Non-Discrimination; Fair Practices), the City may, in addition to
any other rights or remedies available under this Contract, at law or in equity, suspend or terminate this
Contract forthwith.
15.2 Chapter 17-400 of the Philadelphia Code: Exclusionary Private Organizations.
(a) In accordance with Chapter 17-400 of the Code,
Provider agrees that its payment or reimbursement of
membership fees or other expenses associated with
participation by its employees in an exclusionary private organization, insofar as such participation con-

JA 655
fers an employment advantage or constitutes or results in discrimination with regard to hiring, tenure of
employment, promotions, terms, privileges or conditions of employment on the basis of race, color, sex,
sexual orientation, religion, national origin or ancestry, constitutes, without limiting the applicability of
Articles XII (Events of Default) and XII (Remedies)
above, a substantial breach of this Contract entitling
the City to all rights and remedies provided in this
Contract or othe1wise available at law or in equity.
(b) Provider agrees to cooperate with the Commission
on Human Relations of the City in any manner which
the Commission deems reasonable and necessary for
the Commission to carry out its responsibilities under
Chapter 17-400 of the Code. Provider’s failure to so cooperate shall constitute, without limiting the applicability of Articles XI (Events of Default) and XII (Remedies) above, a substantial breach of this Contract entitling the City to all rights and remedies provided in
this Contract or otherwise available at law or in equity.
15.3 Executive Order 03-12: Minority, Woman and
Disabled Business Enterprise Participation. In accordance with Executive Order 03-12 (the “Antidiscrimination Policy”), the City, acting through its Office of Economic Opportunity (“OEO”), has established an antidiscrimination policy that relates to the solicitation
and inclusion of Minority Business Enterprises
(“MBE”), Woman Business Enterprises (“WBE”), and
Disabled Business Enterprises (“DSBE”) [Appx. 1116]
(collectively, “M/W/DSBE”) in City contracts. The purpose of this Antidiscrimination Policy is to ensure that
all businesses desiring to do business with the City

JA 656
have an equal opportunity to compete by creating access to the City’s procurement process and meaningfully increasing opportunities for the participation by
M/W/DSBEs in City contracts at all tiers of contracting, as prime contractors, Subcontractors and joint
venture partners. In furtherance of this policy, the
City will, from time to time, establish participation
ranges for City Contracts and City Related Special
Projects. Provider agrees to comply with the requirements of the Antidiscrimination Policy, and where
participation ranges are established by OEO, Provider
agrees, without limitation, to submit documentation
responsive to each of the participation ranges established for the Contract.
(a) General Requirements. In furtherance of the purposes of the Antidiscrimination Policy, Provider agrees
to the following:
(1) Provider, if it has achieved participation commitments with M/W/DSBEs, represents that it has
entered into legally binding agreement(s) with
M/W/DSBEs as participants under this Contract
(“Participant Agreement(s)”) for the services and in
the dollar amount(s) and percentage(s) as specified
in the M/W/DSBE Participation Exhibit to this
Contract (the “Contract Commitment(s)”).
(2) Provider shall secure the prior written approval
of the Office of Economic Opportunity (“OEO”), before making any changes or modifications to any
Contract Commitments made by Provider herein,
including, without limitation, substitutions for its
MBEs, WBEs and/or DSBEs, changes or reductions
in the services provided by its M/W/DSBE Subcontractors, or changes or reductions in the dollar

JA 657
and/or percentage amounts paid to its M/W/DSBE
Subcontractors.
(3) Unless otherwise specified in a Participant
Agreement as described in (a) (1) above, Provider
shall, within five (5) business days after receipt of
a payment from the City for work performed under
the Contract, deliver to its M/W/DSBE Subcontractors the proportionate share of such payment for
services performed by its M/W/DSBE Subcontractors. In connection with payment of its M/W/DSBE
Subcontractors, Provider agrees to fully comply
with the City’s payment reporting process which
may include the use of electronic payment verification systems.
(4) Provider shall, in the event of an increase in
units of work and/or compensation under the Contract, increase its Contract Commitment(s) with its
M/W/DSBE Subcontractors proportionately, which
increase shall be reflected in the Participant [Appx.
1117] Agreement(s). OEO may from time to time
request documentation from Provider evidencing
compliance with this provision.
(5) Provider shall submit, within the time frames
prescribed by the City; any and all documentation
the City may request, including, but not limited to,
copies of Participant Agreements, participation
summary reports, M/W/DSBE Subcontractor invoices, telephone logs and correspondence with
M/W/DSBE Subcontractors, cancelled checks and
certification of payments. Provider shall maintain
all documentation related to this Section for a period of five (5) years from the date of Provider’s receipt of final payment under the Contract.

JA 658
(6) Provider agrees that the City may, in its sole
discretion, conduct periodic reviews to monitor Provider’s compliance with the terms of this Antidiscrimination Policy.
(7) Provider agrees that in the event the City determines that Provider has failed to comply with any
of the requirements of this Antidiscrimination Policy, including substantial compliance with any
Contract Commitment, the City may, in addition to
any other rights and remedies it may have under
the Contract which includes termination of the
Contract, exercise one or more of the following remedies which shall be deemed cumulative and concurrent:
a) Debar Provider from proposing on and/or participating in any future contracts for a maximum period of three (3) years.
b) Recover as liquidated damages, i.e., without
institution of a civil lawsuit, one percent (1%) of
the total dollar amount of the Contract, which
amount shall include any increase by way of
amendments to the Contract, for each one percent (1%) (or fraction thereof) of the shortfall in
Contract
Commitment(s)
to
Provider’s
M/W/DSBE Subcontractors.
(8) No privity of contract exists between the City
and any M/W/DSBE Subcontractor identified
herein and the City does not intend to give or confer
upon any such M/W/DSBE Subcontractor(s) any legal rights or remedies in connection with the Subcontracted services pursuant to the Antidiscrimination Policy or by reason of this Contract except

JA 659
such rights or remedies that the M/W/DSBE Subcontractor may seek as a private cause of action under any legally binding contract to which it may be
a party. The remedies enumerated above are for
the sole benefit of the City arid City’s failure to enforce any provision or the City’s indulgence of any
non-compliance with any provision hereunder,
shall not operate as [Appx. 1118] a waiver of any of
the City’s rights in connection with this Contract
nor shall it give rise to actions by any third parties
including identified M/W/DSBE Subcontractors.
(b) Special Requirements Applicable to Non-Profit
Providers. In the event the Provider is a non-profit, the
Contract may not be subject to M/W/DSBE participation ranges, but Provider shall demonstrate its compliance with the Antidiscrimination Policy in the following manner:
(1) Provide to the OEO annually, a written diversity program identifying the race, gender and ethnic composition of its board of directors, its employment profile, a list of all vendors that the nonprofit
does business with in its M/W/DSBE procurement
program (e.g., “M/W/DSBE Supplier Diversity Program”) and a statement of the geographic area(s)
where its services are most concentrated; and
(2) Demonstrate, to the OEO’s satisfaction, that the
non-profit’s organization makes appropriate efforts
to maintain a diverse workforce and board of directors and operates a fair and effective M/W/DSBE
procurement program.
(c) Criminal Liability for Fraudulent or False Statements. It is understood that false certification or rep-

JA 660
resentation made in connection with this Antidiscrimination Policy may be subject to prosecution under Title 18 Pa. C.S. Sections 4107.2 and 4904.
15.4 Federal Laws. Provider shall comply with the provisions of Title VI of the Civil Rights Act of 1964 ( 42
U.S.C. Sections 2000d-2000d.7), Section 504 of the
Federal Rehabilitation Act of 1973 (29 U.S.C. Section
794), the Age Discrimination Act of 1975, (42 U.S.C.
Sections 6101-6107), Title IX of the Education Amendments of 1972 (20 U.S.C. Section 1681), and 45 C.F.R.
Part 92, as they may be amended from time to time,
which together prohibit discrimination on the basis of
race, color, national origin, sex, handicap, age and religion.
15.5 Americans With Disabilities Act. Provider understands and agrees that no individual with a disability
shall, on the basis of the disability, be excluded from
participation in this Contract or from providing Services or Materials under this Contract. By executing
and delivering this Contract, Provider covenants to
comply with all provisions of the Americans With Disabilities Act (the “ADA”), 42 U.S.C. §§12101-12213,
and all regulations promulgated thereunder, as the
ADA and regulations may be amended from time to
time, which are applicable (a) to Provider; (b) to the
benefits, Services, Materials, activities, facilities and
programs provided in connection with this Contract;
(c) to the City, or the Commonwealth of Pennsylvania;
( d) to the benefits, services, activities, facilities [Appx.
1119] and programs of the City or of the Commonwealth; and (e) if any funds under this Contract are
provided by the federal government, which are applicable to the federal government and its funds, benefits,
services, activities, facilities and programs applicable

JA 661
to this Contract. Without limiting the applicability of
the preceding sentence, Provider shall comply with the
“General Prohibitions Against Discrimination,” 28
C.F.R. Part 35.130, and all other regulations promulgated under Title II of the ADA, as they may be
amended from time to time, which are applicable to
the benefits, services, facilities, programs and activities provided by the City through contracts with outside contractors.
15.6 Northern Ireland.
(a) In accordance with Section 17-104 of the Code, Provider (including any parent company, subsidiary, exclusive distributor or company affiliated with Provider) (1) confirms that it does not have, and agrees
that it will not have at any time during the Term of
this Contract (including any extensions of the Term),
any investments, licenses, franchises, management
agreements or operations in Northern Ireland and (2)
agrees that no product to be provided to the City under
this Contract will originate in Northern Ireland, unless Provider has implemented the fair employment
principles embodied in the MacBride Principles.
(b) In the performance of this Contract, Provider
agrees that it will not use any suppliers, Subcontractors or subconsultants at any tier (1) who have (or
whose parent, subsidiary, exclusive distributor or company affiliate have) any investments, licenses, franchises, management agreements or operations in
Northern Ireland or (2) who will provide products originating in Northern Ireland unless said supplier, subconsultant or Subcontractor has implemented the fair
employment principles embodied in the MacBride
Principles.

JA 662
(c) Provider agrees to cooperate with the City’s Director of Finance in any manner which the said Director
deems reasonable and necessary to carry out the Director’s responsibilities under Section 17-104 of the
Code. Provider expressly understands and agrees that
any false certification or representation in connection
with this Section 15.6 (Section 17-104 of the Code) and
any failure to comply with the provisions of this Section 15.6 (the Section 17-104 of the Code) shall constitute a substantial breach of this Contract entitling the
City to all rights and remedies provided in this Contract or otherwise available at law (including, but not
limited to, Section 17-104 of the Code) or in equity. In
addition, Provider understands that false certification
or representation is subject to prosecution under Title
18 Pa. C.S. Section 4904.
15.7 Limited English Proficiency. Provider understands and agrees that no individual who is limited in
his or her English language proficiency shall be denied
access to [Appx. 1120] Services provided under this
Contract on- the basis of that limitation. As a condition
of accepting and executing this Contract, Provider
shall comply with all provisions of Title VI of the Civil
Rights Act of 1964, Executive Order No. 12250 of the
President of the United States, publication of the
Mayor of the City of Philadelphia’s Executive Order
entitled, “Access to Federally Funded City Programs
and Activities for Individuals with Limited English
Proficiency” dated September 29, 2001, and all regulations promulgated thereunder, as the Act and regulations may be amended from time to time, which are
applicable (a) to Provider, (b) to the benefits, services,
activities and programs provided in connection with
this Contract, (c) to the City, or the Commonwealth of

JA 663
Pennsylvania, and (d) to the benefits, services, activities and programs of the City or of the Commonwealth,
and if any funds under this Contract are provided by
the federal government, which are applicable to the
federal government and its benefits, services, activities and programs. Without limiting the applicability
of the preceding sentence, Provider shall comply with
45 C.F.R. 80 et. seq. and all other regulations promulgated under Title VI of the Civil Rights Act of 1964, as
they may be amended from time to time, which are applicable to the benefits, services, programs and activities provided by the City through contracts with outside contractors.
15.8 Business, Corporate and Slavery Era Insurance
Disclosure. In accordance with Section 17-104 of the
Code, the Provider, after execution of this Contract,
will complete an affidavit certifying and representing
that the Provider (including any parent company, subsidiary, exclusive distributor or company affiliated
with Provider) has searched any and all records of the
Provider or any predecessor company regarding records of investments or profits from slavery or slaveholder insurance policies during the slavery era. The
names of any slaves or slaveholders described in those
records must be disclosed in the affidavit.
The Provider expressly understands and agrees that
any false certification or representation in connection
with this Section and/or any failure to comply with the
provisions of this Section shall constitute a substantial
breach of this Contract entitling the City to all rights
and remedies provided in this Contract or otherwise
available in law (including, but not limited to, Section
17-104 of the Code) or equity and’ the Contract will be
deemed voidable. In addition, it is understood that

JA 664
false certification or representation is subject to prosecution under Title 18 Pa. C.S. Section 4904.
15.9 Protected Health Information
(a) The City of Philadelphia is a “Covered Entity” as
defined in the regulations issued pursuant to the federal Health Insurance Portability and Accountability
Act of 1996 (“HIPAA”). The City’s business activities
include both (1) functions which make the City a Covered Entity, and, therefore, subject to HIPAA, and (2)
functions that are not subject to HIPAA. In accordance
with 45 CFR §164.105(a)(2)(iii)(D), the City has [Appx.
1121] designated certain departments and units of the
City as health care components that must comply with
HIPAA (“Covered Components”). The Covered Components of the City as of April 1, 2017 include: Ambulatory Health Services (a unit of the Philadelphia Department of Public Health (“PDPH”)); the Philadelphia Nursing Home (a unit of PDPH); the Sexually
Transmitted Disease Control Program (a unit of
PDPH); the Philadelphia Public Health Laboratory (a
unit of PDPH); the Benefits Administration Unit of the
Office of Human Resources; Emergency Medical Services (a unit of the Philadelphia Fire Department); and
the Office of Behavioral Health and Intellectual Disability Services. This list is subject to change, and any
department or unit of the City that the City in the future determines to be a Covered Component under
HIPAA shall be deemed to be a Covered Component
for purposes of this Section 15. 9.
(b) To the extent (1) this Contract is entered into by
the City for or on behalf of a Covered Component
and/or requires the performance of services that will
be delivered to or used by a Covered Component
(whether or not the City department or unit through

JA 665
which the City entered the Contract is a Covered Component), and (2) Provider is a “Business Associate” of
the City, as defined in 45 CFR §160.103, Provider shall
comply with the City’s Terms and Conditions Relating
to Protected Health Information (“City PHI Terms”)
posted on the City’s website (at https://secure.phila.gov/eContract/ under the “About” link). The
City PHI Terms are hereby incorporated in this Section l5.9 as if fully set forth herein. (A printed version
of the City PHI Terms, in the City’s sole discretion,
also may be attached to this Contract.)
15.10 Chapter 17-1300 of The Philadelphia Code: Philadelphia 21st Century Minimum Wage and Benefits
Standard
(a) Provider is a “Service Contractor” in that by virtue
of entering into this Contract, Provider has entered
into a “Service Contract,” as those terms are defined
in Section 17-l300 of the Code. Any Subcontract between Provider and a Subcontractor to perform work
related to this Contract is a “Service Contract” and
such Subcontractors are also “Service Contractors” for
purposes of Chapter 17-1300 as are any Subcontract
and Subcontractor at any tier providing Services under this Contract. (Chapter 17-1300 is accessible at
http://www.amlegal.com/library/pa/philadelphia.shtml.) If such Service Contractor (Provider or
any Subcontractor at any tier) is also an “Employer,”
as that tennis defined in § 17-1302 of the Code (more
than 5 employees), and further described in § 17-1303
of the Code, then absent a waiver, during the Initial
Term and any Additional Term, in addition to any applicable state and federal requirements, Provider shall
[Appx. 1122] provide, and shall enter into Subcontracts and otherwise cause any Subcontractors at any

JA 666
tier that are also Service Contractors to provide their
respective covered Employees (persons who perform
work for a covered Employer that arises directly out of
a Service Contract), with at least the minimum wage
standard and minimum benefits standard, and required notice thereof, stated in Applicable Law and in
Chapter 17-1300 of the Code. A summary of the current requirements is as follows:
(1) Minimum Wage
Commencing as of January 1, 2016, for wages to be
provided on and after January 1 of each year during
which the Initial Term and any Additional Term is in
effect, Provider, and any Subcontractor at any tier,
shall provide their covered Employees with an hourly
wage, excluding benefits, that is no less than the result
of multiplying $12 by the then current Consumer Price
Index Multiplier (CPI Multiplier) as annually adjusted. For purposes of determining the minimum
hourly wage required, the CPI Multiplier is calculated
annually by the City’s Director of Finance by dividing
the most recently published Consumer Price Index for
all Urban Consumers All Items Index for Philadelphia, Pennsylvania, by the most recently published
Consumer Price Index for all Urban Consumers (CPIU). The then current minimum hourly wage applicable
to City contractors and subcontractors will be posted
on the City’s website. As of January 1, 2017 that wage
is $12.10 per hour.
(2) Minimum Benefits
(a) To the extent an Employer provides health benefits
to any of its employees, then absent a waiver, during
the Initial Term and any Additional Term, in addition
to any applicable state and federal requirements, such

JA 667
Employer shall provide each full-time, non-temporary,
non-seasonal covered Employee with health benefits
at least as valuable as the least valuable health benefits that are provided to any other full-time employees
of the Employer; and
(b) provide to each full-time, non-temporary, non-seasonal covered Employee at least the minimum number
of earned sick leave days required by Code Section 171305(2).
(3) Change in Law
(a) Generally. Chapter 17-1300 of the Philadelphia
Code requires that employers pay the higher of either:
150% of the federal minimum wage, or $12 multiplied
by the CPI Multiplier. To the extent a [Appx. 1123]
change in law would require an increase in wages or
benefits under Chapter 17-1300 (for example, an increase in the federal minimum wage to $9.00/hour,
which would increase the required City minimum
wage to $13.50 due to the Chapter’s requirement of
150% of the federal minimum wage), such new requirement will take effect only at the start of an Additional Term, if any, commencing on or after the date of
the new legal requirement.
(b) If covered, absent a waiver, Provider shall
promptly provide to the City all documents and information as the City may require verifying its compliance, and that of all Service Contractors providing
Services under the Contract, with the requirements of
Chapter 17-1300. Each covered Service Contractor
shall notify each affected Employee what wages and
benefits are required to be paid pursuant to Chapter
17-1300.

JA 668
(c) Absent a waiver, a Provider subject to Chapter 171300 shall comply with all of its requirements as they
exist on the date when the Provider entered into this
Contract with the City or into an amendment thereto.
Provider shall take such steps as are necessary to notify its Subcontractors of these requirements, and to
cause such Subcontractors to notify lower-tier Subcontractors that are Service Contractors of these requirements, including, without limitation, by incorporating
this Section 15.10, with appropriate adjustments for
the identity of the parties, in its Subcontracts with
such Subcontractors. A Provider or Subcontractor at
any tier subject to Chapter 17-1300 that fails to comply with these provisions may, after notice and hearing before the Director of Finance or such other officer
or agency designated by the Mayor, be suspended from
receiving financial assistance from the City or from
bidding on and/or participating in future City contracts, whether as a prime contractor or a Subcontractor, for up to three (3) years. City Council may also initiate a similar suspension or debarment process. Such
suspension or debarment shall be in addition to any of
the other sanctions or remedies set forth in Chapter
17-1300 or this Contract.
(d) Without limiting the applicability of Articles XI
(Events of Default) and XII (Remedies) above, Provider’s failure to comply, or the failure of Subcontractors at any tier to comply, with the requirements of
Chapter 17-1300 shall constitute a substantial breach
of this Contract entitling the City to all rights and
remedies provided in this Contract or otherwise available at law or in equity.
(e) Provider’s covered Employees shall be deemed
third-party beneficiaries of Provider’s representation,

JA 669
warranty, and covenant to the City under this Section
15.10 only, and the covered Employees of a Subcontractor at any tier that is also a covered Employer performing Services directly or [Appx. 1124] indirectly
under a Subcontract at any tier shall be deemed thirdparty beneficiaries of their Employer’s representation,
warranty and covenant to Provider or such Subcontractors at any tier, as the case may be, under this Section.
(f) The City may grant a partial or total waiver of
Chapter 17-1300 based on specific stipulated reasons
elaborated in Section 17-1304 of the Code. An overview
offering guidance on the applicability of, and requirements placed on City contractors and Subcontractors
by Chapter l7-l300 of the Code is available on the
City’s website at https://secure.phila.gov/eContract/
under the “About” link; see “Minimum Wage and
Equal Benefits Ordinances Impacting Some City Contractors.”
15.11 Chapter 17-1400 of the Philadelphia Code: Contributions and Other Mandatory Disclosures.
(a) Provider confirms on behalf of itself and its Subcontractor(s) that no contribution(s) have been made,
and agrees that none shall be made during the Term
of this Contract, and any Additional Term, by Provider, any Subcontractor, or any party from which a
contribution can be attributed to the Provider or Subcontractor, that would render the Provider or Subcontractor, as applicable, ineligible to apply for or enter
into a Non-Competitively Bid Contract under the provisions of Code Sections 17-1404(1) and 17-1405; and
that disclosures made as part of its application to receive a Non-Competitively Bid Contract contain no
material misstatements or omissions. Breach of this

JA 670
covenant shall constitute an event of default and render the Contract voidable at the City’s option, and, as
to contributions attributable to Provider, shall make
the Provider liable for liquidated damages to the City
in the amount of ten percent (10%) of the maximum
payments to the Provider allowed under the Contract,
regardless whether actually paid. The City may exercise any or all of the remedies set forth in this Section
15.11 (Contributions and Other Mandatory Disclosures), each of which may be pursued separately or in
conjunction with such other remedies as the City in its
sole discretion shall determine. No extension or indulgence granted by the City to Provider shall operate as
a waiver of any of the City’s rights in connection with
this Contract. The rights and remedies of the City as
described in this Section 15.11 and as described elsewhere in this Contract shall not be exclusive and are
in addition to any other rights or remedies available to
the City under this Contract at law or in equity.
(b) Provider shall, during the term of the Contract, and
any Additional Term, and for one year thereafter, disclose any contribution of money or in-kind assistance
the Provider, or any Subcontractor or Consultant utilized by [Appx. 1125] Provider in connection with this
Contract, has made, or any individual or entity has
made if such contributions can be attributed to Provider, or such Subcontractor or Consultant pursuant
to the attribution rules of Section 17-1405, during such
time period to a candidate for nomination or election
to any public office in the Commonwealth of Pennsylvania or to an individual who holds such office, or to
any political committee or state party in the Commonwealth of Pennsylvania, or to any group, committee or

JA 671
association organized in support of any such candidate, office holder, political committee or state party,
and the date and amount of such contribution.
(1) It shall not be a violation of Section 15.11(b) if
Provider fails to disclose a contribution made by a
Consultant because the Provider was unable to obtain such information from the Consultant, provided the Provider demonstrates that it used reasonable efforts to attempt to obtain such information, including, at a minimum:
(a) Entering into a written agreement with the
Consultant for such Consultant’s services, before the filing of the application for the Contract, and before the Consultant communicated
with a City department or office, official or employee on behalf of the Provider;
(b) Including in such agreement a provision requiring the Consultant to provide the Provider
in a timely manner with all information required to be disclosed under the provisions of
Chapter 17-1400 of the Code, and providing, in
effect, that the agreement will be terminated by
the Provider if the Consultant fails to provide
all required information on a timely basis and
that no further payments, including payments
owed for services performed prior to the date of
termination, will be made to the Consultant by
or on behalf of the Provider as of the date of such
termination;
(c) Communicating regularly with the Consultant concerning the Consultants obligations to

JA 672
provide timely information to permit the Provider to comply with the provisions of Chapter
17-1400; and
(d) Invoking the termination provisions of the
written agreement in a full and timely manner.
(c) The Provider shall, during the Term of the Contract, and any Additional Term, and for one year
thereafter, disclose the name and title of each City
[Appx. 1126] officer or employee who, during such time
period, asked the Provider, any officer, director or
management employee of the Provider, or any Person
representing the Provider, to give money, services, or
any other thing of value (other than a Contribution as
defined in Section 17-1401) to any Person, and any
payment of money, provision of services, or any other
thing of value (other than a Contribution as defined in
Section 17-1401) given to any Person in response to
any such request. The Provider shall also disclose the
date of any such request, the amount requested, and
the date and amount of any payment made in response
to such request.
(d) The Provider shall, during the Term, and any Additional Term, of the Contract, disclose the name and
title of each City officer or employee who directly or
indirectly advised the Provider, any officer, director or
management employee of the Provider, or any Person
representing the Provider that a particular Person
could be used by the Provider to satisfy any goals established in the Contract for the participation of minority, women, disabled or disadvantaged business enterprises. The Provider shall also disclose the date the
advice was provided, and the name of such particular
Person.

JA 673
(e) The disclosures required by Sections 15.11(b), (c)
and (d) shall be made utilizing the online disclosure
update process through Provider’s eContract Philly account which can be accessed on the City’s website at
www.phila.gov/contracts by clicking on eContract
Philly. Such disclosures shall be made within five (5)
business days of the action or event requiring Provider
to update its disclosures. In the case of updates to political contributions made by Provider required by Section 15.11(b), the attribution rules of Section 17-1405
shall apply to determine what contributions must be
disclosed under this provision as contributions of the
Provider or of a Consultant. Provider is advised that
any individual who submits an update on eContract
Philly must be an authorized signatory of the Provider, authorized to make the required updated disclosures.
(f) Reports generated automatically by the online process for the updated disclosures required by Sections
15.11(b), (c) and (d) will be automatically forwarded to
the President and Chief Clerk of Council, and to the
Mayor, Director of Finance, Procurement Department,
and the Department of Records.
[Appx. 1127]
15.12 Executive Order 10-16: Gifts.
(a) Pursuant to Executive Order 10-16, no City officer
or employee may accept or receive a payment, subscription, advance, forbearance, rendering or deposit
of money, services, entertainment, invitation, food,
drink, travel, lodging or anything of value, unless consideration of equal or greater value is conveyed in return, from any person who, at time or within 12
months preceding the time a gift is received:

JA 674
1) Is seeking, or has sought, official action from the
officer or employee;
2) has operations or activities regulated by the officer’s or employee’s agency, department, office,
board or commission, or, in the case of gifts to members of the Mayor’s Cabinet, has operations or activities that are regulated by any agency, department, office, board or commission within the Executive and Administrative branch; or
3) has a financial or other substantial interest in
acts or omissions taken by the officer or employee,
which the officer or employee is able to substantially affect by his or her official action.
(b) Additionally, no City officer or employee shall accept or receive a gift of any value from any person that
engages in lobbying on behalf of a principal for economic consideration, and is registered as such, pursuant to the requirements of Section 20-1202 of The Philadelphia Code, including any attorney at law while engaged in lobbying.
(c) Provider understands and agrees that if it offers
anything of value to a City official or employee under
circumstances where the receipt of such item would violate the provisions of this Executive Order, Provider
shall be subject to sanctions with respect to future City
contracts. Such sanctions may range from disqualification from participation in a particular contract to debarment, depending on the nature of the violation.
(d) All City employees presented with gifts or gratuities as indicated in Executive Order 10-16 have been
instructed to report these actions to the appropriate
authorities. All Providers, who are solicited for gifts or
gratuities by City employees are urged to report these

JA 675
incidents to the appropriate authorities, including but
not limited to, the Office of the Inspector General.
[Appx. 1128]
15.13 Chapter 17-1900 of the Philadelphia Code:
Equal Benefits Ordinance.
(a) Unless Provider is a government agency, this is a
“Service Contract” as that term is defined in Section
17-190l (4) of the Code. If the Service Contract is in an
amount in excess of $250,000, then pursuant to Chapter 17-1900 of the Code, Provider shall, for any of its
employees who reside in the City, or any of its employees who are non-residents subject to City wage tax under Section 19-1502(1)(b) of the Code, extend the same
employment benefits the Provider extends to spouses
of its employees to life partners of such employees.
Provider certifies that (i) it is in compliance with the
requirements of Chapter 17-1900, (ii) its employees
have been notified of the employment benefits available to life partners pursuant to Chapter 17-1900, and
(iii) such employment benefits are currently, or will be
made available within the time required by Section 171902(2), or that the Provider does not provide employment benefits to the spouses of married employees.
(b) Provider acknowledges and agrees that the following terms are included in this Contract:
(1) Provider shall notify its employees of the employment benefits available to life partners pursuant to Chapter 17-1900 of the Code.
(2) Noncompliance by the Provider with the requirements of Chapter 17-1900 of the Code shall be
a material breach of this Contract.

JA 676
(3) Discrimination or retaliation by the Provider
against any employee on account of having claimed
a violation of Chapter 17-1900 shall be a material
breach of this Contract.
(4) In addition to any other rights and remedies
available to the City pursuant to this Contract at
law or in equity, a material breach of this Contract
related to Chapter 17-1900 may result in the suspension or debarment of Provider from participating in City contracts for up to three (3) years.
(c) An overview offering guidance on the applicability
of, and requirements placed on City contractors by
Chapter 17-1900 of the Code is available on the City’s
website (at https://secure.phila.gov/eContract/ under
the “About” link) (see “Minimum Wage and Equal Benefits Ordinances Impacting Some City Contractors”).
[Appx. 1129]
ARTICLE XVI: MISCELLANEOUS
16.1 Governing Law. This Contract shall be deemed to
have been made in Philadelphia, Pennsylvania. This
Contract and all disputes arising under this Contract
shall be governed, interpreted, construed and determined in accordance with the laws of the Commonwealth of Pennsylvania, without giving effect to principles of Pennsylvania law concerning conflicts of laws.
16.2 Amendments; Waiver. Except as provided in Section 6.9 (Maximum Daily Rate, Days of Care or Units
of Service) above, this Contract may not be amended,
supplemented, altered, modified or waived, in whole or
in part, except by a written Amendment signed by the
Parties. Except to the extent that the Parties may
have othe1wise agreed in writing in an Amendment,

JA 677
no waiver, whether express or implied, by either Party
of any provision of this Contract shall be deemed: (a)
lo be a waiver by that Party of any other provision in
this Contract; (b) to be a waiver by that Party of any
breach by the other Party of its obligations under this
Contract; or (c) a course of conduct, dealing or performance with respect to any other matter arising hereunder. Any forbearance by a Party in seeking a remedy for any noncompliance or breach by the other
Party shall not be deemed to be a waiver of rights and
remedies with respect to such noncompliance or
breach.
16.3 Integration. The Contract Documents forming
this Contract, including the Provider Agreement and
the General Provisions and the exhibits incorporated
by reference therein, contain all the terms and conditions agreed upon by the Parties, constitute the entire
agreement among the Parties pertaining to the subject
matter hereof, and supersede all prior agreements, understandings, negotiations and discussions, whether
oral or written, of the Parties (except to the extent specifically set forth herein). No other prior or contemporaneous agreements, covenants, representations or
warranties, oral or otherwise, regarding the subject
matter of this Contract shall be deemed to exist or to
bind any Party or to vary any of the terms contained
in this Contract.
16.4 No Joint Venture. The Parties do not intend to
create, and nothing contained in this Contract shall be
construed as creating, a joint venture arrangement or
partnership between the City and Provider with respect to the Services or the Materials.
16.5 No Third Party Beneficiaries. Nothing in this
Contract, express or implied, is intended or shall be

JA 678
construed to confer upon or give to any Person, other
than the Parties, any rights, remedies1 or other benefits, including but not limited to third-party beneficiary rights, under or by reason of this Contract. This
Contract shall not provide any third party with any
remedy, claim, liability, reimbursement, cause of action or other right other than any such remedy, claim,
etc. existing without reference to the term of or the existence of this Contract.
[Appx. 1130]
16.6 Counterparts. This Contract may be executed in
one or more counterparts, each of which shall be
deemed an original but all of which, taken together,
shall constitute one and the same instrument.
16.7 Severability and Partial Invalidity. The provisions of this Contract shall be severable. If any provision of this Contract or the application thereof for any
reason or in any circumstance shall to any extent be
held to be invalid or unenforceable, the remaining provisions of this Contract and the application of such
provision to Persons, or circumstances, other than
those as to which it is held invalid or unenforceable,
shall not be affected thereby, and each provision of this
Contract shall be valid and enforceable to the fullest
extent permitted by law.
16.8 Survival. Any and all provisions set forth in this
Contract which, by its or their nature, would reasonably be expected to be performed after the termination
of this Contract or are expressly stated as surviving or
intended to survive, shall survive and be enforceable
after such termination. Any and all liabilities, actual
or contingent, which have arisen in connection with
this Contract shall survive the expiration or earlier

JA 679
termination of this Contract, including without limitation: Provider’s representations, warranties and covenants set forth in Article IV (Provider’s Representations and Covenants) above; Provider’s obligation to
indemnify, defend and hold harmless the City, its officers, employees and agents as set forth in Section 9.2
(Indemnification) above; and the Parties’ rights and
obligations set forth in Article XI (Ownership of Materials; Proprietary Information; Confidentiality) above.
16.9 Determination of Disputes. Any dispute arising
between the City and Provider under or with respect
to either Party’s covenants, obligations, powers, rights
or duties under this Contract shall be submitted to and
decided by the Commissioner or his or her designee.
The Commissioner or his or her designee shall render
and reduce to writing his or her decision, and furnish
a copy to Provider by notice under this Contract. In
connection with any dispute under this Contract, the
Commissioner shall offer Provider an opportunity to
offer evidence in support of its position concerning the
subject matter of the dispute. This Section shall not be
construed to limit the benefit to the City of Articles XII
(Events of Default) or XIII (Remedies) above.
16.10 Interpretation; Order of Precedence. In the
event of a conflict or inconsistency between the terms
of the Contract Documents, the terms of the General
Provisions shall govern, followed by the terms of the
Provider Agreement, and lastly by any exhibit, attachment, or other document incorporated by reference
into the Contract. The foregoing notwithstanding, the
Provider Agreement may expressly supersede, create
exception to, or otherwise modify the General Provisions by specific reference thereto in a section of the

JA 680
Provider Agreement created and labeled for such purpose.
16.11 Headings. The titles, captions or headings of Articles, Sections and Exhibits or schedules in this Contract are inserted for convenience of reference only; do
not [Appx. 1131] in any way define, limit, describe or
amplify the provisions of this Contract or the scope or
intent of the provisions, and are not a part of this Contract.
16.12 Statutory and other Citations. All statutory or
other citations of law referenced in the Contract shall
refer to the statute referenced, as it may be amended
or superseded from time to time.
16.13 Days. Any references to a number of days in this
Contract shall mean calendar days unless this Contract specifies business days.
16.14 Forum Selection Clause; Consent to Jurisdiction. The Parties irrevocably consent and agree that
any lawsuit, action, claim, or legal proceeding involving, directly or indirectly, any matter arising out of or
related to this Contract, or the relationship created or
evidenced thereby, shall be brought exclusively in the
United States District Court for the Eastern District
of Pennsylvania or the Court of Common Pleas of Philadelphia County. It is the express intent of the Parties
that jurisdiction over any lawsuit, action, claim, or· legal proceeding shall lie exclusively in either of these
two (2) forums. The Parties further irrevocably consent and agree not to raise any objection to any lawsuit, action, claim, or legal proceeding which is
brought in either of these two (2) forums on grounds of
venue or forum non conveniens, and the Parties expressly consent to the jurisdiction and venue of these

JA 681
two (2) forums. The Parties further agree that service
of original process in any such lawsuit, action, claim,
or legal proceeding may be duly effected by mailing a
copy thereof, by certified mail, postage prepaid to the
addresses specified in Section 5.1 Notice of the Provider Agreement.
16.15 Waiver of Jury Trial. Provider hereby waives
trial by jury in any legal proceeding in which the City
is a party and which involves, directly or indirectly,
any matter (whether sounding in tort, contract or otherwise) in any way arising out of or related to this Contract or the relationship created or evidenced hereby.
This provision is a material consideration upon which
the City relied in entering into this Contract.
16.16 Notices. All notices, demands, requests, waivers,
consents, approvals or other communications which
are required or may be given under this Contract shall
be in writing and shall be deemed to have been duly
made (a) on the date received or refused if delivered by
hand with receipt given or refused; (b) on the next
business day if delivered by a nationally recognized
overnight courier service (e.g., Federal Express or
United Parcel Service); (c) on the date confirmed for
receipt by facsimile if delivered by facsimile; (d) on the
date of receipt or refusal of delivery if sent by certified
or registered United States mail, return receipt requested; or (e) on the date confirmed for receipt by
electronic mail if delivered by electronic mail. In each
case notices shall be sent to the addresses set forth in
Section 5.1 of the Provider Agreement, or to such other
address as either Party may specify to the other by a
notice complying with the terms of this Section 16.16.
[Appx. 1132]

JA 682
16.17 E-signatures. DHS is increasing its administrative efficiency through the use of electronic signature
technology.
(a) Technology Changes. As updates become necessary, the Department will continue to notify providers
of technology requirement changes through the use of
the Department Extranet and/or any other established
means of communication identified by the Department.
(b) Electronic Submissions. Submission of electronic
invoices and documents shall be considered binding
and have the full and same effect as a signed paper
submission. By submitting an invoice or document
electronically Provider certifies that the information
in that invoice or document is true and correct to the
best of Provider’s knowledge, information, and belief,
and that the submission constitutes Provider’s signature and certification as if it were physically written.
(c) Breach. Failure to comply with any DHS e-signature technology requirements (including, but not limited to the use of www.phila.gov/contracts and eContract Philly) may result in a financial penalty and/or a
finding that an Event of Default has occurred.

JA 683
[Appx. 1152]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
SHARONELL FULTON,
CECELIA PAUL, TONI
LYNN SIMMS-BUSCH,
and CATHOLIC SOCIAL SERVICES,
Plaintiffs,
vs.
CITY OF PHILADELPHIA, DEPARTMENT
OF HUMAN SERVICES
FOR THE CITY OF
PHILADELPHIA, and
PHILADELPHIA COMMISSION ON HUMAN
RELATIONS,

Civil Action
No. 18-CV-2075

Defendants.
DECLARATION OF CYNTHIA F. FIGUEROA
I, Cynthia F. Figueroa, declare as follows:
1. I am the Commissioner of the Department of Human Services (“DHS”) for the City of Philadelphia. I
was appointed to this position in July 2016, effective
September 2016.
2. Prior to being appointed Commissioner, I was the
Chief Executive Officer of Congreso de Latinos Unidos,

JA 684
a nonprofit focused on strengthening Latino communities through social, economic, education and health
services.
3. From 2008 to 2011, I served as Deputy Commissioner for DHS and was responsible for the oversight
of what was then known as the Division of Community
Based Prevention Services. In that role, I oversaw all
child welfare prevention services delivered by community based providers including development of the Education Support Center.
[Appx. 1153]
4. Prior to that, I was the Executive Director of Women
Against Abuse, a nonprofit organization in Philadelphia that advocates against domestic violence and provides services to victims.
5. As the Commissioner of DHS, I supervise one of the
largest child welfare agencies in the country. In my
role, I serve as the County Administrator to deliver our
Federal and State mandated child welfare service for
Philadelphia. I have direct oversight of 1500 employees, a budget of over $600 million, and approximately
250 contractors. In this capacity, I am familiar with
the Department’s operations, policies, procedures, and
contracts, including the practices that are the subject
of this action.
6. The City of Philadelphia Department of Human Services is committed to providing and promoting safety,
permanency, and well-being for children and youth at
risk of abuse, neglect and delinquency.
7. DHS operates Philadelphia’s child abuse hotline
and investigates allegations of child abuse and neglect. To find placements for children who are not safe

JA 685
in their own homes, DHS contracts with state-licensed
foster care agencies who recruit, certify, and service
foster homes for these children. The goal of foster care
is to reunite children with their families. DHS also
manages Community Umbrella Agencies (CUAs), six
private organizations that provide case management
and other support services in 10 geographic regions
throughout Philadelphia. CUAs serve children and
families whose cases are accepted for service.
8. While agencies work with specific foster families to
provide training and support, a CUA case manager coordinates the relationship between the foster family,
the child, and the child’s biological family with the goal
of reunification.
[Appx. 1154]
9. The Archdiocese of Philadelphia operates a CUA
and a foster care agency which is Catholic Social Services. Recently, the City began ranking CUAs. Catholic CUA was ranked second out of ten geographic regions. DHS does not currently rank foster care agencies and has not ranked Catholic Social Services in the
last several years.
10. Currently, approximately 6,000 children in DHS’s
custody are in out-of-home placement. Approximately
86% of those are in family foster care and approximately 12% are in congregate care (i.e., group homes).
11. Approximately 54% of the children in family foster
care are in kinship care, which is foster care with a
relative or someone who has a significant relationship
to the child. Approximately 45% are with families who
have been certified as foster parents and who do not
have a kinship relationship to the child.

JA 686
12. In Fiscal Year ‘17, DHS reunified 1250 children
with their families, finalized 636 adoptions and finalized 138 permanent legal custodianships.
DHS’ Recruitment Drive
13. Recruitment and certification of new families are
essential and integral parts of the work of the City’s
foster care agencies.
14. Each of the City’s contracts includes these responsibilities.
15. Because it has the ultimate responsibility of children in its legal custody, DHS is always trying to identify new, qualified foster parents, including through
its own recruitment efforts.
16. For example, this year DHS issued an “urgent call”
to recruit new foster parents. DHS did this in order to
build additional capacity into the system.
[Appx. 1155]
17. As part of this effort, DHS was trying to specifically
recruit more families to serve children with special
needs, older children, children with specialized behavioral health needs, and lesbian, gay, bisexual,
transgender, and questioning (LGBTQ) youth, based
in part on reports DHS received from LGBTQ youth
who had negative experiences in homes that did not
support them.
18. In addition, DHS’ “urgent call” sought to recruit
new foster parents to reduce the number of children in
congregate care, and in particular, the number of older
children in such care. DHS’ experience is that there is
a greater proportional number of LGBTQ youth in the
population of older foster children. This also factored
into DHS’ recruitment efforts.

JA 687
19. This “urgent call”, however, does not indicate that
there is a “crisis” in identifying new homes. Nor does
the fact that City seeks to expand its foster care resources indicate that there are not enough foster
homes available. At any given time, there are certified
foster parents associated with one of the City’s foster
care agencies who are willing to care for a new child in
their home. These households may be awaiting a
placement or have exercised their discretion not to
take a child due to their own preferences and willingness to accept certain children due to the child’s age or
the needs of the child.
20. As a result of this recruitment effort, since January
75 new families have been certified.
21. On occasion, and usually for a short period of time,
there are children who the City is unable to immediately place with a foster family or in congregate care.
There can be many reasons for this, including that on
occasion a child comes into the City’s custody in the
middle of the night.
[Appx. 1156]
22. The City’s data regarding the placement of foster
children reflects that over the past year, the congregate care rate has remained the same.
Closure of CSS Intake
23. On March 9, 2018, DHS was asked by a reporter
for the Philadelphia Inquirer whether DHS was aware
of any organizations discriminating against same sex
couples. At that time, DHS was not aware of any such
discrimination, but the reporter disclosed that a samesex couple said they had been turned away by another
foster care agency, Bethany Christian Services. The

JA 688
reporter indicated they reached out to CSS and were
awaiting a comment.
24. DHS First Deputy Commissioner Jessica Shapiro
and I then contacted CSS to determine whether the
statements in the article were accurate. Jim Amato of
CSS confirmed the CSS would not certify same-sex
couples as foster homes or for adoptions.
25. On March 13, 2018, the Philadelphia Inquirer published a story titled “Two foster agencies in Philly
won’t place kids with LGBTQ people.” According to the
article, neither Bethany nor CSS would place children
with LGBTQ couples. A copy of the story is attached
here as Exhibit 2-B.
26. In the past, as DHS Commissioner, I have had to
suspend referrals and close intake at agencies for a variety of programmatic and administrative reasons.
27. On or about March 14, 2018, I determined that
Bethany and CSS’s public position raised a concern
that it would discriminate against same-sex couples in
violation of their contract with the City and the City’s
Fair Practices Ordinance.
[Appx. 1157]
28. I determined that DHS would suspend referrals
and close intake at both agencies as long as they refused to certify qualified same-sex foster parents. I did
this because CSS told us it could not comply with its
contract.
29. In making this decision, I determined based on my
professional experience that DHS would continue to be
able place children in appropriate family foster homes.
It is important to note that roughly half of family foster home placements are kinship care, which do not

JA 689
strain existing foster care capacity. I also knew that
there were currently a number of foster families’
homes with other agencies willing to accept new foster
children and anticipated that our recruitment drive
would bring additional families into the system. And
since then we have been able to certify 75 new families.
30. In addition, as CSS had communicated that it
could not comply with the contract with the City and
the City’s Fair Practices Ordinance, I had to also consider the best interest of any children who might be
placed with CSS in the future.
31. I was concerned that because CSS was in breach of
the contract, placing additional children with them-except on an individual, case by case basis-would not be
in those children’s best interest because of the risk of
disruption related to CSS’ no longer being a foster care
agency for the City.
32. The following day, March 15, 2018, First Deputy
Commissioner Shapiro, Kimberly Ali, and I met with
representatives of Bethany and CSS. Following the
meeting with CSS, Deputy Commissioner of Child
Welfare Operations Kimberly Ali called CSS to inform
them that DHS was suspending referrals and closing
their foster home intake.
33. Following this call, Jim Amato of CSS contacted
leadership at DHS to request waivers related to specific children.
[Appx. 1158]
34. Since March 15, 2018, there have been at least two
instances where CSS has requested waivers by contacting me to request those waivers. Kimberly Ali

JA 690
worked with CSS in both cases and the waivers were
granted.
35. The closure of intake to CSS has had minimal impact on DHS operations. The percentage of children
placed in congregate care (as opposed to family foster
care) has remained consistent since the closure. Similarly, the number of childcare room overnight stays
has actually decreased slightly from nine to eight per
month since the closure.
36. I decided on this course of action with CSS with the
consideration of arranging an interim contract that
would permit CSS to continue to provide services to
foster children and families it already had in its care.
I continue to believe such an interim agreement is in
the best interest of those foster children, however I
also continue to believe that permitting CSS to continue to referrals and performing foster home intake
services is not in the best interest of children.
Bethany
37. Since suspending referrals to Bethany, the City
has been in discussions with Bethany to resolve the
dispute.
38. While the City and Bethany are still negotiating a
contract for the next fiscal year, the parties are close
to a resolution and Bethany has agreed in principle to
comply with the Fair Practices Ordinance and to institute a nondiscrimination policy.
39. I fully expect Bethany to enter into a full contract
with the City for next fiscal year and that DHS will
resume referrals and reopen intake at Bethany.
[Appx. 1159]

JA 691
I declare under penalty of perjury, pursuant to 28
U.S.C. § 1746, that the foregoing is true and correct,
based upon my own knowledge and/or belief.
DATE: June 12, 2018
/s/Cynthia F. Figueroa
Cynthia F. Figueroa

JA 692
[Appx. 1160]
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF PENNSYLVANIA
SHARONELL FULTON,
CECELIA PAUL, TONI
LYNN SIMMS-BUSCH,
and CATHOLIC SOCIAL SERVICES,
Plaintiffs,
v.
CITY OF PHILADELPHIA, DEPARTMENT
OF HUMAN SERVICES
FOR THE CITY OF
PHILADELPHIA, and
PHILADELPHIA COMMISSION ON HUMAN
RELATIONS,

Civil Action
No. 18-CV-2075

Defendants.
DECLARATION OF KIMBERLY ALI
I, Kimberly Ali, declare the following:
1. I am employed by the City of Philadelphia, Department of Human Services (“DHS”) as the Deputy Commissioner of Child Welfare Operations. I was appointed to this position in October 2016. I report directly to DHS Commissioner Cynthia F. Figueroa.
2. I have worked for the City of Philadelphia since January 2000, when I joined the Department of Human
Services as a Social Worker. I held that position until

JA 693
February 2002, when I became a Social Work Supervisor. I held that position until December 2006, when I
was promoted to be a Human Services Program Administrator. In that role, among many other responsibilities, I provided oversight and monitored level of
care [Appx. 1161] decisions for the identification and
completion of referrals for in home and placement services.
3. I held that position until May 2009, when I was promoted to be a Human Services Staff Services Director
of Provider Relations and Evaluation of Programs. In
that role, among many other responsibilities, I managed 25 program analyst staff, responsible for monitoring and evaluating a total of 400 child welfare, delinquent, and prevention contracts to ensure quality
services to children, youth, and families.
4. I held that position until October 2010, when I became DHS’s Operations Director. In that role, I managed and coordinated the daily operations of DHS including its hotline, investigations, and ongoing provision of services to families.
5. I held that role until November 2014, when I was
promoted to become the Chief Implementation Officer
for Improving Outcomes to Children, a large-scale system transformation into a community based service
delivery model, which involved the safe transfer of
families from DHS to Community Umbrella Agencies
(CUAs). I also created a structured Level Of Care Instrument that determines the least restrictive placement setting for children and youth. I held that role
until October 2016 when I was promoted to be the Deputy Commissioner of Child Welfare Operations.

JA 694
6. As the Deputy Commissioner of Child Welfare Operations, in addition to other duties, I supervise and
support the Child Welfare Operations at DHS, one of
the largest child welfare agencies in the country. In my
role, I assist Commissioner Figueroa and the Department in achieving our goals, overseeing day-to-day operations, systemic issues, and future planning and initiatives. In this capacity, I am familiar with the Department’s [Appx. 1162] operations, policies, and procedures, including the practices that are the subject of
this action.
7. The City of Philadelphia Department of Human Services is committed to providing and promoting safety,
permanency, and well-being for children and youth at
risk of abuse, neglect and delinquency.
Foster Care in Pennsylvania
8. State law requires county children and youth agencies like DHS to develop a plan for the provision of protective services for children, and to provide or purchase those services, including the provision of foster
care services for children placed in its care.
9. For at least 20 years, Philadelphia has used private
agencies to provide services to children and families
involved with DHS.
10. DHS values the expertise of private agencies that
provide foster care services, and which are frequently
located in communities close to homes of origin of children and families needing services.
11. There are 30 foster care agencies in Philadelphia.
12. 51 % of children living in family foster care live
within 5 miles of their home of origin, and 76% live
within 10 miles.

JA 695
13. The Pennsylvania Department of Human Services
licenses foster care agencies. State law and regulations establish the criteria for the certification of prospective foster parents (“resource parents”). These criteria include a DHS history screening and criminal
and child abuse history screenings, with limits of certification of individuals with a history of certain prohibited offenses and child abuse history in some circumstances.
[Appx. 1163]
14. Agencies are also required to evaluate a prospective resource parent’s ability to provide care, nurturing, and supervision to children, their supportive community ties, the household composition, their ability
to work with a child with special needs, and their financial stability.
15. Foster care agencies are required to register all resource parent applicants on a state “resource family
registry.”
16. If a resource parent meets the criteria, a foster care
agency must certify the applicant.
17. Even once a foster care agency certifies a resource
parent, pursuant to its contract with foster care agencies, DHS can determine that it does not want Philadelphia children placed in that home, such as when
there are concerns about the resource parent’s prior or
current involvement with DHS.
DHS Custody and Placement Process
18. DHS runs a hotline for reports of alleged child
abuse or neglect. DHS also receives reports from a
state-run hotline and online portal. If the report contains factual allegations that would constitute child

JA 696
abuse or neglect, the report is accepted for investigation and DHS conducts a safety assessment of the situation/child’s environment to determine if a safety
threat to a child exists. If the safety threat rises to the
level of present danger and the child is deemed unsafe,
DHS obtains a court order to remove the child from
their home and to place the child in foster care.
19. If a child is removed, there will be a hearing at
Family Court within 72 hours, at which time the court
will determine if the initial removal was appropriate,
and if so, it may commit the child to the legal custody
of DHS if circumstances have not changed.
[Appx. 1164]
20. Each child in the legal custody of DHS, as well as
those who are receiving in home services, receives case
management services. These services are provided by
one of six private Community Umbrella Agencies
(CUAs) with whom DHS contracts. Each CUA provides services in one of 10 geographic regions of Philadelphia.
21. Because DHS is committed to providing services to
children and families in their communities, once it is
determined that a family needs services, families are
assigned to a CUA automatically via an electronic system based on the family’s geographic region, with
some rare exceptions.
22. Each child serviced by a CUA has a case manager
at that CUA. The case manager’s responsibilities include assessing the child’s safety through visitation,
completing a case plan for the child’s needs, ensuring
the child receives all behavioral health, medical, and
educational services for the duration of the case and
intervening when necessary.

JA 697
23. Each CUA case manager has a supervisor, who is
supervised by the CUA case management director.
DHS provides a practice coach on site to provide technical assistance and learning support to the CU As,
and these staff are further supervised by other DHS
staff. In addition, DHS has an Operations Director,
Staci Boyd, who oversees all of the CUAs. Ms. Boyd
reports directly to me.
24. With regard to identifying a placement, DHS will
first ask the family to identify kin, i.e. family members
or other people with close relationships with the family who can care for the child. If kin are identified,
DHS performs preliminary child abuse and criminal
clearances, DHS history clearance, home assessment,
and if appropriate will place the child in the home of
kin, and identify a foster care agency to certify the kinship home as a foster care home.
[Appx. 1165]
25. When kin cannot be identified, the worker submits
the referral to the Central Referral Unit (CRU), which
is managed by DHS. CRU consults with a nonprofit
entity called Community Behavioral Health (CBH),
and identifies the correct level of placement and seeks
to identify an appropriate placement provider. There
are different types of placements, depending on the
needs of the child and the level of care needed. Placement providers include but are not limited to: family
foster care homes, congregate care facilities (i.e. group
homes and institutions), and residential treatment facilities.
26. Once DHS determines the level of care a child
needs, it sends a referral to all agencies providing that
level of care. Agencies with a potential foster home will

JA 698
relay this information to the CRU, who will provide
the information to the CUA. The CUA and the agency
then negotiate a placement date. If there are multiple
potential foster homes, the CRU chooses which one
meets the child’s best interest.
Transferring Foster Care Agencies
27. While many resource parents stay with a single
agency, some families change agencies either due to
dissatisfaction with the agency or because their foster
child has a need that is higher than the original agency
can serve, such as a child with a behavioral issue that
requires additional expertise better provided by another agency.
28. In these instances, the assigned worker at the CUA
would make a referral to DHS’s Central Referral Unit,
stating that the entire foster home wants to transfer
to another provider agency. Often times, the foster
parent selects a new foster care provider agency from
the list of Philadelphia foster care agencies. When a
transfer occurs, DHS arranges for the previous agency
to send over the foster care and child’s files to the new
agency.
[Appx. 1166]
29. The new agency begins to serve the family as soon
as it receives the referral. The new agency needs to
complete its own certification process of the foster
home within 60 days of receiving the referral, but the
child remains in the same foster home throughout the
process so that the transfer is seamless.
30. As noted above, children are placed in different levels of foster care based on the child’s needs: general,

JA 699
specialized behavioral health, or medical. The majority of placements are for permanent foster care placement because of need to stabilize the child.
31. However, a child can be placed in respite foster
care, which is a short-term, temporary placement,
when, for example, the foster parent is travelling and
cannot bring the foster child or when there is a medical
issue with the foster parent, they need a break, or if
there is a report of child abuse or neglect in the foster
home.
32. Foster care agencies and CUAs generally do not
make referrals to other agencies; the referrals must be
made through DHS’s CRU. The only referrals that
agencies may make are to another home within their
agency, such as for respite care. Under their contract
with DHS, they are required to identify respite homes.
If they are unable to do so, the referral for another
home goes back to CRU.
33. There have been numerous times when DHS’ CRU,
at the direction of the DHS Commissioner, has stopped
referring children to a particular agency, either on a
temporary basis due to concerns about a particular
agency, or on a permanent basis when the agency
stops providing services of its own volition or when
DHS terminates the contract.
[Appx. 1167]
34. For instance, in March 2016 when Lutheran Children and Family Service of Eastern Pennsylvania decided to stop providing foster care services, there were
over 100 children involved who were transitioned to
other foster care agencies over a three month period.

JA 700
35. In that instance, DHS and Lutheran leadership
met with all of the foster parents to whom Lutheran
provided services. DHS leadership made themselves
available and explained to the families that the goal
was to keep children in the same home and not disrupt
the children in their care. Some families had a particular agency in mind that they were willing to transfer
to. For those who didn’t have an agency in mind, DHS
provided a list of family foster care agencies and then
followed up to ensure each family selected one. Lutheran, the sending agency, prepared a foster parent
file as well as a child file, and then provided them to
the receiving agency.
36. This whole process was managed through CRU
along with the CUAs, who, at that time, made some
direct referrals to other agencies. No significant issues
arose during this process as families were allowed to
select the agency that they wanted to transition to. In
many instances, DHS was able to look to the date the
child was scheduled to be reunified with their family
or adopted (called the permanency date) and if possible, expedite that process so that the child would not
need to be placed with a second agency at all.
Referral Suspension Waivers
37. When referrals to agencies have been temporarily
suspended, CUAs and agencies, including the senior
leadership of Catholic Social Services (CSS) and Catholic CUA, have reached out to senior DHS leadership
to request waivers.
38. Since DHS suspended referrals to CSS, there have
been four requests for waivers, including Doe Foster
Child #1, discussed below. We have approved a waiver

JA 701
in each [Appx. 1168] instance based on communications from James Amato, the Secretary of CSS, and
others at CSS. Except in these four instances, I have
not been contacted by James Amato, James Black, or
anyone else from CSS regarding waiver requests for
children who have been referred to non-CSS placements when a CSS family was in the best interest of
the child. However, even when DHS leadership grants
a waiver, a family court order is necessary to effectuate the placement unless it is an emergency.
Foster Child #1 and His History with DHS
[REDACTED]

[Appx. 1169]
[REDACTED]

JA 702
[Appx. 1170]
[REDACTED]

[Appx. 1171]
[REDACTED]

63. Although referrals had been halted to CSS due to
its stated refusal to certify prospective LGBTQ foster
families, as noted by the above texts, its leadership
was well aware that I could make exceptions to this,

JA 703
and they had contacted me on approximately three
other occasions to do so. Each time, I granted the exception.
64. Where a court ordered the move, that was due to
the fact that the case was already being heard on that
date.
[Appx. 1172]
65. I have reviewed James Amato’ s statement that
there are “multiple additional children who have been
referred elsewhere when CSS families should have
been the preferred placement for those children as a
result of the City’s freeze on referrals to CSS.” Pltfs.
Ex. 1 ¶16. I am not aware of any additional cases
where placement with CSS would have been in the
best interests of a child but where the child was not
moved to one of their homes.
66. As DHS’s Deputy Commissioner of Child Welfare
Operations, I can unequivocally state that DHS is
committed to finding the best placement for children
that can meet all of their needs, even if that placement
is with CSS.
[Appx. 1173]
I have read the foregoing and declare, under penalty
of perjury, that the facts recited are true and corrected,
based upon my own knowledge and/or belief.
DATE: June 12, 2018

/s/ Kimberly Ali
Kimberly Ali

[Appx. 1175]

JA 704

From: Jonathan Janiszewski
[mailto:Jonathan.Janiszewski@Phila.gov]
Sent: Tuesday, June 5, 2018 12:13 PM
To: Lori Windham <lwindham@becketlaw.org>
Subject: Catholic Social Services ‐ DHS Continuing
Contract Relations
Dear Ms. Windham:

I am the attorney currently serving as head of the City
of Philadelphia Law Department’s Finance and
Contracts Division. I represent the City of
Philadelphia and, in this instance, its Department of
Human Services (“DHS”), in business dealings. I
understand from my colleague, Benjamin Field, that
you have requested any communications from DHS
and related to Catholic Social Services (“CSS”) flow
through you. Consequently, I have copied a message
for your client, Mr. Amato, below. Please forward it to
him for his urgent review. The message pertains to the
maintenance of on‐going services for children in the
custody of DHS and in the care of CSS.
I look forward to working with you and appreciate
your assistance.
Begin Forwarded Message
Dear Mr. Amato:
Throughout our respective histories, Catholic Social
Services (“CSS”) and the City of Philadelphia
Department of Human Services (“DHS”) have always
agreed on one thing: we are here to nurture, guide, and
protect the children and families we serve. Although
recent circumstances have highlighted differences in

JA 705
our respective philosophies regarding certification of
same‐sex foster and adoptive parents, and while DHS
makes no concession regarding its position in that
matter, I write to you in our mutual spirit of service to
propose interim measures that will enable CSS and
DHS to ensure that no child or family suffers while we
resolve our differences.
The City’s fiscal year 2018 closes on June 30, 2018 and
the current contract between CSS and DHS then
comes to its natural end. However, when the current
contract ends, CSS will still have in its care children
placed in the custody of DHS. In order to minimize
disruption for those children and families, DHS is
prepared to offer CSS a new one‐year contract to
continue its work on behalf of these children and
families. The new contract would: 1) acknowledge our
current dispute; 2) enable DHS to continue payment of
CSS for the administration and maintenance of
existing foster homes where children in DHS’s care
reside; 3) allow for referrals of new child foster care
placements in limited circumstances where a CSS
placement is in the best interests of the child, such as
when a child shares a prior relationship with the foster
or pre‐adoptive parents, or when siblings should be
placed together; and 4) provide time for the orderly
transition of services, should that become necessary.
Please know that DHS values its historic relationship
with CSS, and if CSS is able to find a way to approve
same‐sex foster and adoptive parents, consistent with
current law and city policy, DHS would offer CSS a
new contract that allows CSS to continue to select and
recruit new foster parents, and to continue to receive
new referrals. However, if CSS is unable to do so, DHS
still intends to send you an official award letter to

JA 706
prepare for a new contract under the terms described
above. You should anticipate receiving DHS’s official
award letter later this week. Please contact me if you
wish to discuss the matter.
Thank you for your commitment to service, and your
understanding.
Sincerely,
Jon
[Appx. 1176]
Jonathan R. Janiszewski, Esq.
Divisional Deputy City Solicitor
Finance & Contracts Division
Commercial Law Unit
City of Philadelphia Law Department
One Parkway Building
1515 Arch Street, 17th Floor
Philadelphia, PA 19102
Phone: (215) 683‐5035
Fax: (215) 683‐5069

[Appx. 1177]

JA 707

City of Philadelphia
Department of Human
1515 Arch Street, Ph1ladelph1a PA 19102
215-683-4DHS (4347)
Commissioner
Cynthia F. Figueroa
First Deputy Commissioner
Jessica S. Shapiro
Deputy Commissioners
Child Welfare Operations
Kimberly Ali
Finance
Christopher Simi
Juvenile Justice Services
Timene Farlow
Administration and Management
Vongvilay Mounelasy
Performance Management and Technology
Liza Rodriguez
Prevention
Waleska Maldonado
June 11, 2018
James Amato, Secretary, Catholic Human Services
Catholic Social Services, Archdiocese of Philadelphia
222 North 17th Street, Room 328
Philadelphia. PA 19103
Re: FY 2019 Award Letter (290) PA
Child Welfare Operations
Placement Services (Foster/Kinship Care),
$2,400,000.00
Dear Secretary:

JA 708
This letter is to provide you with information on the
City of Philadelphia Department of Human Services’
(hereinafter referred to as “OHS” or “Department”)
contract process for Fiscal Year 2019 beginning on
July 1, 2018. The funding levels referenced above
reflect the Department’s budget constraints and
priorities.
Consistent with the City’s policy of nondiscrimination and its prior notices to you to the same
effect, the scope of the FY 19 contract will change.
DHS will continue to make payment to CSS for the
administration and maintenance of existing foster
homes where children in DHS’s care reside.
Additionally, the FY 19 contract will allow for
referrals of new child foster care placements only in
limited authorized circumstances where a CSS
placement is in the best interests of the child, such as
when a child shares a prior relationship with the foster
or pre-adoptive parents, or when siblings should be
placed together.
The new contract will also provide time for the
orderly transition of services, should that become
necessary. The contract amount has been adjusted to
reflect the volume of services projected under the new
scope of the contract.
However, please be advised that the authorized
levels of service and the continued funding of contracts
is contingent upon the availability of proposed City,
State and Federal funds and this award letter does
not guarantee your agency a contract with DHS.
Starting in FY2019, all Foster Care/Kinship Care
services rate sheets will have a different look. The new
rate sheet will separate all Foster Care/Kinship Care

JA 709
service rates into maintenance and administrative
costs for your reference. Please note that these rates
are subject to change.
Please be advised that DHS is not obligated to
make any payment to your agency until after the
execution and conformance of a formal written
contract, containing such terms and conditions as are
satisfactory to DHS; and provided that your agency
has satisfied any conditions precedent to the start of
work (e.g. insurance certificates or licenses) as
required by the contract. Please review this letter and
its attachments thoroughly as some of the information
requested will be used to develop your agency’s
contract. If you have any questions about the content
of this letter or its attachments, please contact your
contract Conformance Manager. To obtain your
Conformance Manager’s contact information, you may
call the Director of Contracts & Audit, Robert Hodge,
at (215) 683-4200. Please email any questions to
dhscontracts@phila.gov.
[Appx. 1178]
On behalf of the Department and the children and
families we serve, I would like to express our thanks
and appreciation for your commitment to provide high
quality and effective services to Philadelphia’s
children and families. During this changing and
challenging time the strength of the public/private
partnership is critical as we work together toward the
common goal of ensuring the overall safety and wellbeing of children and families in our City.

Sincerely,
/s/ Cynthia F. Figueroa
Cynthia F. Figueroa
Commissioner

JA 710

cc: Lori Windham, Esquire
Jonathan Janiszewski, Esquire
Kimberly Ali, Deputy Commissioner
Robert Hodge, Director of Contracts and Audit
Rita Cairy, Contracts Administrator

[Appx. 1184]

JA 711

City of Philadelphia
Law Department
One Parkway
1515 Arch Street
Philadelphia, PA 19102-1595
Marcel S. Pratt
City Solicitor
Eleanor N. Ewing
Chief Deputy City Solicitor
Affirmative & General
Litigation Unit
215-683-5012
215-683-5069 (fax)
eleanor.ewing@phila.gov
June 21, 2018
BY HAND DELIVERY AND ECF
The Honorable Petrese B. Tucker
United States District Court for the
Eastern District of Pennsylvania
James A. Byrne U.S. Courthouse
601 Market Street
Philadelphia, PA 10106
RE: Fulton et al. v. City of Philadelphia et al., 18-CV2075
Dear Judge Tucker:
The City submits this letter as supplemental
briefing based on new evidence adduced at the
evidentiary hearing on Plaintiffs’ Motion for a
Temporary Restraining Order or Preliminary
Injunction. This new evidence, adduced from CSS
itself, indicates that CSS is engaging in additional

JA 712
conduct that violates the Establishment Clause, as
well as violating contractual and legal guarantees that
CSS will not discriminate on the basis of religion. As
noted in our summation, this new evidence indicates
that if the Court orders relief compelling the City to
enter into a full contract with CSS, such relief would
be problematic.
James Amato testified that CSS requires a
“pastoral reference” from all prospective foster
parents, and that CSS will not certify a prospective
foster parent (or parents) without that pastoral
reference. Mr. Amato testified that the pastoral
reference letter does not have to be a letter from the
Catholic priest or parish, but that the pastoral
reference must show that the prospective foster parent
engages in “active participation” in any faith.
A requirement that a prospective foster parent be
an active participant in a faith community violates
both the Establishment Clause as well as CSS’
contractual and legal guarantees that it will not
discriminate on the basis of religion. The Supreme
Court has “repeatedly reaffirmed that neither a State
nor the Federal Government “can constitutionally
pass laws or impose requirements which aid all
religions as against non-believers, and neither can aid
those religions based on a belief in the existence of God
as against those religions founded on different beliefs.”
Torcaso v. Watkins, 367 U.S. 488, 495 (1961) (footnote
omitted); see also [Appx. 1185] McCreary County v.
ACLU, 545 U.S. 844, 860 (2005) (holding that
Establishment
Clause’s
prohibition
upon
governmental endorsement of religion requires that
government maintain its neutrality both “between
religion and religion, and between religion and

JA 713
nonreligion” such that Ten Commandments display on
government property violated Establishment Clause
because its purpose was to advance religion).
In Torcaso, the Supreme Court invalidated
Maryland’s requirement that individuals who seek to
become notaries public must affirm they believe in
God. The Court held that religious tests or
requirements violate the Establishment Clause. Id.
CSS’ requirement of a pastoral reference letter here is
no different. If prospective foster parents cannot
provide evidence that they are members in good
standing of a faith community, CSS refuses to certify
them as a foster parents. Therefore, the pastoral
reference requirement amounts to a religious test for
prospective foster parents.
Even assuming CSS is a private actor, CSS cannot
use its taxpayer-funded contract to provide City social
services to run a program that expresses a clear
preference for religion in this manner. See Larkin v.
Grendel’s Den, Inc., 459 U.S. 116, 126 (1982)
(invalidating municipal ordinance that delegated veto
power to churches regarding liquor license
applications).
Further, in requiring that individuals be active
participants in a faith community, CSS is
discriminating against nonbelievers on the basis of
religion. Pursuant to its contract with the City, CSS
agreed not to discriminate in its provision of foster
care services based on its religious beliefs. See Pltfs.
Ex. 1-A (Dkt. 13-4) at 29-30 (§ 4.1 (k)). In addition,
anti-discrimination guarantees set forth in the
contract, and in the City’s Fair Practice Ordinance,
state law, and federal law as incorporated into the
contract, require CSS not to discriminate in the

JA 714
provision of services on the basis of religion. Id. at 1829 (§ 15.1). By requiring that individuals be members
of a faith community, CSS is discriminating against
individuals who are non-believers. See Mathis v.
Christian Heating & Air Conditioning, Inc., 158 F.
Supp. 3d 317, 329 (E.D. Pa. 2016) (find that because, “
[u]nder Title VII, atheists are entitled to the exact
same protection as members of other religions,”
employer that required employees to wear ID badge
containing religious mission statement violated Title
VII when it terminated atheist employee who taped
over mission statement).
Respectfully,
/s/ Eleanor N. Ewing
Eleanor N. Ewing
Chief Deputy City Solicitor

[Appx. 1186]

JA 715

Becket, Religious Liberty for All
1200 New Hampshire Ave., NW
Washington, DC 20036
202-955-0095/ @Becketlaw
www.becketlaw.org
June 25, 2018
The Honorable Petrese B. Tucker
United States District Court for the
Eastern District of Pennsylvania
U.S. Courthouse
601 Market Street
Philadelphia, PA 10106
Re: Fulton v. City of Philadelphia, 18- 2075
Dear Judge Tucker:
The City contends that Catholic’s use of pastoral
reference letters as a means of evaluating prospective
foster families is unconstitutional and in breach of
contract. The City does not claim that the reference
letters had anything to do with the intake closure at
issue in this case. Letter at 1 (citing “new evidence”).
But it argues that granting Catholic relief “would be
problematic” now because of the pastoral letters.
The City’s concern about relief is misplaced.
However, in order to eliminate any potential issue
regarding how the parties would operate under a
preliminary injunction, Catholic will agree not to
require pastoral letters. While such letters have been
helpful in the past, the letters are not necessary for
Catholic to provide foster care services consistent with
its religious mission.

JA 716
The City’s legal arguments are incorrect. As
Commissioner Figueroa testified at the hearing last
week, the City has “nothing to do” with the process and
policies private agencies use to perform home studies
and certify prospective foster families. Preliminary
Injunction Hearing Transcript (“Tr.”), Day 3,
Figueroa, pp. 53-54. Certification of foster families
occurs under standards provided by the State, not the
City. If anything, the City’s apparent ignorance of how
Catholic performs home studies just confirms that the
City has never scrutinized the ways in which private
agencies perform this work. Surely the City cannot
have a [Appx. 1187] compelling interest now in a
process it has utterly ignored, apparently for decades.
Second, Catholic is a religious non-profit; it is not
the government. Indeed, the City’s contract
emphasizes in no uncertain terms that Catholic shall
not “in any way or for any purpose be deemed or
intended to be an employee or agent of the City.” PL
Ex. 15 at 86 (paragraph 9.1). Neither the
Establishment Clause nor federal law forbids Catholic
from having a religious nature. See, e.g., Corp. of
Presiding Bishop v. Amos, 483 U.S. 327, 337 (1987)
(upholding Title VII’s exemption for religious
organizations against an Establishment Clause
challenge); 42 U.S.C. § 604a(c) (“[N] either the Federal
Government nor a State receiving funds under such
programs shall discriminate against an organization
which is or applies to be a contractor . . . on the basis
that the organization has a religious character.”).
Third, the City’s witnesses testified that they were
unaware of a single person who had ever raised a
concern or been unable to foster because of Catholic’s

JA 717
use of religious criteria. Tr., Day 1, Ali, pg. 114; Tr.,
Day 3, Figueroa, pg. 18-19, 145.
As with the rest of its case, the City’s concerns are
entirely speculative, and ignore the fact that people
will readily “recognize and accept’’ that, even when
churches are engaged in activities which have both
religious and civil effects, churches do not surrender
their religious nature. Cf Masterpiece Cakeshop, Ltd.
v. Colorado Civil Rights Comm’n, No. No. 16-111, 2018
WL 2465172, at *7 (U.S. June 4, 2018) (noting that a
church’s decision not to perform a same-sex wedding
ceremony “would be well understood in our
constitutional order as an exercise of religion, an
exercise that gay persons could recognize and accept
without serious diminishment of their own dignity and
worth.”).
Nevertheless, since Catholic will agree to cease
requiring pastoral letters going forward, these issues
should not impact the ability of this Court to issue a
preliminary injunction.
[Appx. 1188]
Respectfully submitted,
/s/ Mark Rienzi
Mark Rienzi
Counsel for Plaintiffs
[Appx. 1189]

Certificate of Service

I hereby certify that this letter has been served
electronically via ECF and is available for viewing and
downloading from the ECF system.
/s/ Mark Rienzi
Mark Rienzi

